<html>
<title> - H.R. 5018, H.R. 4940 & H.R. 1431, LEGISLATION TO AMEND THE MAGNUSON-STEVENS FISHERY CONSERVATION AND MANAGEMENT ACT</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
                   H.R. 5018, H.R. 4940 & H.R. 1431,
                        LEGISLATION TO AMEND THE
                        MAGNUSON-STEVENS FISHERY
                    CONSERVATION AND MANAGEMENT ACT

=======================================================================

                          LEGISLATIVE HEARINGS

                               before the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

             April 25, 2006, in New Bedford, Massachusetts
                    May 3, 2006, in Washington, D.C.

                               __________

                           Serial No. 109-48

                               __________

           Printed for the use of the Committee on Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov




                                 _____

                 U.S. GOVERNMENT PRINTING OFFICE

27-314 PDF              WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001



                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Eni F.H. Faleomavaega, American 
Elton Gallegly, California               Samoa
John J. Duncan, Jr., Tennessee       Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Barbara Cubin, Wyoming               Donna M. Christensen, Virgin 
  Vice Chair                             Islands
George P. Radanovich, California     Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Grace F. Napolitano, California
    Carolina                         Tom Udall, New Mexico
Chris Cannon, Utah                   Raul M. Grijalva, Arizona
John E. Peterson, Pennsylvania       Madeleine Z. Bordallo, Guam
Jim Gibbons, Nevada                  Jim Costa, California
Greg Walden, Oregon                  Charlie Melancon, Louisiana
Thomas G. Tancredo, Colorado         Dan Boren, Oklahoma
J.D. Hayworth, Arizona               George Miller, California
Jeff Flake, Arizona                  Edward J. Markey, Massachusetts
Rick Renzi, Arizona                  Peter A. DeFazio, Oregon
Stevan Pearce, New Mexico            Jay Inslee, Washington
Henry Brown, Jr., South Carolina     Mark Udall, Colorado
Thelma Drake, Virginia               Dennis Cardoza, California
Luis G. Fortuno, Puerto Rico         Stephanie Herseth, South Dakota
Cathy McMorris, Washington
Bobby Jindal, Louisiana
Louie Gohmert, Texas
Marilyn N. Musgrave, Colorado
Vacancy

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Tuesday, April 25, 2006..........................     1

Statement of Members:
    Frank, Hon. Barney, a Representative in Congress from the 
      State of Massachusetts.....................................     4
    Pombo, Hon. Richard W., a Representative in Congress from the 
      State of California........................................     1
        Prepared statement of....................................     3

Welcome and Opening Remarks:
    Lang, Hon. Scott W., Mayor, City of New Bedford, 
      Massachusetts, Oral statement of...........................     6
        Statement submitted for the record.......................     9

Statement of Witnesses:
    Bergeron, David, Executive Director, Massachusetts 
      Fishermen's Partnership, Inc...............................    24
        Prepared statement of....................................    25
    Murawski, Steven A., Ph.D., Director of Scientific Programs 
      and Chief Science Advisor, National Marine Fisheries 
      Service, National Oceanic and Atmospheric Administration, 
      U.S. Department of Commerce................................    10
        Prepared statement of....................................    13
    Odell, Jackie, Executive Director, Northeast Seafood 
      Coalition..................................................    47
        Prepared statement of....................................    48
    Rosenberg, Andrew A., Ph.D., Member, U.S. Commission on Ocean 
      Policy, and Professor, University of New Hampshire.........    34
        Prepared statement of....................................    39
    Rothschild, Brian J., Ph.D., Policy Advisor to the Mayor of 
      New Bedford, and Dean, School for Marine Science and 
      Technology, University of Massachusetts, Dartmouth.........    42
        Prepared statement of....................................    45
    Shrader, Debra, Executive Director, Shore Support, Inc.......    20
        Prepared statement of....................................    23
    Wright, Christopher, Captain, F/V Huntress, Isaksen Fishing 
      Corporation................................................    30
        Prepared statement of....................................    33

Additional materials supplied:
    Berkowitz, Roger S., President and CEO, Legal Sea Foods, 
      Inc., Letter submitted for the record......................    59
    Canastra, Richard D., President, Whaling City Seafood Display 
      Auction, Letter submitted for the record...................    63
    Diodati, Paul J., Director,, Division of Marine Fisheries, 
      Commonwealth of Massachusetts, Letter submitted for the 
      record.....................................................    64
    Kaplan, Dr. Ilene M., Professor and Chair, Department of 
      Sociology, Union College, New York, Statement submitted for 
      the record.................................................    58
    Montigny, Hon. Mark C., State Senator, Massachusetts State 
      Senate; Hon. John F. Quinn, Massachusetts State 
      Representative; Hon. Antonio F.D. Cabral, Massachusetts 
      State Representative; Hon. Robert M. Koczera, Massachusetts 
      State Representative; Hon. Stephen R. Canessa, 
      Massachusetts State Representative; and Hon. William M. 
      Straus, Massachusetts State Representative; Letter 
      submitted for the record...................................    60
    O'Malley, James D., Executive Director, East Coast Fisheries 
      Federation, Inc., Letter submitted for the record..........    61
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Wednesday, May 3, 2006...........................    69

Statement of Members:
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland, Prepared statement of...............   146
    Pallone, Hon. Frank, Jr., a Representative in Congress from 
      the State of New Jersey, Prepared statement of.............   168
    Pombo, Hon. Richard W., a Representative in Congress from the 
      State of California........................................    69
        Prepared statement of....................................    71
    Rahall, Hon. Nick J., II, a Representative in Congress from 
      the State of West Virginia.................................    71
        Prepared statement of....................................    73
    Saxton, Hon. Jim, a Representative in Congress from the State 
      of New Jersey..............................................    86
        Prepared statement of....................................    87

Statement of Witnesses:
    Anderson, Wilma, Executive Director, Texas Shrimp 
      Association, on behalf of the Southern Shrimp Alliance.....    95
        Prepared statement of....................................    97
    Benton, David, Executive Director, Marine Conservation 
      Alliance...................................................   156
        Prepared statement of....................................   158
    Crockett, Lee, Executive Director, Marine Fish Conservation 
      Network....................................................   107
        Prepared statement of....................................   109
    Donofrio, James A., Executive Director, Recreational Fishing 
      Alliance...................................................   148
        Prepared statement of....................................   150
    Hogarth, Dr. William T., Assistant Administrator for 
      Fisheries, National Marine Fisheries Service, National 
      Oceanic and Atmospheric Administration, U.S. Department of 
      Commerce...................................................    75
        Prepared statement of....................................    76
    McIsaac, Dr. Donald, Executive Director, Pacific Fishery 
      Management Council.........................................   102
        Prepared statement of....................................   104
    Moore, Rod, Executive Director, West Coast Seafood Processors 
      Association................................................   139
        Prepared statement of....................................   141
    Oliver, Chris, Executive Director, North Pacific Fishery 
      Management Council.........................................   118
        Prepared statement of....................................   120
    Pringle, Ray, Florida Fisherman's Federation.................   152
        Prepared statement of....................................   154
    Raymond, Maggie, Associated Fisheries of Maine...............   114
        Prepared statement of....................................   116

Additional materials supplied:
    American Cetacean Society, Natural Resources Defense Council, 
      The Ocean Conservancy, Sierra Club, World Wildlife 
      Foundation, et al., Statement submitted for the record.....   170
    Frank, Billy, Jr., Chairman, Northwest Indian Fisheries 
      Commission, Statement submitted for the record.............   172
    McGee, Sally, Oceans Advocate, Environmental Defense, 
      Statement submitted for the record.........................   174
    Pendleton, Craig A., Coordinating Director, Northwest 
      Atlantic Marine Alliance, Letter submitted for the record..   178
    Rufe, Roger T., President, The Ocean Conservancy, and Elliott 
      A. Norse, President, Marine Conservation Biology Institute, 
      Letter submitted for the record............................   183
    Soccolich, Gene, Strategic Advisor, Port of New Bedford 
      Business Alliance, Statement submitted for the record......   134


LEGISLATIVE HEARING ON H.R. 5018, TO AMEND THE MAGNUSON-STEVENS FISHERY 
 CONSERVATION AND MANAGEMENT ACT; AND H.R. 4940, TO AMEND THE MAGNUSON-
            STEVENS FISHERY CONSERVATION AND MANAGEMENT ACT.

                              ----------                              


                         Tuesday, April 25, 2006

                     U.S. House of Representatives

                         Committee on Resources

                       New Bedford, Massachusetts

                              ----------                              '

    The Committee met, pursuant to call, at 9:15 a.m., in the 
Theater of the New Bedford Whaling Museum, 18 Johnny Cake Hill, 
New Bedford, Massachusetts, Hon. Richard W. Pombo [Chairman of 
the Committee] presiding.
    Present: Representative Pombo.
    Also Present: Representative Frank.

  STATEMENT OF THE HON. RICHARD W. POMBO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    The Chairman. If I could have everybody stand for the flag 
and presentation of the Pledge of Allegiance.
    [Pledge of Allegiance.]
    The Chairman. I would like to call the Committee on 
Resources to order. I would like to thank Chapter 499 of the 
Vietnam Veterans for the presentation of the flag and leading 
us in the Pledge of Allegiance. I also want to thank 
Congressman Barney Frank for his invitation to hold this 
important hearing in the number one seaport in the United 
States.
    Before we begin, I ask unanimous consent that Congressman 
Frank be allowed to sit with the Committee and participate as 
if he were a member of the Committee. Without objection, so 
ordered. The Committee is meeting today to hear testimony on 
two bills to reauthorize the Fishery Conservation and 
Management Act, H.R. 4940 and H.R. 5018.
    I am pleased to be here today and pleased that Congressman 
Barney Frank asked us to come to New Bedford to listen to some 
of New England's views on the Magnuson-Stevens Fishery 
Conservation and Management Act reauthorization.
    As all of you know, Congressman Frank introduced H.R. 4940 
which reauthorizes the Act, but also does a number of other 
things to go beyond the Magnuson-Stevens Act's current 
mandates, including fishermen's health care and protection. 
These are things that generally fall outside the jurisdiction 
of the Resources Committee, but we are still interested in 
hearing your views on those very important issues.
    I am pleased that while he may not have agreed with every 
provision in my bill, H.R. 5018, Congressman Frank has also 
cosponsored that bill to reauthorize the Act.
    Having this hearing in New Bedford is appropriate. The 
connection that New England, and New Bedford in particular, has 
with the sea is historic.
    I understand that New Bedford once again has shown its 
importance to the nation's seafood industry and has the highest 
value of seafood landings in the United States.
    While New Bedford enjoys this honor, the management of the 
entire region's fisheries has been marked by litigation and a 
very complicated management system. New England's fisheries 
management is often criticized and often used as an example of 
why change is needed, yet the progress has been made and at a 
great expense to the fishermen and fishing communities.
    It was only 10 years ago that Congress passed the 
Sustainable Fisheries Act. It was only 10 years ago that 
Congress mandated that overfishing be identified and stopped 
and rebuilding plans be put in place. It was only 10 years ago 
that we told the Councils they needed to identify essential 
fish habitat. These were not easy tasks, and we recognize that. 
The Sustainable Fisheries Act was the first major 
reauthorization of the Magnuson-Stevens Act since 1976.
    These were important steps that needed to be taken, but 
there needs to be a balance. Having abundant fisheries with no 
fishermen left to harvest this wonderful protein source is 
unacceptable. Having fishermen with no fish to catch is equally 
unacceptable. I believe all of the Members of Congress who are 
interested in fisheries management have the same goals, healthy 
fisheries and healthy fishing communities. How we get there is 
the difference.
    In addition to maintaining healthy fisheries, we also need 
to return fisheries management to the experts and remove the 
courts from managing fisheries. I believe the regional fishery 
management council system works. It provides stakeholder 
involvement. It allows for a public process, and it allows for 
regional solutions to regional problems. The Act needs to 
maintain a healthy council process and needs to retain 
flexibility so that the councils can react to problems in a 
manner that is appropriate for their region.
    It is also important that we modify the current system so 
that we have good, real-time data on how the fisheries are 
working and the councils are able to react quickly to changing 
situations. Using three-year-old data to manage fisheries is 
not a good way to keep the fisheries healthy. Reacting to 
problems a year after they were identified does not work well, 
either.
    Finally, we need to remove the roadblocks that are created 
by multiple statutes with conflicting requirements. As an 
example, the North Pacific Fishery Management Council, which 
many have identified as an example for all councils to follow, 
has identified NEPA compliance as the number one problem for 
them. NEPA is an important statute, but when the requirements 
are duplicated by two statutes and the time lines cause 
compliance problems, it is time to take a look at the conflict.
    Congress is now working on legislation that will push 
fisheries management even further than the Sustainable 
Fisheries Act did. We need to be able to use emerging 
technologies to manage our fisheries better, and we need to 
manage based on sound science that is understandable to 
everyone. We also need a peer-review system that allows for 
rigorous review but also allows fishery managers to have 
information quickly. All of these efforts will require a 
certain amount of balances or we will end up in the courts 
again.
    I look forward to hearing from today's witnesses and look 
forward to hearing how these pieces of legislation can be made 
better. These are both evolving documents, and I hope we can 
get some good suggestions here today. Thank you again for the 
invitation to be here.
    I would like to recognize Congressman Frank for his opening 
statement.
    [The prepared statement of Mr. Pombo follows:]

          Statement of The Honorable Richard Pombo, Chairman, 
                         Committee on Resources

    I am pleased to be here today and pleased that Congressman Barney 
Frank asked us to come to New Bedford to listen to some of New 
England's views on the Magnuson-Stevens Fishery Conservation and 
Management Act reauthorization.
    As all of you know, Congressman Frank introduced H.R. 4940 which 
reauthorizes the Act, but also does a number of things that go beyond 
the Magnuson-Stevens Act's current mandates including fishermen's 
health care and fishing wharf protection. These are things that 
generally fall outside the jurisdiction of the Resources Committee, but 
we are still interested in hearing your views on those issues.
    I am pleased that, while he may have not agreed with every 
provision in my bill, H.R. 5018, Congressman Frank has also cosponsored 
my bill to reauthorize the Act.
    Having this hearing in New Bedford is appropriate. The connection 
that New England, and New Bedford in particular, has with the sea is 
historic. I understand that New Bedford once again has shown its 
importance to the Nation's seafood industry and has the highest value 
of seafood landings in the United States.
    While New Bedford enjoys this honor, the management of the entire 
region's fisheries has been marked by litigation and a very complicated 
management system. New England's fisheries management is often 
criticized and often used as an example of why change is needed. Yet 
the progress has been made, and at great expense to the fishermen and 
the fishing communities.
    It was only ten years ago that Congress passed the Sustainable 
Fisheries Act. It was only ten years ago that Congress mandated that 
overfishing be identified and stopped and rebuilding plans be put in 
place. It was only ten years ago that we told the Councils they needed 
to identify essential fish habitat. These were not easy tasks and we 
recognize that. The Sustainable Fisheries Act was the first major 
reauthorization of the Magnuson-Stevens Act since 1976.
    These were important steps that needed to be taken, but there needs 
to be a balance. Having abundant fisheries with no fishermen left to 
harvest this wonderful protein source is unacceptable. Having fishermen 
with no fish to catch is equally unacceptable. I believe all of the 
Members of Congress who are interested in fisheries management have the 
same goals--healthy fisheries and healthy fishing communities--but how 
we get there is the difference.
    In addition to maintaining healthy fisheries, we also need to 
return fisheries management to the experts and remove the courts from 
managing fisheries. I believe the regional fishery management council 
system works. It provides stakeholder involvement, it allows for a 
public process, and it allows for regional solutions to regional 
problems. The Act needs to maintain a healthy council process and needs 
to retain flexibility so that the councils can react to problems in a 
manner that is appropriate for their region.
    It is also important that we modify the current system so that we 
have good, real-time data on how the fisheries are working and the 
councils are able to react quickly to changing situations. Using three- 
year old data to manage fisheries is not a good way to keep the 
fisheries healthy. Reacting to problems a year after they are 
identified does not work well either.
    Finally, we need to remove the roadblocks that are created by 
multiple statutes with conflicting requirements. As an example, the 
North Pacific Fishery Management Council, which many have identified as 
an example for all councils to follow, has identified NEPA compliance 
as the number one problem for them. NEPA is an important statute, but 
when the requirements are duplicated by two statutes and the timelines 
cause compliance problems, it is time to take a look at the conflict.
    Congress is now working on legislation that will push fisheries 
management even further than the Sustainable Fisheries Act did. We need 
to be able to use emerging technologies to manage our fisheries better 
and we need to manage based on sound science that is understandable to 
everyone. We also need a peer review system that allows for rigorous 
review but also allows the fishery managers to have information 
quickly. All of these efforts will require a certain amount of balance 
or we will end up in the courts again.
    I look forward to hearing from today's witnesses and look forward 
to hearing how these pieces of legislation can be made better. These 
are both evolving documents and I hope we can get some good suggestions 
today.
    Thank you again for the invitation to be here.
                                 ______
                                 

    STATEMENT OF THE HON. BARNEY FRANK, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF MASSACHUSETTS

    Mr. Frank. I begin by expressing my deep appreciation of 
the City of New Bedford, Town of Fairhaven, fishing communities 
in general, to Chairman Pombo for bringing this committee here. 
The subject is a complex one and we have, as we have seen 
recently, it's not always well understood. For someone with 
Chairman Pombo's responsibility, to make time to come far from 
Washington, 3,000 from his own district in California, to 
listen to the people of the fishing industry and to listen to 
people who have varying views on this is really quite a point. 
Part of this was a dinner last night, which, as Steve said, his 
assistant had with people in the industry. I am deeply grateful 
to him for this.
    To begin, I want to note as one group of legislators to 
another that I have a State Delegation that will have to leave 
shortly, Representatives Strauss, Canessa and Quinn are with 
us. I have a letter submitted by Representatives Canessa, Quinn 
and Strauss endorsing the Pombo-Frank-Young bill. I ask Mr. 
Chairman for this to be put in the record if we have it 
available.
    [NOTE: The letter submitted for the record by Mr. Frank can 
be found on page 60 of this hearing.]
    As they say, this bill successfully resolves the dichotomy 
of taking the fish without irreparably damaging the fish 
structure and point. They have been valuable advocates for this 
industry and for doing this in a responsible way. The Mayor 
certainly, who has joined us, is eager to have them go to the 
budget base. He will be waiting for them when they come back 
bearing gifts. We have three of the wise men here. We will see 
they are dispensed.
    I want to take out from the phrase that they did, the 
dichotomy of taking the fish without irreparably damaging the 
fish, several years ago we had a situation involving scallops. 
We had a situation where scientists and the fishermen, who are 
among the best practical scientists in this regard, argued that 
the restrictions were excessive. In fact, they had achieved 
their goals. There were more scallops than were being used as a 
basis for fishing. Physically that they could be opening of 
parts of Georges Bank.
    I have a letter here that I'll put in the record, January 
5, '99, in which a group of us wrote to Secretary of Commerce 
Daley urging him to reopen the stocks, including myself and 
Senator Kennedy. It is a letter I think, I don't know if we 
still have the original. If we have the original, we can 
probably put it on eBay. The first signer is myself and the 
last signer is Jesse Helms. It's a joint effort of myself and 
Jesse Helms.
    What happened was we were criticized sharply by the 
environmentalists. Here's a Boston Globe article from April 15, 
'99. Environmentalists were unhappy of the reopening of the so-
called closed area, arguing that Council was buckling to 
political pressure for the scallop industry, rather than 
finishing the job of rebuilding the historic Georges Bank 
fishing ground. Environmentalists' defense counsel, ``I believe 
we're moving too quickly.'' Here's a headline in the Globe, 
``Return to Georges Bank.'' Another article where they made a 
big deal. ``As scallopers push for reopening of fertile fishing 
ground, environmentalists warn of the danger.'' Here's the 
headline on the continuation story, ``Debate Pits Scallopers 
Versus Environment.'' They liked that so much they used it 
again.
    The environmentalist community denounced us for pushing for 
reopening of parts of Georges Bank for scalloping. Secretary 
Daley was nervous about it. He was being criticized. I had a 
conversation with them. Let me put this in the clearest 
possible way. We were right; they were wrong. What was 
particularly wrong was the notion that we were pitting 
scalloping against the environment. This assumption that 
fishing is inherently anti-environmental is deeply flawed. What 
we are asking for is the kind of balance that my legislative 
colleagues talked about. The last people in the world who want 
to see fishing so excessive that the stock is depleted are the 
fishermen.
    Now, it is true, many people in the fishing industry are 
about my age or beyond. Probably 10, 15 years from now they're 
not looking forward to continuing to work. A lot of fishermen 
plan to be fishing another 30, 40 years. A lot of people want 
to see their children go into this. They want to support this 
wonderful community of fishing, the economics of fishing. That 
made it a marvelous community. We're in this whaling museum. 
They have no interest of seeing fishing down to the point where 
you can't sustain it.
    What we have shown in the scallop case is, in that 
particular interest, the environmentalists were wrong. Those 
who thought science would support more scalloping could be 
right. We had an issue a few years ago with the monk fishery. 
There are still some problems with monkfish. We got some money 
to do some better science, and we were able to expand monk 
fishing. It's not the same shape as scallops. Once again, the 
environmentalists were far too rigid in their notion.
    This is what this bill says. This bill says that if we take 
some steps and they turn out--this is the major difference in 
the war that the Chairman put forward. It allows us to look at 
reality and make adjustments. The current law allows you to 
make adjustments downward in fishing, but it does not really 
provide for adjustments to increase fishing.
    In '99 when the Secretary did this, he was denounced. There 
were lawsuits. What this bill says is we will get the best 
possible science. We will look at what is happening and to the 
extent that we can, that we have to restrict, we will restrict. 
To the extent that we have seen the evidence that we can 
increase some, we will increase some.
    Two other quick points. First of all, while this committee 
that the Chairman presides over, we do have some important 
provisions in there for health. I will put into the record 
endorsements from a wide range of people, including Alaska, 
endorsing the health plan.
    We also have a strong support on safety provisions.
    The last point I want to raise is this: I was struck to see 
some people insist that the economic and social impacts are 
irrelevant, if they were to always be secondary. Well, that is 
in error. Yes, we do not want to see fishing to the point where 
fishing ends, but if the question is, can you reach a goal in 8 
years, 10 years, 12 years, why is that irrelevant? Why is the 
impact irrelevant? Why is harm done to working people, to 
communities irrelevant? Why is harm done to consumers 
irrelevant?
    The last point the Chairman mentioned, nutrition. I have to 
say, some of my regular friends who may reflectively decide, 
``Oh, boy, this is an environmental issue. We have to beat 
it,'' one of the things is healthy eating, diminishing obesity, 
getting food to people and getting the kind of nutrition they 
need without detrimental health effects. Obviously, among the 
healthiest food people can eat, the best source of protein that 
is not going to lead to obesity is seafood. What they are 
talking about in part is whether or not it could be prudent to 
drive up the price of seafood. We have a letter here from the 
people of Legal Seafood. I don't understand why that is 
irrelevant. Why is raising the price of seafood at the same 
time telling people to eat better, eat more healthy, why is 
that not a good idea? I think evidence is strongly on our side 
that we can be more sensible about this.
    I am particularly grateful to the Chairman to give us a 
chance to do it. We've been joined by the Mayor of the City of 
New Bedford who has taken, in his few months in office, he took 
over in January, a very active interest in fishing. He met with 
our Attorney General about taking some activity on behalf of 
the fishermen. If you notice, the Attorney General and Mayor 
talked about bringing a lawsuit to deal with some flexibility 
in the regulations. The problem is with the law, as 
restrictively drawn as it is, lawsuits are less likely. Yes, we 
want to pursue that. We also want to set the legal framework so 
that when the Mayor takes the initiative he's taking with legal 
officials, we have a better chance of getting fairness.
    I am delighted to now ask the Mayor if he would come to the 
podium and make a few remarks.
    [NOTE: The articles submitted for the record by Mr. Frank 
has been retained in the Committee's official files.]

                STATEMENT OF SCOTT LANG, MAYOR, 
               CITY OF NEW BEDFORD, MASSACHUSETTS

    Mr. Lang. Good morning. Thank you, Chairman Pombo, 
Congressman Frank and members of the Committee for the 
opportunity to testify before you here today in New Bedford. I 
would also like to thank Congressman Frank, Senators Kennedy 
and Kerry, and the entire Massachusetts delegation, all of whom 
have been staunch supports and have aided us greatly in our 
consideration of the matter at hand.
    My name is Scott Lang. I am Mayor of the City of New 
Bedford, Massachusetts. New Bedford is a diverse city of 
100,000 with a strong backbone of working-class neighborhoods. 
I want to express my appreciation to the Committee of Resources 
for holding this legislative hearing on proposals regarding the 
reauthorization of the Magnuson-Stevens Act here, in the number 
one fishing port in the United States. The fishing industry, 
the processing industry, and other shore-support industries 
employ thousands of our residents, making fisheries a one 
billion dollar economic engine for New Bedford. As we work to 
maintain our status in the fishing and processing industry, we 
are deeply gratified by this historically significant and 
important occasion in hosting the Committee here in our City.
    Regulations that govern the fishing industry need to 
balance the dual necessities of conserving fishery stocks and 
minimizing any resultant economic harm within the fishing 
industry. I applaud the members of the Committee for 
introducing sensible legislation to meet this objective.
    I believe that it is deeply important that those charged 
with formulating the regulations that govern the fishing 
industry and its operations fully understand the realities of 
the industry. In that vein, I would like to publicly extend an 
invitation to Patricia Kurkel, Regional Administrator of the 
National Marine Fisheries Service, to visit the Port of New 
Bedford, to tour the City and its waterfront as our 
Congressional committee is doing today. I urge Ms. Kurkel to 
hold hearings in New Bedford, as Chairman Pombo has, to 
determine the economic impact of regulations on our fishing 
fleet, our processing industries and our shore-support 
industries. The economic impact of the regulations need to be 
weighed along with scientific evidence and data regarding stock 
levels in order to achieve the balance between conservation of 
stocks and mitigation of economic harm that is mandated by the 
Magnuson-Stevens Act.
    As decisions are made on regulations that will govern the 
fishing industry in the coming months and years, I ask that 
scientific data from the Massachusetts Division of Marine 
Fisheries and from the University of Massachusetts-Dartmouth, 
School of Marine Science and Technology, located on New 
Bedford's southern peninsula be considered alongside with data 
from the national agency.
    As the number one fishing port in the country, the City of 
New Bedford is the number one source of information regarding 
the social and economic impact, both intended and unintended, 
resulting from regulations attempting to conserve our 
fisheries. I strongly encourage the utilization of the fleet's 
expertise in the process to determining the balance between the 
conservation of fisheries and the realities of the measures on 
the people and families involved in our industry.
    The Port of New Bedford, along with Gloucester and many 
other ports in Massachusetts and the greater New England area, 
have presented alternatives to the New England Fisheries 
Council and the National Oceanographic and Atmospheric 
Administration for their consideration. These industry 
proposals have put conservation first but have also relied on 
the fishing industry's experience, as well as the Massachusetts 
scientific community, to achieve a proposed regulatory scheme 
that meets all conservation goals without undue economic harm 
to our fishing industry families. I urge the Council to 
carefully study and consider these well-founded industry 
proposals as they redevelop and craft Framework 42. There is 
also no justification for the Council not to consider all 
aspects of these most difficult issues while it attempts to 
implement the Act.
    Let us be clear, our City's greatest concern and our 
commitment is to the conservation of our stocks.
    We must plan for the future to allow for sustainable 
development within the fishing industry. However, it is 
essential that we approach conservation efforts in a rational 
manner based on best-available scientific data so that we do 
not cause undue economic harm to the industry
    As it stands, the threat to the vitality of our fishing 
industry looms large. Framework 42 regulations could have the 
effect of making Americans associate seafood only with what 
comes out of a grocer's freezer. The industry needs to be 
governed by rational regulations if it is to thrive.
    In order to best understand the regulatory economics of the 
fishing industry, the government should set up an institutional 
presence in the City of New Bedford to work on these issues on 
a day-to-day basis. As a nation, we cannot concede supplying 
fish products to consumers, to the rest of the world simply 
because we cannot find a way to balance the principles of 
conservation and the minimization of economic harm to the 
industry. We also cannot follow international trend which 
allows excessive fishing to the point of stock depletion. 
However, we cannot regulate without scientific evidence that 
moves as the fish do.
    On the local level, the impact of regulations that do not 
adequately consider economic harm are readily apparent and real 
in our City. The fishing industry is composed of boat owners 
and fishermen who are crew as well as shore-support providers 
who are involved with food stores, supplies, fuel, ice, 
repairs, an extensive processing industry, marketing, and 
finally, transportation, all of which work in tandem to deliver 
a final seafood product to the consumer. This symbiotic 
industry performs a virtual fresh seafood conveyer belt from 
the ocean to our nation's homes. Any disruption within this 
series of relationships can cause economic hardships to others 
in the chain, driving them to unemployment and reliance upon 
State assistance. This will hurt both the local and regional 
economies, and once an integral part of the industry 
infrastructure is depleted or dismantled, it will more than 
likely disappear forever, thereby changing the industry 
forever.
    As Congress approaches reauthorization of the Magnuson-
Stevens Act, I believe it is best served by looking to the Act 
itself. Regulations that do not fall within the scope of the 
legislation should simply not be implemented. The bureaucratic 
arm of the government needs to stay within the true intent and 
meaning of the Act, with interpretations moderated by 
scientific evidence and socioeconomic impact studies.
    I believe that a melding of the features of Congressman 
Pombo's proposed legislation combined with the flexible 
approach of Representatives Frank and Young's proposed 
legislation will serve the best interest to the American 
people. Modern conservation requires constant fine-tuning, both 
to protect natural resources as well as to ensure the industry 
is not restricted in an arbitrary and capricious manner. 
Legislation that combines real conservation achievement with 
appropriate economic consideration is the original intent of 
Magnuson-Stevens Act and should be codified in this revision.
    It has been an honor to present this testimony to you. I'm 
anxious to hear the members of our industry. Thank you once 
again, Chairman.
    [The prepared statement of Mr. Lang follows:]

             Statement of The Honorable Scott Lang. Mayor, 
                   City of New Bedford, Massachusetts

    Good morning. Thank you Chairman Pombo, Congressman Frank, and 
members of the Committee for the opportunity to testify before you here 
today in New Bedford. I would also like to thank Congressman Frank, 
Senators Kennedy and Kerry, and the entire Massachusetts delegation, 
all of whom have been staunch supporters of our fishing and processing 
industry and have aided us greatly in our consideration of the matter 
at hand.
    My name is Scott Lang. I am Mayor of the City of New Bedford, 
Massachusetts. New Bedford is a diverse city of 100,000 with a strong 
backbone of working-class neighborhoods. I want to express my 
appreciation to the Committee on Resources for holding this legislative 
hearing on proposals regarding the reauthorization of the Magnuson-
Stevens Act here, in the number one fishing port in the United States. 
The fishing industry, the processing industry, and other shore-support 
industries employ thousands of our residents, making fisheries a one 
billion dollar economic engine for New Bedford. As we work to maintain 
our status in the fishing and processing industry, we are deeply 
gratified by this historically significant and important occasion in 
hosting the Congressional Committee here in our city. It is an honor to 
have you here.
    Regulations that govern the fishing industry need to balance the 
dual necessities of conserving fishery stock and minimizing any 
resultant economic harm within the fishing industry. I applaud the 
members of this Committee for introducing sensible legislation to meet 
this objective.
    I believe that it is deeply important that those charged with 
formulating the regulations that govern the fishing industry and its 
operations fully understand the realities of the industry. In that 
vein, I would like to publicly extend an invitation to Ms. Patricia 
Kurkel, Regional Administrator of the National Marine Fisheries 
Service, to visit the Port of New Bedford to tour the city and its 
waterfront. I urge Ms. Kurkel to hold hearings in New Bedford, as 
Congress is doing, to determine the economic impact of regulations on 
our fishing fleet, our processing industries, and our shore support 
industries. The economic impact of these regulations needs to be 
weighed along with scientific evidence and data regarding stock levels 
in order to achieve the balance between conservation of stocks and 
mitigation of economic harm that is mandated by the Magnuson-Stevens 
Act.
    As decisions are made on the regulations that will govern the 
fishing industry in the coming months and years, I ask that scientific 
data from the Massachusetts Division of Marine Fisheries and from the 
University of Massachusetts-Dartmouth School of Marine Science and 
Technology (SMAST), located on New Bedford's southern peninsula, be 
considered alongside with data from the national level.
    As the number one fishing port in the country, the City of New 
Bedford is the number one source of information regarding the social 
and economic impact, both intended and unintended, resulting from 
regulations attempting to conserve our fisheries. I strongly encourage 
the utilization of the fleet's expertise in the process of determining 
the balance between the conservation of fisheries and the realities of 
these measures on the people and families involved in the industry.
    The Port of New Bedford, along with Gloucester and many other ports 
in Massachusetts and the greater New England area, have presented 
alternatives to the New England Fisheries Council and the National 
Oceanographic and Atmospheric Administration for their consideration. 
These industry proposals have put conservation first but have also 
relied on the fishing industry's experience, as well as the 
Massachusetts scientific community, to achieve a proposed regulatory 
scheme that meets all conservation goals without undue economic harm to 
our fishing industry families. I urge the Council to carefully study 
and consider these well-founded industry proposals as they redevelop 
and craft Framework 42. There is also no justification for the Council 
not to consider all aspects of these most difficult issues while it 
attempts to implement the Act.
    Let me be clear. Our greatest concern and our commitment is to the 
conservation of stocks. We must plan for the future to allow for 
sustainable development within the fishing industry. However, it is 
essential that we approach conservation efforts in a rational manner 
based on best-available scientific data so that we do not cause undue 
economic harm to the industry.
    As it stands, the threat to the vitality of our fishing industry 
looms large. Framework 42 regulations could have the effect of making 
Americans associate seafood only with what comes out of a grocer's 
freezer. The industry needs to be governed by rational regulations if 
it is to thrive.
    In order to best understand the regulatory economics of the fishing 
industry, the government should set up an institutional presence in the 
City of New Bedford to work on these issues on a day-to-day basis. As a 
nation, we cannot concede supplying fish products for consumers to the 
rest of the world simply because we cannot find a way to balance the 
principles of conservation and the minimization of economic harm to the 
industry. We also cannot follow international trends of excessive 
fishing to the point of stock depletion.
    On a local level, the impact of regulations that do not adequately 
consider economic harm will be readily apparent and real. The fishing 
industry is composed of boat owners and fishermen as well as shore-
support providers involved with food stores, supplies, fuel, ice, 
repairs, an extensive processing industry, marketing, and final 
transport, all of which work in tandem to deliver a final seafood 
product to the consumer. This symbiotic industry forms a virtual fresh 
seafood conveyer belt from the ocean to our nation's homes. Any 
disruption within this series of relationships can cause economic 
hardships to other in the chain, driving them to unemployment and 
reliance upon state assistance. This will hurt both the local and 
regional economies, and once an integral part of the industry 
infrastructure is depleted or dismantled, it will more than likely 
disappear forever.
    As Congress approaches reauthorization of the Magnuson-Stevens Act, 
I believe it is best served by looking to the Act itself. Regulations 
that do not fall within the scope of the legislation should simply not 
be implemented. The bureaucratic arm of the government needs to stay 
within the true intent and meaning of the Act, with interpretations 
moderated by scientific evidence and socioeconomic impact.
    I believe that a melding of the features of Representative Pombo's 
proposed legislation combined with the flexible approach of 
Representative Frank's proposed legislation will serve the best 
interest of the American people. Modern conservation requires constant 
fine-tuning, both to protect natural resources as well as to ensure the 
industry dependent on the resource is not restricted in an arbitrary or 
capricious manner. Legislation that combines real conservation 
achievement with appropriate economic consideration is the original 
intent of the Magnuson-Stevens Act and should be codified in this 
revision.
    It has been an honor to present this testimony to you today, and I 
again thank you for the opportunity. I welcome any questions you may 
have.
                                 ______
                                 
    The Chairman. Thank you. I would now like to introduce our 
first witness, Dr. Steven Murawski, Director of Scientific 
Programs and Chief Science Advisor, National Marine Fisheries 
Service. I would like to remind the witness that under our 
Committee Rules they must limit their oral statements to five 
minutes, but the entire statement will appear in the record. We 
also allow the entire panel to testify before questioning the 
witness. Doctor, if you're ready, you can begin.

              STATEMENT OF STEVE MURAWSKI, PH.D., 
               NATIONAL MARINE FISHERIES SERVICE

    Mr. Murawski. Thank you, Chairman Pombo and Mr. Frank, for 
the opportunity to testify on these two important bills.
    My name is Steve Murawski. I'm the Director of Scientific 
Programs and Chief Science Advisor for the National Marine 
Fisheries Service, National Oceanic and Atmospheric 
Administration, NOAA, with the Department of Commerce. The 
Administration welcomes the opportunity to continue to work 
with Congress on the reauthorization in order to sustain 
fishery resources, future generations and also to sustain the 
industries and communities that depend upon them. I would like 
to take this opportunity to make a few points from my written 
statement.
    First of all, in terms of the Administration's bill on 
Magnuson-Stevens reauthorization, the reauthorization of the 
Magnuson-Stevens Act is a high priority of the Administration. 
NOAA has worked with its constituencies to craft an effective 
and responsive proposal to the many challenges that we face in 
federally managed marine fishery resources.
    In September 2005, the Administration provided Congress 
with a proposal to reauthorize the Magnuson-Stevens Act. Over 
the past year, NOAA has worked closely with Congress on a wide 
range of issues related to Magnuson-Stevens Act improvements.
    Specifically, the Administration's Magnuson-Stevens Act 
reauthorization proposal seeks to achieve the following 
objectives: One, promote wider use of market-based fishery 
management tools; second, improve the operations of regional 
fishery management councils as well as broaden and balance of 
constituent interests represented on the councils; three, end 
overfishing and achieve fishery rebuilding based on the biology 
of species and the needs of communities, rather than arbitrary 
time schedules; four, incorporate ecosystem-based approaches in 
our fishery management process; fifth, strengthen the role of 
science in the decisionmaking process and increase our access 
to social and economic information; six, upgrade the collection 
and use of recreational fisheries data and, seven, conform the 
Magnuson-Stevens Act regulatory procedures with the objectives 
of other environmental laws.
    Now, in terms of H.R. 5018, the American Fishery 
Administration and Marine Life Act, the Administration supports 
many of the provisions of H.R. 5018. We are pleased to see 
several of the Administration priorities included in this bill. 
Specifically, the Administration supports provisions including 
those, number one, establish limited access privilege programs; 
number two, broaden council membership, and three, authorize 
ecosystem-based fishery management plans. Each of these 
provisions is consistent with key Administration priorities, 
and we are pleased to see these provisions included in the 
Chairman's bill.
    Now, in terms of the provision for limited access privilege 
program, the Administration believes that council should have 
every possible fisheries management tool available to them to 
develop effective and efficient management programs. Limited 
access programs currently in place have resulted in increases 
in per-unit product value and decreases in harvest cost for 
fishermen. These programs have provided fishermen with greater 
control over when to fish, thus improving safety. The increased 
flexibility allows fishermen to improve profitability by 
harvesting fish when prices are most favorable.
    In terms of broadening council membership, the councils are 
a key part of the fisheries management process, and the 
Administration believes the council process is an effective 
partnership for sustainable fisheries management. H.R. 5018 
helps promote a broader and more balanced representation of 
constituent interests on the councils by authorizing Governors 
to nominate council members for academic or other public 
interest areas if the Governor determines they are qualified.
    For several years, fisheries scientists and managers have 
advocated using ecosystem approaches to fisheries management, 
whereby management programs consciously account for and address 
multiple living resource issues within an ecosystem. Although 
NOAA and the councils have already begun to integrate this 
approach into fisheries management, we believe more can be 
done. We support the reauthorization language that defines 
ecosystems, authorizes the councils to take ecosystem 
considerations into account when developing fishery management 
plans, as we believe that ecosystem-based approaches to 
management are fundamental to the future of sustainable fishery 
management.
    The Administration supports other provisions in H.R. 5018, 
including the authorization of a fishery observer fund, which 
would establish a funding mechanism to help pay for fishery 
observer programs.
    We also believe that provisions addressing cooperative 
research, identification of marine ecosystems, bycatch 
reduction incentives and identification of fisheries with 
excess capacity have merit. Further, the Administration 
believes the proposed harvest level caps in H.R. 5018 could be 
a useful tool, provided they are practical to implement and 
enforce in any fisheries in which they are used.
    There are, however, a number of provisions not currently 
included in H.R. 5018 that the Administration included in its 
proposal. We would like to continue the dialogue in these 
issues. Time certain provisions, end overfishing, the 
Administration believes that a deadline for overfishing and the 
overfishing is critical to prevent a stock from reaching the 
overfished status or requiring a rebuilding. We believe that 
more flexibility in rebuilding times to better reflect species 
biology and community needs is an ineffective way to achieve 
conservation and economic objectives.
    Now, in terms of H.R. 4940, Fishery Management Amendment 
Act of 2006, it focuses on measures intended to improve 
information and amend rebuilding targets as well as the pace at 
which fishery stocks are rebuilt. H.R. 4940 has a number of 
provisions that are consistent with the emphasis NOAA places on 
cooperative research between agency scientists and the fishing 
industry. Likewise, it emphasizes the importance of vigorous 
independent peer review of science supporting management. Both 
of these areas are addressed in the Administration's bill, and 
we support the intent of the concepts.
    The Administration believes H.R. 4940 provides excessive 
leeway to the councils in the timeframe for eliminating 
overfishing and the eventual rebuilding of stocks. Many of the 
stocks in New England became overfished under policies in 
effect prior to 1996 that repeatedly postponed tough choices 
necessary for the rebuilding of overfished stocks. New England, 
and specifically the Port of New Bedford, have shown that 
ending overfishing is consistent with our goals of sustaining 
vibrant coastal communities and economies. In focusing on 
ending overfishing of sea scallops, the value of scallop 
landings has increased approximately 800 percent over the past 
7 years.
    Based on the latest NOAA data, New Bedford is the number 
one fishing port in the United States in terms of ex-vessel 
revenue, totaling $206 million in 2004. These increases in 
revenue have been largely due to the cooperative efforts of the 
fishing industry, the New England Council and NOAA to rebuild 
stocks, to be innovative in their management strategies, and to 
maintain stocks at sustainable healthy levels once they are 
rebuilt. It would be a step backward to allow excessive 
flexibility in the time allowed both for ending overfishing and 
achieving stock rebuilding.
    In summary, the Administration supports the direction in 
which these two bills are headed with respect to market-based 
fishing management, council operations and membership, 
ecosystem approaches to management, and cooperative science. We 
welcome the opportunity to continue working with Congress, 
which is one of the Administration's environmental priorities. 
Thank you, Chairman Pombo, Mr. Frank. I will be happy to answer 
any questions.
    [The prepared statement of Mr. Murawski follows:]

Statement of Steven A. Murawski, Ph.D., Director of Scientific Programs 
and Chief Science Advisor, National Marine Fisheries Service, National 
  Oceanic and Atmospheric Administration, U.S. Department of Commerce

    Thank you, Mr. Chairman and Members of the Committee for the 
opportunity to testify on two pieces of legislation to reauthorize the 
Magnuson-Stevens Fishery Conservation and Management Act (Magnuson-
Stevens Act). I am Dr. Steve Murawski, Director of Scientific Programs 
and Chief Science Advisor for the National Marine Fisheries Service, 
National Oceanic and Atmospheric Administration (NOAA), within the 
Department of Commerce. In my testimony today, I will review the 
Administration's goals and priorities in reauthorizing the Magnuson-
Stevens Act and comment on the bills introduced by Chairman Pombo (H.R. 
5018) and Congressman Frank (H.R. 4940). The Administration will 
continue to work with Congress to reauthorize the Magnuson-Stevens Act 
in order to sustain our fishery resources for future generations, as 
well as the industries and communities that depend on them.

          The Administration's Magnuson-Stevens Act Priorities

    Reauthorization of the Magnuson-Stevens Act is a high priority of 
the Administration. NOAA has worked with its constituencies to craft an 
effective and responsive proposal to the many challenges that face our 
federally-managed marine fishery resources. In September 2005, the 
Administration provided Congress with a proposal to reauthorize the 
Magnuson-Stevens Act. Over the past year, NOAA has worked closely with 
Congress on a wide range of issues related to Magnuson-Stevens Act 
improvements. The Administration's legislative proposal provides a 
broad blueprint, based on the President's U.S. Ocean Action Plan. The 
Administration's proposal reflects many comments and views from 
stakeholders. NOAA sponsored a national conference--
<plus-minus><plus-minus>Managing Our Nation's Fisheries--II''--in 2005 
specifically addressing reauthorization. From the input of the over 800 
attendees, the Administration developed a list of strategic priorities 
to address in the reauthorization process.
    Specifically, the Administration's Magnuson-Stevens Act 
reauthorization proposal seeks to achieve the following objectives: (1) 
promote wider use of market-based fishery management tools, (2) improve 
the operations of Regional Fishery Management Councils (Councils) as 
well as broaden and balance the constituent interests represented on 
the Councils, (3) end overfishing and achieve fishery rebuilding based 
on the biology of species and needs of communities, rather than 
arbitrary time schedules, (4) incorporate ecosystem-based approaches in 
our fishery management process, (5) strengthen the role of science in 
the decision-making process and increase our access to social and 
economic information, (6) upgrade the collection and use of 
recreational fisheries data, (7) conform the Magnuson-Stevens Act 
regulatory procedures with the objectives of other environmental laws, 
and (8) enhance the enforcement tools available so penalties become a 
true punishment and deterrent rather than simply a cost of doing 
business.
    During the 109th Congress, several Magnuson-Stevens Act 
reauthorization bills have been introduced. For purposes of this 
hearing, I will focus my comments on major provisions of the bills 
before us today: H.R. 5018, sponsored by Chairman Pombo, and H.R. 4940, 
sponsored by Congressman Frank.

``American Fisheries Management and Marine Life Enhancement Act'' (H.R. 
                                 5018)

    H.R. 5018 addresses a comprehensive range of domestic management 
issues that have been debated within and outside Congress for several 
years. There are many provisions in H.R. 5018 that the Administration 
supports, particularly, the provisions that:
    (1) establish limited access privilege programs, (2) broaden 
Council membership, and (3) authorize ecosystem-based fishery 
management plans. Each of these provisions is consistent with key 
Administration priorities, and we are pleased to see these provisions 
included in the Chairman's bill. I would like to explain why the 
Administration supports these provisions and believes they should be 
included in Magnuson-Stevens reauthorization.
Limited Access Privilege Programs
    The Administration believes Councils should have every possible 
fisheries management tool available to develop effective management 
programs. Moreover, market-based management approaches have 
demonstrated success in achieving economic benefits and promoting 
sustainable fisheries. Therefore, the Administration supports an 
expansion of existing authority to allow the Councils to implement a 
variety of limited access privilege programs that meet the unique needs 
of their fishery. The current Magnuson-Stevens Act authorizes two forms 
of dedicated access privileges (DAPs): individual fishing quota (IFQ) 
programs, and community quotas (in two specific geographic areas). 
Limited access programs currently in place have resulted in increases 
in per-unit product value and decreases in harvesting cost for 
fishermen. These programs have provided fishermen with greater control 
over when to fish, thus improving safety. This increased flexibility 
allows fishermen to improve profitability by harvesting fish when 
prices are most favorable. For these reasons, the Administration 
supports granting the Councils expanded authority to implement limited 
access privilege programs.
Broadening Council Membership
    The Councils are a key part of the fisheries management process, 
and the Administration believes the Council process is effective for 
sustainable fisheries management. It is vital that Councils are 
comprised of knowledgeable people representing a variety of interests. 
H.R. 5018 helps promote a broader and more balanced representation of 
constituent interests on the Councils by authorizing Governors to 
nominate Council members from academia or other public interest areas 
if the Governor determines they are qualified. The Administration 
supports this provision and believes it would allow a wider diversity 
of interests to be represented on the Councils. The Administration also 
looks forward to working with Congress to address a potential 
constitutional concern raised by the bills.

                Ecosystem-Based Fishery Management Plans

    For several years, fisheries scientists and managers have advocated 
using ecosystem approaches to fisheries management, whereby management 
programs consciously account for and address multiple living resource 
issues within an ecosystem. The Administration supports this vision and 
believes we must move towards an ecosystem approach to management. 
Although NOAA and the Councils have already begun to integrate this 
approach into fisheries management, we believe more can be done. We 
support reauthorization language that defines ecosystems, authorizes 
the Councils to take ecosystem considerations into account when 
developing fishery management plans, and authorizes the Councils to 
prepare fishery ecosystem plans. The Administration commends Chairman 
Pombo for his inclusion of a non-mandatory provision for ecosystem-
based fishery management plans, as we believe that ecosystem-based 
approaches to management are fundamental to the future of sustainable 
fishery management.
    The Administration supports other provisions in H.R. 5018, 
including the authorization of a Fishery Observer Fund, which would 
establish a funding mechanism to help pay for fishery observer 
programs. We also believe that provisions addressing cooperative 
research, identification of marine ecosystems, bycatch reduction 
incentives, and identification of fisheries with excess capacity have 
merit. Further, the Administration believes the proposed harvest level 
caps in H.R. 5018 could be a useful tool, provided they are practical 
to implement and enforce in any fisheries in which they are used.
    While the Administration supports many of the provisions in H.R. 
5018, the Administration does have concerns about a few provisions, and 
we would like the opportunity to work with you, Mr. Chairman, and the 
Committee to address these concerns. In particular, we are concerned 
with the provisions regarding the rebuilding plans for ``diminished'' 
stocks; compliance with other environmental laws, especially the 
National Environmental Policy Act (NEPA); and the recovery of costs for 
limited access privilege programs. We would also like to work with you, 
Mr. Chairman, on provisions related to the implementation of limited 
access privilege programs in New England; the revision of fisheries 
regulations in National Marine Sanctuaries; and the collection of 
recreational fisheries data.
    The Administration's proposal to end overfishing within a defined 
timeframe and allow rebuilding timeframes to reflect the unique life 
history of the pertinent fish stocks provides appropriate levels of 
management flexibility to achieve sustainable fisheries. H.R. 5018 
identifies additional circumstances to be considered in determining 
rebuilding schedules, which we believe could inappropriately and 
unnecessarily slow rebuilding times.
    The Administration supports study, revision, and updating of 
relevant Magnuson-Stevens Act procedures to integrate the environmental 
review processes of NEPA. The Administration supports this approach, 
rather than an exemption of fishery management actions from NEPA 
requirements.
    While H.R. 5018 outlines the authority to establish limited access 
programs, it does not authorize the collection of fees necessary to 
implement these programs. Recent experience suggests that the 
implementation and monitoring costs of limited access privilege 
programs may easily exceed the caps proposed in H.R. 5018. This places 
an unfair burden on the taxpayers to support programs primarily 
benefiting business. The Administration's proposal would authorize the 
recovery of a larger share of the costs in all dedicated access 
privilege programs.
    Another concern is that H.R. 5018 mandates an IFQ referendum with a 
2/3 majority requirement in New England, but nowhere else. There are 
many provisions in current law and regulations to ensure an open and 
transparent debate on the evaluation and choice of management options. 
Management by IFQ may ultimately be appropriate for some Northeast 
fisheries but not others. Mandating such a referendum for New England 
suggests the IFQ option or the New England region requires special 
attention or a lack of confidence in our current law or the local 
institutions to fairly interpret them. Such a provision could result in 
a costly and unnecessary impediment to the implementation of limited 
access programs in this region. Current law ensures that all 
stakeholder concerns are addressed in the decision making process, and 
places control properly with local institutions responsible for 
fisheries management.
    H.R. 5018 requires the review and certification of National Marine 
Sanctuaries regulations for the conservation and management of fish or 
essential fish habitat. The Administration firmly believes Sanctuary 
regulations adequately protect fish and essential fish habitat and does 
not believe that Sanctuary regulations should meet the Magnuson-Stevens 
Act national standards in all cases since their mandates differ from 
the Magnuson-Stevens Act mandates. NOAA is committed to using all its 
regulatory tools and complimentary authorities to develop comprehensive 
ecosystem-based management strategies that meet the purposes, goals and 
objectives for state and federal fishery managers and National Marine 
Sanctuaries.
    Finally, the Administration is committed to a nationally 
coordinated registry of saltwater recreational anglers that would build 
on State-administered programs. H.R. 5018 calls on the Secretary to use 
financial incentives to encourage States to collect recreational data. 
The Administration and Senate bills approach this in a different way, 
authorizing the Secretary to collaboratively establish a national 
registry as recommended by a recent National Research Council review of 
recreational data collection programs. The Administration believes a 
comprehensive registration of anglers should be established, as such a 
registration is an important tool for improving recreational fisheries 
data collection for management purposes. We look forward to working 
with you to craft the most effective policy to address this critical 
need.
    I would like to mention one issue not addressed in H.R. 5018 that 
the Administration believes should be included in the Magnuson-Stevens 
reauthorization. Unlike the Administration's proposal, H.R. 5018 does 
not include a provision to accelerate a mandatory end to overfishing. 
The Administration believes a deadline for ending overfishing is 
critical to preventing a stock from reaching an overfished status or 
requiring rebuilding. Management measures that end overfishing have 
contributed significantly to the rebuilding of many of the Northeast 
groundfish stocks. Without such strong measures, it would have been 
difficult, if not impossible, to bring the stocks to status that they 
are in today.
    Again, I would like to reaffirm the Administration's support for 
many of the provisions in H.R. 5018, and we are pleased to see many of 
our priorities included in this bill. We look forward to working with 
you, Mr. Chairman, as reauthorization moves forward.
    Now I would like to discuss the Administration's views on H.R. 
4940.

       ``Fishery Management Amendments Act of 2006'' (H.R. 4940)

    H.R. 4940 addresses a more narrow range of Magnuson-Stevens Act 
issues, concentrating on several measures intended to improve 
information, and amend rebuilding targets as well as the pace at which 
fishery stocks are rebuilt. H.R. 4940 has a number of provisions that 
are consistent with the emphasis NOAA places on cooperative research 
between Agency scientists and the fishing industry. Likewise, it 
emphasizes the importance of vigorous independent peer review of 
science supporting management. Both of these areas are addressed in the 
Administration's bill, and we support the intent of the concepts.
    The Administration believes H.R. 4940 provides excessive leeway to 
the Councils in the timeframe for eliminating overfishing and the 
eventual rebuilding of stocks. Many of the stocks in New England became 
overfished under policies in effect prior to 1996 that repeatedly 
postponed tough choices necessary for the rebuilding of overfished 
stocks. New England, and specifically the Port of New Bedford, have 
shown that ending overfishing is consistent with our goals of 
sustaining vibrant coastal communities and economies. In focusing on 
ending overfishing of sea scallops, the value of scallop landings has 
increased approximately 800 percent over the past 7 years. Based on the 
latest NOAA data, New Bedford is the number one fishing port in the 
United States in terms of ex-vessel revenue, totaling $206 million in 
2004. These increases in revenue have been largely due to the 
cooperative efforts of the fishing industry, the New England Council, 
and NOAA to rebuild stocks, to be innovative in their management 
strategies, and to maintain stocks at sustainably healthy levels once 
they are rebuilt. It would be a step backward to allow excessive 
flexibility in the time allowed both for ending overfishing and 
achieving stock rebuilding.
Conclusion
    In summary, when we examine these two bills in light of the 
Administration's highest Magnuson-Stevens Act reauthorization 
priorities, we are encouraged in a number of important areas. 
Specifically, we support the direction in which these bills are headed 
with respect to: market-based fisheries management, Council operations 
and membership, ecosystem-based approaches to management, and 
cooperative science.
    We look forward to working with Congress on several issues in 
Magnuson-Stevens Act reauthorization, such as: (1) overfishing and 
rebuilding provisions, (2) policies related to limited access 
privileges, and (3) the best means to improve the collection of 
recreational fisheries data. Ending overfishing and fisheries 
rebuilding issues are critical for achieving sustainable fisheries. In 
the Administration's view, two points are key. First, we have to end 
overfishing as quickly as possible, and preferably by a date certain; 
second, rebuilding timetables should be supported by sound science.
    As we outlined in our most recent status of the stocks report, 81% 
of the stocks and stock complexes with known status are not subject to 
overfishing, and 72% of the stocks and stock complexes with known 
status are not overfished. We are making progress in rebuilding our 
Nation's fisheries. As I stated earlier, Mr. Chairman, the 
Administration believes we share many of the same priorities for 
Magnuson-Stevens reauthorization. We are close to completing a final 
bill. In this year, the tenth anniversary of the enactment of the 
Sustainable Fisheries Act, the Department remains committed to working 
with Congress as legislation to reauthorization the Magnuson-Stevens 
Act moves forward.
                                 ______
                                 
    The Chairman. Thank you. Doctor, one of the issues that has 
come up in H.R. 5018 is the effort to restore flexibility in 
terms of the decisionmaking and when it comes to rebuilding 
stocks. I would like you to talk a little bit about that and 
the impact you foresee with the changes that we would make 
under that bill.
    Mr. Murawski. In terms of both your bill and the 
Administration's bill, we are trying to strive to get more 
flexibility. In particular, this is being formed by some of the 
difficulties in rebuilding stocks in New England. Back in 1996 
when the amendments were first put in, 14 out of 18 of the 
major groundfish stocks is where overfishing was occurring. We 
have that down to 8 out of 14 where overfishing is occurring. 
It's a long and difficult process. One of the things we found 
is that because of the ten-year requirement for rebuilding, 
that is hard-wired in the Magnuson-Stevens Act, that leaves us 
very little flexibility in terms of our realistic time lines 
and more based on species biology. Of course, we can't trade 
off everything. We can't trade off ending overfishing because, 
frankly, as I said in my testimony, that is how we got in 
trouble in the first place. We put a time certain ending local 
fishing, but allow more flexibility. Get rid of the arbitrary 
ten-year requirement and allow the rebuilding to pace itself, 
you know, with the species biology. We think that is a fair 
tradeoff. We would be very much willing to working with you on 
the provisions of your bill that would balance this flexibility 
and end overfishing.
    The Chairman. But it's not that that flexibility, in terms 
of a time line, is more realistic in terms of science. Some 
fisheries may take more than 10 years; some may take less. In 
talking to Congressman Frank about the scallop fishery here and 
the success that they have had in that particular instance, 
that was a shorter period of time. There may be other fisheries 
that would take longer. Shouldn't that flexibility be built 
into the law?
    Mr. Murawski. That is why the Administration proposal is to 
eliminate the ten-year requirement and base it more on the 
regeneration time of species. For example, Georges Bank cod is 
going to be a very difficult one to rebuild. That should have 
more time. Scallops are highly productive species. They turned 
around almost immediately. We need to base this more on the 
biology of species rather than time.
    That being said, the first requirement of rebuilding for 
long-term sustainability is to eliminate more, more fishing. We 
did that in sea scallops. We probably have a little backsliding 
because of the influxive effort that we need to pay attention 
to. We eliminated overfishing in some of the stocks of 
groundfish. Some of the tougher ones are going to take more 
time.
    The Chairman. In regards to framework plans, the 
Administration requested language regarding the authority to 
use those plans. Why is that important?
    Mr. Murawski. Well, framework authority is important 
because, I think, both of you testified right now we have a 
process that takes a considerable amount of time to react to 
changes in the fishery, changes in the stocks, et cetera. We'd 
like to streamline that process, particularly for issues where 
you define the scope of your actions that you want to take, and 
sort of preload the type of responses that you would do and 
institute those on a much more timely basis. We think we can 
have a framework as originally put in place so people 
understand the potential or scope for environmental, economic 
impact. The council's system can be more reactive.
    The Chairman. I think we all agree in terms of the need to 
have public input, regional input in the decisions that are 
being made. Under the proposed legislation would there be less 
opportunity for the public to participate in the decisionmaking 
process.
    Mr. Murawski. Under the framework proposal.
    The Chairman. Yes.
    Mr. Murawski. No, we don't believe so.
    If you have your debate on the provisions of the framework, 
you should be able to take everybody's concerns into account. 
Of course, in terms of the specific change under the framework 
plan we see other places where we there are specifications, 
there is considerable input. For example, Alaska, every year 
they reset their quotas based on the framework process. There 
is plenty of public input.
    The Chairman. In fact, I believe in the case of Alaska 
there is extensive public involvement from what I've seen. 
Finally, I just want to ask you a final question about 
litigation and how does that impact the agency and your ability 
to fulfill your goals, your mission?
    Mr. Murawski. Litigation, of course, is very significant in 
terms of our, not only the process but also it consumes a lot 
of resources. It consumes scientific resources. It consumes 
people that are litigating the case, et cetera. The more we can 
clarify the provisions in the law, the less we'll have the sort 
of ambiguous things that are the things that create litigation.
    I want to commend you, Chairman Pombo, on the way you 
approached the ecosystem plans by making it a non-mandatory 
provision. One of the things we found in terms of looking at 
central fish habitat, we jumped right in it on that, in terms 
of a mandatory requirement, that created confusion because we 
weren't ready. We think with the non-mandatory provision it 
allows us to get our feet wet. It's probably a very good 
approach, to have that non-mandatory requirement to begin with.
    The Chairman. On that provision you believe, as I do, that 
ultimately it will be ecosystem management. It will be within 
the entire region.
    That is what we're working toward?
    Mr. Murawski. Yes. I think some of the provisions that were 
talked about in Mr. Frank's bill, about looking at alternative 
explanations for declines of stocks, we need to broaden out the 
kind of information that goes into the fishing management 
process, for example, issues of climate, issues of in-shore 
pollution, et cetera. Ecosystem approach allows us to inform 
fisheries management with a much wider sense.
    The Chairman. Thank you very much.
    Mr. Frank. I just noted, your staff noted while you were 
talking about litigation, we're told there are currently 110 
lawsuits being brought against NMFS. Virtually all of them are 
from people trying to make it more rigid. We move to 
flexibility. I, myself, had the conversation with people 
working in fishing. With the agency we've been told from time 
to time you have a very good point there, but if we were to act 
on it, we would be tied up in a lawsuit. I think this is an 
important point.
    The scallop issue, you mentioned that again. We should be 
very clear that the environmental community, that is 
denunciatory of this bill, was strongly denunciatory of the 
decision to open Georges Bank, which you are vindicated by the 
effects. One of the, I guess you really did, I appreciate this, 
touch on the central issue. That is the case of the time line 
versus flexibility. We appreciate your talking about the 10 
years. Why does anybody think there is magic to the 10 years? 
Mr. Pombo and I have been in the legislative process. Somebody 
said, ``Look, we have to come up with something. What about 
eleven?'' Finally, you have a consensus on ten. From then on, 
ten is a genesis. God must have been for ten. Anybody who has 
been in one of these processes knows there was a little trade 
there. The notion that having arrived at the new-man process at 
a particular number, it then becomes a kind of absolute. It's 
silly, plain silly. The notion that there is the same number 
for every species is just silly. If I understand what you're 
saying, you think a time line is important and it would be 
relevant to the particular species and the conditions of that 
species?
    Mr. Murawski. That's correct.
    Mr. Frank. You would also want to have in the law the 
ability that as things went forward to monitor the progress. 
Yes, there will be times and it's currently in the law, 
sometimes we have to toughen it out, but there are also times 
when the science suggests we can be more flexible. I think what 
the Chairman and I are trying to do is say we want to give you 
the full range of science, the ability to do both, to extend it 
if it looks like things are doing better and to be tougher if 
we have to. Is that a reasonable approach that we should be 
taking?
    Mr. Murawski. Again, I think these notions of trying to 
build time lines more around species, you're capable of doing.
    Mr. Frank. Modifying them as we go forward to get more 
information. You said something today; you said 10 years. I 
guess our expertise in how the fish will perform is not so 
certain that we have to say OK, we can't change it so many 
years out. I appreciate that. You mentioned the overfishing 
situation. Where are all these monkfish today? That is a little 
bit shakier than scallops.
    Mr. Murawski. I'm not sure. Monk fishing is occurring.
    Mr. Frank. You have the ability now to cut back.
    Mr. Murawski. Well, there is a regulatory change in terms 
of the number of days at sea devoted to monk fishing.
    Mr. Frank. We did have a situation where we were able to 
continue monk fishing a few years ago and the species is not 
collapsed, not been depleted. That is the other point I want to 
make. These are not endangered situations. We're not talking 
about endangered species. We're not talking about them 
disappearing. We're talking about a drop in the stock is what 
we're talking about. They were correctable.
    If you're in one way or another, then you can correct it.
    The problem we have is people who look only--I guess I have 
a linguistic problem. I'm not a great fishing expert. I have 
this problem of maximum sustainable yield. Frankly, it seems to 
me the day you caught one fish you diminished the maximum 
sustainable yield. Tell me if you caught two. I'm baffled by 
the people who object to any kind of flexibility.
    Let me ask one other point, that is, there have been some 
arguments, you talk about the social and economic impacts 
somehow degrading the environmental priority. What is the 
Administration's view of social impacts? It's in the existing 
law. People act like we invented it. What is your view of the 
impact, the importance it ought to be given to social and 
economic status?
    Mr. Murawski. Under NEPA and other things, we have to take 
into account the social and economic impacts of various 
alternative options.
    Mr. Frank. Does that take into account the greater ability 
to protect the fish stocks?
    Mr. Murawski. Absolutely not. It helps to sort through the 
options in terms of trying to mitigate the short-term effects. 
National Standard 8 requires us to look at, for example, 
impacts to communities. We've been trying to upgrade the amount 
of social economic data that goes into the management plan.
    Mr. Frank. I appreciate it.
    Mr. Chairman, I would like to put in the record the written 
testimony of Dr. Kaplan who's a Guest Investigator at Woods 
Hole, and a research scholar at Union College. She is the Chair 
of Social Science. I also have a letter from Roger Berkowitz 
who is the President of Legal Sea Foods in which he talks about 
the importance of seafood as a source of nutrition and 
expresses his dismay about proposals and things in the law that 
would seriously interfere with their ability to provide that. 
Thank you.
    The Chairman. Without objection, they will be included. Dr. 
Murawski, I appreciate you making the effort to be here to 
testify. Obviously, this is an extremely important issue. It's 
very difficult, very complex. As we go forward, I look forward 
to the opportunity to work with you, continue to work with you 
in order to provide the best legislation we possibly can.
    I would now like to call up our second panel of witnesses. 
Panel 2 witnesses include Ms. Debra Shrader, President of Shore 
Support, Incorporated; Mr. David Bergeron, Coordinator of 
Massachusetts Fishermen's Partnership; Mr. Chris Wright, 
scallop boat captain; Dr. Andrew Rosenberg, Institute for Study 
of Earth, Oceans and Space, University of New Hampshire; Dr. 
Brian Rothschild, Dean, School for Marine Science and 
Technology, UMass-Dartmouth and Ms. Jackie Odell, Executive 
Director of Northeast Seafood Coalition. Thank you very much.

STATEMENT OF DEBRA SHRADER, EXECUTIVE DIRECTOR, SHORE SUPPORT, 
                              INC.

    Ms. Shrader. Good morning, Congressman Pombo, members of 
the Resources Committee. First of all, if I could, I would like 
to make a couple of comments regarding the last testimony just 
briefly.
    One is on participation of industry people in the process, 
I can tell you that of late when we sit through a day-long 
meeting of the New England Fishing Management Council we are 
told, after we listen to the diatribe of their explanation, we 
are told that we have two for, two people against. We will sit 
and listen to eight or ten hours of testimony, then we'll only 
have the opportunity for two people to go to the table to 
disagree. I don't think that is an open meeting policy, 
according to any public law. Also, ecosystem management plans 
that we are looking forward to, I would hope that people are 
also included in that ecosystem. I'll just go back to my 
statement.
    I would like to thank you for this opportunity to speak on 
behalf of the fishermen and their families here in the great 
port City of New Bedford, and we welcome you to our home port.
    As stated, my name is Deb Shrader. I am the wife of Captain 
Ronnie Shrader, and the Executive Director of Shore Support, 
Inc./Fishermen's Emergency Relief Fund, which is a nonprofit 
organization that has worked for the last 10 years on behalf of 
fishermen and their families. I applaud you all for taking the 
time in your busy schedules to come to our home port and to 
hear us out.
    All our men want to do is bring home the freshest, 
healthiest source of protein-rich food for our citizens to 
enjoy. Hopefully, this bill will make it possible for us to 
continue to eat healthful, locally harvested seafood, and 
export it to others in our great nation that don't have the 
good fortune to live by the sea.
    Part of Shore Support's mission statement is to create a 
voice for the rank-and-file fishermen with our regulators, so 
to be here, testifying before this esteemed committee is a bit 
daunting, but also very important to me.
    After reading the American Fisheries Management and Marine-
Life Enhancement Act, I was relieved that much of the bill will 
be a measure that will balance many of the inequities in the 
prior Sustainable Fisheries Act, and previously the Magnuson-
Stevens Act. Our organization fully supports many issues 
brought into the light with this bill. For example, the ten-
year rebuilding strategy being revamped with a great deal more 
flexibility. The greater flexibility would allow fishermen to 
pay attention to their safety and economic status. Nowhere in 
the National Standards does it state that one standard has 
precedent over the other. Why then have socioeconomic issues 
been ignored for so long?
    At every council meeting when an overhead slide is 
displayed, you will always see socioeconomic data incomplete. I 
hope with the concentration on flexibility this bill brings to 
the table those socioeconomic issues that will be brought out 
in the open. We also support the charitable donations of 
bycatch which would not just give us a truer picture of the 
amount of fish that are out there, but also allow us to feed 
healthful seafood to the poor, people who otherwise could not 
afford to make such a healthful dietary choice.
    Shore Support has completed one socioeconomic study of a 
comparison of income and working conditions prior to and since 
the implementation of the Days at Sea Management Plan. The work 
was done through a Saltonstall-Kennedy grant to UMD/SMAST, with 
Professor Dan Georgianna as the principal investigator. We have 
been recently awarded another grant to continue our work in 
coalition with UMD/SMAST through the Northeast Consortium. This 
most recent grant will take a look at the economic effect of 
Amendment 13 on our groundfish industry. In part, we will be 
comparing incomes and tracking how many men have left the 
fisheries, safety issues, et cetera. I feel that the benchmarks 
that were created in our previous study will give us a clearer 
understanding of the devastation that has beset an industry who 
has already had a 50 percent reduction in effort.
    We did our interviews for our first study in the spring of 
2003. Our interviewers met with 50 percent of the offshore 
boats in our harbor, both groundfish and scallopers. I can tell 
you that even then the groundfishermen felt that they could 
take no more.
    The regulations are getting more and more complicated and 
more difficult for our men to work under. Many of our 
groundfishermen are Portuguese, from both the mainland and like 
my grandmother, the Azorean Islands. Many of the men prefer to 
speak Portuguese and keep the customs of the homeland. The 
captains read the new regulations and are not just hampered by 
the complexity of the regulations but also the fact that 
nothing is translated into Portuguese for easier understanding.
    One thing they can understand is how precarious their 
futures are. Single boat owners and many fishermen will not be 
around when the stocks finally rebound, because most fishermen 
have had their right to harvest fish taken away or diminished 
to a point where they either support their family or listen to 
the call in their hearts to continue to work at sea. Please try 
to picture the single boat owner/operator who has his boat 
mortgage rolled in with his house mortgage.
    I met with a man in that situation and he had to suffer not 
just the economics of the situation but the social pain of 
feeling like a failure to his family, knowing that his home 
would go with the boat and everything he had worked for would 
soon be gone. This man spoke to me with tears in his eyes, 
telling me that he felt he will soon lose everything, and he 
didn't know how he would face his children.
    Part of my work is in the Fishermen's Emergency Relief Fund 
which we started after the sinking of the F/V Northern Edge. 
Originally developed to help the families suffering from the 
tragedy of losing their loved ones in the sinking, we then have 
tried to assist families who have been forced to leave the 
industry and are seeking retraining or who have been injured in 
the performance of their duties. This is necessary due to the 
fact that there is no Workmen's Compensation for fishermen when 
they are injured, and families in transition often do not 
qualify for public assistance because of the ownership of a 
house or car.
    The demand for our services has already become more than we 
can handle and our funds, donated by people from communities as 
far away as Wisconsin, are nearly gone. How will our government 
be able to help these families? The unemployment in the fleet 
is slated to increase markedly due to the lack of days at sea 
and the consolidation of crews moving from boat to boat. I hope 
that there will be services and funding made available to help 
us keep our families in their homes. Our center has been 
brought to a bare-bones budget at a time when we never needed 
it more.
    My last comment is regarding individual fishing quotas. I 
realize that the decision of whether or not we will have IFQs 
is subject to a referendum vote of 2/3 of the community in the 
fishing region. I would hope that at the very least federally 
documented captains and first mates would be added to the 
people eligible to vote. I would prefer to see all fishermen 
have a voice in the monumental decisions; however, the captains 
and mates are documented with identification cards, making it 
easy for the government to validate that person's involvement 
in the fishery and therefore his/her right to participate in 
the vote.'
    In conversations with fishermen, I have asked them over and 
over why they continue to fish when things are so difficult. 
They will most often shrug, I get a little smile and they tell 
me, ``You know how it is? It's what I do, who I am.'' Please 
help us through this act of Congress to save our fishery-
dependent community and the families who have been the 
cornerstone of the economic base of the port city for hundreds 
of years. They see the whaling museum, then they go down and 
see our boats. Thank you, again, both of you, and thank you for 
your time.
    [The prepared statement of Ms. Shrader follows:]

            Statement of Debra Shrader, Executive Director, 
                          Shore Support, Inc.

    Good morning, Congressman Pombo, members of the Resource Committee, 
and Congressman Frank. I would like to thank you for this opportunity 
to speak on behalf of the fishermen and their families here in the 
great port City of New Bedford, and we welcome you to our homeport.
    As stated, my name is Deb Shrader. I am the wife of Captain Ronnie 
Shrader, and the Executive Director of Shore Support, Inc./Fishermen's 
Emergency Relief Fund; which is a nonprofit organization that has 
worked for the last ten years on behalf of fishermen and their 
families. I applaud you all for taking the time in your busy schedules 
to come to our home port and hear us out. All our men want to do is 
bring home the freshest, healthiest source of protein rich food for our 
citizens to enjoy. Hopefully, this bill will make it possible for us to 
continue to eat healthful, locally harvested seafood, and export it to 
others in our great nation that don't have the good fortune to live by 
the sea.
    Part of Shore Support's mission statement is to create a voice for 
the rank and file fishermen with our regulators, so to be here, 
testifying before this esteemed committee is a bit daunting, but also 
very important to me.
    After reading the ``American Fisheries Management and Marine-Life 
Enhancement Act,'' I was relieved that much of the bill will be a 
measure that will balance many of the inequities in the prior 
Sustainable Fisheries Act, and previously the Magnuson-Stevens Act. Our 
organization fully supports many issues brought into the light with 
this bill; for example the 10 year rebuilding strategy being revamped 
with a great deal more flexibility. The greater flexibility would allow 
fishermen to pay attention to their safety and economic status. Nowhere 
in the National Standards does it state that one Standard has precedent 
over the others. Why then have socio-economic issues been ignored for 
so long? At every Council Mtg., when an overhead slide is displayed, 
you will always see ``Socio-Economic Data Incomplete.'' I hope with the 
concentration on flexibility this bill brings to the table, those 
socio-economic issues will be brought out in the open. We also support 
the charitable donations of bycatch which would not just give us a 
truer picture of the amount of fish that are out there, but also allow 
us to feed healthful seafood to the poor, people who otherwise could 
not afford to make such a healthful dietary choice.
    Shore Support has completed one socio-economic study of a 
comparison of income and working conditions prior to and since the 
implementation of the Days at Sea management plan. The work was done 
through a Saltonstall-Kennedy Grant to UMD/SMAST, with Professor Dan 
Georgianna as the Principal Investigator. We have been recently awarded 
another grant, to continue our work in coalition with UMD/SMAST through 
the Northeast Consortium. This most recent grant will take a look at 
the economic effects of Amendment 13 on our groundfish industry. In 
part, we will be comparing incomes and tracking how many men have left 
the fisheries, safety issues, etc. I feel that the benchmarks that were 
created in our previous study will give us a clearer understanding of 
the devastation that has beset an industry who has already had a 50% 
reduction in effort.
    We did our interviews for our first study in the spring of 2003. 
Our interviewers met with 50% of the offshore boats in our harbor, both 
groundfish and scallopers. I can tell you that even then, the 
groundfishermen felt that they could take no more. The regulations are 
getting more and more complicated and more difficult for our men to 
work under. Many of our groundfishermen are Portuguese, from both the 
Mainland and like my Grandmother, the Azorean Islands. Many of these 
men prefer to speak Portuguese, and keep the customs of their homeland. 
The captains read the new regulations, and are not just hampered by the 
complexity of the regulations, but also the fact that nothing is 
translated into Portuguese for easier understanding.
    One thing they can understand, is how precarious their futures are. 
Single boat owners, and many fishermen will not be around when the 
stocks finally rebound because most fishermen have had their right to 
harvest fish taken away, or diminished to a point where they either 
support their family, or listen to the calling in their hearts to 
continue to work at sea. Please try to picture the single boat owner/
operator who has his boat mortgage rolled in with his house mortgage. I 
met with a man in that situation, and he had to suffer not just the 
economics of the situation, but the social pain of feeling like a 
failure to his family, knowing that his home would go with the boat and 
everything he had worked for would soon be gone. This man spoke to me 
with tears in his eyes, telling me that he felt he will soon lose 
everything, and he didn't know how he would face his children.
    Part of my work is in the Fishermen's Emergency Relief Fund which 
we started after the sinking of the F/V Northern Edge. Originally 
developed to help the families suffering from the tragedy of losing 
their loved ones in the sinking, we then have tried to assist families 
who have been forced to leave the industry and are seeking retraining, 
or who have been injured in the performance of their duties. This is 
necessary due to the fact that there is no Workmen's Compensation for 
fishermen when they are injured and families in transition often do not 
qualify for public assistance because of the ownership of a house or 
car. The demand for our services has already become more than we can 
handle, and our funds, donated by people from communities as far away 
as Wisconsin, are nearly gone. How will our government be able to help 
these families? The unemployment in the fleet is slated to increase 
markedly due to the lack of Days At Sea, and the consolidation of crews 
moving from boat to boat. I hope that there will be services and 
funding made available to help us to keep our families in their homes. 
Our retraining Center has been brought to a bare bones budget, at time 
when we never needed it more.
    My last comment is regarding Individual Fishing Quotas. I realize 
that the decision of whether or not we will have IFQ's is subject to a 
referendum vote of 2/3 of the community in the fishing region. I would 
hope that, at the very least, federally documented Captains and First 
Mates would be added to the people eligible to vote. I would prefer to 
see all fishermen have a voice in this monumental decision, however, 
the Captains and Mates are documented with Identification Cards, making 
it easy for the government to validate that person's involvement in the 
fishery and therefore his/her right to participate in the vote.
    In conversation with fishermen, I have asked then over and over why 
they continue to fish when things are so difficult. They will most 
often shrug, I get a little smile, and they tell me, ``you know how it 
is, it's what I do, who I am.'' Please help us through this act of 
Congress to save our fishery dependent community, and the families who 
have been the cornerstone of the economic base of this Port City for 
hundreds of years.
                                 ______
                                 
    The Chairman. Thank you.

STATEMENT OF DAVID BERGERON, EXECUTIVE DIRECTOR, MASSACHUSETTS 
                 FISHERMEN'S PARTNERSHIP, INC.

    Mr. Bergeron. Good morning, Chairman Pombo. Thank you very 
much for coming to New Bedford to listen to us. My name is 
David Bergeron. I'm Executive Director of the Massachusetts 
Fishermen's Partnership, Inc. The partnership is an umbrella 
organization for 18 commercial fishing organizations 
representing the diversity of the geographic sector that is the 
Massachusetts fishing industry. We sponsor the Fishing 
Partnership Health Plan which provides high-quality 
comprehensive health care coverage for more than 2,000 members. 
We commend Representative Frank for the health care provisions 
in H.R. 4049 and wholeheartedly request that this section be 
included in the final version of the Magnuson-Stevens Act.
    Mr. Frank. I want to make clear they are not in the other 
bill, because the committee that the Chairman presides over 
doesn't have this, but it will be our hope to work together 
when we get out of committee. We understand that is important. 
That is the only reason it's not in both bills. That can be 
dealt with under the rules going forward.
    Mr. Bergeron. Thank you. Congressman, we need help. Here in 
the Northeast the multispecies fishery management plan is 
pushing fishing communities toward the tipping point past which 
the infrastructure that allows fishermen to do their jobs could 
fail. We have found that the well-being and sustainability of 
both large and small fishing communities of the region are 
intertwined.
    Furthermore, they are all dependent on an industry that is 
characterized by diversity and flexibility. While as an 
industry we support management based on science, we believe 
that improvements should be made in two areas. First, we need 
to increase confidence and transparency in the sciences. 
Second, the councils need reasonable discretion for fulfilling 
their responsibilities.
    We are heartened to see the commitment to collaborative 
research. We believe investment in a broad range of 
institutions to conduct an outreach to oceans and fish research 
is critically important to increasing competence and 
transparency in the science. SMAST independent research has 
produced vast to the scallop industry. Such research leads to a 
critical mass of knowledge through independent scientists, 
organizations and fishing industry participants who can 
reinvigorate fishery science, tests hypotheses and better 
inform fisheries management.
    H.R. 5018 addresses the power of science and statistical 
committees. We strongly believe that the composition of science 
and statistical committees must include both natural and social 
scientists who are unaffiliated and financially independent of 
the regulations. In addition, the scientific information 
employed by this committee must include the results of 
collaborative research.
    My second point relates to the need for flexibility in 
management. The councils need reasonable discretion to be able 
to do their jobs properly. As we move toward ecosystem 
management, it is going to be even more critical to be aware of 
the interactions of the different fish species, the effects of 
change on humans and of humans and not to be driven to extreme 
actions based on one respect.
    I do need to note, Mr. Chairman, that since the mission of 
my written testimony it has come to my attention that there is 
not 100 percent consensus on, among all of our members, 
concerning the details of overfishing. Most agreed, however, 
that it is reasonable to allow councils to phase out 
overfishing if the stocks are expected to reach their targets 
in the permitted time period. Phased regulations allow the 
communities to adjust to change, thereby reducing the 
probability of tremendous devastation. It is also reasonable 
for the councils to have discretion in the amount of time 
allowed to rebuild fish stocks and the targets are doubled or 
tripled.
    Congressman, you can help us. Invest in collaborative 
research, independent review, grant the council's reasonable 
discretion and flexibility to extend rebuilding time lines 
under special circumstances and to phase in the reduction of 
fishing mortality to avoid devastating things when doing so 
would not prevent the rebuilding of the stocks.
    Again, I would like to thank you for the opportunity to 
testify, and we are very interested in working with you and 
your staff. We will move forward with this very important 
legislation.
    [The prepared statement of Mr. Bergeron follows:]

           Statement of David Bergeron, Executive Director, 
              Massachusetts Fishermen's Partnership, Inc.

    My name is David Bergeron. I am Executive Director of the 
Massachusetts Fishermen's Partnership (MFP). The MFP is an umbrella 
organization for 18 commercial fishing organizations representing all 
gear and geographic sectors of the Massachusetts fishing industry. Our 
members are:
        Boston Harbor Lobstermen's Cooperative
        Cape Cod Commercial Hook Fishermen's Association
        Commercial Anglers' Association
        General Category Tuna Association
        Gloucester Fishermen's Wives Association
        Gloucester Fishermen's Association
        Marshfield Commercial Fishermen's Association
        Massachusetts Commercial Fishermen's Association
        Massachusetts Bay Ground Fishermen's Association
        Massachusetts Lobstermen's Association
        New Bedford Seafood Coalition
        New England Fish Exchange
        Northeast Seafood Coalition
        North Shore Community Tuna Association
        Pigeon Cove Fishermen's Co-Op
        Plymouth Lobstermen's Association
        Provincetown Fishermen's Association
        South Shore Lobstermen's Association
    The MFP was created to promote the common interests and economic 
viability of commercial fishermen and fishing families. The MFP is 
sponsor of the Fishing Partnership Health Plan, which provides 
comprehensive healthcare coverage for more than 2000 members in the 
fishing community. The MFP also runs a successful collaborative 
research program that addresses topics that include social science 
inquiries, seafloor mapping and habitat characterization, species 
studies and selective gear development.
    Thank you for the opportunity to offer testimony concerning 
reauthorization of the Magnuson-Stevens Act and particularly H.R. 5018 
and H.R. 4940. There are many provisions in both bills that deserve 
serious consideration and which we hope will be included in the final 
version of reauthorization of the Magnuson-Stevens Act. H.R. 5018 
includes several proposals that we support with regard to diminished 
fisheries, flexibility in rebuilding timeframes, analysis of cumulative 
social and economic impacts, reconciliation of the National Marine 
Sanctuaries Act with the Magnuson-Stevens Act, and other matters 
discussed below. H.R. 4940 also includes some very important proposals 
concerning healthcare for fishermen, safety, flexibility of rebuilding 
strategies and timeframes, and collaborative research.
    It is wise that the House of Representatives and Congress is moving 
towards reauthorization of the Magnuson-Stevens Act this year. Medical 
research continues to affirm the importance of seafood in a healthful 
diet. While recreational fishing provides important economic and social 
benefits, it is the commercial fisherman who provides high quality and 
healthful protein for all American citizens. It is critical that the 
health and abundance of our fishery resources be safeguarded. It is 
equally important that the tens of thousands of men and women who go to 
sea and the people employed in the businesses and industries on shore 
that support our fishermen are recognized and supported for what they 
contribute to the national interest. These are the people who provide 
us with some of our best understanding of the marine environment and 
the rich abundance of the sea.
Healthcare for Fishing Communities
    The MFP has a long-standing interest in fishing community 
healthcare issues and is sponsor of the Fishing Partnership Health Plan 
which provides more than 2,000 fishing family members with 
comprehensive high-quality coverage. Our work in connection with the 
Fishing Partnership Health Plan gives us a unique view into the social 
dimensions of fishing community life. As such, we wholeheartedly 
endorse Section 4(e) of H.R. 4940, ``Fishing Industry Health Care 
Coverage Demonstration Program,'' and request that this entire section 
be included in the final version of Magnuson-Stevens reauthorization.
    Very closely related to our interest in fishermen's health is our 
concern for fishermen's safety. We support Section 6 of H.R. 4940 
``Fishing Safety'' and especially endorse its provisions to provide 
resources for safety training and its requirement that equal emphasis 
be given in management to fishermen's safety at sea as is given to 
other National Standards. A NOAA funded project we are currently 
conducting seeks to promote a culture of safety at sea by building on 
successful safety training workshops in New Bedford and exploring the 
potential for developing incentives such as lowering the costs of 
safety equipment and/or insurance in part through active participation 
in safety training.
Collaborative Research
    The MFP operates a successful collaborative research program that 
addresses a number of research topics relevant to the development and 
definition of ecosystem based approaches to management. We generally 
support H.R. 5018's Section 6 ``Ecosystem-Based Fishery Management''; 
however, there needs to be more specific language to describe how to 
``incorporate broad stake holder participation.'' H.R. 4940 provides 
concrete examples of how this may be accomplished in Section 5 
``Improvements in Fishery Science and Research'' and Section 12 
``Fishery Science Education Program.''
    The MFP has developed a special expertise with regard to social 
science research through a number of collaborative research projects 
with researchers from MIT, Rutgers University, and Harvard University. 
We began this work five years ago with the specific goal of preparing 
to make recommendations to Congress to improve the quality and 
usefulness of fisheries social science research. One of our most 
critical findings is that social science analyses in fisheries must not 
be limited to impacts of regulations but must be expanded to assess the 
social dimensions of the science and management processes as well.
A. Analyzing the Social Dimensions to Science & Management
    Effective management of fisheries demands institutionalized 
collaboration among fishermen, other community members, social and 
natural scientists as well as managers at every point, from research 
through decision-making.
    In its introductory ``findings,'' the Magnuson-Stevens Act stresses 
that ``the collection of reliable data is essential to the effective 
conservation, management, and scientific understanding of the fishery 
resources of the United States.'' The route chosen was ``(5) to 
establish Regional Fishery Management Councils to exercise sound 
judgment in the stewardship of fishery resources through the 
preparation, monitoring, and revision of such plans under circumstances 
(A) which will enable the States, the fishing industry, consumer and 
environmental organizations, and other interested persons to 
participate in, and advise on, the establishment and administration of 
such plans, and (B) which take into account the social and economic 
needs of the States.'' Despite these participatory goals, fisheries 
management has achieved the reputation of ``top-down'' management among 
many of its stakeholders. Others, however, accuse the Councils of being 
swayed by too much participation of stakeholders. Measurement and 
monitoring of the involvement and empowerment of both individuals and 
organizations could be incorporated into the analysis of the success/
failure of management.
    The description of the social organization and characteristics of 
interaction among research and fisheries management institutions and 
the people who participate through them could be viewed as important 
social ``indicators'' in management. Effective outcomes would be 
defined and monitored by measurable social indicators. That there are 
fishermen and scientists working together on projects does not mean 
that the full potential of that collaboration is being realized. 
Deliberate analysis of the human ecology of collaborative fisheries 
research is an important step towards understanding what is necessary 
for success in such research. Meaningful collaboration among scientists 
and fishermen and their respective organizations is an important 
contributor to the development of individual and group ``capabilities'' 
and expertise and thus provides the social and human capital necessary 
for effective research and management of ecosystems.
    Section 5(d), (e) and (f) of H.R. 4940 provides the best model on 
how to build upon progress already made in promoting collaborative 
research and also includes resources for social science collaborative 
research that would be available to analyze the process and social 
structure of successful collaborative research and how it can be made 
more applicable and influential to management.
B. Community Confidence in Scientific Research
    Our social science research and experience in general with 
collaborative research projects is beginning to awaken an appreciation 
of the need to better understand the meaning and social indicators of 
``collaboration'' in connection with scientific research. There is 
broad recognition of the need for scientists and fishermen to work more 
closely together through collaborative research, and Congress has 
invested in this idea. Social sciences need to be applied to learn how 
to assess and analyze scientific research that produces results that 
obtain high levels of confidence and as such become implemented more 
readily in management.
    The major complaint we hear is that collaborative research results 
are not used in management. The reasons for this may not be as obvious 
as some may believe. It is not simply a question as to whether or not 
the science is good, the review was independent, or the information was 
relevant. There is more to it, and we need to understand it.
    Research done by the Ecosystem Management Initiative of the 
University of Michigan School of Natural Resources and Environment 
examined the need for collaboration for effective ecosystem management. 
The group has also focused on ``what enables people to work together to 
address resource issues, resolve conflicts, and build partnerships.'' 
(http://www.snre.umich.edu/ecomgt/lessons/index.htm)
    The accuracy of natural science research and monitoring results 
(e.g., fisheries assessments) performed without collaboration is 
consistently questioned by fishing industry participants. While 
collaborative projects do not always end with consensus among the 
collaborators, those who participate in these projects have 
opportunities to share information and educate each other. Research 
conducted at the University of New Hampshire has found that 
collaborative research projects have fostered a greater appreciation 
among both fishermen and scientists for each other and the knowledge 
each possesses, as well as the information gained over the course of 
the projects.
    A symposium at the American Fisheries Society Annual Meeting in 
Anchorage, Alaska (September 2005), ``Partnerships for a Common 
Purpose: Cooperative Fisheries Research and Management'', pointed out 
that ``it may be easier to address ecosystem-based management 
priorities with cooperative research because of the diverse skills of 
the many individuals involved and the varied perspectives provided by 
the many stakeholders included in the process.'' (Fisheries, 31:3:132 
(March 2006)
C. Cumulative Social & Economic Impacts
    In working with fishing community participants through our social 
science collaborative research, we have learned that the social science 
needs of fishing communities are not well served by the conventional 
ways of thinking about socio-economic impacts. Socio-economic impacts 
of future actions are difficult to measure, but data can be collected 
and used to scientifically measure the impacts of past management. 
Current law does not require such an historic perspective. Our research 
has found this lack of historic perspective to be a serious problem 
that was noted by every fishing community we studied across the region. 
These effects have been well documented in our reports linked from our 
website, http://www.mass-fish.org/communit.htm. Section 10 of H.R. 5018 
remedies this problem by calling for the analysis of the cumulative 
social and economic impacts of regulations on communities. Analysis of 
the cumulative impacts of past regulations on communities over time 
will greatly improve the Councils' abilities to estimate the impacts of 
options for future actions under consideration. This will also greatly 
improve the Councils' abilities to be more equitable in their decision-
making.
D. Fishing Industry Infrastructures
    Another largely unmet need in fishing communities is the inventory 
and social science analysis of fishing industry infrastructures and 
businesses. This information is not only needed to assist Fishery 
Councils in their decision-making but it is also badly needed by local 
and state governments and planning agencies in making zoning decisions 
and economic development plans. Lacking good social and economic 
information about the fishing business and industry infrastructures 
places communities at a tremendous disadvantage when it comes time to 
gauge impacts and to plan for change. This in turn contributes to fear 
and concerns that make it more difficult for stakeholders to cope and 
participate in the political process. The MFP has found that it is 
effective to combine socio-economic analysis of fisheries regulations 
with helping communities like Gloucester better understand their 
waterfronts and how to make important long-term plans for their ports. 
(http://www.mass-fish.org/press%20releases%20current/gloucester--
study.htm) The City of New Bedford, for example, is preparing to 
develop a new harbor plan and would greatly benefit from a thorough 
inventory and detailed analysis of its fishing industry physical, 
business, and services infrastructures. The funding specifically set 
aside in H.R. 5018's Section 4(d) for socio-economic data collection 
activities is very important and the use of these funds should consider 
how to better understand cumulative impacts of fisheries regulations as 
well as the fishing industry's physical, business, and essential 
services infrastructures.
    It would be far preferable, however, to provide this funding for 
social science data collection to independent research institutions 
separate from the Councils and NOAA Fisheries. Social research 
conducted separately from the Councils will gain quicker confidence and 
cooperation from fishing community participants who will be more 
willing to share confidential information and collaborate with 
independent social scientists.
Diminished Fisheries
    Section 11 ``Diminished Fisheries'' of H.R. 5018 provides a very 
useful new approach to defining overfishing and diminished stocks. The 
substitution of the term ``diminished'' to replace ``overfished'' 
provides latitude to better describe conditions of fish stocks. The 
definition of ``diminished'' ``with respect to a stock of fish, that 
the stock is of a size that is below the natural range of fluctuation 
associated with the production of maximum sustainable yield'' 
represents a solution to a vexing dilemma embedded in current law. 
Current law does not recognize ``natural fluctuation'' in the 
determination of a stock's maximum biomass target and requires that all 
stocks be managed to their maximum levels simultaneously. This defies 
reason and biological reality. It is not good government to enshrine a 
goal in the law that in practice cannot be achieved in the real world. 
Section 11 of H.R. 5018 offers an opportunity to remedy this flaw in 
current law. However, we recommend that the approach contained in this 
definition of ``diminished'' be applied consistently to the definitions 
of ``overfishing'' and of ``acceptable biological catch''.
    We suggest consideration of a definition of ``overfishing'' such as 
``a rate or level of fishing mortality that jeopardizes the capacity of 
a fishery to maintain the stock of fish or a multispecies complex at a 
size that is within the natural range of fluctuation associated with 
production of maximum sustainable yield.'' The intent here is to 
recognize that the abundance of fish stocks fluctuate based upon 
natural factors and the definition of ``overfishing'' be linked to this 
reality.
    Research of the ecosystem structure and function of multispecies 
fisheries can help us better understand natural fluctuations in 
populations of individual species within aggregate multispecies 
complexes. Government scientists have noted that aggregate multispecies 
stocks in new England have been relatively stable over the past century 
while abundance of individual stocks within the complex have fluctuated 
widely. An improved understanding of this aggregate versus individual 
species issue may help managers better assess the benefits and risks of 
designing ecosystem-based management measures.
    Section 11 also provides for the distinction between stocks that 
are diminished ``as a result of fishing'' and stocks that are 
diminished ``as a result of factors other than fishing'' such as poor 
water quality and abnormal water temperatures. This is very important, 
especially in cases where species are not fished at all.
    Section 11 provides for flexibility in the 10-year rebuilding 
timeframe when ``the cause of the fishery decline is outside the 
jurisdiction of the Council or the rebuilding program cannot be 
effective only by limiting fishing activities'' or ``the Secretary 
makes substantial changes to the rebuilding targets.'' We have recently 
seen our rebuilding targets tripled in New England. This in no way 
limits the responsibility to manage fishing mortality, but it enables 
non-fishing factors to be considered.
Harvest Level Caps
    Closely related to the designations of ``diminished'' and 
``overfishing'' are the provisions in Section 3 of H.R. 5018 to direct 
fisheries managers to establish harvest level caps. Various proposals 
on how to approach this matter have been made, but H.R. 5018 proposes a 
compromise with some promise.
    Section 3 calls for ``a mechanism for specifying the total 
allowable catch or another annual catch limit'' that ``does not exceed 
the acceptable biological catch level recommended by the scientific and 
statistical committee of the Councils.''
    Further, the Council must ``adopt a total allowable catch limit or 
other annual harvest effort control limit for each of the fisheries for 
which such a limit can be established, after considering the 
recommendation of the scientific and statistical committee of the 
Council, which shall not exceed the recommendation for the acceptable 
biological catch as recommended by such scientific and statistical 
committee.''
    H.R. 5018 does not, however, define ``acceptable biological 
catch.'' We propose a definition that is consistent with the definition 
already included in Section 11 for ``diminished'' stocks. A suggestion 
could be phrased along the lines as follows: ``Acceptable biological 
catch means an amount of fish that can be harvested that allows a stock 
of fish to remain at or be rebuilt within the allowed period of time to 
a size that is within the natural range of fluctuation associated with 
the production of maximum sustainable yield.''
    The intent is to make it as clear as possible that ``maximum'' is a 
dynamic amount that fluctuates and regulations may allow fishing to 
continue provided the stock will be rebuilt by the specified deadline. 
In some cases, diminished stocks could be rebuilt within the required 
time period even if overfishing is phased out gradually rather than 
ended immediately. If a Council chooses to end overfishing immediately 
when the target could be achieved within the required time period by 
phasing out overfishing, the Council should be required to provide a 
cost/benefit analysis to justify the quicker rebuilding schedule.
Science & Statistical Committees
    The science and statistical committees must be transparent in how 
they operate. Moreover, the science and statistical committees would 
garner greater community confidence if membership included independent 
experts who are not officials or employees of the Federal Government. 
Confidence would also greatly increase if information from 
collaborative research were utilized that has been conducted by high 
quality collaborations that could be verified through social science 
assessments of the research process.
Independent Peer Review
    Independent peer review of scientific information being employed in 
management is another way to increase confidence in the process. 
Reviewers need to be truly independent. Section 5(c) of H.R. 4940 
provides the best language to ensure transparency by specifying that 
reviewers are not all employees of the Federal Government and ``may 
include persons who are employed by the fishing industry.''
    Qualified experts who are truly independent of NOAA to participate 
on the science and statistical committees and the independent peer 
review panels will be difficult to find. To help address this shortage, 
it is necessary for some funding for fisheries and ocean research and 
education to be appropriated separately from NOAA Fisheries. H.R. 4940 
Section 12 would establish a Fishery Science Education Program. Such a 
program would go a long way toward developing the next generation of 
fisheries and oceans researchers to work for NOAA Fisheries and other 
research institutions committed to fisheries and oceans research.
Review of Fishery Regulations in National Marine Sanctuaries
    Section 10(d) of H.R. 5018 addresses a very sensitive ambiguity in 
current law concerning the authority of National Marine Sanctuaries Act 
provisions that permit the regulation of fisheries within the 
boundaries of national marine sanctuaries by the National Marine 
Sanctuaries Program rather than NOAA Fisheries and the Fishery 
Management Councils. This ambiguity has caused a significant amount of 
confusion in New England.
    Some assert that the Stellwagen Bank National Marine Sanctuary must 
be managed to a higher standard than that which is provided for in the 
Magnuson-Stevens Act. The National Marine Sanctuaries Act sets a goal 
of protecting resources while the Magnuson-Stevens Act establishes a 
different goal of achieving sustainable fisheries. H.R. 5018 clarifies 
this issue by plainly stating that any proposed regulation under the 
National Marine Sanctuaries Act concerning fish or fish habitat ``shall 
not take effect unless the Secretary certifies that the proposed 
regulation--(A) meets the national standards under section 301(a); and 
(B) is consistent with other provisions of this Act.'' This language 
makes it clear that the Magnuson-Stevens Act goal of achieving 
sustainable fisheries is the goal that applies to any fisheries 
management actions by any agency in a national marine sanctuary. This 
is an improvement over current law that contains the apparent conflict 
of goals between the two statutes.
    Thank you for the opportunity to testify today.
                                 ______
                                 
    The Chairman. Thank you.

               STATEMENT OF CHRISTOPHER WRIGHT, 
                      CAPTAIN F/V HUNTRESS

    Mr. Wright. Thank you for the opportunity to testify before 
the House Resources Committee, Mr. Chairman. My name is 
Christopher Wright, and I am from Mattapoisett, Massachusetts. 
I appreciate the House Resources Committee concern in the 
rewriting of the Magnuson-Stevens Act and thank you for coming 
to New Bedford to hear our concerns and opinions regarding H.R. 
5018.
    I began working in the scallop industry in 1979, working 
summers to put myself through college until I graduated from 
Massachusetts Maritime Academy in 1983. I started fishing full 
time shortly after graduation.
    I have been captain of the F/V Huntress for the past 19 
years and have witnessed the ups and downs of the scallop 
industry and scallop resource during this time. Currently, the 
scallop resource is rebuilt and overfishing is not occurring. 
We are fishing the resource conservatively, according to a plan 
that allows us to vary our fishing effort up or down depending 
on the condition of the resource.
    This does not mean that scallop management is perfect. 
While we have had some very good fishing years recently, the 
management process needs to improve if we are to achieve 
optimum yield of our scallop resource.
    I have also been involved in cooperative research. I was 
the captain of the first vessel to take the University of 
Massachusetts School of Marine Science and Technology video 
survey crew to sea, and I have participated in these efforts 
annually since 1999. The video survey is designed to survey the 
scallop resource, and it has also been used to provide 
information about habitat and sediment composition. During 
these years, we have surveyed the stock from Georges Bank to 
Virginia.
    The Committee should realize the importance and need for 
the real-time collection and use of scientific information to 
effectively manage a fishery resource. Fishermen need to be 
included in this process. We are working hard at cooperative 
research, and NMFS and the council need to do a better job of 
using the information we collect and the first-hand experience 
we have. This information must be incorporated into the 
management process as quickly as possible. The current practice 
is unacceptable.
    The frustration comes when you know the best scientific 
information available is not being used, and that the council, 
despite its efforts, does not have the flexibility to change 
course gradually when needed. If the data is not used in a 
timely manner, the industry, and ultimately the resources 
suffer.
    An example I would like to bring to the attention of the 
Committee is the situation that occurred in the Hudson Canyon 
scallop access area. As scallops were rebuilding, we started 
with an area management regime. This mean that areas are closed 
or otherwise managed when large sets of small scallops are 
found, so that the scallops can grow out. In the Hudson Canyon, 
stock assessment surveys from NMFS in 2002 and 2003 determined 
how much fishing there was to be in the fishing years of 2004 
and 2005. What appeared to be a sustainable harvest for the 
fishing fleet in 2002 turned out to be a bust for many vessels 
in 2005.
    They were not able to reach their quota of 18,000 pounds 
per trip, because the scallops were actually not plentiful 
enough to be economically viable. NMFS had estimated the 
resource of 15 million pounds. Independent research shows 
approximately 6 million pounds. This was a very large 
discrepancy.
    We knew this was coming. In May of 2005 I took Dr. Kevin 
Stokesbury and the SMAST video survey crew into Hudson Canyon 
to get real-time results. Within 3 days of returning from sea, 
SMAST was able to give a report to the council as to the actual 
condition of the stock in that area which was much lower than 
previously anticipated by NMFS. Even with this information the 
council did not have the flexibility to make adjustments during 
that fishing year. That year many vessels did not harvest all 
of their Hudson Canyon allocation. The industry has been 
working on how to get compensation to these vessels either 
through additional open access days or access area trips.
    This year the Nantucket lightship closed area will be 
opening up for vessels. This situation is different from the 
Hudson Canyon closed area, in part because the area was closed 
for groundfish reasons, not to produce scallops. In the 
Nantucket area, the time to obtain optimum yield from the 
scallops there has past. This area is now known to have a very 
high natural mortality rate since the shell sizes were mostly 
110-180 millimeter shell height, up to 50 percent in the dense 
aggregation in the northeast corner. This total loss is 
equivalent to approximately 15 million pounds of harvestable 
resource worth over $100 million at today's price. Again, the 
scallop industry told the council and NMFS that this was going 
to happen. Since the /council did not have flexibility, or 
ignored the best available science of independent researchers, 
a large portion of our natural resource has been wasted.
    The scallop industry has tried to tackle other important 
conservation issues as well. A few years ago, there was a 
concern about some threatened sea turtles being encountered in 
isolated spots in the mid-Atlantic during the summer months. So 
the industry went to scientists at the Virginia Institute of 
Marine Sciences, and the industry worked with a noted gear 
technologist and we all designed and tested a chain mat that 
could go on the front of the scallop dredge to keep turtles 
out. During experiments, it was 100 percent effective and the 
results were statistically significant. Two years ago, the 
industry asked NMFS to mandate the use of the turtle chains. 
NMFS has refused, even as it faces lawsuits under the 
Endangered Species Act to shut scalloping down over turtles.
    Likewise, we, as an industry, came forward with an idea to 
dedicate part of our total allowable catch in the access areas 
to pay for observers. We did the same thing for cooperative 
scallop research. On observers, the idea was simple, if you 
were picked to have an observer, you got to fish a little more 
so you could pay for the observer. Even though we were able to 
use this approach for several years, government lawyers got 
involved. Two years ago, they said this could not be done, but 
they did nothing to fix the problem. Now Congress has cut back 
observer funding and environmental groups are telling NMFS they 
are going to sue to shut us down for not having enough 
observers.
    If you are going to look at the law, please make sure that 
it is designed to let fishermen come forward with good ideas 
and also that the council and NMFS have the flexibility to take 
advantage of these good ideas. I know that you cannot legislate 
this, but it is also important that the council and NMFS make 
it a priority to use information provided by the fishing 
community.
    Finally, the law needs to preserve a place for fishermen or 
someone representing our industry to remain in the management 
process of the resource. Fishermen and the council have more to 
offer than simply being asked to make allocation decisions 
while the scientists and mathematicians tell us how much we can 
fish.
    Thank you, Mr. Chairman, for allowing me to address my 
concerns to the Committee.
    [The prepared statement of Mr. Wright follows:]

               Statement of Christopher Wright, Captain, 
               F/V Huntress, Isaksen Fishing Corporation

    Thank you for the opportunity to testify before the House Resources 
Committee, Mr. Chairman. My name is Christopher Wright, and I am from 
Mattapoisett, Massachusetts. I appreciate Congressman Pombo's and the 
House Resources Committee's concern in the rewriting of the Magnuson-
Stevens Act and thank them for coming to New Bedford to hear our 
concerns and opinions regarding H.R. 5018.
    I began working in the scallop industry in 1979, working summers to 
put myself through college until I graduated from Massachusetts 
Maritime Academy in 1983. I started fishing full-time shortly after 
graduation.
    I have now been captain of the F/V Huntress for the past 19 years 
and have witnessed the ups and downs of the scallop industry and 
scallop resource during this time. Currently, the scallop resource is 
rebuilt and overfishing is not occurring. We are fishing the resource 
conservatively according to a plan that allows us to vary our fishing 
effort up or down depending on the condition of the resource.
    This does not mean that scallop management is perfect. While we 
have had some very good fishing years recently, the management process 
needs to improve if we are to achieve optimum yield of our scallop 
resource.
    I have also been involved in cooperative research. I was the 
captain of the first vessel to take the University of Massachusetts 
School of Marine Science and Technology (``SMAST'') video survey crew 
to sea, and I have participated in these efforts annually since 1999. 
The video survey is designed to survey the scallop resource, and it has 
also been used to provide information about habitat and sediment 
composition. During these years, we have surveyed the stock from 
Georges Bank to Virginia.
    The Committee should realize the importance and need for the real-
time collection and use of scientific information to effectively manage 
a fishery resource. Fishermen need to be included in this process. We 
are working hard at cooperative research, and NMFS and the Council need 
to do a better job of using the information we collect and the first-
hand experience we have. This information must be incorporated into the 
management process as quickly as possible. The current practice is 
unacceptable.
    The frustration comes when you know the best scientific information 
available is not being used, and that the Council (despite its efforts) 
does not have the flexibility to change course gradually when needed. 
If the data is not used in a timely manner, the industry, and 
ultimately the resources suffer.
    An example I would like to bring to the attention of the Committee 
is the situation that occurred in the Hudson Canyon Scallop Access 
Area. As scallops were rebuilding, we started with an ``area 
management'' regime. This means that areas are closed or otherwise 
managed when large sets of small scallops are found, so that the 
scallops can grow out. In the Hudson Canyon, stock assessment surveys 
from NMFS in 2002 & 2003 determined how much fishing there was to be in 
the fishing years of 2004 & 2005. What appeared to be a sustainable 
harvest for the fishing fleet in 2002 turned out to be a bust for many 
vessels in 2005. They were not able to reach their quota of 18000 
pounds per trip because the scallops were actually not plentiful enough 
to be economically viable. NMFS had estimated the resource at 15 
million lbs. Independent research showed approximately 6 million lbs. 
This was a very large discrepancy.
    We knew this was coming. In May of 2005, I took Dr. Kevin 
Stokesbury and the SMAST video survey crew into Hudson Canyon to get 
real-time results. Within 3 days of returning from sea, SMAST was able 
to give a report to the Council as to the actual condition of the stock 
in that area, which was much lower than previously anticipated by NMFS. 
Yet even with this information the Council did not have the flexibility 
to make adjustments during that fishing year or the following year. 
That year many vessels did not harvest all of their Hudson Canyon 
allocation. Industry has been working on how to get compensation to 
these vessels either thru additional open access days or access area 
trips.
    This year, the Nantucket Lightship Closed Area will be opening up 
for vessels. This situation is different from the Hudson Canyon Closed 
Area, in part because the area was closed for groundfish reasons, not 
to produce scallops. In the Nantucket Area, the time to obtain 
``optimum yield'' from the scallops there has past. This area is now 
known to have a very high natural mortality rate,(since the shell sizes 
were mostly 110-180mm shell height) up to 50% in the dense aggregation 
in the northeast corner. This total loss is equivalent to approximately 
15 million lbs of harvestable resource worth over $100,000,000 at 
today's price. Again, the scallop industry told the Council and NMFS 
that this was going to happen. Since the Council did not have 
flexibility or ignored the best available science of independent 
researchers, a large portion of our natural resource has been wasted.
    The scallop industry has tried to tackle other important 
conservation issues as well. A few years ago, there was a concern about 
some threatened sea turtles being encountered in isolated spots in the 
Mid-Atlantic during the summer months. So industry went to scientists 
at the Virginia Institute of Marine Sciences, and the industry worked 
with a noted gear technologist, and we all designed and tested a chain 
mat that could go on the front of the scallop dredge to keep turtles 
out. During experiments, it was 100% effective, and the results were 
statistically significant. Two years ago, the industry asked NMFS to 
mandate the use of the ``turtle chains.'' NMFS has refused, even as it 
faces lawsuits under the Endangered Species Act to shut scalloping down 
over turtles.
    Likewise, we, as an industry, came forward with an idea to dedicate 
part of our total allowable catch in the access areas to pay for 
observers. (We did the same thing for cooperative scallop research.) On 
observers, the idea was simple--if you were picked to have an observer, 
you got to fish a little more so you could pay for the observer. Even 
though we were able to use this approach for several years, government 
lawyers got involved. Two years ago, they said this could not be done, 
but they did nothing to fix the problem. Now Congress has cut back 
observer funding and environmental groups are telling NMFS they are 
going to sue to shut us down for not having enough observers.
    If you are going to look at the law, please make sure that it is 
designed to let fishermen come forward with good ideas and also that 
the Council and NMFS have the flexibility to take advantage of these 
good ideas. I know that you cannot legislate this, but it is also 
important that the Council and NMFS make it a priority to use 
information provided by the fishing community.
    Finally, the law needs to preserve a place for fishermen or someone 
representing our industry to remain in the management process of the 
resource. Fishermen and the Council have more to offer than simply 
being asked to make allocation decisions while the scientists and 
mathematicians tell us how much we can fish.
    Thank you, Mr. Chairman, for allowing me to address my concerns to 
the Committee.
                                 ______
                                 

STATEMENT OF ANDREW ROSENBERG, PH.D., MEMBER OF U.S. COMMISSION 
  ON OCEAN POLICY, AND PROFESSOR, UNIVERSITY OF NEW HAMPSHIRE

    Mr. Rosenberg. Thank you very much, Mr. Chairman and 
Congressman Frank. Thank you for the opportunity to testify 
before you today concerning fisheries management and the 
reauthorization of the Magnuson-Stevens Act. I'm Andrew 
Rosenberg, Professor of Natural Resources in the Institute for 
the Study of Earth, Oceans and Space at the University of New 
Hampshire and a member of the U.S. Commission on Ocean Policy. 
I was formerly the deputy assistant administrator for fisheries 
at NOAA, regional administrator for NOAA Fisheries, and a 
scientist working at NOAA's Northeast Fisheries Science Center.
    The Oceans Act of 2000 formed the U.S. Commission on Ocean 
Policy and directed us to make recommendations for coordinated 
and comprehensive national ocean policy. The Act set out eight 
specific objectives for the policy paraphrased here: One, 
protection of life and property; two, responsible stewardship 
of ocean and coastal resources; three, protection of the marine 
environment; four, enhancement of marine-related commerce, 
resolution of conflicts among diverse users of the marine 
environment and engagement of the private sector in developing 
approaches to the responsible use of marine resources; five, 
expansion of knowledge of the marine environment and the 
advancement of education in fields related to the ocean and 
coasts; six, development and improvement in technological 
capability for ocean-related activities; seven, cooperation 
among all government agencies to ensure coherent regulations, 
appropriate use of funding, efficient operation of Federal 
agencies and enhancement of partnerships with state and local 
governments and, eight, leadership by the United States in 
ocean and coastal activities.
    I believe the Commission's recommendations truly meet the 
spirit and intent of the Oceans Act.
    Further, I believe that we must immediately begin to make 
changes in U.S. Ocean policy to reverse an alarming, widespread 
degradation in the health of the oceans and coasts, vital 
living marine resources and coastal communities. While this may 
sound dramatic, I believe that our ocean environment is at risk 
and a change of course is needed to reduce that risk.
    U.S. Commission on Ocean Policy and the privately funded 
Pew Oceans Commission identified remarkably similar core 
priorities and made complementary recommendations in a number 
of key areas, including the critical need for fisheries 
management reform. The Joint Ocean Commission Initiative formed 
to continue to pursue implementation of the recommendations 
made in the two Commission reports. I am part of a ten-member 
task force, five from each Commission, that guides the work of 
the joint initiative.
    I have been asked to comment on H.R. 5018 and H.R. 4940, 
bills to amend the Magnuson-Stevens Fishery Conservation and 
Management Act. The Joint Ocean Commission Initiative is 
committed to a set of fundamental principles that are 
articulated in both reports and that should ground all ocean 
policy reform. Many of the principles are reflected in the 
priorities for fishery management and recovery highlighted in 
both Commission reports, including, (1) moving toward 
ecosystem-based management; (2) maintaining and enhancing 
ecosystem services; (3) strengthening the scientific process 
and basing decisions on science; (4) broadening public 
participation; (5) enhancing a stewardship ethic; and (6) 
ensuring adequate funding to support fishery management and 
recovery. The joint initiative believes these concepts must 
guide and be incorporated into meaningful and effective 
fisheries legislation.
    I would like to elaborate on these concepts briefly.
    Ecosystem-based management means managing human activities 
within a large marine ecosystem in concert, rather than 
separately, and considering the cumulative impacts of those 
activities on the functioning of the ecosystem as a whole. The 
perspective is that the natural system sets the bounds for 
management, rather than political boundaries. This is because 
within an ecosystem, effects on one component can logically be 
expected to impact other components. Therefore, as we seek to 
manage across the full range of human activities and mitigate 
their impacts on the natural environment, we need to consider 
the interactions between different management actions. For 
example, coastal development interacts with pollution abatement 
programs and affects the productivity of the coastal ocean in 
salt marshes and near-shore areas. In other words, fishery 
areas affected by more than just fishing and pollution is 
affected by more than just controlling the amount of discharge. 
Because humans are an integral part of the ecosystem, social 
and economic impacts are part of the ecosystem-based management 
perspective.
    Ecosystem-based management does not mean abandoning 
management activities now underway.
    Fishing still needs to be managed to prevent overfishing 
and restore overfished resources, for example. The management 
of the fishery should be linked to the management of other 
sectors to provide a more coherent set of policies. The focus 
for ecosystem-based management should be to maintain the 
function of coastal and marine ecosystems, including both their 
goods and services. We want to maintain the ability to harvest 
fish as goods for the ecosystem, but we want to ensure the 
ecosystem services provided by overall productivity and ocean 
health aren't undermined. In other words, we want to enjoy a 
healthy ocean for many other reasons than just for fishing.
    While we are not suggesting legislatively mandated 
standards for ecosystem-based management, we would like to see 
a strong signal in support of the concept within the language 
of the bill. Reauthorization of the MSFCMA offers an important 
opportunity to introduce ecosystem-based management as a 
central concept, especially with regard to providing a 
framework for improving consistency across government agencies. 
Language in the two Commission reports could be used to strike 
the right balance, and the commissioners stand ready to assist 
you and your staff in any way that would be helpful.
    H.R. 5018 calls for research, but no real management action 
and restricts the focuses to the fisheries sector only. The 
call for research is important as is the development of 
regional pilot programs and recommended by the U.S. Commission 
on Ocean Policy. It would be helpful to ensure that the 
regional pilot programs build upon the recommendations of the 
Commissions, not just the Ecosystem Principles Advisory Panel. 
It is important to note that the advisory panel did not 
consider ecosystem-based management of the marine environment 
broadly, but only within the fisheries sector, and this is a 
serious limitation.
    In addition, some of the proposed revisions in H.R. 5018 
and H.R. 4940, such as changes to requirements to comply with 
the National Environmental Policy Act and coordination with the 
National Marine Sanctuaries Act, would undermine efforts to 
implement coordinated, ecosystem-based management of the marine 
environment. There is no reason to set fisheries apart under 
NEPA, and it would seriously compromise the ability to consider 
the impact of all sectors jointly on marine ecosystems. I do 
not believe there is any streamlining of the process obtained 
by this exemption, but there is the loss of information and 
opportunity for the public to participate in the management 
process. With regard to the management of sanctuaries, the 
provision undermines the ability to consider broader ecosystem 
goals and, again, inappropriately sets fisheries apart from 
other marine-related activities.
    Strengthening the use of independent science in fishery 
management decisions, I want to commend the Committee for the 
inclusion of provisions in H.R. 5018 that requires the 
Secretary to establish a peer-review process to evaluate the 
scientific information used by the councils, mandate the 
Science and Statistical Committees to recommend acceptable 
biological catch levels and requires the regional fishery 
management councils to adopt levels that do not exceed these 
recommended levels. This represents a significant step toward 
one of the key fishery recommendations of the Joint Ocean 
Commission Initiative. It is essential that overfishing be 
prevented as the basis management.
    H.R. 5018 and H.R. 4940 also address the rebuilding 
provisions of the Act, but these changes do not build on the 
progress noted above with regard to preventing overfishing. The 
introduction and usage of the term diminished confuses the 
issue. If fishery productivity is reduced due to factors other 
than fishing, fishing pressure must still be reduced. It is not 
a matter of assigning blame, but of adjusting fishing pressure 
to a level that the resource can sustain. The proposed changes 
also allow for extensions of rebuilding timeframes. This also 
undermines the sound management of the resource. Continue to 
extend the rebuilding timeframe makes it far more difficult to 
rebuild overall, causes even greater economic and social 
impacts and means an ongoing, major loss of resources for the 
nation. The New England groundfish fishery illustrates the 
problems resulting from continued delays in implementing strong 
rebuilding measures.
    In addition, the Joint Ocean Commission Initiative 
recommends that the following areas be addressed. In several 
cases, I am pleased to see that H.R. 5018 and H.R. 4940 cover 
some of these issues. I hope those points that are not 
currently addressed can be taken up by the Committee.
    Fallback Provisions. As an incentive toward timely and 
responsible action to address overfishing and the degradation 
of essential fish habitat, require fallback provisions to be 
implemented when management plans are not developed within a 
required timeframe. In the context of the current proposals, 
there must be some consequence if the catch limit is exceeded, 
other than litigation. Proposals such as deducting overages 
from subsequent year's catches provide such a consequence.
    Dedicated Access Privileges. Authorize fishery managers to 
use dedicated access privileges. Establish national guidelines 
that allow for regional implementation that is consistent with 
those guidelines. H.R. 5018 does allow for dedicated access 
privileges following referendum from the participants. The 
proposal for the inclusion of regional fishery associations 
seems to move in the direction of Alaskan-style cooperatives. I 
view this as a positive direction for many U.S. Fisheries if 
the associations take collective responsibility for adhering to 
the conservation and management needs for a fishery.
    Enforcement. Expand cooperative fisheries enforcement 
programs between Federal and state enforcement entities. The 
programs should clarify the role of the Coast Guard and should 
emphasize joint training, stronger and more consistent 
information sharing and increased use of enforcement technology 
such as vessel monitoring systems. H.R. 5018 promotes the use 
of cooperative enforcement agreements.
    Cooperative Research. Direct NOAA to create an expanded 
regionally based collaborative research program that involves 
the fishing community, Federal, state and academic scientists. 
Research should benefit from linkages to the integrated ocean 
observing system. Funds for such cooperative research projects 
should be awarded on a competitive bases. H.R. 4049 calls for 
provisions in fishery management plans to create cooperative 
research programs. In my view, the programs should not be 
explicitly linked to plans but should be broader based. They 
should be focused on research, not on immediate management 
actions.
    Bycatch Reduction. Bycatch should be addressed to 
continuously ensure the sustainability of fisheries and 
ecosystem services. Bycatch reduction efforts should include 
accounting bycatch in the level of the total allowable catch, 
so that all fishing mortality is included. This then means that 
discarding should be minimized to the maximum extent possible 
to avoid wastage. This vital concern is not addressed in either 
proposed bill, though there is a provision for fostering the 
development of new fishing gear to reduce bycatch in H.R. 5018 
and a provision to allow bycatch to be landed for charitable 
purposes in H.R. 4940. These latter two provisions are not 
sufficient to deal with the major problems of bycatch over and 
above the total allowable catch levels.
    Training. Require training on a variety of topics relevant 
to fishery management for new regional fishery management 
council members and make such training available to 
representatives from interest groups and industries. I am 
pleased to see H.R. 5018 requiring training for new council 
members within 6 months.
    Education. Foster formal and informal education efforts, 
these should include promoting public understanding of ocean 
resource issues, including the importance of conservation 
measures aimed at sustaining fisheries and the linkages between 
human health and the health of oceans. H.R. 4940 creates 
fishery research networks and fisheries science centers of 
excellence. Both are interesting ideas but need to be further 
developed.
    International Leadership. Promote adopting and observance 
of international standards for the sustainable harvest of coral 
reef and other living marine resources.
    The U.S. Commission on Ocean Policy recommended a set of 
guiding principles for National Ocean Policy.
    In particular, I would like to highlight stewardship, 
resources are held in the public trust for all Americans; 
ecosystem-based management, understanding and mitigating the 
cumulative impacts of human activities on the ecosystem as a 
whole; adaptive management, continuously re-evaluating 
management as new information becomes available and making 
adjustments as needed to meet the goals; understandable, clear 
rules, making the rules that govern various activities coherent 
for the public; accountability, to ensure that government and 
the public do what is needed to conserve marine ecosystems; and 
international responsibility, working cooperatively on ocean 
issues and meeting our responsibilities for global ocean 
policy. Using these and the other principles, an overarching 
ocean policy can be articulated for the nation.
    Mr. Chairman and members of the Committee, thank you for 
the opportunity to testify today. I would be pleased to discuss 
these and other matters with you further at your discretion. 
The Joint Ocean Commission Initiative is available to work with 
you and your staff as you continue to move forward with this 
important legislation.
    [The prepared statement of Mr. Rosenberg follows:]

  Statement of Andrew A. Rosenberg, Ph.D., Member, U.S. Commission on 
        Ocean Policy, and Professor, University of New Hampshire

    Mr. Chairman and members of the Committee: Thank you for the 
opportunity to testify before you today concerning fisheries 
management. I am Andrew Rosenberg, Professor of Natural Resources in 
the Institute for the Study of Earth, Oceans and Space at the 
University of New Hampshire and a member of the U.S. Commission on 
Ocean Policy. I was formerly the Deputy Assistant Administrator for 
Fisheries at NOAA, a Regional Administrator for NOAA Fisheries, and a 
scientist working at NOAA's Northeast Fisheries Science Center.
    The Oceans Act of 2000 formed the U.S. Commission on Ocean Policy 
and directed us to ``make recommendations for coordinated and 
comprehensive national ocean policy...'' The Act set out eight specific 
objectives for this policy paraphrased here:
    1.  protection of life and property;
    2.  responsible stewardship of ocean and coastal resources;
    3.  protection of the marine environment;
    4.  enhancement of marine-related commerce, resolution of conflicts 
among diverse users of the marine environment and engagement of the 
private sector in developing approaches to the responsible use of 
marine resources;
    5.  expansion of knowledge of the marine environment and the 
advancement of education in fields related to the ocean and coasts;
    6.  development and improvement in technological capability for 
ocean related activities;
    7.  cooperation among all government agencies to ensure coherent 
regulations, appropriate use of funding, efficient operation of federal 
agencies, and enhancement of partnerships with state and local 
governments; and
    8.  leadership by the United States in ocean and coastal 
activities.
    I believe the Commission's recommendations truly meet the spirit 
and intent of the Oceans Act. Further, I believe that we must 
immediately begin to make changes in U.S. ocean policy to reverse an 
alarming, widespread degradation in the health of the oceans and 
coasts, vital living marine resources, and coastal communities. While 
this may sound dramatic, I believe that our ocean environment is at 
risk and a change of course is needed to reduce that risk.
    U.S. Commission on Ocean Policy and the privately-funded Pew Oceans 
Commission identified remarkably similar core priorities and made 
complementary recommendations in a number of key areas--including the 
critical need for fisheries management reform. The Joint Ocean 
Commission Initiative formed to continue to pursue implementation of 
the recommendations made in the two Commission reports. I am part of a 
ten-member Task Force (five from each Commission) that guides the work 
of the Joint Initiative.
    I have been asked to comment on H.R. 5018 and H.R. 4940, bills to 
amend the Magnuson-Stevens Fishery Conservation and Management Act. The 
Joint Ocean Commission Initiative is committed to a set of fundamental 
principles that are articulated in both reports and that should ground 
all ocean policy reform. Many of these principles are reflected in the 
priorities for fishery management and recovery highlighted in both 
Commission reports, including: (1) moving toward ecosystem-based 
management, (2) maintaining and enhancing ecosystem services, (3) 
strengthening the scientific process and basing decisions on science, 
(4) broadening public participation, (5) enhancing a stewardship ethic, 
and (6) ensuring adequate funding to support fishery management and 
recovery. The Joint Initiative believes these concepts must guide and 
be incorporated into meaningful and effective fisheries legislation. I 
would like to elaborate on these concepts briefly.
Moving toward ecosystem-based management.
    Ecosystem-based management means managing human activities within a 
large marine ecosystem in concert, rather than separately, and 
considering the cumulative impacts of those activities on the 
functioning of the ecosystem as a whole. The perspective is that the 
natural system sets the bounds for management, rather than political 
boundaries. This is because within an ecosystem, effects on one 
component can logically be expected to impact other components. 
Therefore, as we seek to manage across the full range of human 
activities and mitigate their impacts on the natural environment, we 
need to consider the interactions between different management actions. 
For example, coastal development interacts with pollution abatement 
programs and affects the productivity of the coastal ocean in salt 
marshes and nearshore areas. In other words, fisheries are affected by 
more than just fishing and pollution is affected by more than just 
controlling the amount of discharge. Because humans are an integral 
part of the ecosystem, social and economic impacts are part of the 
ecosystem-based management perspective.
    Ecosystem-based management does not mean abandoning management 
activities now underway. Fishing still needs to be managed to prevent 
overfishing and restore overfished resources for example. But the 
management of the fishery should be linked to the management of other 
sectors to provide a more coherent set of policies. The focus for 
ecosystem-based management should be to maintain the function of 
coastal and marine ecosystems including both their goods and services. 
We want to maintain the ability to harvest fish as goods from the 
ecosystem, but we want to ensure the ecosystem services provided by 
overall productivity and ocean health aren't undermined. In other 
words, we want to enjoy a healthy ocean for many other reasons than 
just for fishing.
    While we are not suggesting legislatively mandated standards for 
ecosystem-based management, we would like to see a strong signal in 
support of the concept within the language of the bill. Reauthorization 
of the MSFCMA offers an important opportunity to introduce ecosystem-
based management as a central concept, especially with regard to 
providing a framework for improving consistency across government 
agencies. Language in the two Commission reports could be used to 
strike the right balance, and the Commissioners stand ready to assist 
you and your staff in any way that would be helpful.
    H.R. 5018 calls for research, but no real management action and 
restricts the focus to the fisheries sector only. The call for research 
is important, as is the development of regional pilot programs as 
recommended by the U.S. Commission on Ocean Policy. It would be helpful 
to ensure that the regional pilot programs build upon the 
recommendations of the Commissions not just the Ecosystem Principles 
Advisory Panel. It is important to note that the Advisory Panel did not 
consider ecosystem-based management of the marine environment broadly, 
but only within the fisheries sector, and this is a serious limitation.
    In addition, some of the proposed revisions in H.R. 5018 and H.R. 
4940, such as changes to requirements to comply with the National 
Environmental Policy Act and coordination with the National Marine 
Sanctuaries Act would undermine efforts to implement coordinated, 
ecosystem-based management of the marine environment. There is no 
reason to set fisheries apart under NEPA and it would seriously 
compromise the ability to consider the impacts of all sectors jointly 
on marine ecosystems. I do not believe there is any streamlining of the 
process obtained by this exemption, but there is the loss of 
information and opportunity for the public to participate in the 
management process. With regard to the management of Sanctuaries, the 
provision undermines the ability to consider broader ecosystem goals 
and again inappropriately sets fisheries apart from other marine 
related activities.
    Strengthening the use of independent science in fishery management 
decisions. I want to commend the Committee for the inclusion of 
provisions in H.R. 5018 that requires the Secretary to establish a peer 
review process to evaluate the scientific information used by the 
Councils, mandate the Science and Statistical Committees (SSCs) to 
recommend acceptable biological catch levels and requires the Regional 
Fishery Management Councils to adopt levels that do not exceed these 
recommended levels. This represents a significant step towards one of 
the key fishery recommendations of the Joint Ocean Commission 
Initiative. It is essential that overfishing be prevented as the basis 
management.
    H.R. 5018 and H.R. 4940 also address the rebuilding provisions of 
the Act but these changes to not build on the progress noted above with 
regard to preventing overfishing. The introduction and usage of the 
term ``diminished'' confuses the issue. If fishery productivity is 
reduced due to factors other than fishing, fishing pressure must still 
be reduced. It is not a matter of assigning blame, but of adjusting 
fishing pressure to a level that the resource can sustain. The proposed 
changes also allow for extensions of rebuilding timeframes. This also 
undermines the sound management of the resource. Continuing to extend 
the rebuilding timeframe makes it far more difficult to rebuild 
overall, causes even greater economic and social impacts and means an 
ongoing, major loss of resources for the Nation. The New England 
groundfish fishery illustrates the problems resulting from continued 
delays in implementing strong rebuilding measures.
    In addition, the Joint Ocean Commission Initiative recommends that 
the following areas be addressed. In several cases, I am pleased to see 
that H.R. 5018 and H.R. 4940 cover some of these issues. I hope those 
points that are not currently addressed can be taken up by the 
Committee:
    <bullet>  Fallback Provisions. As an incentive toward timely and 
responsible action to address overfishing and the degradation of 
essential fish habitat, require fallback provisions to be implemented 
when management plans are not developed within a required time frame. 
In the context of the current proposals, there must be some consequence 
if the catch limit is exceeded, other than litigation. Proposals such 
as deducting overages from subsequent year's catches provide such a 
consequence.
    <bullet>  Dedicated Access Privileges. Authorize fishery managers 
to use dedicated access privileges. Establish national guidelines that 
allow for regional implementation that is consistent with those 
guidelines. H.R. 5018 does allow for dedicated access privileges 
following a referendum from the participants. The proposal for the 
inclusion of regional fishery associations seems to move in the 
direction of Alaska style cooperatives. I view this as a positive 
direction for many U.S. fisheries if the associations take collective 
responsibility for adhering to the conservation and management needs 
for a fishery.
    <bullet>  Enforcement. Expand cooperative fisheries enforcement 
programs between federal and state enforcement entities. The programs 
should clarify the role of the Coast Guard and should emphasize joint 
training, stronger and more consistent information sharing, and 
increased use of enforcement technology such as Vessel Monitoring 
Systems. H.R. 5018 promotes the use of cooperative enforcement 
agreements.
    Cooperative Research. Direct NOAA to create an expanded, 
regionally-based collaborative research program that involves the 
fishing community and federal, state, and academic scientists. Research 
should benefit from linkages to the Integrated Ocean Observing System. 
Funds for such cooperative research projects should be awarded on a 
competitive basis. H.R. 4049 calls for provisions in fishery management 
plans to create cooperative research programs. In my view, the programs 
should not be explicitly linked to plans but should be broader based. 
They should be focused on research, not on immediate management 
actions.
    <bullet>  Bycatch Reduction. Bycatch should be addressed 
continuously to ensure the sustainability of fisheries and ecosystem 
services. Bycatch reduction efforts should include accounting for 
bycatch in the level of the Total Allowable Catch for that all fishing 
mortality is included. This then means that discarding should be 
minimized to the maximum extent possible to avoid wastage. This vital 
concern is not addressed in either proposed bill though there is a 
provision for fostering the development of new fishing gear to reduce 
bycatch in H.R. 5018 and a provision to allow bycatch to be landed for 
charitable purposes in H.R. 4940. These latter two provisions are not 
sufficient to deal with the major problems of bycatch over and above 
the total allowable catch levels.
    <bullet>  Training. Require training on a variety of topics 
relevant to fishery management for new Regional Fishery Management 
Council members and make such training available to representatives 
from interest groups and industries. I am pleased to see H.R. 5018 
requiring training for new council members within six months.
    <bullet>  Education. Foster formal and informal education efforts. 
These should include promoting public understanding of ocean resources 
issues, including the importance of conservation measures aimed at 
sustaining fisheries and the linkages between human health and the 
health of oceans. H.R. 4940 creates Fishery Research Networks and 
Fisheries Science Centers of Excellence. Both are interesting ideas but 
need to be further developed.
    <bullet>  International Leadership. Promote adoption and observance 
of international standards for the sustainable harvest of coral reef 
and other living marine resources.
    The U.S. Commission on Ocean Policy recommended a set of guiding 
principles for national ocean policy. In particular, I would like to 
highlight: stewardship, resources are held in the public trust for all 
Americans; ecosystem-based management, understanding and mitigating the 
cumulative impacts of human activities on the ecosystem as a whole; 
adaptive management, continuously re-evaluating management as new 
information becomes available and making adjustments as needed to meet 
the goals; understandable, clear rules, making the rules that govern 
various activities coherent for the public; accountability, to ensure 
that government and the public do what is needed to conserve marine 
ecosystems; and international responsibility, working cooperatively on 
ocean issues and meeting our responsibilities for global ocean policy. 
Using these and the other principles an overarching ocean policy can be 
articulated for the nation.
    Mr. Chairman and members of the Committee, thank you for the 
opportunity to testify today. I would be pleased to discuss these and 
other matters with you further at your discretion. The Joint Ocean 
Commission Initiative is available to work with you and your staff as 
you continue to move forward with this important legislation.
                                 ______
                                 
    The Chairman. Thank you.

 STATEMENT OF BRIAN ROTHSCHILD, POLICY ADVISOR TO THE MAYOR OF 
    NEW BEDFORD; DEAN FOR THE SCHOOL FOR MARINE SCIENCE AND 
       TECHNOLOGY, UNIVERSITY OF MASSACHUSETTS-DARTMOUTH

    Mr. Rothschild. Thank you. My name is Brian Rothschild. I'm 
the policy advisor to the Mayor of New Bedford and also Dean 
for the School for Marine Science and Technology at the 
University of Massachusetts-Dartmouth. I have been active in 
fisheries science and management for over 50 years, and I have 
worked on fisheries problems in the Central Pacific, North 
Pacific and Alaska, Gulf of Mexico, the North Atlantic and the 
Chesapeake Bay. I was Deputy Director of the Northwest and 
Alaska Fisheries Center, Director of the Southwest Fisheries 
Center and Director of the Office of Policy and Planning in 
NMFS. I was responsible for the national implementation of the 
Magnuson-Stevens Act, reporting directly to NOAA's first 
administrator, Robert White. I am the author, or editor, of 
eight books on fisheries and oceanography and the author of 
about ninety scientific publications.
    Federal fisheries management under extended jurisdiction 
has been with us since 1976. There have been many successes. At 
the same time, there have been recurrent problems. I believe 
the Pombo bill takes the recurrent problems into account and 
provides reasonable solutions. The bill strengthens fishery 
management by allowing more flexibility to managers and 
suppressing scientifically unsupported assertions in the 
language of the existing statute. Mr. Pombo and Mr. Frank have 
to be congratulated.
    Not everyone will share my view. Fisheries management 
continues to reflect a struggle in ideologies and values. On 
one hand, there are those who feel that the amendments offered 
by Mr. Frank and Mr. Pombo water down the directives of the 
Magnuson-Stevens Act. On the other hand, there are those that 
feel the economic and social fabric of fishing communities is 
more important. Curiously, both sides generally agree that the 
conservation of the fish stocks is paramount.
    At its outset, the initiation of good public policy 
dictates that legislation should be based on the facts. If 
legislation is based on faulty or difficult to define premises, 
then implementation of the legislation is constrained to be 
arbitrary and lack social good. If we focus on reasonable 
scientifically acceptable premises, then implementation of the 
legislation is constrained to be arbitrary and lack social 
good. If we focus on reasonable scientifically adaptable 
premises, then we can apply genuine effort to increasing our 
knowledge so that we can make better decisions.
    Some of the great unknowns include the causes of fish stock 
fluctuations. The causes of fish stock fluctuations are very 
complex. It isn't true that every decline in a stock is caused 
by overfishing and every increase in stock abundance is a 
management success. Because time series of stock abundance are 
so short, we generally do not know whether an observed decline 
is truly a decline or simply a return to the stock's normal 
level of abundance. We do not know whether some environmental 
factor, such as temperature of the management of some 
associated species, has affected stock abundance. Our lack of 
understanding of stock fluctuation leads us to the unsupported 
assertion that if we just stop fishing, the stock will increase 
and that the trajectory of this increase is well known. This is 
related to the assumption used in management in New England, 
which is, that if we just reduced fishing that all stocks can 
be brought to their historical maximum simultaneously, a notion 
not supported by ecological theory.
    Fishery managers often assume that habitat is the bottom, 
but most scientists would agree that the most important habitat 
controlling stock abundance is not the bottom but the water 
column. We have in New England one of the most significant 
habitat experiments in the world, where 30 percent of Georges 
Bank has been closed, concentrating fishing into 60 percent of 
its former area, yet we do not know the effect of this grand 
experiment.
    Focusing on the issue in more detail, our preoccupation 
with preventing overfishing is curious. One would think that a 
concept that is deemed to be so important would have a unique 
and unambiguous scientific definition. This is not the case. 
There are multiple definitions. For example, growth overfishing 
has little conservation impact, while stock overfishing has a 
significant conservation impact. The problem is growth 
overfishing can be determined immediately, but stock 
overfishing requires an examination of a long-time series of 
data that may not be available. In any event, it is difficult 
to determine whether a contemporaneous data point represents or 
does not represent overfishing.
    Just to exemplify the difficulty, consider a common 
overfishing definition: ``A fishery is overfished if is at or 
below a level that jeopardized the capacity of the fishery to 
produce maximum sustained yield on a continuing basis.'' What 
does ``maximum sustained yield on a continuing basis'' supposed 
to mean? What is the difference between continuing and 
sustained? What is jeopardized supposed to mean? How do we tell 
whether the stock is at or below a particular level? Is this 
based on a single year of observation, 5 years or 10 years?
    All of the observations made above are very well known to 
the scientific community. While we have acquired tremendous 
amount of information on fish stocks, their response to the 
environment and fishing, the areas identified above relate to 
substantial gaps in knowledge.
    When these issues of ignorance are raised, we are often 
given the pat answer that a lack of knowledge should not be 
taken as an excuse not to make a decision. This is generally 
true. On the other hand, a lack of knowledge should not be 
taken to mean that we should take the most conservative or 
precautionary approach. It is not rational to take the most 
conservative approach. A classic problem in decision theory 
involves a starving individual who needs to cross a very busy 
street to reach a restaurant. The risk-prone individual closes 
his eyes and runs across the street and is killed by speeding 
traffic. The risk-adverse individual never crosses the street 
being afraid of the traffic. This individual eventually starves 
to death. The rational person, the risk-neutral person, will 
look both ways, safely cross the street, get something to eat, 
and live a long and happy life.
    When we are in the area of the unknown, which we are in 
many aspects of fishery management, we have to rely more on the 
judgment of individuals than on naked mathematical models. It 
was, in fact, the intent of Congress in the mid-1970s that the 
judgment of knowledgeable individuals would be used to make 
management decisions guided by the national standards of the 
FCMA. At that time computers and computer techniques were not 
nearly as available as they are now. As the computer became 
more and more available, councils have relied more and more on 
computer output to make decisions. However, understanding and 
knowledge have not increased proportionately, so the 
information content, and as a consequence, the utility of 
decisions have not improved.
    As I said above, I like the Pombo bill because it provides 
more flexibility to managers. It implicitly recognizes the 
imperfection of scientific data and allocates more 
decisionmaking accountability to managers, requiring them at 
the same time to take account of scientific findings.
    I visualize some adjustments and technical corrections. I 
would like to see a better system of checks and balances in 
fisheries management. At the present time, the checks and 
balances involve litigation and these are often constraints to 
process, making it difficult to deal with matters of 
significant substance. The checks and balances that are 
implicit in the amendment involve peer reviews at several 
levels. However, the peer-review process places the 
accountability system in the hands of individuals who are 
really not accountable. The present mechanism is further faulty 
because public input is perfunctory. This is because even small 
adjustments to fishery management regulations may be associated 
with thousands of pages of highly technical documentation that 
even a trained individual cannot easily grasp. To rectify the 
lack of checks and balances in the fishery management system 
and to rectify shortfalls and problems in implementation, I 
recommend we create an agency, possibly within NOAA, to serve 
as an independent ombudsman, to oversee and to make 
recommendations on contentious and strategic issues relevant to 
fisheries management. Such an arrangement could be modeled 
after the interrelationship between the Federal Aviation Agency 
and the National Transportation Safety Board. In fact, the 
issue of organization needs to be taken further, never having 
been addressed since the advent of the FCMA in 1976. The agency 
needs to organize into, one, a regulatory entity, and two, a 
research and data acquisition and archiving entity.
    Strengthening aspects of the Pombo bill would parallel 
these institutional changes. For example, there needs to be an 
adequately funded, centrally maintained national center for 
fishery data. Research activities, such as defining ecosystem 
management; deriving a better understanding of ocean-fish 
interactions and the cause of fish stock fluctuations; and gear 
research, require massive support if they are to contribute in 
a feasible way to improving fishery management. The Act should 
require major planning studies for each of these areas. The Act 
should require a plan for a new organizational focus within 
NMFS that gives NMFS the capability to better discharge the 
mandate that it has been given by Congress. It is generally 
agreed that well-trained individuals are not available to 
support the needs of fishery management, and it is for that 
reason that Mr. Frank's amendments on education are important.
    Increased flexibility and an oversight agency will 
certainly contribute to improving fishery management.
    [The prepared statement of Mr. Rothschild follows:]

 Statement of Brian J. Rothschild, Policy Advisor to the Mayor of New 
Bedford, and Dean, School for Marine Science and Technology, University 
                       of Massachusetts Dartmouth

    My name is Brian J. Rothschild. I am the Policy Advisor to the 
Mayor of New Bedford and the Dean of the School for Marine Science and 
Technology. I have been active in fisheries science and management for 
over fifty years; and I have worked on fisheries problems in the 
Central Pacific, North Pacific and Alaska; Gulf of Mexico, the North 
Atlantic, and the Chesapeake Bay. I was Deputy Director of the 
Northwest and Alaska Fisheries Center, Director of the Southwest 
Fisheries Center, and Director of the Office of Policy and Planning in 
NMFS. I was responsible for the National implementation of the 
Magnuson-Stevens Act, reporting directly to NOAA's first Administrator, 
Robert M. White. I am the author or editor of eight books on fisheries 
and oceanography, and the author of about ninety scientific 
publications.
    Federal Fisheries Management under extended jurisdiction has been 
with us since 1976. There have been many successes. At the same time, 
there have been recurrent problems. I believe that the Pombo Bill takes 
the recurrent problems into account and provides reasonable solutions. 
The Bill strengthens fishery management by allowing more flexibility to 
managers and suppressing scientifically unsupported assertions in the 
language of the existing statute. Mr. Pombo and Mr. Frank have to be 
congratulated.
    Not everyone will share my view. Fisheries management continues to 
reflect a struggle in ideologies and values. On one hand, there are 
those who feel that the amendments offered by Mr. Frank and Mr. Pombo 
water down the directives of the Magnuson-Stevens Act. On the other 
hand, there are those that feel the economic and social fabric of 
fishing communities is more important. Curiously, both sides generally 
agree that the conservation of the fish stocks is paramount.
    At its outset, the initiation of good public policy dictates that 
legislation should be based on the facts. If legislation is based on 
faulty or difficult to define premises, then implementation of the 
legislation is constrained to be arbitrary and lack social good. If we 
focus on reasonable scientifically acceptable premises, then we can 
apply genuine effort to increasing our knowledge so that we can make 
better decisions.
    Some of the great unknowns include the causes of fish stock 
fluctuations. The causes of fish stock fluctuations are very complex. 
It isn't true that every decline in a stock is caused by overfishing 
and every increase in stock abundance is a management success. Because 
time series of stock abundance are so short, we generally do not know 
whether an observed decline is truly a decline or simply a return to 
the stock's normal level of abundance. We do not know whether some 
environmental factor such as temperature or the management of some 
associated species has affected stock abundance. Our lack of 
understanding of stock fluctuations leads us to the unsupported 
assertion that if we just stop fishing, the stock will increase and 
that the trajectory of this increase is well known. This is related to 
the assumption used in management in New England, which is that if we 
just reduced fishing that all stocks can be brought to their historical 
maximum simultaneously--a notion not supported by ecological theory.
    Fishery managers often assume that habitat is the bottom, but most 
scientists would agree that the most important habitat controlling 
stock abundance is not the bottom but the water column. We have in New 
England one of the most significant habitat experiments in the world, 
where 30 percent of Georges Bank has been closed, concentrating fishing 
into 60 percent of its former area, yet we do not know the effect of 
this grand experiment.
    Focusing on the issue in more detail, our preoccupation with 
preventing overfishing is curious. One would think that a concept that 
is deemed to be so important would have a unique and unambiguous 
scientific definition. This is not the case. There are multiple 
definitions. For example, growth overfishing has little conservation 
impact, while stock overfishing has a significant conservation impact. 
The problem is growth overfishing can be determined immediately, but 
stock overfishing requires an examination of a long time series of data 
that may not be available; and in any event, it is difficult to 
determine whether a contemporaneous data point represents or does not 
represent overfishing.
    Just to exemplify the difficulty, consider a common overfishing 
definition: ``a fishery is overfished if it is at or below a level that 
jeopardized the capacity of the fishery to produce maximum sustained 
yield on a continuing basis. What is ``maximum sustained yield on a 
continuing basis'' supposed to mean? What is the difference between 
continuing and sustained? What is jeopardized supposed to mean? How do 
we tell whether the stock is at or below a particular level? Is this 
based on a single year of observations, five years, or ten years?
    All of these observations made above are very well known to the 
scientific community. While we have acquired a tremendous amount of 
information on fish stocks, their response to the environment and 
fishing, the areas identified above relate to substantial gaps in 
knowledge.
    When these issues of ignorance are raised, we are often given the 
pat answer that a lack of knowledge should not be taken as an excuse 
not to make a decision. This is generally true. On the other hand, a 
lack of knowledge should not be taken to mean that we should take the 
most conservative or precautionary approach. It is not rational to take 
the most conservative approach. A classic problem in decision theory 
involves a starving individual who needs to cross a very busy street to 
reach a restaurant. The risk-prone individual closes his eyes and runs 
across the street and is killed by speeding traffic. The risk-adverse 
individual never crosses the street being afraid of the traffic; this 
individual eventually starves to death. The rational person, the risk-
neutral person, will look both ways, safely cross the street, get 
something to eat, and live a long and happy life.
    When we are in the area of the unknown, which we are in many 
aspects of fishery management, we have to rely more on the judgment of 
individuals than on naked mathematical models. It was, in fact, the 
intent of Congress in the mid-1970s that the judgment of knowledgeable 
individuals would be used to make management decisions guided by the 
National Standards of the FCMA. At that time, computers and computer 
techniques were not nearly as available as they are now. As the 
computer became more and more available, councils have relied more and 
more on computer output to make decisions. However, understanding and 
knowledge have not increased proportionately, so the information 
content, and as a consequence the utility of decisions, have not 
improved.
    As I said above, I like the Pombo Bill because it provides more 
flexibility to managers. It implicitly recognizes the imperfection of 
scientific data and allocates more decision-making accountability to 
managers, requiring them at the same time to take account of scientific 
findings.
    I visualize some adjustments and technical corrections.
    I would like to see a better system of checks-and-balances in 
fisheries management. At the present time, the checks-and-balances 
involve litigation; and these are often constrained to process, making 
it difficult to deal with matters of significant substance. The checks-
and-balances that are implicit in the amendment involve peer reviews at 
several levels. However, the peer-review process places the 
accountability system in the hands of individuals who are really not 
accountable. The present mechanism is further faulty because public 
input is perfunctory. This is because even small adjustments to fishery 
management regulations may be associated with thousands of pages of 
highly technical documentation that even a trained individual cannot 
easily grasp. To rectify the lack of checks-and-balances in the fishery 
management system and to rectify shortfalls and problems in 
implementation, I recommend we create an agency, possibly within NOAA, 
to serve as an independent ombudsman, to oversee and to make 
recommendations on contentious and strategic issues relevant to 
fisheries management. Such an arrangement could be modeled after the 
interrelationship between the Federal Aviation Agency and the National 
Transportation Safety Board. In fact, the issue of organization needs 
to be taken further, never having been addressed since the advent of 
the FCMA in 1976. The agency needs to organize into 1) a regulatory 
entity, and 2) a research and data acquisition and archiving entity.
    Strengthening aspects of the Pombo Bill would parallel these 
institutional changes. For example, there needs to be an adequately 
funded, centrally maintained national center for fishery data. Research 
activities, such as defining ecosystem management; deriving a better 
understanding of ocean-fish interactions and the cause of fish stock 
fluctuations; and gear research, require massive support if they are to 
contribute in a feasible way to improving fishery management. The Act 
should require major planning studies for each of these areas. The Act 
should require a plan for a new organizational focus within NMFS that 
gives the NMFS the capability to better discharge the mandate that it 
has been given by Congress. It is generally agreed that well-trained 
individuals are not available to support the needs of fishery 
management, and it is for this reason that Mr. Frank's amendments on 
education are important.
    Increased flexibility and an oversight agency will certainly 
contribute to improving fishery management.
    I thank the committee for giving me the opportunity to share my 
views with you.
                                 ______
                                 

   STATEMENT OF JACKIE ODELL, EXECUTIVE DIRECTOR, NORTHEAST 
                       SEAFOOD COALITION

    Ms. Odell. Good morning, Chairman Pombo and Representatives 
Frank and Young. Thank you for inviting me to testify at 
today's hearing on this important legislation you have 
introduced to reauthorize the Magnuson-Stevens Fishery 
Conservation and Management Act.
    My name is Jackie Odell. I am the Executive Director of the 
Northeast Seafood Coalition, the largest fishing industry 
organization in New England that represents commercial 
groundfish fishermen from all the predominate gear sectors and 
vessel sizes, as well as many shoreside businesses. Our members 
are family owned and operate small businesses that really 
depend upon the health and longevity of groundfish stocks. 
These fishermen and their many generations of forefathers have 
been central to the social and economic fabric of New England 
communities for over four centuries.
    The Northeast Seafood Coalition strongly supports this 
legislation. In particular, we greatly appreciate the inclusion 
of a critical component of fisheries management, rebuilding 
flexibility.
    As we have experienced in New England, the Northeast 
multispecies fishery, otherwise known as the groundfish 
fishery, is among the most complex and dynamic in our nation. 
This is due to the extraordinary nature of the Gulf of Maine 
and Georges Bank ecosystems, the unknown and often 
unpredictable interactions between stocks within the groundfish 
complex as well as with other fish stocks, and the lack of in-
depth scientific understanding. Such complexity has led to 
scientific stock assessments and projections that have been 
wildly volatile and, at times, grossly unreliable for any 
number of the 19 stocks that comprise this fishery. We realize 
such scientific uncertainty may not exist in other fisheries 
throughout the United States, but this has been an extremely 
difficult reality of the groundfish fishery in the Northeast. 
Our fishery managers must be provided with the maximum degree 
of flexibility to deal with such complexity and scientific 
uncertainty in developing rebuilding plans that are both 
practical and effective for these stocks. We think your bill 
will both improve our science and preserve this needed 
flexibility.
    Amendment 13 to the Northeast Multispecies Fishery 
Management Plan, whose foundation is based upon a plan put 
forward by the Northeast Seafood Coalition, incorporates a 
combination of phased and adaptive fishing mortality rates. 
This rebuilding strategy, which contains the phasing down of 
fishing mortality rates, was a strategy recommended by National 
Marine Fisheries Services, Northeast Fisheries Science Center 
and was later approved by a Federal court of law. This strategy 
was necessary in order to achieve both the rebuilding 
objectives of the plan and the fundamental Magnuson-Stevens Act 
objectives to minimize adverse social and economic impacts 
associated with the rebuilding. Unlike H.R. 5051 introduced by 
Congressman Gilchrist, the legislation before us not only 
preserves but would also enhance the flexibility that was 
needed to implement this plan.
    The Northeast Seafood Coalition strongly believes that 
fishery managers need to be equipped with as many tools as 
possible to end overfishing and rebuild fish stocks. This 
legislation clearly accounts for the profound complexities and 
realities associated with our groundfish fisheries. The 
legislation does not hinder the tools afforded to managers, and 
it ignores the lofty and rather idealistic management theories 
proposed in other legislation that are not based in the real 
world of fisheries management.
    The Northeast Seafood Coalition is firmly committed to the 
sustainable conservation of our fishery resources and the need 
to rebuild overfished stocks. Our work has been dedicated to 
crafting innovative management solutions to the unique 
challenges our fisheries present. All our solutions have been 
mindful of the law and are considerate of the need to balance 
conservation goals with the needs of fishing communities.
    Thank you again for this opportunity to share our views in 
support of this legislation. The Northeast Seafood Coalition 
looks forward to submitting a more comprehensive statement on 
many aspects in the legislation. I would be happy to answer any 
questions you might have.
    [The prepared statement of Ms. Odell follows:]

            Statement of Jackie Odell, Executive Director, 
                      Northeast Seafood Coalition

    Good morning Chairman Pombo and Representatives Frank and Young. 
Thank you for inviting me to testify at today's hearing on this 
important legislation you have introduced to reauthorize the Magnuson-
Stevens Fishery Conservation and Management Act.
    My name is Jackie Odell. I am the Executive Director of the 
Northeast Seafood Coalition (NSC), the largest fishing industry 
organization in New England that represents commercial groundfish 
fishermen from all of the predominate gear sectors and vessel sizes, as 
well as many shore-side businesses. Our members are family-owned and 
operated small businesses that rely upon the health and longevity of 
groundfish stocks. These fishermen and their many generations of 
forefathers have been central to the social and economic fabric of New 
England communities for over four centuries.
    The Northeast Seafood Coalition strongly supports this legislation. 
In particular, we greatly appreciate the inclusion of a critical 
component of fisheries management; rebuilding flexibility.
    As we have experienced in New England, the northeast multispecies 
fishery, otherwise known as the groundfish fishery, is among the most 
complex and dynamic in our nation. This is due to the extraordinary 
nature of the Gulf of Maine and Georges Bank ecosystems, the unknown 
and often unpredictable interactions between stocks within the 
groundfish complex as well as with other fish stocks, and the lack of 
in-depth scientific understanding. Such complexity has led to 
scientific stock assessments and projections that have been wildly 
volatile and, at times, grossly unreliable for any number of the 19 
stocks that comprise this fishery. We realize such scientific 
uncertainty may not exist in other fisheries throughout the United 
States but this has been an extremely difficult reality of the 
groundfish fishery in the northeast. Our fishery managers must be 
provided with the maximum degree of flexibility to deal with such 
complexity and scientific uncertainty in developing rebuilding plans 
that are both practical and effective for these stocks. We think your 
bill will both improve our science and preserve this needed 
flexibility.
    Amendment 13 to the Northeast Multispecies Fishery Management Plan, 
whose foundation is based upon a plan put forward by the Northeast 
Seafood Coalition, incorporates a combination of phased and adaptive 
fishing mortality rates. This rebuilding strategy, which contains the 
phasing-down of fishing mortality rates, was a strategy recommended by 
National Marine Fisheries Service's Northeast Fisheries Science Center 
and was later approved by a federal court of law. This strategy was 
necessary in order to achieve both the rebuilding objectives of the 
plan and the fundamental Magnuson-Stevens Act objectives to minimize 
adverse social and economic impacts associated with the rebuilding. 
Unlike H.R. 5051 introduced by Congressman Gilchrest, the legislation 
before us not only preserves but would also enhance the flexibility 
that was needed to implement this plan.
    The Northeast Seafood Coalition strongly believes that fishery 
managers need to be equipped with as many tools as possible to end 
overfishing and rebuild fish stocks. This legislation clearly accounts 
for the profound complexities and realities associated with our 
groundfish fisheries. The legislation does not hinder the tools 
afforded to managers and it ignores the lofty and rather idealistic 
management theories proposed in other legislation that are not based in 
the real world of fisheries management.
    The Northeast Seafood Coalition is firmly committed to the 
sustainable conservation of our fishery resources and the need to 
rebuild overfished stocks. Our work has been dedicated to crafting 
innovative management solutions to the unique challenges our fisheries 
present. All our solutions have been mindful of the law and are 
considerate of the need to balance conservation goals with the needs of 
fishing communities.
    Thank you again for this opportunity to share our views in support 
of this legislation. The Northeast Seafood Coalition looks forward to 
submitting a more comprehensive statement on many aspects in the 
legislation. I would be happy to answer any questions you might have.
                                 ______
                                 
    The Chairman. Thank you very much. I thank the entire panel 
for your testimony. To begin with, Ms. Shrader, in listening 
to, listening to your testimony reminds me a lot of the number 
of hearings that we held in different parts of the country when 
the impacts of decisions that are made by Federal agencies are 
not taking into account the impact it has on people, whether 
it's the small businesses that you're talking about, the 
families throughout this entire area, decisions that are made 
by these Federal agencies have direct, immediate impact on 
these people. Listening to you testify reminds me a lot of the 
hearings that we held throughout the Pacific Northwest. The 
timber industry was being shut down, and the impact it had 
there and throughout the Rocky Mountains when the mining 
industry was shut down and the impact that had. People like you 
that would come in and testify and talk about the impact this 
is having and that science didn't back up the decisions that 
were being made.
    In the case of the spotted owl, at the time it was listed 
as an endangered species. The only place it existed was old-
growth forests. Once it was listed, it was found in new growth. 
They found them nesting in a K-Mart sign. Why the entire 
industry was devastated by those decisions--one of the things 
that Congressman Frank and I and others are trying to do is to 
consider what the impacts are and make sure that before a major 
decision is made, it shuts down an entire fishery, that because 
science changes and because that evolves over time, don't make 
that kind of devastating decision, unless you absolutely know 
what you're doing. I appreciate greatly you being here to 
testify and sharing that with this committee.
    I do believe that that is an important part of the 
decisionmaking process, is what the impacts are on people that 
live in an area.
    Ms. Shrader. How could it be that when it was on part, part 
of the National Standards were so very clear in the original 
Act that even in 1996 when the Sustainable Fisheries Act was 
written, why was there no question then? Was it just that the 
communities weren't suffering as badly at that point? If 
maximum sustainable yield was, by definition, optimum yield as 
affected by circumstance such as devastation of fishing 
communities, how could they not study people and put that in 
the equation and say that optimum yield that they established 
since 1976 is not flawed.
    The Chairman. Well, it is flawed. The decisionmaking 
process, I am obviously more familiar with some of the West 
Coast issues and how it's impacted us. I think Congressman 
Frank is absolutely correct when he says that the impacts are 
social and economic impacts. That it has taken a lower value in 
the decisionmaking process.
    Ms. Shrader. It's a national problem, too. I communicate 
with fishermen in Alaska that I met in a meeting in Washington 
a couple of years ago. Their slogans out there are ``Buy me 
back.'' The fishermen established a viable, valuable entity, be 
bought back. I really appreciate the fact that you take it 
seriously, that the people in the industry are really 
essentially, without any disrespect to the boat owners, because 
we're all in this together, but if you took the fishermen off 
the boat, they're tool boxes.
    If our fishermen--actually, I consider them noble men, 
brave, and they're crazy for being involved in this industry 
with so much duress. That tells you how badly they want to be 
there.
    The Chairman. Also in your testimony you talked about 
retraining. I had a, late 50s gentleman who worked in the 
timber industry who talked to me about being a third-generation 
logger. They were talking about retraining him and giving him a 
job in a different industry. In that particular case, very much 
similar to this industry, you had extremely high unemployment. 
What are you going to retrain him to do? It just, it's not very 
realistic when you look at somebody that has been in business, 
look at their entire lives and it's what their fathers did and 
grandfathers did. You're going to step in a place where you 
have 9 or 10 percent unemployment and retrain them to do what.
    Ms. Shrader. They're so used to--maybe truck driving is one 
thing they go for. Also, the grants are difficult to qualify 
for. All of our Portuguese people, because they had a second 
letter (sic), they were not eligible for retraining. The 
retraining picture needs to be looked at from a broader scope, 
the bottom-up view of government versus the top down.
    The Chairman. I've been saying that for a long time. It 
gets a little bit frustrating in dealing with a lot of this, 
because in my committee, in the Resources Committee we have 
jurisdiction over so many different resource issues and 
resource extraction issues. We hear the same, the same kind of 
frustration coming out from people, whether it's in the fishing 
industry or the timber industry or raising their livestock, 
it's throughout the entire country. It's having a big impact on 
people. A lot of times people in Congress miss that.
    Ms. Shrader. I can assure you that after Framework 42 goes 
forward and our guys aren't able, from Maine to New York, to 
harvest fish, we'll all still eat fish. It will be Canadian 
fish. It will be imports to our country. We'll still be eating 
fish from countries who have less regulations, smaller mesh 
size, less Federal regulation. We'll still be eating fish, but 
our dynamics, our communities will be just like the dinosaurs 
out there. I really appreciate the fact that you understand 
that.
    The Chairman. You're absolutely correct, because we still 
use wood, but the wood is coming from places where they have no 
environmental regulations.
    Ms. Shrader. You ever call Dell and you get somebody from 
India? These men want these jobs so passionately. Why would you 
go out when it's blowing 40 miles an hour and there are 15-foot 
seas? I ask the fishermen that. One guy almost made me cry. 
``You know, when you go to bed at night and it's blowing like 
crazy. You're all bruised.'' He said, ``There is something 
about the morning when you wake up and the ocean is calm, the 
gulls are over the boat.'' It's who my husband is. I would work 
with your committee to guarantee my husband gets to continue 
fishing. It's who they are. They're so passionate. I have great 
respect for it.
    The Chairman. Like you, my grandfather immigrated from the 
Azores and came through New Bedford and worked in the fishing 
industry here for a number of years before he ultimately ended 
up in California milking cows. Either fishing or milking cows, 
if you're a Portuguese immigrant. I'm going to recognize Mr. 
Frank.
    Mr. Frank. Didn't they teach him how to make the St. George 
cheese somewhere?
    The Chairman. Actually, my grandmother used to make that.
    Mr. Frank. How can this be? Here's the editorial from the 
Standard Times last week, ``Congressman Frank's bill also 
requires that the economic impact on the fishing community be 
considered on equal footing as the conservation of marine fish. 
This principle, although popular, this fishing community will 
undermine the conservation law in the long term. It will allow 
short-term economic gains over long-term plans of the fishery, 
but to the general public that values healthy diverse eco 
fishing of fish plants, seals, birds, whales and other marine 
creatures,'' that is the philosophy. I must say--
    Ms. Shrader. I commented on the local radio to that.
    Mr. Frank. I'm skeptical. The notion that anything our bill 
is going to hurt, birds or seals or whales, seems to be very 
dubious. That is the answer. I will put that in the record. On 
that question, let me get to Mr. Rosenberg. You have 
constructive spirit. He has a good deal of consensus. The 
editorial makes the same point Mr. Rosenberg made, this 
specific nature, that the fishermen's request for more 
flexibility is in hitting the targets, not in their own 
interest. How do you account for the fact that the overwhelming 
regard in the fishing community pursues policy which you and 
the editorial say are contrary to the interest.
    Mr. Rosenberg. Of course, I don't think people are 
misguided in that. I think they're looking at a different 
perspective of the business. Fishermen are making their----
    Mr. Frank. It doesn't make sense.
    Mr. Rosenberg. I don't think it's in their interest. If you 
look at the history of New England groundfish, if you're 
rebuilding provisions that were originally designed in 1990, 
not in 1996, the actual reduction in fishing effort and 
reduction in catches would have been relatively small due to, 
you know, we're talking here as if social and economic 
pressures don't affect the management process. Of course, 
particularly in New England, that has slowed down the 
restriction of fishing.
    Mr. Frank. Again, you are saying they don't understand 
their own interest. You said that specific.
    Mr. Rosenberg. I did not say that. I said a moment ago, of 
course, they understand their individual business interest. 
That is different from the overall fishing interest.
    Mr. Frank. Is it against their own individual interest in 
the long term?
    Mr. Rosenberg. In the long term, it is.
    Mr. Frank. Let me put it this way: If I'm a fishermen, I 
plan to be fishing for the next 25 years. Are they ignoring 
their own interest?
    Mr. Rosenberg. No. I think most fishermen want to make sure 
they make the boat payments, house payment, everything else in 
the short term. They have to give that priority. That is not an 
unreasonable thing to do. That is not necessarily the same 
thing as a long-term interest.
    Mr. Frank. The long-term interest of whom?
    Mr. Rosenberg. Long-term interest for the nation, seafood, 
for the fishing industry. In fact, it may end up that in many 
cases people are making decisions. It's because they would 
rather maintain the flexibility than either trust what the 
projections are, trust the management process, so on. Again, 
that wouldn't be a terribly surprising decision to make.
    Mr. Frank. I am struck by what your view is on the question 
of the economic impact. What kind of weight should that be 
given?
    Mr. Rosenberg. Enormous weight in the choice of which 
option for management you choose.
    What I don't think should happen is I don't think you 
should choose a plan that doesn't meet the conservation needs.
    Mr. Frank. What I have trouble with, you're saying 
flexibility is like almost wrong, or that once you set the 
time, it should never be extended. What if you set a limit and 
it turns out that science was too pessimistic? What should we 
do in cases where we set a time limit or catch limit and after 
a few years it turns out science was, as it sometimes is, too 
pessimistic? What should we do with those cases?
    Mr. Rosenberg. Adjust the timeframe but not weaken the 
management measures.
    Mr. Frank. We should adjust the timeframe. Under the 
current laws, we have the negotiability to do that?
    Mr. Rosenberg. Yes, it's done repeatedly. Unfortunately, 
too often.
    Mr. Frank. I ask you, I am struck by that because I've had 
people tell me, ``Oh, no, we can't do that, because the law 
doesn't give flexibility.'' You believe the law does and should 
continue to say that if we set a timeframe and there are, the 
science turned out to be too pessimistic, we should extend the 
timeframe? What would be appropriate?
    Mr. Rosenberg. I think the timeframe should be extended but 
the extent of the measures remain very conservative.
    Mr. Frank. What does that mean?
    Mr. Rosenberg. It means that if it turns out that stocks 
are not recovering, like cod, let's use a specific example----
    Mr. Frank. I'm asking a case where the science is too 
pessimistic.
    Mr. Rosenberg. This is a case where science is too 
pessimistic. You should adjust that timeframe.
    Mr. Frank. Before you tell me what it doesn't mean, you're 
being so defensive.
    Mr. Rosenberg. You haven't let me finish a sentence yet.
    Mr. Frank. I think you're afraid of conceding anything at 
all. When you say extend the timeframe, what do you mean by 
that?
    Mr. Rosenberg. Would you allow me to finish my response and 
then see if it's coherent? It seems to me that if science has 
been too pessimistic and it's appropriate to lengthen the 
timeframe, you do so, but you ensure that you do not begin 
again or continue to overfish.
    Mr. Frank. What do you mean by lengthen the timeframe? If 
you say we were to do it in 10 years, it might be OK. To say 
thirteen, fourteen----
    Mr. Rosenberg. Sure.
    Mr. Frank. Allow more fish to be caught.
    Mr. Rosenberg. No.
    Mr. Frank. You never increase the amount of fish to be 
caught. What does that mean then, to say 13 years instead of 
ten, if we're catching the same amount of fish.
    Mr. Rosenberg. More fish to be caught than what? If science 
is too pessimistic, I don't think you should allow more fish to 
be caught necessarily, unless you can show that rebuilding has 
already occurred.
    Mr. Frank. You're being so defensive.
    Mr. Rosenberg. I'm explaining the concept.
    Mr. Frank. You said set a time limit and limits on the 
amount of catch, and some of the bills counterpoint that. Then 
it turns out it was too pessimistic. What about the case of 
scallops? Will you agree the science was too pessimistic in the 
case of scallops?
    Mr. Rosenberg. No, I won't.
    Mr. Frank. You don't think at no time the opening of 
Georges Bank, the science restricted the amount of scallops we 
found in Georges Bank.
    Mr. Rosenberg. Yes, I think it did. In fact, I was the guy 
who approved the reopening. I was also involved in the closure 
in the first place. I think it was entirely appropriate to 
reopen. I don't think it was showing that the science was too 
pessimistic. I think it was exactly what was expected, 
understanding that you always predict variation. If science is 
too pessimistic, you can show it's too pessimistic and 
rebuilding is occurring, then yes, you should allow those catch 
limits to increase. Then you would be extending the timeframe. 
If the science is too pessimistic, you can say we can meet the 
timeframe. I'm not being defensive. I'm trying to understand 
what you're asking.
    Mr. Frank. You're reluctant to acknowledge. You do think a 
time limit would be legitimate to increase the catch.
    Mr. Rosenberg. Sure. I don't think it goes along with 
extending the timeframe.
    Mr. Frank. The timeframe should be 10 years always? What 
timeframe do you have in mind?
    Mr. Rosenberg. The current provisions say as short is 
possible, not to exceed 10 years.
    Mr. Frank. Why would it be wrong to go to 13 years if it 
turns out we could get there? What is magic about 10 years.
    Mr. Rosenberg. Nothing magical about 10 years. There are 
two reasons why I think it would be wrong to go 13 years.
    Mr. Frank. In all cases?<plus-minus>
    Mr. Rosenberg. Not in all cases.
    Mr. Frank. We should have flexibility to go beyond 10 
years.
    Mr. Rosenberg. I assume the flexibility in the law remains 
there. You can't go beyond 10 years now under the existing law. 
It says unless you can't do so for biological reasons. The 
reason is 13 years, shortest period of time possible, not to 
exceed 10 years. There are no cases, and I just reviewed all of 
them in the country, have used less than 10 years. They've 
always gone to the maximum and always the maximum under the 
exception. If you go to 13 years, we'll also go to the maximum 
which would be 13 years. The reason I think that is a bad thing 
is because the longer you continue to either overfish and not 
rebuild, the more difficult it is to rebuild. You're digging a 
bigger hole.
    Mr. Frank. As long as you overfish and not rebuild. You may 
be rebuilding it. Here's where I differ with you. You can be 
rebuilding. The question is whether you have to finish 
rebuilding in 10 years and whether it might sometimes make 
sense to do it a couple of extra years. There's a negativism 
built into your answer which was not part of the question. You 
said if you continue, you're not rebuilding. What if you are 
rebuilding and it turns out, you know, you'll be able to reach 
it in 13 years instead of 10 years and you get there with less 
negative social impact.
    Mr. Rosenberg. It seems to me, based on history, your 
premise is not really borne out. Of course, if you're not 
overfishing which is the most important thing and you extend it 
up to 13 years, I don't think there is a big problem. The 
history is under 45 percent of the existing rebuilding plans 
that have been in place, many of them for nearly 10 years, 
we're still overfishing. That is true in New England, too. We 
have seven or eight stocks where we're still overfishing. If 
you stop that and you absolutely say well, we will not 
overfish, then the timeframe becomes less important. I agree 
with you on that. Unfortunately, that has not been the history. 
Unless you can hold that to account that you won't continue to 
overfish and extend out the rebuilding timeframe which has been 
what has occurred over the last 10 years, this doesn't work in 
that circumstance when you continue to overfish.
    Mr. Frank. You legislate for failure. I do think part of 
the problem has been, frankly, thank you for your time. Like a 
lot of things, this is an area where law enforcement isn't 
going to work if the people against whom the laws are being 
enforced are in rebellion. It needs to be, because you have 
enough people to catch everybody. You need to help the income 
tax system. The traffic law, you need to have some sense of 
legitimacy. I think if we had more flexibility in the law that 
we would have more of a cooperative effort. I think that is why 
you're looking at the past. There are a number of people, you 
talk about a lot of flexibility there, but I've been told well, 
it's not really there. They're afraid of a lawsuit. I do think 
if people thought the law was more rationally done, there would 
be less of a problem.
    One of the other things the editor of the Standard Times 
scoffed at was the notion that if the depletion, the 
overfishing or the lack of fish, if the depletion of the 
fishery were caused by things other than overfishing, it would 
never make any sense to say you could continue to fish. Could 
you address that?
    Mr. Rothschild. Yes. There is a really good example which 
is the California sardine which in the '50s it collapsed and 
there was a moratorium on fishing the sardine. Even in the 
absence of fishing, it didn't recover for 25 years. So maybe 
instead of having a moratorium of fishing the sardine it would 
have been better for the State of California to fish the 
sardine at a lower level of abundance. So basically I'm not 
much for rebuilding, period. I favor looking at fishing 
mortality as often as possible and being responsive to that. 
You never really know what a stock is going to do in the 
future. You can guess. It is a probability.
    Mr. Frank. There would be cases where there was a problem, 
stocks somebody depleted by causes unrelated to overfishing and 
it wouldn't necessarily make sense to reduce the fishing, if 
you would.
    Mr. Rothschild. There are many cases where stock, the 
fluctuation of stock abundance is not coupled with the 
magnitude of fishing mortality.
    Mr. Frank. Therefore, it would not necessarily be 
appropriate to reduce fishing?
    Mr. Rothschild. Right. You would moderate it somewhat.
    Mr. Frank. NEPA, and, obviously, the environmental things 
are important. As I understand the Chairman's bill, what he's 
saying is if everything called for by NEPA is, in fact, done in 
the course of some regulation, then there's no need to simply 
reiterate that under NEPA.
    Mr. Rothschild. Well, the different councilmen around the 
country got together. They thought that NEPA was unnecessary in 
the sense that all the process was taken care of and what NEPA 
did was just extend the delay in taking----
    Mr. Frank. Do you think there is some way you could, in 
fact, if you're able to do this function, is it necessary to go 
through the formality.
    Mr. Rosenberg. I'm not sure that you have to go through the 
formality. I don't want to give a legal opinion, because I'm 
not a lawyer.
    Mr. Frank. The law is going to change. It's subsequent.
    The Chairman. If I could interrupt you just for a minute. I 
think the question Congressman Frank is asking you is not the 
legality of it, but the practicality.
    Mr. Frank. Because we can change the law.
    Mr. Rosenberg. If you meet all the requirements of NEPA, 
you met all the requirement of NEPA. That is the important 
thing. It is not clear to me that that is what the council 
chairman is saying. So I'm concerned about it. There is the 
interaction with other sectors of human activity that goes to 
the point you just made, that sometimes things occur due to 
causes other than fishing, although I don't entirely agree with 
Brian's answer. By maintaining the NEPA structure for 
fisheries, you're not taking it out of that process where other 
sectors have to consider fisheries and the needs of fisheries. 
There's also some public process issues. If you meet all the 
requirements, you meet all the requirements.
    Mr. Frank. We would want to make sure.
    We don't want other people to disregard the impact we have 
on fishing. With the fishing prices, if we can meet 
functionally all the requirements, there would be no need to 
kind of go through something just for a formality.
    Mr. Rosenberg. Yes. It seems to me that that is already the 
case. You could do the analysis and create the functional NEPA 
document and the existing provisions, although I do think the 
NEPA guidelines should be revised under which, for fisheries 
specifically. You can already do that without going through a 
duplicative process, even though the councils don't have to do 
it. It is available.
    Mr. Frank. It is often the case. There is nothing making 
clear to people that not everybody has the same opinion. I 
think where there is agreement that this should be done, it is 
often a good idea.
    The Chairman. What we actually do in the bill, in the 
underlying bill, is add into the bill the provisions of NEPA 
that are not currently a part of that and give the Secretary 
the ability, if all of those steps are met, give the Secretary 
the authority to say because they met all of these steps, that 
is the same as going through a NEPA process, because they 
already met all of those steps. I think some of the testimony 
we heard from, from Mr. Wright in terms of being able to react 
quickly, going through another NEPA process and taking 2 or 3 
or 4 years in order to do that does not allow a fishery to 
react quickly or council to react quickly to what is a problem 
that they just got.
    Mr. Rosenberg. Two points there, if I may, Mr. Chairman. 
One is that I don't think, actually think that NEPA is 
particularly the barrier there. I do think it's important if 
you allow them to meet the requirements of NEPA, that they're 
still the focus, only NEPA guidelines which actually is the 
operative document beyond the statute in terms of how you deal 
with fishery problems. So the NEPA guidelines created by CEQ 
are very important. I don't think the delays, actually, of 3 or 
4 years are necessarily due to the NEPA process. They're due to 
difficulty resolving which alternative you should choose. 
Captain Wright gave, using information from the SMAST Program, 
because it didn't go through a peer-review process, a year-long 
peer-review process. That changes the time line. The same with 
other processes. All of those things extend time, because it's 
also the time that the public comments, as well as the 
regulatory process, tries to figure out what alternative to 
use.
    Technically you can go through an amendment process 
relative quickly. In practice, you can't.
    This is speaking as a former regional administrator, and 
NOAA officials can speak to that as well. It's a matter of 
getting people to have a say and choosing the alternative to 
address the particular issue. The scalloping, that was done 
relatively quickly.
    Mr. Frank. I will tell you this: It took a lot of political 
pressure. It took political pressure that was denounced. I had 
to work with Secretary Daley. He was afraid of being sued. I 
think you're too sanguine about the current law. A lot of 
things could be possible. You know, there is a distinction in 
your approach. When I talk about the theoretical possibility of 
extending the time limit, you say yes, but in practice it 
hasn't worked that way. In other cases you tell me 
theoretically it allows that. I tell you in practice it hasn't 
worked that way. In fact, the flexibility that you can say is 
in the law, in practice there have been even more problems with 
it. One of the things we're trying to do is make that explicit. 
Empower the administrators to make some of those decisions with 
less intimidation and less problems.
    Mr. Rosenberg. I was involved in the other side, in the 
Secretary's office. I'm sure it's a very important one locally 
here, but also a different perspective as to what was going on 
at the time. I do think the flexibility is there. It is in 
practice that I'm concerned about.
    Mr. Frank. I understand. When I ask about the time, you 
said they've always gone to the maximum. If you're going to 
take the practical, in effect, as you defend the existing 
statute, I think you go to a theoretical perspective in one 
sense and the practical in another. I know in the scallop 
thing, that the fear that it would be a problem, they would be 
sued. The Boston Globe said that we politicized the process, me 
and Jesse Helms. We impurified this decision. Bill Daley 
responded. Not every Secretary would have done that. What we're 
trying to say is we should change the law so there is less 
likelihood of that kind of intimidation.
    Mr. Rosenberg. My comments are colored by what I think 
would happen in practice. That is true of the rebuilding, true 
of NEPA as well.
    The Chairman. Well, our efforts are to try to be a little 
more directed in terms of the way that, I believe, things 
should work moving forward. Obviously, these are both, Mr. 
Frank's bill and our combined bill, are works in progress. We 
continue to hold hearings. We continue to try to listen to 
people and try to make the changes to the underlying 
legislation that are necessary, because we don't get an 
opportunity to change these laws very often.
    Having a combined effort, a bipartisan effort to move 
forward is something that is extremely important. I think that 
we have the building blocks for a consensus legislation in 
front of us. I intend on moving forward with it. I know that 
Mr. Frank does, because it's something that is very important 
to him.
    I think one of the, one of my greatest fears is I watched 
this happen throughout the West. Once you lose the basic 
infrastructure, once you lose the boats, ones you lose the 
canneries, once you lose the people, it doesn't matter what 
happens to the fishery after that. You don't rebuild them. Now, 
you know, we've seen the impact of going, decisions that went 
too far in one direction throughout the West. I don't want to 
see that happen in this area. I know for sure that Mr. Frank 
does not want to see it happen.
    I want to thank this panel for your testimony. It's been 
extremely valuable and extremely educational for me to hear all 
of you give your testimony and answers to the questions. If 
there are any further questions that we have, they will be 
submitted to you in writing. If you could answer those in 
writing so they can be included as part of this hearing, I 
would appreciate it. Thank you all very much.
    Mr. Frank. I want to thank you again. This community is 
deeply appreciative of your willingness to do this. Anyone who 
has written comments that they want to submit, in return they 
will be made part of the hearing. We have a couple of days. 
Anybody who's here, if you want to send in something, we can do 
that. I want to note, we would have had Rodney Avilla who's a 
member of the council, a fishermen here in the area. There was 
an illness in the family he wanted to attend to. He has been 
our local member of the council. His input, we've listened to 
it. We would have had him here. This has been a great favor and 
service that you have done to this community.
    The Chairman. Thank you very much.
    [The statement of Dr. Kaplan submitted for the record 
follows:]

        Statement of Dr. Ilene M. Kaplan, Professor and Chair, 
            Department of Sociology, Union College, New York

    I am Professor and Chair of the Dept. of Sociology and Senior 
Research Scholar of Marine Policy at Union College in New York State 
and am also Guest Investigator at the Marine Policy Center of the Woods 
Hole Oceanographic Institution. In addition, I currently serve as chair 
of the Social Science Advisory Committee of the New England Fishery 
Management Council. My research examines socio-economic trends in the 
New England commercial fishing industry as well as the use of 
comanagement techniques in the development of marine policy. My short 
CV is also attached.
    I am placing in written form important points regarding my support 
of H.R. 5018. It is important that 1) flexibility and the use of the 
best available science (including social science), 2) better 
representation of fishery organizations and community groups and 3) 
checks and balances regarding development and enforcement of marine 
regulations become recognized and salient parts of the marine 
regulatory process.
    In particular, it is important that Congress address the following 
weaknesses in the fisheries management and conservation process:
    1.  As ecosystem based management procedures are examined and 
developed, it must be noted that social dimensions and human ecology 
issues have historic recognition as part of all ecosystems.
    2.  Social Science research must be included as part of the ``best 
available science'' that is used to develop management processes. 
Unfortunately, an emphasis on fisheries science has often overshadowed 
socio-economic conditions that are tied very closely to the management 
process. Management proposals that limit and or change occupational 
activities without taking into consideration socio-economic impacts can 
impede community economic growth as well as foster community 
degradation if unemployment is a result of management proposals.
    3.  Under the current setup, there are minimally adequate checks 
and balances regarding the development, implementation and enforcement 
of marine policies. In addition, peer review of NOAA policies should be 
conducted whenever possible by researchers and/or research 
organizations who are not reliant on NOAA funding.
    4.  Consolidation and efficiency programs and policies need to be 
viewed in a flexible way so as to incorporate not only economic but 
sociological implications. For instance, some economically 
``efficient'' proposals may result in fewer people who fish but in 
increased unemployment. The ``trickle down effect'' and negative 
community impacts may result in increased social problems with regard 
to financial stability of families as well as mental and physical 
health problems of individuals whose self worth and esteem are 
threatened.
    5.  National Standard 8 must be placed on equal footing with other 
national standards.
    6.  Better representation of fishing groups needs to be part of the 
Council process. Research shows that when stakeholder groups are 
included in the management process, there is greater compliance to 
policies.
                                 ______
                                 
    [Whereupon, at 11:05 a.m., the Committee was adjourned.]

    [Additional material submitted for the record follows:]

    [A letter submitted for the record by Roger S. Berkowitz, 
President and CEO, Legal Sea Foods, Inc., follows:]

                         LEGAL SEA FOODS, INC.

                           Corporate Offices

                            One Seafood Way

                      Boston, Massachusetts 02210

                             April 24, 2006

VIA FACSIMILE 508 999-6468

The Honorable Barney Frank
558 Pleasant Street
Room 309
New Bedford, MA 02740

Dear Congressman Frank:

    We at Legal Sea Foods are obviously very concerned with how the re-
issue of the Magnuson-Stevens Act will affect our industry. Although we 
are in the business of selling fish, we are also conservationists at 
heart. We fully realize and appreciate that if we do not do enough to 
safeguard the fish supply today. .. there will be no tomorrow. The 
critical issue here, though, is striking a balance--laws that allow the 
various stocks to rebuild, while at the same time preserving the 
industry's infrastructure. Lawmakers must understand that for every 
fish job on a boat, there are seven jobs on land that support those 
efforts. The socio-economic impact which is significant.
    One element of the debate, which is constantly overlooked, is the 
role of seafood in a healthy diet. Study after study proves time and 
again that seafood is perhaps the healthiest of all proteins, providing 
many benefits which significantly lower health risks in both men and 
women.
    Another aspect of the issue which needs to be addressed is the 
methodology by which fish is harvested. Day boats are a great example 
of this. By their very nature, day boats are limited by how far out 
they travel and by how much they are ale to harvest per trip. This 
almost primitive method of harvesting provides for a higher quality 
product plus earns the fisherman more money while better safeguarding 
the ocean's bottom. Yet much of the legislation currently looming, 
presents the very real probability of forcing the majority of day boats 
from Maine to New Jersey out of business. This is counter-intuitive to 
solving the problem. If we are truly interested in conservation and 
sustainability, then we need a viable day boat fishery.
    A few weeks ago in Washington at the Willard Hotel, there was a 
lecture by neuroscientist Dr. John Stein of Oxford on the subject of 
fish as brain food. His conclusion based on years of data, was that 
seafood was perhaps the most complete food for enhancing brain 
functions. Given this information, I would implore lawmakers involved 
with the Magnuson-Stevens Act to consume a bit more fish prior to 
finalizing any measures which might negatively impact sources of supply 
and infrastructure.

                           Very truly yours,

                           Roger S. Berkowitz

                            President & CEO

                                 ______
                                 
    [A letter submitted for the record by Hon. Mark C. 
Montigny, State Senator, Massachusetts State Senate; Hon. John 
F. Quinn, Massachusetts State Representative; Hon. Antonio F.D. 
Cabral, Massachusetts State Representative; Hon. Robert M. 
Koczera, Massachusetts State Representative; Hon. Stephen R. 
Canessa, Massachusetts State Representative; and Hon. William 
M. Straus, Massachusetts State Representative, follows:] 
[GRAPHIC] [TIFF OMITTED] 27314.001

    [A letter submitted for the record by James D. O'Malley, 
Executive Director, East Coast Fisheries Federation, Inc., 
follows:]
[GRAPHIC] [TIFF OMITTED] 27314.002

[GRAPHIC] [TIFF OMITTED] 27314.003

                                ------                                

    [A letter submitted for the record by Richard D. Canastra, 
President, Whaling City Seafood Display Auction, follows:]

                  Whaling City Seafood Display Auction

                            62 Hassey Street

                         New Bedford, MA 02740

                             April 27, 2006

Congressman Barney Frank
558 Pleasant Street
Room 309
New Bedford, MA 02740

Dear Congressman Frank:

    I am writing in regards to the legislation you have proposed to 
reauthorize the Magnuson-Stevens Conservation and Management Act and to 
request that the legislation you have proposed (H.R. 4940) and have co-
signed (H.R. 5018) consider the impacts they will have on the 
marketability of multispecies in the northeast, otherwise known as 
groundfish.
    On May 1st, as we begin the start of the new fishing year, the 
commercial fishing industry is faced with a series of new groundfish 
regulations, NMFS Interim Measures and Framework 42. These new 
regulations that are quickly following the severe restrictions under 
Amendment 13 will have profound impacts on family-owned vessels and 
shore-side business. While these regulations continue to be vetted 
through the process, I find myself growing increasingly troubled by the 
potential market share and infrastructure that will be lost to the 
imports of frozen whole and finished seafood products.
    Since the reauthorization of the Magnuson Act in 1996, the 
Northeast Multispecies Fishery Management Plan has been amended 
numerous times to include measures which are mindful of the need to 
rebuild fish stocks and protect habitat. Groundfish fishermen, along 
with fishermen across the United States, now find themselves to be the 
most restricted and regulated fishermen in the world. To name just a 
few measures: groundfish mesh size has increased from 4.5 to 6.5 
inches; permanent year round closures, seasonal closures, and habitat 
closures have been implemented; the number of DAS that fishermen can 
fish was reduced by 40% in Amendment 13 and another 30% to 50% is being 
considered for this fishing year between the interim measures and 
framework adjustment to Amendment 13. The cumulative impact from these 
measures is having disastrous consequences to the viability of the 
infrastructure and will result in a significant loss of market share.
    The scientific validity of these newly proposed measures are in 
serious question. These measures are based upon the results of a recent 
groundfish stock assessment (GARM 2005) and associated New England 
Fishery Management Council Plan Development Team analyses. The results 
require mortality reductions in two stocks, Georges Bank winter 
flounder and Georges Bank yellowtail, stocks that only two years ago 
were deemed to be healthy stocks and a ``management success story.'' 
During the GARM, scientists found their projections of the Georges Bank 
yellowtail spawning stock biomass to be approximately 70% lower than 
they originally predicted. Such uncertainty in the science, poor 
management on behalf of the National Marine Fisheries service of the GB 
yellowtail total allowable catch (TAC) that has created more 
uncertainty with associated openings and closures as well as 
inconsistencies in the trip limits, and now the newly proposed DAS 
reductions and lower trip limits are going to have irreversible damage 
on the infrastructure and market for these and other groundfish stocks.
    The infrastructure has been forced to process frozen fish because 
it gives them a constant supply of fish with out the spikes of high 
pricing. Some companies are sending the whole frozen fish from Alaska 
directly to China for processing and shipping back the finished product 
to the states without any import tax because the product was originally 
from the states. This type of business is making the companies 
competitive with other imports but in return we are losing our 
fishermen, skilled labor and infrastructure.
    I commend you for all your efforts to allow every United States 
citizen the benefits of consuming healthy fresh seafood with only one 
additive, love, respect and prosperity of our resource.

                           Very Truly Yours,

                          Richard D. Canastra

                               President

                                 ______
                                 

    [A letter submitted for the record by Paul J. Diodati, 
Director,, Division of Marine Fisheries, Commonwealth of 
Massachusetts, follows:]

                     Commonwealth of Massachusetts

                      Division of Marine Fisheries

                     251 Causeway Street, Suite 400

                            Boston, MA 02114

                             (617) 626.1520

                           Fax (617) 626.1509

                               May 9,2006

The Honorable Richard Pombo
Chairman
House Committee on Resources
2411 Rayburn House Office Building
Washington, D.C. 20515

The Honorable Barney Frank
2252 Rayburn House Office Building
Washington, DC 20515-2104

Re:  Massachusetts Division of Marine Fisheries' Comments on H.R. 5018, 
An Act to Reauthorize the Magnuson-Stevens Fishery Conservation and 
Management Act.

Dear Chairman Pombo and Congressman Frank:

    As Director of the Massachusetts Division of Marine Fisheries 
(MarineFisheries) I greatly appreciate the House Committee on 
Resources' initiative to strengthen regional management of America's 
fisheries. MarineFisheries' commitment to improved fisheries management 
and science is consistent with your efforts to do the same. Being a 
voting member of the New England Fishery Management Council since its 
inception, being involved with development of every Council management 
plan and amendment, and having a major role in development and use of 
fisheries science, especially for assessments, MarineFisheries has 
decades of experience and first-hand knowledge of Council/federal 
management successes and failures and reasons for those outcomes. I 
take advantage of the Committee's recent hearings, therefore, to share 
some of that experience and knowledge and to provide some 
recommendations to help your Committee achieve its objectives.
Capping Harvest At or Below Acceptable Biological Catch Levels
    Many of the changes to the Magnuson-Stevens Fishery Conservation 
and Management Act (the Act) proposed in H.R. 5018 are the result of 
the House Committee on Natural Resources accepting advice and 
recommendations from the U.S. Commission on Ocean Policy (the 
Commission) regarding achieving sustainable fisheries. Although on 
their face those recommendations are attractive, some actually are 
problematic. For example, an important proposed change is for harvest 
level caps not to exceed the acceptable biological catch level(s) 
recommended by the scientific and statistical committee (SSC) of 
councils (pages 4 and 5).
    Councils would be required to adopt those recommendations. I urge 
the Committee not to make this change to the Act. My logic is as 
follows.
    Requiring Councils and interstate fisheries commissions (an 
eventual outcome) to adopt SSC science recommendations without debate 
and influence is ill-advised. I understand the basis for this change to 
the Act, i.e., the Commission recommendation that scientific and 
management decisions be separated and for council and interstate 
fisheries managers not to debate science advice, but to except it in an 
uncritical fashion. This would mean managers would receive findings/
advice and then be obliged to use those findings - no flexibility to be 
allowed. The Councils and interstate commissions would allocate and not 
set catch limits. This is a very significant departure from the current 
process.
    The basis for this recommendation is the Commission's contention 
that: (1) ``social, economic, and political considerations have often 
led the councils to downplay the best available scientific information, 
resulting in overfishing and slow recovery of overfished stocks,'' and 
(2) ``a lack of scientific information has not been the main culprit in 
most instances of overfishing.'' This Commission recommendation is not 
a new idea. It has been debated before during previous SFA 
reauthorization deliberations. Although there is some truth to this 
contention, emphasis on these two points skirts the important fact that 
Councils and especially states must consider socioeconomic impacts and 
information that is sometimes portrayed as science when in fact it is 
not science but conjecture and/or technical analyses steeped in 
assumptions.
    My agency and other states' fisheries management/research agencies 
have staff with scientific expertise that is shared with our federal 
counterparts. Although fisheries managers continue to heavily rely on 
science, especially sound science provided by the federal government 
and other entities (including states) contributing to scientific 
understanding, there are occasions when there is legitimate 
disagreement on scientific results such as those from fish stock 
assessments. Scientists don't always agree. Science is not always 
certain. In fact, fisheries science frequently is very uncertain and 
relies on scientists' own science policy assumptions that managers 
should and must legitimately question.
Best Available Science
    I suspect your committee has concluded that the issue of ``best 
scientific information available'' has been addressed by the proposed 
use of guidelines from the Secretary of Commerce relying on the 
National Research Council's Ocean Studies Board report, ``Improving the 
Use of the Best Scientific Information Available, Standard in Fisheries 
Management'' (2004) (page 6). I urge the Committee to examine that 
report's recommendations and to be wary of enacting a law that gives so 
much free reign to the Secretary of Commerce for determining what is 
the ``best'' science. Secretary of Commerce guidelines will be hard 
rules for everyone to follow including interstate commissions.
    If your Committee decides to retain this proposed change, consider 
making the choice of ``guidelines'' to be developed jointly with the 
Secretary of Commerce (hence NOAA Fisheries) and the interstate 
commissions (hence, the states). States have a primary and principle 
role in fisheries management because most stocks are migratory, and 
states should and must develop complementary management measures. A 
reason for my wanting this change is my noting that the Ocean Studies 
Board Report recommends separating allocation decisions from science, 
i.e., give the SSCs unquestioned authority over science decisions 
involving ``hard-won, consensus science.'' I suggest you be wary of 
that description for it indicates scientists arguing for positions and 
making science policy decisions. I addressed this concern about 
separating science from allocations above. I know the New England 
Fishery Management Council also has objected to this separation.
Science & Statistical Committee Membership
    Regarding the SSCs and their membership (page 6 and 7), I have a 
few comments. First, your committee' proposal regarding strengthening 
SSCs incorrectly assumes that councils (and interstate fisheries 
commissions) now rely solely on their SSCs for scientific advice. 
Advice comes from many different committees and working groups of 
scientists from states and academia. In New England, this is especially 
true. Regardless of the amount of ``strengthening'' no one relatively 
small group of scientists can handle the burden of producing 
``findings'' and giving scientific/technical advice on the wealth of 
complicated fishery management plans and amendments. Experience in New 
England has revealed this to be true. Your suggested change consistent 
with the Commission's recommendation although well-intended is too 
simplistic and unresponsive to needs of New England fisheries managers, 
especially those in the Commonwealth.
    Secondly, it also is inconsistent with the purpose of the 
Commonwealth's Marine Fisheries Institute created in November 2002 to 
``promote sustainable fisheries by providing timely information and 
guidance to protect, conserve, and manage Massachusetts' marine and 
coastal resources.'' Advice from SSCs would have greater importance for 
affecting management decisions impacting the Commonwealth's fishing 
industry than advice provided by the MFI. The MFI is a partnership 
between MarineFisheries and the University of Massachusetts' 
Intercampus Graduate School for Marine Science and Technology (SMAST), 
specifically the Department of Fisheries and Oceans. The MFI, notably 
SMAST, has made significant contributions to sea scallop science and 
management. That type of input should not be jeopardized through the 
proposed SSC control over scientific input into the management process.
    Furthermore, your proposed new responsibilities and obligations for 
the SSC will require even more substantial time commitments of SSC 
members, especially state fisheries scientists (e.g., MarineFisheries 
scientific staff) who now play a prominent role in council and 
interstate fisheries commission scientific deliberations. These 
commitments would stretch and drain state resources even further. Funds 
are proposed only for SSC members not associated with federal or state 
governments. Therefore, if you are not dissuaded from moving forward 
with your proposal, I suggest there be mandates for funds necessary for 
states to provide SSC support and sustained, productive involvement. If 
not, then the ``best available science'' will be far from the ``best.''
BAS
    Regarding science, especially the best available, I support the 
language for ``scientific research priorities'' (page 7) and 
``cooperative research authority'' (pages 7 and 8). This first proposal 
addresses the need for NMFS to focus its research agenda on council 
information needs. This proposal is particularly relevant to the U.S. 
Commission's concern that NMFS is inadequately addressing questions 
``that involve interactions among fisheries, habitat, and other 
protected species, as well as social science and economics.'' The 
second proposal for cooperative research is a necessary follow-up; 
however, I suggest plan provisions for cooperative research definitely 
be included by the Secretary. Currently, the language indicates the 
Secretary ``may'' include the cooperative research using commercial 
fishing vessels, etc. I also support the language for ``preserving 
fishing privileges.'' Without this provision, many excellent research 
opportunities with cooperating fishermen will be lost.
    It would be of great benefit to the Commonwealth and cod 
assessments in particular that industry-based species-specific surveys, 
such as the cod survey currently performed by MarineFisheries working 
with commercial fishermen in the Gulf of Maine, be mandated. 
Considering that the Commonwealth does and will bear the brunt of 
federal regulations that continue to tighten for Gulf of Maine cod, 
mandating this survey to provide for improved science and assessments 
for this stock is warranted and consistent with the thrust of your 
Committee's emphasis on better science acquired in collaboration with 
the fishing industry.
    For improved science and management, more and better stock surveys 
will be required. Without question councils have had to increase their 
reliance on bottom trawl surveys performed with federal research 
vessels. Therefore, I support the ``need for more frequent stock 
surveys'' (page 18), but I encourage you to modify your language so 
that the ``Secretary of Commerce and interstate commissions shall 
determine...'' Fisheries management/science is a partnership between 
the federal government and states acting through commissions, and this 
important element of improved science should reflect that partnership.
Recreational Fisheries, Permitting and Science
    For ``sharing of recreational catch data'' (page 11) 1 suggest you 
revise #2 so that ``The Secretary shall conduct the program under 
paragraph (1) (C) in joint collaboration with the principal state 
officials having marine fisheries management responsibility and 
expertise.'' ``Consultation'' should be replaced with ``joint 
collaboration.'' Considering that most recreational fisheries occur in 
state waters especially for ``federally-managed species'' that are also 
managed cooperatively with interstate commissions, I'm uncomfortable 
with consultation.
    Furthermore, this language is suggestive. It seems to give the 
federal government an opportunity to pursue a federal license for 
marine recreational fishing. That should not be an option. If any 
license is eventually adopted, it must be established and administered 
through the individual states. Federal oversight would be distributed 
to states. This would be inappropriate because the vast majority of 
recreational fisheries are in states' territorial waters; therefore, 
states should have the lead role in licensing, and federal involvement 
should be ancillary and through a strengthened Marine Recreational 
Fisheries Statistical Survey (MRFSS) with more federal funds being 
provided to states for improvement in survey coverage and accuracy. 
Details of license cost and how revenues will be dedicated to improved 
recreational fisheries opportunities and fisheries management must be 
decided through respectful treatment of recreational fishermen's 
concerns about licensing issues. This can best be carried out by states 
working in partnership with recreational fishermen and their 
organizations.
    I appreciate that you propose to authorize $5 million to assist 
states develop a license if they chose to do so. That is a good step; 
however, I suggest you change the ``Secretary may'' to the ``Secretary 
shall provide financial assistance...''
    For confidentiality of information (page 17), I suggest that 
observer information collected through cooperative research initiatives 
not be considered confidential. These data are collected through 
specific research operations using fishermen and their vessels with an 
understanding that they receive federal or state financial or other 
types of compensation for their research in the interest of better 
science and improved fisheries management. There is no need for this 
information to be confidential.
Ecosystems
    Your reference (page 29) to the April 1999 Ecosystem Principles 
Advisory Panel Report to Congress regarding ecosystem-based fishery 
management is specific to the Councils and Secretary of Commerce 
defining the terms ``ecosystem'' and ``marine ecosystem.'' This is a 
sensible first step although the Report does provide some general 
definitions. I suggest you include in your section dealing with 
ecosystems research part of the Panel's Charter regarding ``human 
systems'' that ``must be included in any ecosystem research and 
management effort.'' Including this sort of research is warranted 
because, as noted in the Charter, ``Managers must also understand the 
complex linkages between natural ecosystems and the economic, social, 
and political dynamics of human systems. Humans are integral components 
(emphasis added) of ecosystems, and their interests, values, and 
motivations must be understood and factored into resource management 
decisions.''
Limited/Dedicated Access Privileges
    Regarding human interests, values, and motivations, I suggest you 
consider the following concerns about limited access privilege 
programs. You propose the Secretary shall ``include an effective system 
for enforcement, monitoring, and management of the program, including 
use of observers.'' This is a critical aspect of any privilege program 
and must have adequate funds for the system to be truly effective. With 
NMFS recently and dramatically reducing observer coverage due to 
budgetary problems, I have no confidence that an effective system can 
be maintained. Before any Individual Fishery Quota (IFQ), etc. 
program(s) is adopted and sustained, substantial federal funding must 
be made available to states and management councils to obtain critical 
monitoring and assessment information to judge program effectiveness. 
Furthermore, the National Research Council has raised important funding 
issues such as: ``NMFS should significantly expand its routine 
collection of social and economic data to allow baseline descriptions 
of fishery users, monitoring of impacts associated with individual 
quota and other management programs, and an improved understanding of 
the human dimensions of fisheries.''
    The Research Council also highlighted: ``Concerns about equity of 
the initial allocation of quota shares is a major obstacle to the 
implementation of any IFQ program. It is important that the initial 
allocation process be transparent and perceived to be fair; this 
requires adequate data... Priority should be given to the question of 
social, economic, and biological consequences of a proposed IFQ program 
and alternatives to it. The councils and NMFS must allocate more 
resources and attention to impact assessments, which are now required 
by law but often are given inadequate attention.'' I raise these 
concerns because hard-and-fast federal dedicated access rules could 
negatively impact state oversight and influence on management of 
fisheries in state waters and on our fishermen fishing in adjacent 
federal waters.
    States have no veto power and can only influence Council 
significant interstate allocations through dedicated access through 
their one vote as a Council member and their very limited influence 
with the Secretary of Commerce. Dedicated access privilege programs 
such as community-based quotas involve allocation of fisheries 
resources between states with socioeconomic impact. The Commonwealth 
(and other states) should not be compelled to accept a federal 
perspective regarding allocation of fisheries resources between states.
    Notwithstanding my reservations about the level of detail and 
complexity of your proposals, I must admire your effort to 
comprehensively blueprint what must be done for the federal government 
to embrace and then rule fisheries with very controversial, allocative, 
dedicated access programs that will fail without effective enforcement, 
monitoring, and management at state and federal levels.
National Environmental Policy Act (TSFEPA)
    I support any effort to minimize or remove the impact of NEPA on 
fishery management plans and their amendments. NEPA review and 
requirements are excessive, burdensome, and unnecessary. I've had this 
opinion for many years, and I support your efforts in this regard.
    However, I do not support any effort to minimize the authority of 
Councils or to put them at odds with other marine resource managers. It 
appears you are proposing to potentially give National Marine 
Sanctuaries control over fishing in sanctuaries. Your proposed approach 
(page 61) seems to remove Councils from the process, i.e., Sanctuary 
proposals for fisheries regulations (conservation and habitat 
protection) go directly to the Secretary of Commerce for review. If the 
Sanctuary-proposed regulation(s) meets national standards etc., the 
regulation ``shall take effect.'' At this time, the process involves a 
Sanctuary requesting a Council for a specific action. This would not be 
the case with your reauthorization language. Even though I'm supportive 
of sanctuary management initiatives dealing with marine resource and 
habitat protection, I much prefer the current process that doesn't 
divorce councils from determining what fishery management rules should 
be in a sanctuary, especially the Stellwagen Bank Sanctuary that 
encompasses very valuable, historical commercial and recreational 
fishing grounds.
Overfishing, Overfished and Rebuilding
    I applaud your efforts to make a distinction between an overfished 
and a ``diminished'' fish stock, the latter term describing a condition 
not caused by fishing but from some other cause such as a changed 
environment or other ecosystem effect (pages 63-64). Many non-fishing 
factors of anthropogenic nature reduce environmental carrying capacity 
such as dredging, desalination, and entrainment. Such factors rarely 
are introduced when determining recovery levels of fish stocks. This 
approach does fit well with ecosystem-based management and will 
certainly challenge scientists to identify effects - a task that has 
not been well done for decades largely due to an absence of data needed 
to make the distinction. Your definition of ``diminished'' also will 
challenge assessment scientists to define the ``natural range of 
fluctuation associated with the production of maximum sustainable 
yield.''
    However, I do suggest that you amend slightly the section on 
``Duration of measures to rebuild diminished fisheries.'' Delete 
references to ``the Secretary determines...'' Councils, working with 
interstate commissions when appropriate, should make those 
determinations. Keep the rest of the proposed text, but change the last 
paragraph by removing ``substantial.'' ``Substantial'' is undefined; 
therefore, I suggest the following text: ``(IV) increases to the 
rebuilding targets are made after the rebuilding plan has been put in 
place.''
    I end with just one summary statement. Changes to the Magnuson-
Stevens Act should be made with a full awareness that all states are 
principal players in regional management. State fisheries agencies are 
voting members of Councils, and just as important, they are members of 
interstate fisheries commissions that frequently develop joint 
fisheries management plans with council counterparts. Whether it be for 
management or research, it's in the best interest of the nation for 
states' interests and rights to be respected and not co-opted by the 
Secretary of Commerce. It's a state-federal partnership that should be 
respected and strengthened especially as the nation moves towards 
ecosystem-based management and the demands on state fisheries managers 
and scientists increase dramatically.
    Thank you for the opportunity to comment on this important proposed 
legislation. I appreciate all the effort you and your fellow 
Congressmen have devoted to improve the way our nation's fisheries are 
managed. If I can be of further assistance, please call upon me at any 
time.

                               Sincerely,

                            Paul J. Diodati

                                Director

cc: Massachusetts Marine Fisheries Advisory Commission
   New England Fishery Management Council
                                 ______
                                 


 LEGISLATIVE HEARING ON H.R. 5018, TO REAUTHORIZE THE MAGNUSON-STEVENS 
FISHERY CONSERVATION AND MANAGEMENT ACT, AND FOR OTHER PURPOSES. ``THE 
 AMERICAN FISHERIES MANAGEMENT AND MARINE LIFE ENHANCEMENT ACT''; AND 
   H.R. 1431, TO AMEND THE MAGNUSON-STEVENS FISHERY CONSERVATION AND 
MANAGEMENT ACT TO MODIFY REQUIREMENTS FOR THE APPOINTMENT AND TRAINING 
   OF MEMBERS OF REGIONAL FISHERY MANAGEMENT COUNCILS, AND FOR OTHER 
 PURPOSES. ``FISHERIES SCIENCE AND MANAGEMENT ENHANCEMENT ACT OF 2005''

                              ----------                              


                         Wednesday, May 3, 2006

                     U.S. House of Representatives

                         Committee on Resources

                            Washington, D.C.

                              ----------                              

    The Committee met, pursuant to call, at 10:03 a.m. in Room 
1334, Longworth House Office Building, Hon. Richard W. Pombo 
[Chairman of the Committee] presiding.
    Present: Representatives Pombo, Rahall, Saxton, Duncan, 
Gilchrest, Abercrombie, Pallone, Jones, Christensen, Inslee, 
Gibbons, Napolitano, Costa, Brown, Melancon, and Frank.

  STATEMENT OF THE HON. RICHARD W. POMBO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    The Chairman. The Committee on Resources will come to 
order.
    The Committee is meeting today to hear testimony on H.R. 
5018 and H.R. 1431. Under Rule 4(g) of the Committee Rules, any 
oral opening statements at hearings are limited to the Chairman 
and the Ranking Minority Member. This will allow us to hear 
from our witnesses sooner, and help Members keep to their 
schedules. If other Members have statements, they will be 
included in the hearing record under unanimous consent.
    I ask unanimous consent that Congressman Barney Frank be 
allowed to sit on the dais and participate in the hearing. 
Without objection, so ordered.
    I would like to welcome today's witnesses. I know a number 
of you have traveled across the country to present your views 
on these two bills. I want you to know that the Committee 
appreciates your interest in this important reauthorization.
    As all of you know, Congressman Barney Frank, Don Young, 
and I introduced H.R. 5108 in March of this year. Congressman 
Rahall, from the great seafood producing State of West 
Virginia, introduced his bill, H.R. 1431, in March of last 
year. Despite the fact that he does not come from a coastal 
state, I compliment him on his bill, and want him to know that 
I have included a number of provisions similar to those in his 
bill in H.R. 5018.
    In addition, a significant portion of H.R. 5018 comes from 
the Senate Bill, S. 2012. Both the House and the Senate are on 
the same path on this reauthorization, and we have worked hard 
to get a bill that we can all be proud of.
    Last week the Committee held a hearing in New Bedford, 
Massachusetts. We heard a lot of good testimony, and had a good 
debate on a number of the provisions in H.R. 5018, and in 
Congressman Frank's bill.
    I take all of what was said seriously, and I am glad I had 
the opportunity to go to New Bedford to hear from that 
constituency.
    While there has been a lot of support for H.R. 5018, there 
have been a few people that have publicly attacked my bill. I 
do not take those attacks as constructive criticism or view 
them as a willingness to work cooperatively. Despite those 
criticisms, I have offered on many occasions to work with 
members of this Committee to find areas of compromise. In fact, 
a number of provisions in the bill are already compromises. 
However, telling me that I need to take out an entire section 
is not a compromise.
    We have heard on a number of occasions that the North 
Pacific Fishery Management Council's way of doing business is 
the model that we should follow. While they are not perfect, 
they have been doing things well for quite awhile and they 
should be proud of that.
    When they tell us that NEPA compliance is a problem and 
that the conflict between the Magnuson-Stevens Act timelines 
and the NEPA timelines are a problem, I take them seriously. If 
Members have suggestions on how to make any of the provisions 
in the bill work better, I am willing to listen, but so far I 
have not heard many productive suggestions.
    I remind Members and the outside groups, you have to earn a 
seat at the table. I am open to suggestions, but I do not want 
to waste my time with those that are unwilling to have 
productive discussions.
    I will repeat what I have said before. Fisheries management 
requires a balance. Having abundant fisheries with no fishermen 
left to harvest this wonderful protein source is unacceptable. 
Having fishermen with no fish to catch is equally unacceptable.
    I look forward to having a productive discussion today and 
look forward to some of the suggestions that our witnesses may 
offer on how to improve this bill.
    [The prepared statement of Mr. Pombo follows:]

             Statement of The Honorable Richard W. Pombo, 
                    Chairman, Committee on Resources

    I would like to welcome today's witnesses. I know a number of you 
have traveled across the country to present your views on these two 
bills. I want you to know that the Committee appreciates your interest 
in this important reauthorization.
    As all of you know, Congressmen Barney Frank, Don Young and I 
introduced H.R. 5108 in March of this year. Congressman Rahall, from 
the great seafood producing state of West Virginia, introduced his 
bill, H.R. 1431 in March of last year. Despite the fact that he does 
not come from a coastal state, I compliment him on his bill and I want 
him to know that I have included a number of provisions similar to 
those in his bill in H.R. 5018. In addition, a significant portion of 
H.R. 5018 comes from the Senate bill--S. 2012. Both the House and the 
Senate are on the same path on this reauthorization and I will work 
hard to get a bill that we can be proud of.
    Last week, the Committee held a hearing in New Bedford, 
Massachusetts. We heard a lot of good testimony and had a good debate 
on a number of the provisions in H.R. 5018 and in Congressman Frank's 
bill. I take all of what was said seriously and I am glad I had the 
opportunity to go to New Bedford to hear from that constituency.
    While there has been a lot of support for H.R. 5018, there have 
been a few people that have publicly attacked my bill. I do not take 
those attacks as constructive criticism or view them as a willingness 
to work cooperatively. Despite those criticisms, I have offered on many 
occasions to work with Members of this Committee to find areas of 
compromise. In fact, a number of the provisions in the bill are already 
compromises. However, telling me that I need to take out a entire 
section is not compromise.
    We have heard on a number of occasions that the North Pacific 
Fishery Management Council's way of doing business is the model that we 
should follow. While they are not perfect, they have been doing things 
well for quite a while and they should be proud of that. When they tell 
us that NEPA compliance is a problem and the conflict between the 
Magnuson-Stevens Act timelines and the NEPA timelines are a problem, I 
take them seriously.
    If Members have suggestions on how to make any of the provision in 
the bill work better, I am willing to listen, but so far I have not 
heard many productive suggestions. I remind Members and outside 
groups--you have to earn a seat at the table. I am open to suggestions, 
but I do not want to waste my time with those who are unwilling to have 
productive discussions.
    I will repeat what I have said before. Fisheries management 
requires a balance. Having abundant fisheries with no fishermen left to 
harvest this wonderful protein source is unacceptable. Having fishermen 
with no fish to catch is equally unacceptable.
    I look forward to having a productive discussion today and look 
forward to some of the suggestions that our witnesses may offer on how 
to improve the bill.
                                 ______
                                 
    I now recognize Mr. Rahall for his opening statement.

 STATEMENT OF THE HON. NICK J. RAHALL II, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF WEST VIRGINIA

    Mr. Rahall. Thank you, Mr. Chairman.
    Mr. Chairman, as the Committee begins to assert its role in 
the reauthorization of Magnuson-Stevens Fishery Conservation 
and Management Act, I would like to start out by repeating an 
observation made by the author, John Steinbeck, and I quote, 
``It has always been my private conviction that any man who 
pits his intelligence against a fish and loses has it coming.''
    Indeed, that is really what this reauthorization is all 
about. The fact of the matter is that today roughly 20 percent 
of our nation's fisheries are already overfished, experiencing 
overfishing or approaching an overfished condition. At the same 
time, in 2004, Americans ate an average of 16.6 pounds of 
seafood per person. This represents a nine percent increase in 
the last decade.
    Meanwhile, our nation's fisheries support a $60 billion 
contribution to the U.S. economy and provide jobs for more than 
a half a million America sustaining the economy and fishing 
communities such as New Bedford, Massachusetts, where the 
Committee held a hearing recently.
    Finally, we must not just be mindful of the commercial 
fishery interests in this issue. For instance, I know plenty of 
anglers from my home State of West Virginia who travel to 
Myrtle Beach each summer to fish for the sheer tranquility of 
the sport. More than 44 million American anglers generate $116 
million a year in revenue.
    So there you have it. We have diminished fish populations 
and increase in the desire of Americans to have seafood on 
their dinner tables, and the economic factors, both commercial 
and recreational, that these fisheries represent.
    All these factors are tied into how we proceed on the 
reauthorization of the Magnuson-Stevens Act. So we are, in 
effect, seeking to pit our intelligence on the decisions we 
make during this process against the fish, and as Steinbeck 
said, if we get it wrong, we have it coming to us because the 
ramifications will be far-reaching, and potentially disastrous 
to all interests involved.
    We have two measures before us this morning, the Chairman's 
comprehensive reauthorization bill and my more limited 
legislation aimed at reforming the act's Fisheries Council 
structure. The Magnuson-Stevens Act delegates much of the 
responsibility of the management of our ocean fisheries to 
regional fishery management councils. Yet when we take a close 
look at the membership of these councils, incredibly we find it 
of the 72 council members nationwide, 34 are commercial 
fishermen. And of these 72 members nationwide, only 10 members 
can be viewed as not representing fishing interests, bringing 
with them the ability to make decisions in an objective manner.
    In fact, on certain councils, the ratio is much higher. On 
the North Pacific Fishery Management Council, there are six 
commercial fishermen and only one recreational fisherman on the 
council. On the New England Council, two-thirds of the seats 
are taken by commercial fishermen.
    In a year when we are witnessing an increase in the number 
of deaths in our coal fields, I am forced to pause and reflect 
about how much leadership and oversight imbalances can 
adversely affect Federal policies and our citizens. Certainly 
this Administration's policy of placing a coal company 
executive at the helm of the Mine Safety and Health 
Administration, the body charged with overseeing safety at 
mining operations, has demonstrated potential folly of this 
practice.
    While the fox is guarding the hen house in the mine safety 
world, it appears that its cousin has been guarding our fishery 
resources.
    It is from that perspective that I introduced H.R. 1431, 
which includes a U.S. Commission on Oceans Policy 
Recommendations to Congress as they related to the pressing 
need to reform these fishery councils. For example, it is clear 
to me that the committees that are charged with providing 
scientific guidance to these fishery councils should be 
comprised of impartial members with scientific expertise.
    Further, in order to broaden representation on the 
councils, Governors should be asked to submit to the Secretary 
a broad slate of candidates for each council vacancy. These are 
just two examples of what I view as common sense reforms that 
will enable the councils to function better in terms of meeting 
the needs of Americans, both current and future generations.
    So I thank you, Mr. Chairman, for including my bill on the 
agenda today. And with that, your legislation also contains 
many good features, but just like with the news media, it would 
bore or viewers to just present good news. Folks often want to 
know the not so good.
    While your bill gives a nod to council reform, it does 
nothing to address the conflicts of interest, to prohibit 
voting by council members who have not received training or 
require council memberships from various sectors. I am certain 
that this was simply an oversight and that we can work to 
rectify that situation.
    Turning to other sections of H.R. 5018, I have serious 
concerns about its provisions relating to fishery rebuilding 
requirements in the Magnuson Act, and as should be expected, I 
must raise concerns over provisions which would waive the 
application of NEPA and National Marine Sanctuaries Act.
    With that, Mr. Chairman, I look forward to working with you 
and others Committee members. We need to make sure the fishing 
remains good, and the catching as well. Thank you.
    [The prepared statement of Mr. Rahall follows:]

     Statement of The Honorable Nick J. Rahall, Ranking Democrat, 
                         Committee on Resources

    Mr. Chairman, as the Committee begins to assert its role in the 
reauthorization of the Magnuson-Stevens Fishery Conservation and 
Management Act, I would like to start out by repeating an observation 
made by the author John Steinbeck:
        `` It has always been my private conviction that any man who 
        pits his intelligence against a fish and loses has it coming.''
    And indeed, that is really what this reauthorization is all about.
    The fact of the matter is that today, roughly 20 percent of our 
Nation's fisheries are already overfished, experiencing overfishing, or 
approaching an overfished condition.
    At the same time, in 2004, Americans ate an average of 16.6 pounds 
of seafood per person. This represents a nine percent increase in the 
last decade.
    Meanwhile, our Nation's fisheries support a $60 billion 
contribution to the U.S. economy and provide jobs for more than half a 
million Americans, sustaining the economy in fishing communities such 
as New Bedford, Massachusetts, where the committee held a hearing 
recently.
    Finally, we must not just be mindful of the commercial fishing 
interests in this issue. For instance, I know plenty of anglers from 
West Virginia who travel to Myrtle Beach each summer to fish for the 
shear tranquility of the sport. More than 44 million American anglers 
generate $116 billion a year in revenue.
    There you have it. We have diminished fish populations, an increase 
in the desire of Americans to have seafood on their dinner tables, and 
the economic factors, both commercial and recreational, that these 
fisheries represent. All these factors are tied into how we proceed on 
the reauthorization of the Magnuson- Stevens Act.
    So we are in effect seeking to pit our intelligence on the 
decisions we make during this process against the fish. And as 
Steinbeck said, if we get it wrong, we have it coming to us because the 
ramifications will be far-reaching and potentially disastrous to all 
interests involved.
    We have two measures before us this morning. The Chairman's 
comprehensive reauthorization bill, and my more limited legislation 
aimed at reforming the Act's fisheries councils structure.
    The Magnuson Act delegates much of the responsibility of the 
management of our ocean fisheries to regional fishery management 
councils. Yet, when we take a close look at the membership of these 
councils, incredibly, we find that of the 72 council members 
nationwide, 34 are commercial fishermen.
    And of those 72 members nationwide, only 10 members can be viewed 
as not representing fishing interests, bringing with them the ability 
to make decisions in an objective manner.
    In fact, on certain councils the ratio is much higher. On the North 
Pacific Fishery Management Council there are six commercial fishermen, 
and only one recreational fisherman on the council. On the New England 
council, two-thirds of the seats are taken by commercial fishermen.
    In a year when we are witnessing a distressing increase in the 
number of deaths in our coalfields, I am forced to pause and reflect 
about how such leadership and oversight imbalances can adversely affect 
Federal policies and our citizens.
    Certainly, this Administration's policy of placing a coal company 
executive at the helm of the Mine Safety and Health Administration--the 
body charged with overseeing safety at mining operations--has 
demonstrated the potential folly of this practice. While the fox has 
been guarding the henhouse in the mine safety world, it appears his 
cousin has been guarding our fishery resources.
    It is from that perspective that I introduced H.R. 1431, which 
includes the U.S. Commission on Ocean Policy's recommendations to 
Congress as they relate to the pressing need to reform these fishery 
councils.
    For example, it is clear to me that the committees that are charged 
with providing scientific guidance to these fishery councils should be 
comprised of impartial members with scientific expertise.
    Further, in order to broaden representation on the councils, 
governors should be asked to submit to the Secretary a broad slate of 
candidates for each council vacancy.
    These are just two examples of what I view as common-sense reforms 
that will enable the councils to function better in terms of meeting 
the needs of all Americans, current and future generations.
    So I thank you, Mr. Chairman, for including my bill on the agenda 
today.
    With that said, Mr. Chairman, your legislation also contains many 
good features, but just like with the news media, it would bore our 
viewers to just present good news........folks often want to know the 
not-so-good.
    While your bill gives a nod to council reform, it does nothing to 
address the conflicts of interest, to prohibit voting by council 
members who have not received training, or to require council 
membership from various sectors.
    I am certain this was simply an oversight and we can work to 
rectify the situation.
    Turning to other sections of H.R. 5018, I have serious concerns 
about its provisions relating to the fishery rebuilding requirements in 
the Magnuson Act. And as should be expected, I must raise concerns over 
provisions which would waive the application of the National 
Environmental Policy Act and the National Marine Sanctuaries Act.
    With that, I look forward to working with you and other Committee 
Members. We need to make sure that the fishing remains good, and the 
catching too.
    Thank you.
                                 ______
                                 
    The Chairman. Thank you, Mr. Rahall.
    Now I would like to introduce our first witness, Dr. 
William T. Hogarth, Assistant Administrator for Fisheries, 
National Marine Fisheries Service.
    I would like to remind the witnesses that under Committee 
Rules we must limit oral statements to five minutes, but the 
entire written statement will be included in the record.
    Mr. Hogarth, if I could have you stand and raise your right 
hand.
    [Witness sworn.]
    The Chairman. Thank you. Let the record show he answered in 
the affirmative.
    Dr. Hogarth, welcome back to the Committee. It is great to 
have you back, If you are ready, you can begin.

   STATEMENT OF WILLIAM T. HOGARTH, ASSISTANT ADMINISTRATOR, 
    NATIONAL MARINE FISHERIES SERVICE, NATIONAL OCEANIC AND 
    ATMOSPHERIC ADMINISTRATION, U.S. DEPARTMENT OF COMMERCE

    Mr. Hogarth. Good morning. Thank you, Mr. Chairman and 
Members of the Committee.
    My name is Bill Hogarth, and I am the Assistant 
Administrator for NOAA's National Marine Fisheries Service. 
Thank you for the opportunity to testify today on two pieces of 
legislation to reauthorize the Magnuson-Stevens Act, the law 
which authorizes NOAA to manage or nation's fishery resources.
    Management of U.S. fisheries resources has improved since 
the 1996 reauthorization of the Magnuson-Stevens Act. We have 
made progress toward reducing overfishing, rebuilding 
overfished stocks, reducing bycatch, minimizing adverse impacts 
to EFH, and assessing the impacts of fishery management 
decisions on fishing communities.
    In 2005, 80 percent of the stocks in stock complexes with 
NOAA status were not subject to overfishing, and 74 percent of 
the stocks in stock complexes with NOAA status were not 
overfished. However, we believe the number of changes to the 
Act are appropriate to further strengthen fishery conservation 
and management programs.
    The Administration appreciates the work you have done on 
the reauthorization of the Magnuson-Stevens Act. I believe the 
Administration and Congress are moving in the same direction on 
many issues. I would like to briefly review some of the 
Administration's goals and priorities in the reauthorization:
    First, the Administration believes you should end double 
fishing and the achievement of fishery rebuilding based on the 
biology of species and needs of communities;
    Two, we believe in the promotion of a wider use of market-
based fishery management tools;
    Three, we believe that incorporation of ecosystem-based 
approaches in the fishery management process;
    Four, we believe that strengthen the role of science's 
decisionmaking process and to increase our access to social and 
economic information;
    Five, improving the operations as well as broaden and 
balance the constituent interests represented on the councils; 
and
    Six, improving fisheries' data, especially recreational 
data.
    The Administration supports granting the council's expanded 
authority to implement limited access privilege programs, or 
LAPPs. We need to treat fisheries more like businesses and 
allow greater flexibility to fishermen to determine fishing 
strategies so that we can improve safety and stop the race for 
fish.
    We believe the councils should have the authority to 
establish LAP programs for sufficient flexibility to address 
the unique management needs of their fisheries. Limited access 
programs that are currently in place have resulted in increases 
in per unit product value and decreases in harvesting costs for 
fishermen.
    The councils are our partners in the fishery management 
process, and the Administration believes the council process is 
effective for achieving sustainable fishery management. It is 
vital that the councils are comprised of knowledgeable people 
representing the breadth of interest in their fisheries. H.R. 
5018 would help promote a broader and more balanced 
representation of constituent interest on the councils.
    Unlike the Administration proposal, H.R. 5018 does not 
include a provision to accelerate a mandate to end double 
fishing. We believe a deadline to end double fishing be 
included in the Magnuson-Stevens reauthorization and it is 
critical for two reasons: One, to prevent a stock from reaching 
an overfished status; and two, to prevent the need to require 
rebuilding.
    For many years, fishery scientists and managers have 
advocating using ecosystem approaching to fish and management. 
The Administration supports language that defines ecosystem, 
authorizes the councils to take ecosystems into considerations 
and into account, and authorize the councils to prepare fishery 
ecosystem. The Administration commends Chairman Pombo for the 
inclusion of ecosystem-based fishery management provision in 
H.R. 5018.
    The Administration is committed to the development of a 
national register of recreational saltwater anglers in 
cooperation with their states to improve recreational catch 
statistics. A recent National Research Council report 
emphasized moving forward with this provision. NOAA seeks the 
authority to register anglers of targeted species that are 
managed under Federal FMP throughout their range. We would like 
to work with you to craft the most effective policy to address 
this critical need.
    The Administration supports other provisions of H.R. 5018, 
including the authorization of Fishery Observer Fund, and 
measures that address cooperative research, provide bycatch 
reduction centers, and identify fisheries with excess capacity.
    We believe several provisions of H.R. 1431 are consistent 
with the Administration's priorities. The legislation would 
prepare a program to expand cooperative research, improve data 
collection, and improve research and reduce bycatch. The 
Administration supports collaborative approaches to fishery 
research, and believe that improved data collection is 
essential.
    In summary, we support the direction in which these bills 
are headed. We look forward to working with Congress on 
reauthorization of this important Act, and thank you again for 
this opportunity to express our views, and at this time I would 
be happy to answer any questions.
    [The prepared statement of Mr. Hogarth follows:]

  Statement of William T. Hogarth, Ph.D., Assistant Administrator for 
  Fisheries, National Marine Fisheries Service, National Oceanic and 
        Atmospheric Administration, U.S. Department of Commerce

    Good morning, Mr. Chairman and Members of the Committee. My name is 
Dr. William T. Hogarth. I am the Assistant Administrator for Fisheries 
in the National Oceanic and Atmospheric Administration (NOAA) within 
the Department of Commerce. Thank you for the opportunity to testify 
today on two pieces of legislation to reauthorize the Magnuson-Stevens 
Fishery Conservation and Management Act (Magnuson-Stevens Act). Under 
the authority of the Magnuson-Stevens Act, NOAA's National Marine 
Fisheries Service is responsible for managing our Nation's fishery 
resources.
    The Administration appreciates all of the work that you have done 
over the past months to move forward on reauthorization of the 
Magnuson-Stevens Act. I believe that the Administration and Congress 
are moving in the same direction on many issues important to 
reauthorization, and I will discuss these issues in my testimony today. 
First, however, I would like to review the Administration's goals and 
priorities in reauthorizing the Magnuson-Stevens Act, and then I will 
comment on the bills introduced by Chairman Pombo (H.R. 5018) and 
Congressman Rahall (H.R. 1431).

          The Administration's Magnuson-Stevens Act Priorities

    Management of U.S. fishery resources has improved since the last 
reauthorization of the Magnuson-Stevens Act in 1996. We have made 
progress towards reducing overfishing, rebuilding overfished stocks, 
reducing bycatch, minimizing adverse impacts to essential fish habitat, 
and assessing the impacts of fishery-management decisions on fishing 
communities. Advancements in the natural and social sciences have 
enhanced our knowledge and understanding of marine ecosystems and 
enabled us to improve fishery management decision-making. We believe 
that fishery managers should possess the tools necessary to sustain our 
fishery resources for future generations, as well as the industries and 
communities that depend on them.
    The Department of Commerce has testified on several occasions on 
Magnuson-Stevens reauthorization, giving our views on which provisions 
have merit--most recently, at a legislative field hearing in 
Massachusetts. In September 2005, the Administration provided Congress 
with a proposal to reauthorize the Magnuson-Stevens Act. The 
Administration's proposal addresses the challenges currently facing our 
federally-managed marine fishery resources and the communities that 
depend on them. The President's U.S. Ocean Action Plan was central in 
the development of the proposal. The views and concerns of stakeholders 
are incorporated in the Administration's proposal. In 2005, NOAA 
sponsored a national conference, ``Managing Our Nation's Fisheries--
II,'' specifically addressing reauthorization issues. Based upon the 
input of over 800 attendees, the Administration developed a list of 
strategic priorities to address in the reauthorization process. Over 
the past year, NOAA has also been working closely with Congress on a 
wide range of issues related to Magnuson-Stevens Act improvements. In 
sum, the Administration's proposal was developed in the larger context 
of future ocean policy and governance, stakeholder concerns, and 
Congressional input.

                       Administration Priorities

    The Administration's Magnuson-Stevens Act reauthorization proposal 
seeks to achieve the following broad objectives: (1) end overfishing 
and achieve fishery rebuilding based on the biology of species and 
needs of communities, rather than arbitrary time schedules; (2) promote 
wider use of market-based fishery management tools; (3) incorporate 
ecosystem-based approaches in our fishery management process; (4) 
strengthen the role of science in the decision-making process and 
increase our access to social and economic information; (5) conform the 
Magnuson-Stevens Act regulatory procedures with the objectives of other 
environmental laws; (6) improve the operations of Regional Fishery 
Management Councils (Councils), as well as broaden and balance the 
constituent interests represented on the Councils; (7) improve the 
collection and use of recreational fisheries data; and (8) enhance 
enforcement tools so penalties become a real deterrent, rather than 
simply a cost of doing business.
    I was pleased to see many of the Administration's priorities 
reflected in H.R. 5018, sponsored by Chairman Pombo, and H.R. 1431, 
sponsored by Congressman Rahall. In my testimony today, I will 
highlight the provisions in each of the bills that address the 
Administration's priorities.

``American Fisheries Management and Marine Life Enhancement Act'' (H.R. 
                                 5018)

    H.R. 5018 addresses a comprehensive range of domestic fisheries 
management issues, and the Administration supports many of the bill's 
provisions. The Administration believes a few of these provisions are 
critical in Magnuson-Stevens Act reauthorization, and I will discuss 
them in detail. These provisions would: (1) establish limited access 
privilege programs, (2) broaden Council membership, and (3) authorize 
ecosystem-based fishery management plans. Each of these provisions is 
consistent with key Administration priorities, and we are pleased to 
see these issues addressed in the Chairman's bill. At the same time, 
the Administration has concerns with some of the provisions in H.R. 
5018, and we are prepared to work with you and the Committee, Mr. 
Chairman, to address these concerns.
Overfishing and Rebuilding Plans
    We believe that a deadline to end overfishing should be included in 
the Magnuson-Stevens Act reauthorization. Unlike the Administration's 
proposal, H.R. 5018 does not include a provision to accelerate a 
mandatory end to overfishing. The Administration believes a deadline is 
critical for two reasons: 1) to prevent a stock from reaching an 
overfished status, and 2) to prevent the need to require rebuilding. 
Management measures that require an end to overfishing have contributed 
significantly to the rebuilding of many federally managed stocks, such 
as North Atlantic sea scallops.
    The Administration's proposal to end overfishing within a defined 
timeframe and allow rebuilding timeframes to reflect the unique life 
history of the pertinent fish stocks provides appropriate levels of 
management flexibility to achieve sustainable fisheries. H.R. 5018 
identifies additional circumstances to be considered in determining 
rebuilding schedules, which we believe could inappropriately and 
unnecessarily slow rebuilding times.
Limited Access Privilege Programs (LAP)
    In working toward ending overfishing, the Administration supports 
granting the Councils expanded authority to implement limited access 
privilege programs for a variety of reasons. Secretary Gutierrez 
pledged to work with the Fisheries Management Councils to double the 
number of dedicated access privilege programs by 2010. This goal will 
bring eight new fisheries under market-based management programs. In 
the eight fisheries where these programs have been implemented since 
1990, fishermen have enjoyed higher profits, lower costs, longer 
fishing seasons and a safer, more stable industry. Therefore, the 
Administration believes that the Councils should be able to design 
management programs using the full range of fisheries management tools 
available. We believe the Councils should have authority to establish 
LAP programs with sufficient flexibility to address the unique 
management needs of their fisheries. At this time, the Magnuson-Stevens 
Act only authorizes two forms of limited access privileges: individual 
fishing quota (IFQ) programs, and community quotas (in two specific 
geographic areas). Second, market-based management approaches have 
demonstrated success in achieving economic benefits and promoting 
sustainable fisheries. Limited access programs currently in place have 
resulted in increases in per-unit product value and decreases in 
harvesting cost for fishermen. They have allowed fishermen greater 
control in choosing when to fish, and this increased flexibility allows 
them to improve profitability by harvesting fish when prices are most 
favorable. Third, these programs have safety benefits for fishermen. 
Since fishermen can choose when to fish under limited access privilege 
programs, they can avoid inclement weather and the ``race to fish.'' 
For all these reasons, the Administration supports expanding the 
Councils' authority to implement a variety of limited access privilege 
programs.
Cost Recovery for Limited Access Privilege Programs
    While H.R. 5018 outlines the authority to establish limited access 
programs, it does not authorize the collection of fees necessary to 
implement these programs. Recent experience suggests that the 
implementation and monitoring costs of these programs may easily exceed 
the caps proposed in H.R. 5018. We believe this places an unfair burden 
on the taxpayers to support these programs. Failure to adequately cover 
the costs of proposed fishery management actions could preclude 
Secretarial approval, limiting the expansion of these programs. The 
Administration's proposal would authorize the recovery of a larger 
share of the costs in all dedicated access privilege programs.
IFQs in New England
    Another concern is that H.R. 5018 mandates an IFQ referendum with a 
2/3 majority requirement in New England, but nowhere else. Many 
provisions in current law and regulations ensure an open and 
transparent debate on the evaluation and choice of management options. 
Management by IFQ may ultimately be appropriate for some Northeast 
fisheries but not others. Mandating such a referendum for New England 
could result in a costly and unnecessary impediment to the 
implementation of limited access programs in this region. Current law 
ensures that all stakeholder concerns are addressed in the decision-
making process, and places control properly with local institutions 
responsible for fisheries management.
Ecosystem-Based Fishery Management Plans
    For many years, fisheries scientists and managers have advocated 
using ecosystem approaches to fisheries management, whereby management 
programs consciously account for and address multiple living resource 
issues within an ecosystem. In 1996, Congress mandated a report to 
assess the extent to which ecosystem principles are used in fisheries 
management and research, and to make recommendations to further include 
them in the management of our Nation's fisheries. The Administration 
supports this vision and believes we must move towards an ecosystem 
approach to management. Although NOAA and the Councils have already 
begun to integrate this approach into fisheries management, we believe 
that more can be done.
    We support reauthorization language that defines ecosystems, 
authorizes the Councils to take ecosystem considerations into account 
when developing fishery management plans, and authorizes the Councils 
to prepare fishery ecosystem plans. The Administration commends 
Chairman Pombo for his inclusion of ecosystem-based fishery management 
plans provisions, as we believe that ecosystem-based approaches to 
management are fundamental to the future of sustainable fishery 
management.
Compliance with the National Environmental Policy Act (NEPA)
    The Administration supports study, revision, and updating of 
relevant Magnuson-Stevens Act procedures to integrate the environmental 
review processes of NEPA. The Administration supports this approach, 
which was included in our reauthorization proposal, rather than an 
exemption of fishery management actions from NEPA requirements.
Fishing Regulations in National Marine Sanctuaries
    H.R. 5018 requires the review and certification of National Marine 
Sanctuaries regulations for the conservation and management of fish or 
essential fish habitat. The Administration firmly believes Sanctuary 
regulations adequately protect fish and essential fish habitat and does 
not believe Sanctuary regulations should meet the Magnuson-Stevens Act 
national standards in all cases, since their mandates differ from the 
Magnuson-Stevens Act mandates. NOAA is committed to using all its 
regulatory tools and complimentary authorities to develop comprehensive 
ecosystem-based management strategies that meet the purposes, goals and 
objectives for state and federal fishery managers and National Marine 
Sanctuaries.
Broadening Council Membership
    The Councils are a key part of the fisheries management process, 
and the Administration believes the Council process is effective for 
achieving sustainable fisheries management. It is vital that Councils 
are comprised of knowledgeable people representing the breadth of 
interests in our fisheries. H.R. 5018 helps promote a broader and more 
balanced representation of constituent interests on the Councils by 
authorizing Governors to nominate Council members from academia or 
other public interest areas. The Administration supports this provision 
and believes it would allow a wider diversity of interests to be 
represented on the Councils.
Collection of Recreational Fisheries Data
    Finally, the Administration is committed to the development of a 
nationally coordinated registry of saltwater recreational anglers that 
would build upon current State-administered programs. Knowing more 
about the recreational fishing sector will advance our understanding of 
fishery resources, help improve our scientific assessments, including 
social and economic impact assessments, and lead to better fisheries 
management. To establish a registry, H.R. 5018 adopted an incentives-
based approach, calling on the Secretary to offer financial incentives 
to States to encourage collection of recreational fisheries data. The 
Administration and Senate bills propose a different approach, 
authorizing the Secretary to collaboratively work with States to 
establish a national registry, as recommended by a recent National 
Research Council review of recreational data collection programs. The 
Administration believes a comprehensive registration of anglers is 
essential for improving management of fisheries resources. We would 
like to work with you to craft the most effective policy on this 
critical need.
    The Administration supports other provisions in H.R. 5018, 
including the authorization of a Fishery Observer Fund, to help pay for 
fishery observer programs. In addition, we support provisions in this 
bill that were not included in the Administration's reauthorization 
proposal. Examples include provisions that would: address cooperative 
research, identify marine ecosystems, authorize bycatch reduction 
incentives, and identify fisheries with excess capacity. Further, the 
Administration believes the proposed harvest level caps in H.R. 5018 
could be a useful tool, provided they are practical to implement and 
enforce in any fisheries in which they are used.
Law Enforcement
    The Administration's Magnuson-Stevens Act proposal contains a 
number of fisheries law enforcement provisions designed to deter 
violations through fines and penalties. We believe increases in fines 
and penalties provide an appropriate legal response to serious 
violations of the Magnuson-Stevens Act.--Fines and penalties must be 
significant in order to prevent potential violators from simply 
accepting them as a cost of doing business. The Administration 
recommends that H.R. 5018 include the increase in fines and penalties 
as outlined in its proposal.
    Again, I would like to reaffirm the Administration's support for 
many of the provisions in H.R. 5018. We are pleased to see many of our 
priorities included in this bill. We look forward to working with you, 
Mr. Chairman, as reauthorization moves forward.
    I will now discuss H.R. 1431, the Fisheries Science and Management 
Enhancement Act, introduced by Congressman Rahall.

  ``Fisheries Science and Management Enhancement Act of 2005'' (H.R. 
                                 1431)

    H.R. 1431 is narrower in scope than H.R. 5018, focusing largely on 
the role of science in the fisheries management process, Council 
membership and processes, and ecosystem considerations in fisheries 
management. These are important issues, and we agree that improvements 
can and should be made. The Administration agrees with the goals of 
H.R. 1431, and we believe that several provisions in the bill are 
consistent with the Administration's priorities. However, we have 
concerns about the approaches proposed in a few cases.
Improving Fisheries Science and Technology
    H.R. 1431 would establish a program to expand cooperative research, 
data collection, and gear modification. The program would identify 
ecosystem effects of fishing, provide financial assistance to States to 
improve recreational fishing data, collect information on the status of 
stocks, develop fishing gear to avoid bycatch, and provide assistance 
for fishermen to transition to modified gear.
    The Administration supports collaborative approaches to fisheries 
research and believes that improving data collection is essential for 
advancing our knowledge of fisheries and marine ecosystems. As data 
collection improves and our knowledge advances, fisheries managers can 
further incorporate ecosystem approaches into management decisions. 
Reducing bycatch also remains an important objective in fisheries 
management, and we believe that the continued development of 
technological solutions is critical to solving bycatch problems. In the 
past, collaboration with fishermen has provided essential information 
for the design, experimentation, and testing of new and modified gear. 
For example, collaboration with industry led to the successful 
development of circle hook technology in the North Atlantic pelagic 
longline fishery to reduce sea turtle bycatch and development of 
seabird avoidance technology in the North Pacific longline fishery. The 
Administration is pleased that H.R. 1431 addresses the need to expand 
cooperative research, improve data collection to enhance our knowledge 
of fisheries and marine ecosystems, and help reduce bycatch.
Broadening Council Membership and Council Member Training
    As I stated previously in my testimony, one of the Administration's 
objectives in Magnuson-Stevens Act reauthorization is broadening 
Council membership to include representation of the breadth of 
interests in the management of fishery resources, including those with 
a commitment to sustainable fisheries. H.R. 1431 would broaden Council 
membership by requiring that Governors nominate two nominees each from 
the commercial, recreational, and ``fish conservation public interest 
sector'' for Secretarial appointment to the Councils. While we agree 
with the objective of broadened Council membership reflected in H.R. 
1431, the Administration prefers the approach taken in its proposal, 
which would provide Governors more flexibility in nominating members 
that reflect the particular needs of each region and Council.
    H.R. 1431 would also require training for new Council members as a 
prerequisite for voting. NOAA supports, and already provides, training 
for Council members. The Administration is concerned that requiring 
training as a precondition to voting will create delays in the 
Councils' ability to take management action to address timely fisheries 
management issues.
Strengthening the Role of Science in Fisheries Management
    Several provisions in H.R. 1431 address the importance of science 
and peer review in fisheries management. The Administration supports 
authorizing pay/compensation for members of the Councils' Science and 
Statistical Committees to encourage qualified scientists to 
participate. We also support the use of peer-reviewed science. However, 
we prefer the Administration's proposal, requiring the Secretary and 
Councils to formalize a peer review process, rather than the provision 
in H.R. 1431 requiring Secretarial review of the Councils' scientific 
determinations.
    H.R. 1431 would establish a Fishery and Marine Science 
Subcommittee, consisting of fishery biologists and marine ecologists, 
within the Scientific and Statistical Committees of the Councils. This 
subcommittee would determine biological catch limits and other 
management measures necessary to protect habitat and threatened or 
endangered species. In developing management measures, a Council would 
be required to adopt measures that are at least as stringent as (or 
more stringent than) the measures developed by the newly created 
subcommittee. Although the Administration strongly supports science-
based fisheries management decisions, we have concerns with this 
provision and its implications to decision-making authority within the 
current Council process. By concentrating decision-making authority in 
the hands of a small body, this provision would diminish the authority 
of the Councils and the participatory nature of the fisheries 
management process. Finally, we are concerned that this provision does 
not account for social and economic considerations, as required by 
National Standard 8.
    I would like to reiterate that the Administration supports the 
objectives of H.R. 1431. We would be happy to work with you, 
Congressman Rahall, and the rest of the Committee to address these 
important issues as reauthorization of the Magnuson-Stevens Act moves 
forward.
Conclusion
    In summary, when we examine these two bills in light of the 
Administration's highest Magnuson-Stevens Act reauthorization 
priorities, we are encouraged in a number of important areas. 
Specifically, we support the direction in which these bills are headed 
with respect to: market-based fisheries management, Council operations 
and membership, ecosystem-based approaches to management, and 
cooperative science. We look forward to working with Congress on 
reauthorization of this important Act.
    Thank you for the opportunity to present our views on this 
legislation. At this time, I would be happy to answer any questions.
                                 ______
                                 
    The Chairman. Thank you, Dr. Hogarth.
    To start with, obviously this is a very complicated issue 
with a lot of moving parts, but to start with I would like to 
ask you if you think it is fair or makes sense that if the 
rebuilding target substantially changed during the rebuilding 
time period as in the case where the rebuilding targets tripled 
in New England, there should be some flexibility for the 
Secretary to adjust those timeframes.
    Mr. Hogarth. I think that there should be some flexibility, 
and I think we have utilized some flexibility. I think the key 
to this is do we rebuilt these stocks in a reasonable 
timeframe, and that is the key.
    The Chairman. But you believe that there should be some 
flexibility built into the law?
    Mr. Hogarth. Yes, I think the Administration in its bill 
has talked about the rebuilding by the 10-year rebuilding 
timeframe we think is arbitrary, and there are better ways to 
deal with rebuilding.
    The Chairman. Is there a problem with the current 
disclosure and recusal provisions in the Act? Do you know of 
any examples where a council member has violated the current 
rules? Do you know of any examples of why these provisions 
should be changed, or do you think there are changes needed?
    Mr. Hogarth. Well, I do not know of any examples and I have 
been working with the councils now for probably about 10 to 12 
years. We make sure that in council orientation we discuss the 
conflict of interest and recusal rules, and the training that 
we have set up last October, this was part of it, and we make 
sure that the RAs and attorneys that sit on the councils, you 
know, sort of talk to the members and make sure that if it 
appears that it may be that they are coached in, and making 
sure that they do not.
    The Chairman. The Administration has requested language 
regarding the authority to use framework plans. Why is this 
important? Does the language in H.R. 5018 do what the 
Administration has requested?
    Mr. Hogarth. I think this is an important issue. The time 
process to get rules in place is--you know, a fishery 
management plan is probably one and a half to two years. And we 
go through this process, and things are changing on the water. 
But also we set up in that fishery management plan sort of the 
goalpost, and I think that the framework is important to do 
annual specifications, do NCs and adjustments that are within 
the fishery management plan already, and I think it is sort of 
redundant and time consuming, and I do think that H.R. 5018 is 
very close with just a couple questions we may have, but I 
think we can work with the staff to work those out, but I think 
we are very close in H.R. 5018.
    The Chairman. Let me ask you a question on NEPA. Are the 
timelines under NEPA in the regulations?
    Mr. Hogarth. Yes, sir.
    The Chairman. Do those regulations have the force of law?
    Mr. Hogarth. It is my understanding, yes, sir.
    The Chairman. Does the Senate language require any change 
to NEPA regulations or will the timelines continue to be 
conflicting?
    Mr. Hogarth. Well, I think the Senate language sets up a 
process by which we are--it doesn't change, no. It just sets up 
a process that we can--to work with CEQ and others to try to 
work to integrate the two, Magnuson and NEPA, but it does not 
make changes.
    The Chairman. If the language does not require any changes 
to the regulation, how does that provision address the 
fundamental problem between the two acts?
    Mr. Hogarth. It only sets up the process to do it in the 
future. It does not do it in the Act itself.
    The Chairman. So it sets up a process to do it some time in 
the future, recognizing that it a problem, but sets up a 
process of doing it some time in the future?
    Mr. Hogarth. Right, that we can work with CEQ and to 
integrate and coordinate the two acts. Yes, sir.
    The Chairman. So instead of being specific as to what 
Congressional intent is, it turns it over to the Administration 
to carry it out?
    Mr. Hogarth. Yes, sir.
    The Chairman. I am going to recognize Mr. Rahall.
    Mr. Rahall. Thank you, Mr. Chairman.
    I just have two questions for Dr. Hogarth, and I appreciate 
your testimony as well today.
    H.R. 5018, as you know, would redefine the term 
``overfished'' and change the name to ``diminish''. Diminished 
would be defined as a population that is below the ``natural 
range of fluctuation'' necessary to produce a healthy 
population.
    So my two questions are: What effect would this definition 
change likely have on fisheries? And number tow, what is the 
Administration's position on the need for a provision to 
mandate an end to overfishing?
    Mr. Hogarth. First off, we think the key to any of this we 
believe is to stop overfishing. I think if you look at the 
history since 1996, and I looked at it this week, where the 
stocks that were overfishing was taking place in the year 2000, 
in 2005, they are now overfished.
    So I think the key is you have to stop overfishing. If you 
can stop overfishing, then you can look at the biology and the 
life history of the stock to rebuild it. But if you don't stop 
overfishing, then you are going to do, I think, more dramatic 
type management measures in the future, and so that is the 
first thing.
    The Administration changes the word ``overfish'' to 
``depleted,'' so we want to take into account that pollution 
and other things may have an impact. It is not all overfishing, 
and we want to sort of reflect that overfished is a--it is a 
fishing happening, but not all things are caused by 
overfishing.
    Pretty much the depleted, we want to make sure that it does 
not reach a level at which the stock cannot reach maximum 
sustainable yield on a continual, sustainable basis. So we are 
pretty close, I think, to working with H.R. 5018, but it is the 
Administration's position that we have to stop overfishing, use 
the life history aspects to rebuild.
    Mr. Rahall. Thank you, Mr. Chairman. That is all I have.
    The Chairman. I recognize Mr. Gilchrest.
    Mr. Gilchrest. Thank you, Mr. Chairman.
    Mr. Hogarth, in the present statute, in the present Act, 
how easy will it be without any changes in the present Act as 
far as overfishing is concerned to end overfishing and compare 
that to the Administration's language, and I believe the 
Administration's language has a two-year timeframe to end 
overfishing.
    Can you end overfishing with the present Act or how 
difficult would it be, and is it realistic to say you can end 
overfishing as a policy in two years?
    Mr. Hogarth. Well, I think the Administration asked for 
clarification because we don't think it is clear in Magnuson-
Stevens Act what timeframe, and we have had some issues with 
the courts on the timeframe.
    But basically we say that the councils should have 
basically two years to stop overfishing, and we think that is a 
realistic timeframe, and that is a critical part of it, as I 
said earlier, that is a critical part is to stop overfishing. 
So we do think there should be some clarification and further 
words in Magnuson-Stevens to give us that authority.
    Mr. Gilchrest. If you have in the statute, and we have it 
in H.R. 5051, which is the Administration's language to end 
overfishing, our timeframe is one year. Ultimately it would be 
two years. When you look at the statute or the recommendation 
from the Administration to end overfishing in two years, what 
impact would that have on the present act's policy for 
rebuilding?
    The second part of that question is do you believe the 
rebuilding language in the Act as it stands now gives enough 
flexibility so that when the stocks are coming back faster, 
then there can be a change in that policy? There can be more 
fishing.
    Do you think we need to change the language for rebuilding?
    Mr. Hogarth. Yes, I think we need greater flexibility. I 
mean, so much for those stocks that can be rebuilt.
    Mr. Gilchrest. You are saying that there needs to be more 
flexibility in the language?
    Mr. Hogarth. In the language.
    Mr. Gilchrest. As it stands right now?
    Mr. Hogarth. Yes, sir.
    Mr. Gilchrest. For rebuilding?
    Mr. Hogarth. We think that 10 year is arbitrary. We think 
it should be based on the life history of the species, and we 
think we need that flexibility.
    Mr. Gilchrest. You need that flexibility. What would happen 
to rebuilding timeframe--I guess if we adopt the no fishing 
language that the Administration has, or end overfishing, how 
would that dramatically change the rebuilding timeframe 
language?
    Mr. Hogarth. Well, I think the overfishing is separate from 
the 10-year timeframe for rebuilding. Overfishing is, like I 
said earlier, is the key to this because if you continue to 
overfishing you drive the stocks down and then it is much more 
difficult to rebuild in most instances.
    So we think that we should stop overfishing, and then based 
on the life history, some stocks will be rebuilt based on their 
life history in probably four to six years. Some of them that 
live 80 years plus may need a longer timeframe without having 
very dramatic impacts on the fishermen and the fishing 
communities, because we think that having more flexibility in 
rebuilding----
    Mr. Gilchrest. You don't think the language as it stands 
now is flexible enough?
    Mr. Hogarth. No, sir.
    Mr. Gilchrest. In the Administration's bill and also in 
H.R. 5051, you pursue over the course, I believe, it is 24 
months to develop criteria for an ecosystem fisheries 
management plan which then the councils would be required to 
adopt but not required to implement.
    Could you describe the differences between the 
Administration's language for ecosystem fishery management 
plans and the bill before us today?
    Mr. Hogarth. The Administration's bill, and by the way we 
think that the two bills are probably pretty close, but in the 
Administration's bill we do develop criteria, and we are in the 
process of initiating that development of these criteria now. 
But we think that the bill needs to recognize ecosystem 
management is the tool today, and it is the approach and most 
countries are going toward managing ecosystems.
    But there should be some criteria as to how you are going 
to look at habitat, how you are going to look at bycatch, how 
you are going to look at the prey. So we think that should be 
done in an open process with the councils and with the general 
public, and so that is why we are trying to move in that 
direction.
    We do think that the councils should be given some leeway 
and it doesn't need to be required to do ecosystem plans in all 
instances because I think in some stocks in some instances you 
would not want to do ecosystem, or would not be able to do it 
within the budgets that we have today.
    Mr. Gilchrest. Thank you, Mr. Chairman.
    The Chairman. Mr. Christensen.
    Ms. Christensen. Thank you, Mr. Chairman.
    This issue is one that is of great concern to me and my 
constituents, and Dr. Hogarth, you have heard from me, from 
several of them in the past that is of particular concern to 
our fishing community.
    From the point of view of fishing in the Virgin Islands, 
fishery management as determined by the councils has been 
uneven at best, and sometimes really restrictive against the 
Virgin Islands. While we have been able to reach some 
compromise on some issues with a lot of effort, we have seen 
some decisions which cover fisheries in the U.S. V.I. and 
Puerto Rico that have been very restrictive against the Virgin 
Islands fisheries, even when scientific evidence demonstrates 
otherwise and sometimes using scientific evidence that our 
fishing communities says does not come from the territory. It 
comes from Puerto Rico, may come from somewhere around the 
Florida Keys.
    Most recently, a decision that we must participate in 
closure of 30 percent of closures in our area, even though we 
have already closed so many areas due to monuments, and others 
to restore our fisheries, and we really are very concerned 
about that. So we are hoping that through these bills one or 
the other of them find a better way to restructure the 
operations of the councils so that before they issue fishery 
management plans the input and consideration of affected 
stakeholders will be given more consideration.
    In the case of the Caribbean Fisheries Management Council, 
you know, some of the waters around the Virgin Islands and 
Puerto Rico often yield restrictions in part because the 
Commonwealth of Puerto Rico has nine miles out, authority over 
nine miles, and we only have three, and I just want to bring 
that up because we do have legislation pending before this 
Committee that would take the Virgin Islands authority out to 
nine miles as well, and this may in some regard address the 
concerns and the issues that we have.
    But I guess one of the concerns that we have had in the 
Virgin Islands is whether the decisions of the Caribbean 
Fisheries Management Council can be effectively appealed. It 
seems to us that once the council has made a decision to close 
a particular area from fishing, that that decision is final, 
and would either of those bills address that concern and allow 
for a more effective appeal process?
    Mr. Hogarth. Not that I am aware of, but there are 
processes built in already. For example, if a council member 
wants to send in a minority report that he disagrees with the 
decision, he can send a minority report in which will go into 
the record and will be considered by us when we go through the 
public process. But there is no new appeal process that I am 
aware of in this bill, either bill.
    Ms. Christensen. Well, in part, the problem may be due to 
the makeup of our fisheries council, and I think H.R. 1431 
outlines how those people are to be decided upon, and that may 
help some of that because we don't currently actually have a 
Virgin Islands fisherman or fisherwoman on our council. So I 
think the designation of how to choose the council members will 
be helpful to us.
    My constituents also are concerned that in looking at--I am 
not sure if both of the bills or one of the bills--that they 
would give NOAA more power to declare overfishing and to apply 
the restrictions rather than the council, that it would give 
NOAA. As a matter of fact, I don't know if you are familiar 
with Dr. Olsen, but in his working with the fishermen they are 
concerned that in this legislation before us it would give NOAA 
more authority. Do you see that?
    Mr. Hogarth. I don't, and I will check into that and get 
back to you later, but our own thinking on these bills, or the 
Administration bill, is that to end overfishing, we already 
have that authority to notify the councils and they have to 
take action. We just want to do that quicker.
    But we still--the Administration supports the council 
process. I don't think--I am not aware where we have taken any 
authority away from the councils. That is not our intention.
    Ms. Christensen. OK. Do both of those, in your opinion, 
offer a variety of management approaches or does ending 
overfishing mean closing an area?
    Mr. Hogarth. I think that to end overfishing you would use 
the many tools that the council has. It could be primary 
closures. It could be bag limits, size limits. There are many 
ways to end overfishing, and I think the council has the 
prerogative to use any of those tools that they want to.
    I think several of these bills and the Administration bill, 
too, talks a little bit about capacity, because I think the 
capacity in the harbors, the wild resources today in most, and 
it not always the case, but in most instances exceeds the 
ability for the stocks to rebuild, and so the capacity is an 
issue that we have to deal with for the long term.
    Ms. Christensen. Thank you, Mr. Chairman.
    The Chairman. Mr. Saxton.

STATEMENT OF THE HON. JIM SAXTON, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW JERSEY

    Mr. Saxton. Thank you, Mr. Chairman.
    I want to begin by thanking you for holding this hearing 
this morning. The last time we reauthorized Magnuson-Stevens I 
was Chairman of the Subcommittee on Oceans, Fisheries 
Conservation and Wildlife, and we used this hearing as a 
starting point to bring together the stakeholders in the 
Magnuson-Stevens process, and I believe came out with a better 
bill because of the collaboration that took place at that time.
    So I thank you in that spirit for holding this hearing this 
morning, and I am hopeful that it represents the beginning of a 
similar process. But I do have some concerns with the 
provisions of H.R. 5018, and if you will permit me, rather than 
to ask a question, I would just like to very quickly run 
through these.
    First, I believe that the rebuilding provisions, 
particularly when combined with some of the definition changes 
made in the underlying bill, would make it far more difficult 
to implement management measures needed to rebuild overfished 
populations.
    Second, the bill contains a section that would place the 
priorities of the fisheries management councils above the 
priorities of our national marine sanctuaries managers.
    Both of these programs are vitally important, each with 
their own different mandates, and I would much prefer to see 
the National Oceanic and Atmospheric Administration work to 
develop a system that will ensure both programs are a success.
    Third, the bill includes a section virtually identical to 
the current NMFS guidance on habitat areas of particular 
concern, only eliminating a key part of that guidance related 
to the impacts of development. Without coastal habitat, we have 
no fish, and that has always been something that is on my mind, 
particularly representing a densely populated district along 
the New Jersey coast.
    Last, I believe that everyone in this room is aware that 
there have been issues having to do with the implementation of 
the provisions of Magnuson-Stevens in accordance with NEPA 
requirements.
    NEPA was not designed for dynamic resource management such 
that is necessary here, but that does not mean that the intent 
of NEPA should simply be waived. Recognizing the need to 
develop and implement management procedures in a more timely 
manner I believe it is important to encourage the Council on 
Environmental Quality and NMFS to work together to facilitate 
the fisheries management decisionmaking process in a manner 
that will comply with both mandates. I believe the Senate bill, 
as a matter of fact, contains such a provision.
    I do also believe that H.R. 5018 contains some very 
positive elements, particularly in relation to improving the 
role of scientific and statistical committees and scientific 
peer review program.
    Finally, I must admit I am frustrated, as are many others, 
that our fisheries management system continues to simply react 
to one disaster or fisheries failure after another. From New 
England groundfish to coastal sharks to Red Snapper in the 
Gulf, our managers are always responding to overfishing rather 
than acting proactively to prevent it. I see some smiles in the 
audience because people have heard that speech from my lips 
before.
    Our current approach of employing narrowly targeted 
management tools to achieve fleet structure in composition 
often leads to unforeseen consequences for participants, 
communities, the fisheries resources, and the fisheries 
resources upon which they depend. The reauthorization provides 
in this instance a significant opportunity to do something 
proactive.
    A recent White House conference in cooperative conservation 
highlighted the benefits and successes of using a collaborative 
process. Such processes are particularly effective and are 
helping in diverse contending interests reach agreement on 
implementation decision. We should take this opportunity to 
specifically authorize the development of guidance in a 
framework so that our councils can take advantage of such an 
important tool to create and guide the implementation of the 
long-term vision for fisheries under their jurisdiction.
    Mr. Chairman, thank you for permitting me to make this 
statement this morning, and I look forward very much to working 
with you as we move forward.
    [The prepared statement of Mr. Saxton follows:]

  Statement of The Honorable Jim Saxton, a Representative in Congress 
                      from the State of New Jersey

    Thank you Mr. Chairman. I appreciate the opportunity to make a 
statement this morning.
    I do have to express my concern and disappointment at having not 
been included or consulted in any way in the development of either bill 
under consideration today.
    Historically, development of Magnuson-Stevens and other oceans 
legislation by this Committee has been bipartisan, with significant 
input from Members representing coastal areas. I thank the Chairman for 
holding this hearing and I am hopeful it represents the beginning of a 
similar process.
    I do have some concerns with provisions contained in H.R. 5018.
    First, I believe the rebuilding provisions--particularly when 
combined with some of the definition changes made in this bill--would 
make it far more difficult to implement management measures needed to 
rebuild overfished populations.
    Second, the bill contains a section that would place the priorities 
of the Fisheries Management Councils above the priorities of our 
National Marine Sanctuary Managers. Both of the programs are 
important--each with their different mandates. I would prefer to see 
NOAA work together to develop a workable system that will ensure both 
mandated programs are a success.
    Third, the bill includes a section virtually identical to current 
NMFS guidance on Habitat Areas of Particular Concern--only eliminating 
a key part of that guidance related to the impacts of development. 
Without coastal habitat, we have no fish.
    Lastly, I believe everyone in this room is aware there have been 
issues implementing the provisions of Magnuson-Stevens in accordance 
with NEPA requirements. NEPA was not designed for dynamic resource 
management--but that does not mean that the intent of NEPA should 
simply be waived. Recognizing the need to develop and implement 
management measures in a more timely manner, I believe it is important 
to encourage the Council on Environmental Quality and NMFS to work 
together to facilitate the fishery management decision-making process 
in a manner that will comply with both mandates. I believe the Senate 
bill contains such a provision.
    I do also believe H.R. 5018 contains some positive elements--
particularly in relation to improving the role of the Scientific and 
Statistical Committees and the scientific peer review process.
    Finally, I am frustrated--as are many others--that our fisheries 
management system continues to simply react to one disaster or 
fisheries failure after another. From New England groundfish to coastal 
sharks to red snapper in the Gulf--our managers are always responding 
to overfishing rather than acting proactively to prevent it. Our 
current approach of employing narrowly targeted management tools to 
achieve fleet structure and composition often leads to unforeseen 
consequences for participants, communities and the fishery resources on 
which they depend.
    This reauthorization provides a significant opportunity to do 
something proactive. A recent White House Conference on Cooperative 
Conservation highlighted to benefits and success of using collaborative 
processes. Such processes are particularly effective are in helping 
diverse, contending interests reach agreement and implement decisions.
    We should take this opportunity to specifically authorize the 
development of guidance and a framework so that our Councils can take 
advantage of such an important tool to create and guide implementation 
of a long-term vision for fisheries under their jurisdiction--focusing 
on what fleets should look like when a fishery is rebuilt, taking our 
communities and resource conservation needs into account.
    There are other provisions that provide for cooperative, voluntary 
approaches to fisheries management challenges contained in other 
legislative proposals also deserve the Committee's attention.
    Thank you again Mr. Chairman for holding this hearing. I do hope 
this is the beginning of a process in which we can work together to 
develop a broadly supported bill.
                                 ______
                                 
    The Chairman. Thank you. Mr. Pallone.
    Mr. Pallone. Thank you, Mr. Chairman, and let me also thank 
you for having this hearing today because it is very important 
to our district and to fisheries management obviously around 
the country, or even internationally.
    I wanted to ask Dr. Hogarth a few questions, and I am going 
to try to get them all in here, so work with me if you can.
    In your testimony, which of course I missed, I wasn't able 
to get here until after, you state that the Administration's 
position on developing a new recreational data collection 
system is to establish a national registry of anglers. I wanted 
to ask two things.
    Would such a registry be mandatory? And second, does the 
Administration intend to impose a fee on individual 
recreational anglers for the right to fish?
    During a Congressional staff briefing last year, your staff 
cited a figure of $25 to $35 a year for this fee. Is that 
number accurate?
    Mr. Hogarth. First off, we have had many difficulties with 
the MRFSS system in collection recreational----
    Mr. Pallone. You know, I could interrupt you and say that 
my second question, which you can kind of throw in with all 
this, is whether you believe the MRFSS system is at all 
appropriate for making stock allocation decisions for the 
recreational sector.
    Mr. Hogarth. Well, that helps.
    Mr. Pallone. OK, I will throw that in.
    Mr. Hogarth. The MRFSS system was developed to look at 
long-term trends in recreational fishing, and as we develop 
quotas it had to go to, you know, management and quotas. That 
was the only system in place, and so it was not intended to do 
quota monitoring, but it is the best available science we had 
to do it.
    The industry has become very concerned about the use of 
this, and so we funded a study with the National Research 
Council which took a little over a year, about a year and a 
half, that just made the report back to us in which they had 
some serious problems with MRFSS system, and one of the biggest 
one was that in using the MRFSS system, it is sort of a 
complicated system, you take the telephone book, and you call 
people to ask them if they had been fishing, you know, all 
across the country. That is the universe that you deal with, 
and NRC felt like one of the major problems and some of our 
recreational fishermen is that the universe should be people 
that fish, you know, because you go to the dock, and get what 
is being caught now.
    So the recommendation was that we need to go to a type of 
recreational registry or license, and we call it an angler 
registration. We want to use the states that have it. If a 
state has a recreational license or registration, then it would 
fulfill this responsibility. Then the Federal government would 
do nothing as long as the states would allow them. The states 
that do not have a registration we ask for the authority to 
establish one if the states do not.
    Now, the cost is minimal. It is probably around 22 to 25 
dollars. The money that comes from that is--we are only allowed 
collect what is the costs of administering the registration, 
and then it goes to the general treasury.
    As far as I am concerned, I don't care what we charge for 
or don't charge for. We need a registration so we can get 
accurate recreational data.
    Mr. Pallone. So would it then be mandatory in a sense?
    Mr. Hogarth. It would be mandatory.
    Mr. Pallone. It would be?
    Mr. Hogarth. Yes, sir.
    Mr. Pallone. All right. Then let me just ask you the third 
question, and that is all I have. It relates to the same thing. 
Most of the legislative proposals for Magnuson-reauthorization 
include what is know as a hard TAC under which the law requires 
councils to set firm total allowable catch limits. The 
differences come in the payback or enforcement provisions 
included with the hard TAC.
    So how is this statutory hard TAC provision different from 
the council's current practices, but even more important, 
Doctor, with out more accurate recreational catch data than 
what we get from MRFSS, which we have already talked about, how 
can we justify requiring the hard TAC for recreational 
fishermen?
    Mr. Hogarth. Well, first off, we are going to fix the 
recreational data. You know, I am committed to it and we got a 
process started already. We will fix that issue.
    The second thing is that I think it cancels set TACs, but 
the problem is if you exceed it, basically so far there are no 
teeth in the law that says you subtract it or your overages and 
things like that. So what we are trying to do is to get 
Magnuson to really give more guidance and criteria to what the 
councils can do and what they should do. And so, you know, that 
is one of the tools. Hard TACs is one of the tools, but it 
seems to be one of the most effective tools that we found to 
rebuild stocks.
    Mr. Pallone. In other words, you feel that with MRFSS it 
would be difficult to justify hard TACS.
    Mr. Hogarth. Right.
    Mr. Pallone. But you feel that you are going to establish 
this new data collection system, and because that is, in your 
opinion, going to be an improvement, it would justify the hard 
TACs?
    Mr. Hogarth. Yes. I think hard TACs in certain instances 
are the way we have to go. The agency and other type things, it 
is a whole lot easier to get around. You have to have a limit 
the fishermen can catch, and hold them to it.
    Mr. Pallone. And I guess I should reiterate, since I have a 
couple of seconds left here, that there is 100 percent 
opposition to this recreational fee or license, I guess you 
know that, in my district and throughout the state, and I won't 
speak for the rest of the country, but I am probably not 
telling you something you don't already know.
    Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you. Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you very much, and I 
couldn't help but think Mr. Hogarth has come a long way since 
his days in North Carolina, but I am really pleased and proud 
to say that I knew you then, and I know you now, so thank you 
very much for your leadership.
    Mr. Hogarth, this is such an important reauthorization act, 
and where do you see, do you think the commercial fishermen of 
this country, the American commercial fishermen, are they at a 
crossroads?
    Mr. Hogarth. I think there are some real tough decisions 
that have to be made for the commercial industry. I think the 
commercial industry in this country needs to survive and needs 
to be a vital part of providing healthy seafood that the 
Federal government keeps telling me the American public eat, 
and right now we are importing about 78 percent of that, and I 
think it is extremely important for us to stabilize our 
commercial fishing industry.
    So I think we are at a crossroads. I think we have to use 
some of the more modern techniques that are available. We have 
to learn from some of the countries like Iceland and others 
have done to stabilize their fisheries with dedicated access 
to, you know, processors.
    But yes, we have to with the commercial industry. We have 
to rationalize these fishers to the point where they can fish, 
they can make some of the decisions. If the weather is bad 
today, then they can't think, well, I have only got five days 
to fish this month, so I have to go risk. We have to build into 
this system ways to--it is a business. We operate--you know, I 
think the Chairman t his morning said $60 billion. This is a 
$60 billion industry for this country, recreation and 
commercial, and while harvest is extremely important to the 
supply of healthy seafood.
    But we are at a crossroads. We have to make some tough 
decisions, and if we don't make them, we are only hurting the 
commercial industry's future, but they are not profitable, they 
do not have the money to buy insurance to maintain, so we are 
at a crossroads where we need to rationalize the fisheries, 
make them stable, make them be able to supply the market 12 
months a year, not six months a year as we do right now 
basically with Red Snapper and some of the other stops, so we 
are at a crossroads, in my opinion. But we are going to make it 
with you all's help.
    Mr. Jones. And so you feel that Mr. Pombo's bill is taking 
the big step to try to bring some stability to the commercial 
fishing industry. You feel that this is legislation now or 
could be added, or are you satisfied with the language?
    Mr. Hogarth. No, I think there are a couple of things that 
we think we need to do that we have some concerns with, and 
that is, as I explained earlier. In the Pombo, Congressman 
Pombo's bill, we think we need to have a more timely and 
definitive timeline to end double fishing. We think that is 
critical because we have to stop double fishing.
    And it doesn't mention anything about collection of 
recreational data, and we do have to have good data to make 
proper decisions, and that is one thing that I think MRFSS has 
been criticized, and we need to correct that problem.
    But I think that this bill in combination with the Senate 
bill in conference that you can come out with an excellent 
Magnuson bill from Congress this year that we would all be very 
happy with.
    Mr. Jones. Mr. Chairman, thank you very much.
    The Chairman. Thank you. Mr. Melancon.
    Mr. Melancon. Thank you, Mr. Chairman. I want to apologize 
being in and out. I have a lot of people from Louisiana, just 
like the fisheries people, that have been in and out of my 
office for the last eight months, and I am still meeting with 
them on a daily basis because of their frustration of what our 
government is not doing, and fisheries is included in that what 
they are not doing to help get us back.
    I could give you a list of stories of how SBA comes out and 
tells a shrimper that unless he can produce the records of his 
catch last year, which he obviously didn't have any to speak 
of, they can't make him a loan, and, well, can you loan me the 
money to get my boat off the levee, they are telling him they 
can't do that because they can't produce the records because 
there are no records. And if they did have the records, they 
went with the house. They have a boat and that is all they can 
prove that they have that they were a shrimper. So there is 
quite a frustration there.
    You know, the Byrd Act was amended. These shrimpers that 
were at least having some hope that they might get some monies 
for the dumping now--I mean, that is going to be, I guess, 
taken out gradually over several years, but the games have been 
played there, and now not having that ability to get Byrd from 
it is just taken out gradually over several years, but the 
games have been played there, and now not having that ability 
to get Byrd funded.
    It is just putting the fisheries, commercial fisheries 
particularly, the shrimping industry along the Gulf Coast, 
deeper and deeper and deeper in debt with no light at the top. 
It is just getting worse.
    I think we need to do some amending of the bill, and I 
stand ready to do that, and hope that we can find some good 
compromises on those issues that are sticky, and try and make 
sure that we keep American fisheries alive.
    Thank you. I yield back my time.
    The Chairman. Thank you, Mr. Melancon.
    Mr. Brown.
    Mr. Brown. Thank you, Mr. Chairman, and thank you, Dr. 
Hogarth.
    My questions might be a little different in direction than 
the other questions, but I am concerned, I guess, about the 
ecology in fishery area, particularly, I guess, in reference to 
the gentlemen from Louisiana.
    Have you seen the difference in the reproduction ability in 
the Gulf with the--with the oil drilling?
    Mr. Hogarth. I don't think that we have the data to 
separate out. We did sampling after the hurricanes, and we saw 
most stocks increased about 20 to 30 percent. A lot of that is 
probably due to the fact that there was no effort, you know, 
fishing effort at all at the time. But we are trying to work 
with Congress on money and it is in the President's budget to 
do more work in the Gulf with what we call SEMAP, to look at 
the actual small fish that would be impacted by oil and gas, 
and by the L&G facilities. That is in the President's budget, 
and we hope to expand that work.
    We feel like there is additional work to be done, but to 
answer you definitively now, we did not have the data to show 
any impact, though we do not see an impact we can attribute to 
oil and gas.
    Mr. Brown. OK, which means that you don't really sense a 
negative impact?
    Mr. Hogarth. No.
    Mr. Brown. OK. I know that some of the agent counterparts 
are using alternative means of producing super ponds or 
whatever. Do you sense this could be an opportunity for 
America?
    Mr. Hogarth. The Administration has an aquaculture bill 
2005, it is called Aquaculture 2005. It has been introduced in 
the Senate. It has not been introduced in the House, and we 
think there is great potential in this country for aquaculture, 
and we think it is great potential for also aquaculture 
potentially to get out of some of the environmental issues and 
you know, high-price property, and we feel that it has to move 
in that direction.
    We cannot produce the seafood in this country we need from 
wild harvest. I don't care what you do basically. You cannot 
produce the amount of seafood. So we need to do aquaculture in 
combination with the wild harvest, and some of the fishermen 
could do both, in our opinion, and we think we could get more 
self-sufficient in seafood, but it is an important issue for 
us, and I think this country needs to address it, and I hope 
that Congress will pass the aquaculture bill this year. It is a 
top priority of the Secretary of Commerce and the 
Administration.
    Mr. Brown. Mr. Chairman, if I could just ask one further 
question.
    On the amount of seafood that we actually produce is some 
60 billion a year. Do you have a number of exactly how may 
dollars worth of seafood we consume in--I guess I am trying to 
find exactly, you know, what is coming out of our domestic 
resources versus imports?
    Mr. Hogarth. Yes, I would rather get back than give you a 
number off the top of my head. I know our trade deficit is 
between eight and nine billion dollars a year, and about $35 
billion a year to Gross National Products from the seafood 
industry, but let me get you exact numbers on what we product 
and what we import, and I will get back to you on that.
    Mr. Brown. OK, thank you. Thank you, Mr. Chairman.
    The Chairman. Mr. Costa.
    Mr. Gilchrest. Just two follow-up questions, Mr. Chairman.
    The Chairman. Mr. Gilchrest.
    Mr. Gilchrest. Mr. Hogarth, if you end overfishing, does 
the rebuilding timeframe become less important, and if you 
don't end overfishing, do you still think that the extra 
flexibility for rebuilding timeframe, the language for 
rebuilding timeframe as proposed in the present bill before us 
today is warranted or will help the stock assessment?
    Mr. Hogarth. I think if you go to flexibility and 
rebuilding without ending overfishing, you are going back, you 
sort of go backwards. I think it will be worse than better. I 
think the key to this again is to stop overfishing and then it 
gives you more flexibility based on the life history to rebuild 
stock. It gives you more flexibility.
    Mr. Gilchrest. So the fundamentals to the reauthorization 
is that one single item, end overfishing?
    Mr. Hogarth. It is one of the most important to me, yes, 
sir, and I think it is to the industry because if you look--
like I said earlier, I can give examples. If we don't stop 
overfishing, the stocks so further down, and then we have to do 
more dramatic management measures to try to get it rebuilt back 
up, and it takes longer, and it has more impact on the 
industry.
    Mr. Gilchrest. I think you are correct. I think that is the 
glue that is going to hold this house of cards together. 
Without that, I think we are still back with a whole range of 
difficulties that we will continue battle over for years to 
come.
    I would like you to comment on the need for processing. In 
your testimony and in answer to some of the questions, you 
talked about the integration of NEPA with the fishery 
management plan process, and the review of that in the two 
bills, H.R. 5051 and the Senate version, basically takes a 
look, I think it is a year timeframe, to see where there is 
unnecessary redundancy and integrate that into the process, and 
then the administration with CEQ, and certainly Congress would 
be a part of that process, could understand how we could make 
it less bureaucratic, less onerous, but not take away from the 
ecological and the biological necessities of restoring and 
sustaining fisheries.
    I guess my question is would you--what is your comment to 
having the Secretary be essentially the sole source of that 
process, the Secretary making the decision that we don't need 
NEPA in this fishery management plan?
    Mr. Hogarth. Well, I think if the Secretary is given that 
responsibility, I can assure you that we would do it in 
combination with other agencies and with CEQ.
    The Administration really wants to see the redundancies 
reduced in the process, and there are some overlaps and 
redundancy, but we want to make sure that the process considers 
the environmental effects, and that is I think a key is to 
consider the environment effects, and we have to maintain some 
of the NEPA standards, but we do need more efficiencies.
    So I think what we would like to see is a process where we 
look at what other agencies have done, how they worked through 
this process, and Magnuson is a very thorough process, very 
public-involved processes. I think Magnuson does a lot, but 
Magnuson does not require you to look at alternatives and 
things like that that I think we need to consider these 
environmental effects.
    So totally to delete or put Magnuson or that Magnuson 
fulfills NEPA, I think leaves some holes, and that is what we 
are concerned about.
    Mr. Gilchrest. Thank you very much. Thank you, Mr. 
Chairman.
    The Chairman. All right. Well, thank you, Dr. Hogarth. We 
appreciate your testimony and answering the questions. If there 
are further questions that this Committee has, they will be 
submitted to you in writing, and if you could answer those in 
writing so that they can be included as part of the hearing 
record.
    Mr. Hogarth. Thank you, Mr. Chair.
    I would just like to say one thing to the Congressman from 
Louisiana. We are and have been working with the state 
directors, and we are hoping that out of this process going on 
on the Hill now that we will be able to work further with the 
industry. It is hurting, and needs help, and we want to do 
everything we can.
    I have used everything I have in my power to help, but we 
sympathize with the plight of those fishermen.
    Thank you, Mr. Chairman, for the opportunity to be here.
    The Chairman. I would now like to introduce our second 
panel of witnesses. Panel 2 witnesses include: Ms. Wilma 
Anderson, Executive Director, Texas Shrimp Association; Dr. Don 
McIsaac, Executive Director, Pacific Fishery Management 
Council; Mr. Lee Crockett, Executive Director, Marine Fish 
Conservation Network; Ms. Maggie Raymond, Associated Fisheries 
of Maine; and Mr. Chris Oliver, Executive Director, North 
Pacific Fishery Management Council.
    If I could just have you all stand and raise your right 
hand.
    [Witnesses sworn.]
    The Chairman. Thank you very much. Welcome to the 
Committee. Ms. Anderson, we are going to be begin with you.

 STATEMENT OF WILMA ANDERSON, EXECUTIVE DIRECTOR, TEXAS SHRIMP 
                          ASSOCIATION

    Ms. Anderson. Good morning, Mr. Chairman, Members of the 
Commission, I am Wilma Anderson, Executive Director of the 
Texas Shrimp Association, and I hold a seat on the Board of 
Directors of the Southern Shrimp Alliance, a coalition of eight 
wild shrimp-producing states from Texas to North Carolina. We 
are proud of our big part of our nation's domestic fishing and 
seafood production heritage.
    Mr. Chairman, our fishery continues to be well managed, and 
our shrimp stocks are large and healthy. We are compliance with 
sea turtle and other mandates. We produce a high-quality, 
health product for the consumer. Even though we are not 
overcapitalized, there are many external forces that threaten 
our industry's survival.
    The last time I testified before this Committee, I reported 
that the gulf shrimp industry was generating about $5.2 billion 
in economic impact, and 190,000 jobs in 1980. By the year 2000, 
the total economic output of Gulf and South Atlantic shrimp had 
grown to $9.95 billion. The NMFS fisheries in the United States 
report on U.S. shrimp landings indicates our fishery was the 
most valuable in the U.S. in the year 2000.
    However, by 2002, the value of the U.S. shrimp harvest and 
dockside prices plummeted 50 percent. Shrimp processing sector 
employment fell over 40 percent. By 2003, the total economic 
output of the Golf and South Atlantic shrimp had fallen to 5.5 
billion, a net annual loss of 4.2 billion since the year 2000.
    What was behind this downfall? Illegal imports. In February 
2005, in a petition filed by the Southern Shrimp Alliance, the 
U.S. International Trade Commission finalized its unanimous 
decision that found six countries guilty of violating the U.S. 
antidumping law.
    Unfortunately, despite the powerful action taken by the 
ITC, the flood of shrimp imports continues today at a rate of 
over one billion pounds per year from these six countries 
alone. The U.S. dockside prices remain artificially depressed.
    Last year brought the hurricanes and unprecedented 
devastation to our communities, our industry, and our fishing 
grounds. Gulf shrimp landings in 2005 fell another 35 percent 
from 2004.
    We are immensely grateful for the personal attention this 
Committee and many in Congress have focused on this terrible 
catastrophe. Mr. Chairman, now we have a fuel price crisis. The 
cost of fuel is our primary cost of production. We cannot pass 
this cost on to consumers because our market is artificially 
controlled by imports.
    Mr. Chairman, we certainly have our hands full with these 
difficult challenges, and so you might wonder why we focus on 
the Magnuson Act at this point. The reason is that our fishery, 
along with the other American fisheries, has something very 
important at stake in this reauthorization process.
    We read a lot in the press about how the environmental 
community is pressing hard to make the Act more narrow and 
rigid. For those of us who deal with the real world fishery 
management, we feel their ideas will be counterproductive if 
enacted. Fisheries are incredibly diverse, and fishery policy 
must accommodate that diversity. We need better science, more 
flexibility, and some common sense if we are going to improve 
this Act.
    Mr. Chairman, I have included in my written testimony a 
number of concerns and suggestions regarding our fishery, 
including the Gulf Council's action on Red Snapper bycatch 
which needs serious attention. This morning I would like to 
address just one of these issues in detail which may have broad 
implications for a number of provisions in your bill and in the 
Act.
    As fishery goes, shrimp are a bit unusual biologically in 
that they are an annual specie. They reach harvestable size of 
maturity within their first year of life, and few live beyond 
one year. The success of a given year class is driven by 
environmental conditions, not fishing effort. These biological 
realities have important management and policy implications 
that should be incorporated into the Magnuson-Stevens Act.
    For example, or fishery is not managed by an annual catch 
or catch limit or TAC. Instead, it is successfully managed to 
achieve a minimum escapement of adult shrimp from the estuaries 
to offshore areas to ensure good production the following 
years.
    Mr. Chairman, we appreciate your apparent recognition of 
this reality in the provisions that require annual catch limits 
set forth in Section 3 of your bill. We note the specific 
language that limits this requirement to those fisheries for 
which an annual catch limit can be established. We hope the 
intent of this language is to correctly exclude our shrimp 
fishery from this annual catch limit requirement.
    Still given the political forces we face, particularly on 
the Gulf Council, we worry that an annual catch limit could be 
established arbitrarily even though there is no scientific or 
management justification for it. Perhaps we could work with you 
and your staff to make certain this provision does not apply to 
the shrimp fishery.
    For the same reason, the basic concept of maximum 
sustainable yield is not entirely relevant to our shrimp 
fishery because there has been no demonstrated effect of 
fishing effort of annual shrimp yield. The fundamental concepts 
overfished, overfishing, and optimum yield, which all are tired 
to MSY, may need to be reevaluated in the context of shrimp 
biology.
    In a previous Congress, consideration was given to 
directing the National Academy of Sciences to evaluate this 
unique situation and recommend a legislative solution. Perhaps 
this approach would be useful again.
    Mr. Chairman, there is one final point I would like for you 
and your Committee to take from my testimony today. While the 
shrimp industry may be down and faced with many tough 
challenges, we are by no means down and out. We could certainly 
use a hand and hope that the pending supplemental appropriation 
bill will provide one, but what we don't need right now is 
legislation that will hamstring what is already a very 
difficult management process.
    We commend you, Mr. Chairman, and our good friend, Mr. 
Ortiz, Mr. Young and Mr. Frank, who have sponsored these bills. 
I think it moves in the right direction. We look forward to 
working with you and your fine staff on the important issues I 
brought to your attention.
    Thank you, Mr. Chairman. This concludes my statement.
    [The prepared statement of Ms. Anderson follows:]

        Statement of Wilma Anderson, Texas Shrimp Association, 
               on behalf of the Southern Shrimp Alliance

    Chairman Pombo, Members of the Committee, I am grateful for the 
opportunity to speak today on behalf of the Southern Shrimp Alliance, 
which is an extraordinary coalition of U.S. shrimp fishermen, 
processors and the associated shoreside infrastructure from all eight 
of the warm water shrimp producing states, from my home State of Texas 
to North Carolina.
    SSA was formed in recognition of the many severe threats to the 
survival of the domestic wild-caught shrimp producing industry. Our 
purpose and commitment is to preserve the long term viability of one of 
our nation's most valuable fisheries; one that has for decades been a 
foundation of the economy and social structure of countless coastal 
communities throughout the Gulf and Southeast regions. We are proud to 
be a large part of our Nation's domestic fishing and seafood production 
heritage.
    I would also proudly note that warm water shrimp continues to be a 
well managed and healthy resource. Our fishery is in full compliance 
with our sea turtle and other bycatch mandates, at great cost, I would 
note. Our shrimp stocks are large and healthy--well above the 
overfishing index level, and are not overfished nor approaching a state 
of being overfished. We produce a very high-quality and healthy product 
for the consumer. Despite all this good news, our industry is faced 
with a host of external forces that literally threaten our very 
survival.
    Mr. Chairman, the last time I testified before this Committee in 
1999, I referenced the results of a 1989 report by A.T. Kearney that 
estimated the Gulf shrimp industry was then generating direct and 
indirect annual impacts of about $5.2 billion in sales, over $2 billion 
in income, and about 190,000 jobs.
    More recently, our analyses indicate that by the year 2000, the 
total economic output of Gulf and South Atlantic shrimp had reached 
$9.95 billion. The NMFS ``Fisheries of the United States, 2000'' report 
on U.S. shrimp landings cites this as the most valuable fishery in the 
United States.
    Since then, things have really come apart. By 2002, the value of 
the U.S. shrimp harvest plunged over 50% and the average dockside price 
for shrimp dropped nearly as much. Employment in the U.S. shrimp 
processing industry dropped over 40 percent during this same period.
    One year later, in 2003 the total economic output of Gulf and South 
Atlantic shrimp had fallen to $5.5 billion; a net annual loss of $4.4 
billion since the year 2000.
    What is behind these shocking statistics? The answer is very 
simple. In February 2005, in response to a petition filed by the 
Southern Shrimp Alliance, the U.S. International Trade Commission 
finalized its unanimous decision finding six countries guilty of 
violating U.S. antidumping laws, and imposed antidumping duties on 
their imports of farm-raised shrimp to the US. For the record, these 
six countries are Thailand, China, Vietnam, India, Ecuador and Brazil.
    Unfortunately, that is not the happy ending of the story, Mr. 
Chairman.
    Despite the powerful action taken by the ITC, the massive flood of 
farm-raised shrimp imports from Southeast Asian and South American 
nations continues today at a rate of over $1 billion per year from 
these 6 countries alone. U.S. dockside prices to our fishermen remain 
artificially depressed and are insufficient to sustain a healthy 
industry.
    Last year brought the hurricanes that wrought devastation to our 
communities, our fleet, our shoreside infrastructure, and even our 
fishing grounds, which are now strewn with all manner of debris. 
Consequently, Gulf shrimp landings in 2005 fell another 35 percent from 
the 2004 level.
    I won't go into any further details here and now since you and your 
Committee, as well as many individual Members, have generously focused 
a good deal of your time, attention and even hearings on this terrible 
catastrophe. We are immensely grateful for this. However, I will say 
that we desperately need the assistance being proposed in the Senate 
and ask you all to support efforts to pass that legislation and 
convince the President to enact it.
    As if imports and hurricanes weren't enough, now we have the fuel 
price crisis. To state the obvious, the cost of fuel is our primary 
cost of production. Like farmers who cannot sustain skyrocketing 
natural gas costs, shrimp fishermen cannot pass along to consumers the 
added cost of fuel as prices have gone through the roof. Our market is 
artificially distorted by farm-raised imports from market and non-
market economies that simply do not face the energy, labor or 
regulatory costs we do. We are trapped under an artificial price 
ceiling and fuel prices are squeezing the life out of us.
    Mr. Chairman, there is no doubt the U.S. warm water shrimp fishery 
faces some incredible challenges, and the SSA certainly has its hands 
full. With this in mind, you might ask how and why we even focus on the 
Magnuson-Stevens Act (``Act'') at this point.
    One reason is that the environmental community continues its 
fixation on narrow and simplistic policy goals that make lofty-sounding 
press releases yet are likely to be counterproductive in actual 
practice. Fisheries are incredibly diverse and fisheries policy must 
accommodate that diversity. The proper response to this reality is more 
flexibility to tailor management measures to reflect this diversity; 
not less. Congress must give scientists and managers a broadly crafted 
statute that enables them to produce the best science and to apply 
common sense in developing measures that achieve both the biological 
and socioeconomic objectives of the Act. Our fishery along with every 
American fishery has something very important at stake in this 
reauthorization process.
    We are reading a lot of press these days about the need to 
incorporate more aggressive and rigid management goals into the Act. 
For those of us in the trenches of real world, day-to-day fisheries 
management, however, that kind of talk has no place in this Act. I 
commend the Chairman, and our old friends Mr. Young and Mr. Frank, for 
being the ones to ``state the case'' for improving our science while 
using common sense and greater flexibility to more effectively manage 
our diverse fisheries.
    With this background and context in mind, we appreciate the 
opportunity to provide the following specific thoughts and suggestions 
concerning your bill, H.R. 5018 as well as H.R. 1431. We support your 
efforts to enact legislation that takes a practical and common sense 
approach to improving upon the Magnuson-Stevens Act, and we look 
forward to working with you and your excellent staff on this important 
legislation.
Shrimp as an annual species
    Annual species such as warm water shrimp reach harvestable size and 
maturity within or less than one year of age. They are characterized by 
very high fecundity (spawning output), and have very high rates of 
natural mortality; i.e., few live beyond one year.
    The success of a given year class is driven by environmental 
conditions encountered on the nursery grounds. There has been no 
demonstration that fishing effort in one year affects shrimp 
availability in the following year.
    These biological realities of warm water shrimp fisheries (and 
other ``annual species'' fisheries) have important management and 
policy implications that should be expressly addressed in the Magnuson-
Stevens Act.
    For example, warm water shrimp fisheries are not managed by annual 
catch limits such as a Total Allowable Catch (TAC) or other such 
limits. Similar to salmon in this respect, these fisheries are instead 
managed to achieve a minimum annual escapement of adult shrimp from 
estuaries to the offshore areas that ensures adequate reproductive 
potential for production in the subsequent year. This target escapement 
effectively serves as a proxy for optimum yield and is an extremely 
small number of adults relative to the total population.
    Mr. Chairman, we appreciate your apparent recognition of this 
reality in your provisions to require setting annual catch limits set 
forth in section 3 of your bill. We note the specific language that 
limits this requirement to those fisheries ``for which an annual catch 
limit can be established''. We hope the intent of this language is to 
exclude our shrimp fishery from this annual catch limit requirement.
    Still, given the political forces we face in the Gulf and Southeast 
regions, particularly on the Gulf of Mexico Fishery Management Council, 
we worry that an annual catch limit could be established arbitrarily, 
even though there is no scientific or management justification for it. 
Perhaps we could work with you and your staff to clarify this provision 
either in the bill itself or in report language to make certain this 
provision does not apply to the shrimp fishery.
    For the same reasons, the concept of Maximum Sustainable Yield 
(MSY) as the usual basis for fishery management is not really relevant 
for the management of warm water shrimp and other annual species. As 
I've stated, there is no demonstrated effect of fishing effort on 
annual shrimp yield.
    Given this, we would again ask to work with you and your staff to 
evaluate the definitions and use in the Act of such fundamental 
concepts as overfished, overfishing, and optimum yield which are tied 
to the concept of MSY. When we raised this issue in a previous 
Congress, consideration was given to directing the National Academy of 
Sciences to evaluate this unique situation and recommend a legislative 
solution. Perhaps this approach would be useful again.
    Finally, we note that Mr. Rahall's bill, H.R. 1431, also proposes a 
process for establishing annual catch limits and that our comments and 
concerns set forth above apply to this legislation as well.
Overcapacity & buy-outs
    Mr. Chairman, as you and the Committee have certainly deduced from 
my earlier remarks, illegal dumping of shrimp in our market followed by 
the hurricanes and rising fuel prices have taken their toll. Simply 
put, there aren't nearly the numbers of shrimp boats out there today as 
there were a decade ago. In the 1990's, we had in excess of 5000 shrimp 
vessels operating. Today less than 1800 permits are active, maybe as 
few as 1600. Given all that has transpired in the last year, we really 
don't know where we stand in terms of active fishing effort. It will be 
some time before the dust settles and we can sort this out.
    I ask you to please take particular note of this. Despite the 
inexplicable insistence of the NMFS leadership to the contrary, our 
fishery is NOT overcapitalized. I repeat, the domestic shrimp fishery 
does not have excess harvesting capacity, and does not need or want an 
industry-funded buyout for the purposes of reducing capacity. For the 
same reasons, any suggestions for applying effort caps to our fishery 
at this juncture also make no sense.
    It is certainly fair to say that there may be many shrimpers who 
would now accept an offer from the federal government to exit the 
fishery, especially those still high and dry after the hurricanes. 
Still, the reality is that our fleet is probably under-capacity and 
could not possibly absorb the cost of a buyout.
    We also note that any buyout is simply not feasible under our 
current permit management system. As you may know, we have instituted a 
moratorium on the issuance of shrimp fishing permits which will expire 
in 10 years. We do not have a limited access plan in place as 
contemplated under section 303(b)(6) of the Act. We note your amendment 
to section 312(b) requiring a limited access system to be in place in 
order for a buyout to be implemented.
Gulf Council Imbalance
    Perhaps the threat that has faced the U.S. shrimp fishery longer 
than any we face today has been the relentless hostility of the 
recreational fishing industry, particularly in the Gulf of Mexico and 
South Atlantic Fishery Management Councils. I am not joking when I say 
that an entire industry and politically powerful subculture have 
developed in this country purely based on demonizing commercial fishing 
including our shrimp fishery. Despite our socioeconomic significance in 
the fisheries and communities of our region, there is only one active 
shrimp fisherman on the Gulf Council and there are a total of only 3 
Council members that are directly and actively participating in 
commercial fisheries.
    Sadly, we have noticed a recent surge in the intensity of these 
hostilities on the Gulf Council ever since the hurricanes, particularly 
with respect to the issue of red snapper bycatch. I can only hope this 
doesn't reflect a deliberate effort by some to take advantage of our 
fishery while we are coping with the hurricane disaster.
    With this in mind, we ask you to consider adding to your bill the 
provision included in section 103(i) of the Senate Magnuson-Stevens 
bill (S. 2012), as reported by the Senate Committee on Commerce, 
Science and Transportation, which would specifically address Gulf 
Council appointments by requiring an equal balance of commercial and 
recreational sector representatives. This could prove to be a very 
helpful provision even as we know some of the State representatives on 
the Council will remain advocates of the recreational sector.
Bycatch
    As I mentioned above, one unfortunate consequence of Gulf Council 
imbalance is the Council's current joint management plan development of 
Amendment 27 to the Reef Fish Fishery Management Plan (FMP) and 
Amendment 14 to the Shrimp FMP as well as Amendment 15 to the Shrimp 
FMP. The Gulf Council has developed and is rushing through the process 
a number of amendment options to be voted on at the June meeting which 
would take the unusual (if not illegal) approach of shifting the 
responsibility for ending overfishing and rebuilding the red snapper 
stock away from the directed fisheries and onto the shrimp fishery as a 
red snapper bycatch fishery.
    Rather than comply with the scientific recommendations to 
substantially reduce the Total Allowable Catch (TAC) in the directed 
commercial and recreational red snapper fisheries, these measures 
instead contemplate rebuilding red snapper on the backs of the U.S. 
shrimp fishery by requiring massive, unjustified reductions in red 
snapper bycatch. Measures that have been under consideration include 
vast time-area closures and triggers for shutting down our fishery 
altogether.
    Mr. Chairman, we ask you and your staff to look into this 
situation. Perhaps there is a need to consider adding a provision to 
the Act that would prevent a Council from disproportionately shifting 
the responsibility and conservation burden of ending overfishing and 
rebuilding an overfished fishery away from the directed fisheries and 
onto a bycatch fishery.
    At first glance provisions in the Act such as section 303(a)(14) 
would appear to address this basic need to allocate harvest 
restrictions fairly and equitably among sectors of the fishery. The 
reality is, however, the Council actions now under consideration would 
appear to sacrifice the shrimp fishery so that the directed red snapper 
fisheries can continue to fish at unsustainable levels. Either what the 
Council is doing is illegal under the current statute, or there is a 
need to address this in your legislation.
Better Science
    Mr. Chairman, your bill--as well as H.R. 1431 sponsored by Mr. 
Rahall--include many provisions designed to improve the collection and 
quality of fishery science. Perhaps there is no greater need in fishery 
management today than this. As the demands for ever more precise and 
complex management strategies increase, so does the need to improve the 
collection and quality of data as well as the quality and transparency 
of scientific analyses, including rigorous peer review.
    With this in mind, we feel it is critical that the scientific 
process be integrated with the management process to the greatest 
degree possible. For science to be useful (understood) and readily 
accepted by the affected fishing constituencies, it cannot be produced 
in black box, separate from the Council management process. We strongly 
support your efforts to focus attention and thought on this critical 
issue.
    Our concern with fisheries science is not limited to its quality 
and how it is generated. Our concern is at least as strong with respect 
to how science is used in the management process. A common theme we 
hear from many fisheries is the concern that science is manipulated or 
ignored to support the preconceived political agendas of a Council or 
NMFS. The current actions of the Gulf Council with respect to red 
snapper bycatch provide an excellent example of our concern that the 
science on shrimp fishing effort and red snapper bycatch as it relates 
to red snapper rebuilding is being ignored and manipulated.
    Specifically, a reliable estimate of red snapper bycatch in the 
Gulf shrimp fishery is dependent upon a reliable estimate of fishing 
effort in the shrimp fishery. However, currently there is no reliable 
estimate of fishing effort in the Gulf shrimp fishery.
    The impacts of illegally dumped shrimp imports, escalating fuel 
prices, and the hurricanes are thought to have reduced fishing effort 
in the shrimp fishery substantially and indefinitely. Research funded 
by Congress is ongoing to determine current Gulf shrimp fishing effort. 
A reliable estimate of current red snapper bycatch in the shrimp 
fishery cannot be made until such research is completed.
    The Interdisciplinary Planning Team (IPT) of the Gulf Council 
recently concluded:
        ``...a comprehensive effort reduction program is necessary to 
        achieve the large-scale bycatch reduction to end overfishing of 
        red snapper by the Gulf of Mexico shrimp fishery.''
    Yet, in the same report, the IPT also cites the following 
scientific reality:
        ``However, it will be difficult to understand the effects and 
        tradeoffs of alternative effort controls and reduction programs 
        for a number of years given the damaging effects of the 2005 
        hurricane season on participation and effort in the shrimp 
        fishery.''
    Facilitated by the imbalance in membership, the Gulf Council is 
currently rushing to adopt by its June meeting unprecedented regulatory 
measures (time-area closures, effort caps, etc) to drastically reduce 
shrimp fishing effort and red snapper bycatch without adequate 
scientific justification or understanding of current fishing effort or 
red snapper bycatch in the shrimp fishery. As the IPT's own background 
documents conclude, this understanding will take some years to achieve.
    As reflected in Council documents, it is not known for certain 
whether further reductions in red snapper bycatch or shrimp fishing 
effort are even needed to achieve red snapper management objectives--
indeed; there is substantial evidence that they are not needed. In 
addition to the shrimp fishing effort reductions that have already 
occurred, I would also note that the historical fish discard to shrimp 
ratio has been reduced by 55% from 10.3 to 4.6. Yet, in the face of 
this scientific uncertainty, draconian measures under consideration by 
the Council would unnecessarily further damage the already devastated 
shrimp fishery and fishery-dependent communities throughout the Gulf.
    Further, NMFS analyses set forth in the Gulf Council's background 
documents suggest that even extreme reductions in red snapper bycatch 
in the shrimp fishery may make a relatively small contribution to red 
snapper biomass rebuilding as compared to more aggressive mortality 
reductions in the directed commercial and recreational red snapper 
fisheries. This small contribution to red snapper rebuilding does not 
justify the enormous economic impact that would result from draconian 
management measures proposed to achieve bycatch reduction targets.
    Mr. Chairman, the National Standards and Section 303 of the Act 
would seem to preclude the Gulf Council from ignoring or manipulating 
the best available science in the manner it is. Again, either the 
Council action on red snapper is illegal under current law, or there 
needs to be further attention to this kind of problem in the Act. We 
would be grateful for your review of the situation.
Time--Area Closures
    Mr. Chairman, section 5(h)(2) of your bill provides one very 
important way to improve the use of science in fisheries management. As 
mentioned above, the Gulf Council is currently considering the use of 
extensive time-area closures for the shrimp fishery as a tool to reduce 
red snapper bycatch. Time-area closures are also used extensively in 
other fisheries throughout the nation, and in some cases to apparent 
excess.
    A common thread in all of these fisheries is that once a time-area 
closure is put into place, it can be very difficult to scientifically 
measure its effectives since no one can fish there. Further, there is 
no mandate for reconsideration and reevaluation in the Act. 
Consequently, time-area closures tend to stay in place forever--even if 
the original underlying purpose for the closure may have been achieved 
and/or is no longer valid. This is unfair to fishermen and 
counterproductive to the goal of achieving optimum yield from our 
fisheries.
    Mr. Chairman, I just want to express our appreciation and support 
for your recognition of this problem and effort to correct it. Section 
5(h)(2) of your bill would require a sound scientific and cost/benefit 
basis for establishing time-area closures in the first place, as well 
as a requirement to subsequently evaluate the performance of the 
closure in terms of its original purposes. This will be an extremely 
beneficial addition to the Act.
Limited Access Privilege Programs
    While we readily accept that Limited Access Privilege programs 
including individual fishing quota (IFQ) programs and other such 
management strategies may have great utility for other fisheries 
nationwide, we are convinced beyond a doubt that this style of 
management has no place in the shrimp fishery for the foreseeable 
future. I suppose that day may come, but it is definitely not here now.
    In our view, such programs may have their greatest utility in 
rationalizing overcapitalized fisheries that are managed by hard TACs--
especially those in need of rebuilding. As I trust I have made clear, 
the shrimp fishery is neither overcapitalized and in need of 
rationalization, nor is it managed by an annual catch limit such as a 
hard TAC. It is not overfished either.
    We appreciate the great deal of attention provided in your bill to 
creating national standards of policy and procedure for developing such 
management programs and the need to make sure they do not harm the 
traditional small business, community-based characteristics of many 
U.S. fisheries. We also note that your bill correctly recognizes the 
regional diversity of fisheries by providing New England fishermen with 
the opportunity to hold a referendum before the New England Council may 
submit, or the Secretary approve or implement, an IFQ program. We note 
the threshold for referendum approval is 2/3rds of the voting eligible 
permit holders.
    Mr. Chairman, our concern with the bill as currently drafted also 
relates to the issue of Gulf Council imbalance, and to the seemingly 
tireless advocacy of the NMFS leadership for Councils to develop 
Limited Access Privilege programs. We note that your bill would 
authorize the Gulf Council to self-initiate the development of a 
limited access program, including for the shrimp fishery, without the 
need for an industry referendum. Our concern is that without a 
referendum, the Gulf Council may act on such a program over our 
fishermen's objections and beyond their control.
    We respectfully request that a provision be added to your bill 
that, like New England fishermen, also provides Gulf of Mexico shrimp 
fishermen with the opportunity to hold a referendum before the Gulf 
Council is allowed to submit, or the Secretary approve or implement, an 
IFQ program. We too support a threshold of 2/3rds of the voting 
eligible permit holders to approve such a plan. We also note that the 
Senate Magnuson-Stevens Act reauthorization bill (S. 2012), includes 
such a referendum provision for the Gulf, but at the 50% threshold.
Ecosystem Management
    Finally, Mr. Chairman, I just want to recognize the approach you 
have taken with respect to ecosystem management. In my view, there are 
precious few if any fisheries for which an adequate level of scientific 
understanding of the entire ecosystem exists to move forward with 
comprehensive ecosystem management.
    Instead, as seems appropriate, each fishery continues to add 
incrementally to its ecosystem understanding and to apply this 
understanding to its management, as is provided for by the current 
statute. Forcing too much too fast will force mistakes and only provide 
fodder for more lawsuits.
    As your bill suggests, ecosystem research is the appropriate focus 
now coupled with a cautious and thoughtful move towards ecosystem 
management that is consistent with the current state of ecosystem 
knowledge for a given fishery.
    Mr. Chairman, if there is one thing I want you and the Committee to 
take from my testimony today it is that while the Shrimp industry may 
be down and faced with many challenges--we are by no means down and 
out. We could certainly use a hand--and hope that the pending 
Supplemental Appropriations bill will provide one. What we don't need 
right now is legislation that will hamstring what is already a very 
difficult management process.
    Once again, we greatly appreciate the common sense approach taken 
in your bill and look forward to working with you and your fine staff 
on your bill including the important issues I've brought to your 
attention.
                                 ______
                                 
    The Chairman. Thank you.
    Dr. McIsaac.

 STATEMENT OF DON McISAAC, EXECUTIVE DIRECTOR, PACIFIC FISHERY 
                       MANAGEMENT COUNCIL

    Dr. McIsaac. Thank you, Mr. Chairman and Members of the 
Committee. Let me start by thanking the bill authors for 
bringing new ideas to this important legislation that will 
define the future of marine fishery management and the United 
States. It appears there has very much thought gone into these 
bills that is the subject of this hearing, and I would like to 
commend you on your efforts.
    The issue that I will focus my testimony on is fishery 
regulation and national marine sanctuaries. The essential 
question here is who should establish the fishing regulations 
and how should it be done.
    On this particular issue, the Pacific Council believes that 
legislation needs to be clear and unambiguous that this be 
accomplished through the regional fishery management council 
process and not under the process described in the current 
National Marine Sanctuaries Act.
    Why is this so important to West Coast marine fishery 
management? Let me cite five reasons:
    First, national marine sanctuaries on the West Coast cover 
a great deal of geography, and I will speak to that in a 
moment.
    Second, the fishery regulation expertise lies in the 
council process, not in the sanctuary infrastructure.
    Third, the public is now confused as to where fishery 
regulation occurs. Is it in the council process or is it in the 
sanctuary process?
    Fourth, there is a history of promises that the national 
marine sanctuaries would not regulate fishing, but now it seems 
like it is occurring on the West Coast anyway.
    Fifth, ecosystem management. Ecosystems don't break 
conveniently along sanctuary boundaries. Neither should fishery 
management.
    H.R. 5018 contains a commendable effort to solve these 
problems, but we think it does not go far enough. Let me 
elaborate on a couple of reasons and offer our recommendations 
for additions to H.R. 5018, the solutions that are in that.
    With regard to the geography question, there are currently 
four national marine sanctuaries off the State of California. 
Together, these sanctuaries cover 40 percent of the California 
coast. Off the State of Washington, the Olympic National 
Sanctuary covers roughly the northern two-thirds of the coast 
of the State of Washington. Last, the Governor of the State of 
Oregon has proposed a national sanctuary stretching the entire 
length of the Oregon coast and the mouth of the Columbia River 
to the California/Oregon state line, about 300 miles of 
coastline.
    Together, these areas approximate 55 percent of the United 
States coastline between Canada and Mexico on the West Coast.
    So on the West Coast we are not talking about a sanctuary 
around a particular isolated reef hear or there or a ship 
wreck. We are talking about the potential of a huge portion of 
the West Coast. For those of you representing east coast 
states, if you could imagine sanctuaries encompassing over half 
the area from the Maine/Canada border to the tip of Florida, or 
from the Gulf area from the Mexican/Texas border all the way 
around to the tip of Florida, over half of that area set aside 
in sanctuaries. That is a huge piece of geography for us on the 
West Coast.
    The second reason has to do with the fishery management 
expertise to deal with complex fishery regulation issues. The 
council process has a proven, open, transparent process that 
the public knows about, an SSC and other scientific advisory 
bodies that analyze the effects of fishing regulations, a 
specialized habitat committee, expert advice from other 
advisory bodies composed of fishing industry and conservation 
group representatives; finally, an opportunity for those 
affected to be heard prior to a final council vote that is 
taken in front of those people in a public forum.
    The current situation on the West Coast whereby fishing 
regulation goals and objectives are developed in a sanctuary 
process is confusing to the public as to who is in charge, and 
can result in bureaucratic duplication and inefficiencies.
    As council member Bob Alverson said of the commercial 
fishermen in his organization, the small boat owners do not 
want to go to participate in the council process, and then go 
do the same thing at one or more sanctuary processes to ensure 
that fishing seasons make sense in total. The public wants one-
stop shopping for Federal fishing regulations and they want 
that one stop to be at the council process.
    For all these reasons, legislation needs to make it clear 
and unambiguous that fishery regulation in Federal waters be 
accomplished through the council process and not as described 
in the current National Marine Sanctuaries Act.
    H.R. 5018 is commendable and it recognizes the current 
Sanctuaries Act chain of jurisdiction does not require things 
like national standards nor to bring to bear the scientific and 
fishing sector expertise that is in the council process. 
However, we would reiterate that we don't think H.R. 5018 goes 
quite far enough to cement a finite solution. It does not 
unambiguously state that the place for fishery regulations is 
under Magnuson, not under the Sanctuaries Act.
    Mr. Chairman, I see the red light is on there, so let me 
just say in closing that what the Pacific Council recommends is 
essentially what the eight regional council chairs recommended 
last year, and that is, a few more changes in the Magnuson Act, 
and then also change in the Sanctuaries Act, and those matters 
are described in writing as part of my attachment.
    Last, let me say that I am going to agree in advance with 
my colleague, Executive Director to the North, Mr. Chris 
Oliver, with regard to integrating the essential principles of 
NEPA into the Magnuson Act and providing a technical exemption 
from NEPA in Magnuson. We think this can create great 
efficiencies in the pubic process at no loss of intent of NEPA 
and minimize superfluous litigation opportunities. Let me close 
at that.
    [The prepared statement of Dr. McIsaac follows:]

         Statement of Dr. Donald McIsaac, Executive Director, 
                   Pacific Fishery Management Council

Mr. Chairman and Members of the Committee:
    My name is Donald McIsaac, Executive Director of the Pacific 
Fishery Management Council. I have trained for and worked in fisheries 
management for the last 35 years, earning a bachelor of science in 
fisheries biology, a master's degree in fisheries management, and a 
Ph.D. in salmon ecology. Prior to becoming Executive Director of the 
Pacific Council, I worked for 25 years for the Washington and Oregon 
state fishery management agencies with a focus on interjursidictional 
fishery management matters.
    Thank you for the opportunity to testify before you today on behalf 
of the Pacific Council regarding reauthorization of the Magnuson-
Stevens Fishery Conservation and Management Act. We appreciate the bill 
authors bringing in new ideas to this important legislation.
    Today I will limit my testimony to three issues, and focus 
primarily on one issue. The focus of my testimony is the issue of 
fishing regulations in National Marine Sanctuaries: who should 
establish such fishing regulations and how should it be done? The 
second issue is the question of using hard total allowable catch levels 
in fisheries management and ``repayment'' of any catch number overages 
and underages that happen from management imprecision or unforeseeable 
events. The last issue I want to touch lightly on is an element of the 
Individual Quota Program legislation.
Fishery Regulation in National Marine Sanctuaries (H.R. 5018, Section 
        10: COMPETING STATUTES)
    On the issue of fishing regulation in waters of National Marine 
Sanctuaries, legislation needs to be clear and unambiguous that fishing 
regulations be accomplished through a Regional Fishery Management 
Council process described in a slightly revised Magnuson-Stevens 
Fishery Conservation and Management Act and not under the process 
described in the current National Marine Sanctuaries Act.
    I would like to mention several reasons this issue is important to 
West Coast fishery management.
    <bullet>  A considerable portion of the West Coast lies within a 
National Marine Sanctuary. As you know, there are four sanctuaries in 
California, The Channel Islands National Marine Sanctuary, the Monterey 
Bay National Marine Sanctuary, the Gulf of the Farallones National 
Marine Sanctuary, and the Cordell Bank National Marine Sanctuary as 
well as the Olympic Coast National Marine Sanctuary off the coast of 
Washington. Additionally, Oregon Governor Ted Kulongoski has formally 
proposed consideration of the entire coast of Oregon for an Oregon 
Coast National Marine Sanctuary.
    <bullet>  The current status of fishery authority is confusing to 
public and can impede collaboration between the Regional Fishery 
Management Councils and National Marine Sanctuaries. I and the Pacific 
Council have heard frequent public testimony requesting a single 
fishery management authority, that being the Regional Fishery 
Management Council where there exists the scientific expertise and open 
public process intended for this purpose. Mr. Bob Alverson, Pacific 
Council member and General Manager of the Fishing Vessel Owners' 
Association, recently commented that ``my organization's fishermen are 
interested in working with a single entity on fishery management issues 
rather than multiple authorities and jurisdictions.''
    <bullet>  Competing authorities and jurisdictions do not facilitate 
the application of ecosystem-based fishery management principles.
    <bullet>  Pacific Council members and members of the public 
repeatedly refer to promises originally made during the enactment of 
the National Marine Sanctuaries Act that, although not formalized in 
act itself, are remembered by members of the public, ``Sanctuaries will 
not become involved in fishery regulation, that will remain in the sole 
purview of the Regional Fishery Management Councils and the National 
Marine Fisheries Service, or the individual States in some 
circumstances''. This common perception of fishing industry 
participants, coastal communities and Indian tribes on the West Coast 
is still being put forward today. In a letter to the Oregon 
Congressional Delegation, Oregon Governor Kulongoski wrote, ``I want to 
emphasize that commercial and recreational fishing will continue within 
the sanctuary and will continue to be regulated by the Pacific Fishery 
Management Council and the Oregon Fish and Wildlife Commission based on 
the management plan for the sanctuary. As you know, a National Marine 
Sanctuary does not have separate authority to manage or regulate marine 
fisheries.''
    The solution: legislation needs to be clear and unambiguous and 
state that fishing regulations be accomplished through a Regional 
Fishery Management Council process under the authority of the Magnuson-
Stevens Fishery Conservation and Management Act and not under the 
process described in the current National Marine Sanctuaries Act.
    Regarding the competing statutes of the Magnuson-Stevens Fishery 
Conservation and Management Act and the National Marine Sanctuaries 
Act, H.R. 5018 represents an important initial step, but additional 
clarification is needed.
    Existing language in H.R. 5018 Section 10 COMPETING STATUTES is 
commendable its recognition that fishing regulations promulgated under 
the National Marine Sanctuaries Act are not currently required to 
conform to national standards under Section 301(a) of the Magnuson-
Stevens Fishery Conservation and Management Act. Neither does the 
National Marine Sanctuaries Act bring to bear the scientific and 
fishing industry expertise that exists in Regional Fishery Management 
Council processes. However, H.R. does not go far enough in achieving 
kind of clarity on fishery management authority the public expects.
    Without amendment, H.R. 5018 does not clearly identify a Regional 
Fishery Management Council as the sole fishery authority where public 
fishery management decisions are made. The existing process under 
Section 304(a)(5) of the National Marine Sanctuaries Act can be applied 
in a manner which leaves a Regional Fishery Management Council little 
more than the task of drafting fishery regulatory language to meet the 
underlying fishery policies and goals as determined by a National 
Marine Sanctuary.
    The Pacific Council would like to see additional federal 
legislation which builds on the foundation of H.R. 5018 as introduced. 
The Pacific Council recommends Regional Fishery Management Councils and 
their associated public processes be formally brought into the early 
decision-making phases of the National Marine Sanctuary Act process. In 
this way, the scientific rationale for National Marine Sanctuary goals 
and objectives can become fully vetted and developed in a collaborative 
process.
    Recent Pacific Council actions to ban the harvest of krill on the 
West Coast and to prohibit the use of bottom-contacting gear with th 
the Cordell Bank and Monterey Bay National Marine Sanctuaries are good 
examples of Regional Fishery Management Council and the National Marine 
Sanctuary collaboration. In these cases, habitat and ecosystem 
concerns, shared by both the Pacific Council and the sanctuaries were 
addressed through the scientific and public processes of the Pacific 
Council and were efficiently implemented under the authority of the 
Magnuson-Stevens Fishery Conservation and Management Act. Conversely, 
fishing regulations in the Channel Islands National Marine Sanctuary 
have recently been recommended for implementation under both the 
Magnuson-Stevens Fishery Conservation and Management Act and the 
National Marine Sanctuaries Act, a process that has widely been 
considered to be confusing and inefficient.
    Again, the Pacific Council feels legislation needs to be clear and 
unambiguous that fishing regulations be accomplished through a Regional 
Fishery Management Council process described in a slightly revised 
Magnuson-Stevens Fishery Conservation and Management Act and not under 
the process described in the current National Marine Sanctuaries Act. 
To achieve this, the Pacific Council stands behind its recommendation 
to adopt the position of the Regional Fishery Management Council 
Chairs. This position can be found beginning on the bottom of page 4 of 
the attached position paper.
    This position paper calls for an ecosystem-based approach which 
broadens Magnuson-Steven Fishery Management authority to cover the full 
range of species in the marine environment and calls for jurisdictional 
clarification through specific amendments to the National Marine 
Sanctuaries Act.
Total Acceptable Biological Catch Levels--(H.R. 5018, Section 3: 
        SCIENCE-BASED IMPROVEMENTS TO MANAGEMENT)
    The Pacific Council supports the existing language in this section 
of H.R. 5018 and notes the Pacific Council already implements these 
management principles. Further, the Pacific Council effectively 
utilizes in-season manage mechanisms to ensure the adopted acceptable 
biological catch levels are not exceeded whenever possible.
    Unlike H.R. 5018, there have been calls for a ``penalty'' provision 
in instances where the catch inadvertently exceeds adopted catch 
levels. The penalty being a commensurate deduction from the following 
year's harvest allowance. Others call for a policy to carry both 
overages and underages into the following year. The Pacific Council 
disagrees with both of these potential provisions and think they can be 
unwarranted, disruptive, and dangerous.
    Overages should not be deducted from the next year's harvest 
because the overage could have a minor biological effect if the overage 
is minimal under an in-season management policy and a new stock 
assessment has takes the overage into account. It can be risky to 
rollover uncaught harvest allowance to the next year because one 
possible reason for the underage is an inaccurate stock assessment, a 
result that is not often discovered within one year.
Limited Access Privilege Programs (H.R. 5018, Section 7)
    The Pacific Fishery Management Council is currently in the process 
of developing an individual quota program for the trawl sector of the 
groundfish fishery. The Pacific Fishery Management Council strongly 
recommends that nothing in any MSA reauthorization legislation apply 
to, or disrupt the ongoing development of potential future amendment of 
its groundfish trawl individual quota program. Therefore the Pacific 
Council is supportive of H.R. 5018 proposed language for MSA Section 
303A(h) which protects programs under development before the date of 
the bill's enactment.
Other Topics
    I agree with my colleague from the North Pacific Fishery Management 
Council, Mr. Chris Oliver with regard to integration of the National 
Environmental Policy Act (NEPA) into the Magnuson-Stevens Act to create 
great efficiencies in the public process at no loss to the intent of 
NEPA.
    On Friday, April 29, 2006, I met with the Pacific Fishery 
Management Council's Legislative Committee whose agenda focused on 
reauthorization of the Magnuson-Stevens Fishery Conservation and 
Management Act. In a forthcoming letter, I will convey the results of 
the Legislative Committee's section-by-section review of H.R. 5018 
which will provide additional comments on the three topics I have 
highlighted today together with detailed comments on Pacific Fishery 
Management Council appointments, ecosystem-based fishery management, 
funding for observer programs, diminished fisheries, and Joint 
Fisheries Enforcement Agreements. 2

                          LIST OF ATTACHMENTS

    Disclosure Requirement for Donald O. McIsaac to testify before the 
House Committee on Resources, May 2006
    Positions of the Regional Fishery Management Council Chairs on 
Reauthorization of the Magnuson-Stevens Fishery Conservation and 
Management Act, April 2005
    [NOTE: Attachments have been retained in the Committee's official 
files.]
                                 ______
                                 
    The Chairman. Thank you.
    Mr. Crockett.

  STATEMENT OF LEE CROCKETT, EXECUTIVE DIRECTOR, MARINE FISH 
                      CONSERVATION NETWORK

    Mr. Crockett. Good morning, Mr. Chairman, and Members of 
the Committee. My name is Lee Crockett. I am the Executive 
Director of the Marine Fish Conservation Network. The Network 
is the largest coalition dedicated to promoting the long-term 
conservation of federally managed fish. Thank you for providing 
us with an opportunity to present testimony on the 
reauthorization of the Magnuson-Stevens Fishery Conservation 
and Management Act.
    Before commenting on the two bills, I want to strongly 
recommend that you use the report of the U.S. Commission on 
Ocean Policy to guide your reauthorization bill. Their 
recommendations, which are based on the success of the North 
Pacific Council, should guide any legislation reauthorizing the 
Magnuson-Stevens Act.
    With that in mind, I would like to now discuss how H.R. 
5018 and H.R. 1431 follow the U.S. Commission recommendations.
    First, the U.S. recommendations are built on and intended 
to enhance existing law. Unfortunately, H.R. 5018 proposes 
several rollbacks to current law. I would like to highlight the 
sections of the bill that we find most troubling.
    First of all, H.R. 5018 replaces overfished with 
diminished, the new term, and defines it as a stock below the 
natural range of fluctuation necessary to produce a healthy 
stock. This newly defined term will likely lead to fewer stocks 
being defined as diminished, which means that needed actions to 
rebuild these stocks will be delayed or avoided.
    The bill also establishes three new exceptions for the 
requirement to rebuild overfished stocks within 10 years if 
biologically possible. Extending and rebuilding deadlines 
serves to increase fishing pressure on weak stocks, threatening 
their ability to rebuild and delays economic benefits to 
fishing communities.
    H.R. 5018 also contains what amounts to a waiver of NEPA 
because it allows the Magnuson Act to be used in its place for 
environmental review and analysis. This is inappropriate 
because the Magnuson Act does not contain comparable 
requirements for evaluating cumulative environmental impacts, 
considering a range of managed alternatives, and allowing 
adequate public participation.
    Finally, the bill exempts fishery observer data from 
disclosure under the Freedom of Information Act. This severely 
limits public access to these data. Observer information is 
critical for the public to evaluate how well managers are 
implementing legal requirements to minimize bycatch.
    I would now like to discuss how H.R. 5018 can be improved 
to better implement the U.S. Commission recommendations.
    The U.S. Commission recommendations are intended to improve 
the use of science and fishery management, and nationalize the 
Alaska model of science-based management. H.R. 5018 partially 
implements a number of the U.S. Commission recommendations.
    We would like to commend you for requiring councils to set 
annual catch limits that are consistent with the 
recommendations of the science advisors. this is an important 
first step. However, to be more effectively the annual limits 
must have an enforcement mechanism. The bill also needs to 
improve the independence of the science advisors by limiting 
the financial ties to the fishing industry and requiring the 
Secretary of Commerce to appoint them.
    The U.S. Commission also made a number of recommendations 
to improve the operations of the councils, including adding 
public seats and requiring council member training. Again, we 
would like to commend you for requiring the Secretary of 
Commerce to establish a mandatory council member training 
program. However, we urge you to add public seats to the 
regional councils.
    Finally, I would like to commend you for following the 
recommendations of the U.S. Commission and including a set of 
national guidelines to govern the design and conduct of limited 
access privilege programs. There is, however, one very 
significant deficiency in the bill's guidelines: No time limit 
on these programs.
    The U.S. Commission and the State of Alaska have called for 
these programs to have time limits. Time limits are necessary 
to reenforce the fact that a limited access program are a 
privilege, not a property right, and to add force to any 
programs reviews.
    I would now like to talk about H.R. 1431. While this is not 
a comprehensive Magnuson reauthorization bill, it would fully 
implement some of the most important recommendations made by 
the U.S. Commission to reform the council system, especially 
how science is used for making decisions.
    The Network strongly supports H.R. 1431. It builds in the 
strengths of existing management system by broadening 
stakeholder representation on the council, significant reducing 
financial conflicts of interest among the council members, 
providing training for new council members, developing 
cooperative research, data collection and gear modification 
programs, and enhancing the use of science in fishery 
management. This bill should serve as the model as to how to 
implement the U.S. Commission's fishery management 
recommendations.
    Finally, I would like to say a few words about H.R. 5051, 
the Magnuson reauthorization bill introduced by Congressman 
Gilchrest.
    Of all the comprehensive bills introduced in the House and 
Senate, this bill is the one that most closely follows the 
recommendations of the U.S. Commission, and it does not weaken 
existing law. Because of this, it enjoys the most support 
within the Network. However, we do see areas that need 
improvement.
    H.R. 5051 has some of the same problems as H.R. 5018 in 
that it does not fully implement the U.S. Commission 
recommendations for council member training, and adding public 
interest seats to the councils. It would restrict the public's 
access to fishery observers information, and it fails to 
include a time limit for limited access privilege programs.
    So in conclusion, for almost two decades independent 
reviews of our fishery management system have yielded similar 
conclusions. Science-based management is too often compromised 
by political and economic pressures. The government structure 
needs to strengthen the role of science and management. Failure 
to follow scientific recommendations has resulted in ecological 
deterioration and economic loss.
    Recognizing the success of the North Pacific Council in 
using science, the U.S. Commission propose applying that model 
nationally. Now it is time for Congress to heed that call for 
reform.
    Thank you, and I would be happy to answer questions.
    [The prepared statement of Mr. Crockett follows:]

            Statement of Lee Crockett, Executive Director, 
                    Marine Fish Conservation Network

    Good morning, Mr. Chairman and Members of the Committee. My name is 
Lee Crockett, and I am the Executive Director of the Marine Fish 
Conservation Network (Network). The Network is the largest national 
coalition solely dedicated to promoting the long-term conservation of 
marine fish by pressing for changes in the way we manage our oceans. 
With more that 180 member organizations--including environmental 
organizations, commercial and recreational fishing associations, 
aquariums, and marine science groups--the Network uses its distinct 
voice and the best available science to educate policymakers, the 
fishing industry, and the public about the need for sound conservation 
and management practices.
    Thank you for providing us with an opportunity to present testimony 
on the ``American Fisheries Management and Marine Life Enhancement 
Act,'' H.R. 5018, the ``Fisheries Science and Management Enhancement 
Act of 2005,'' H.R. 1431, and other issues related to the 
reauthorization of the Magnuson-Stevens Fisheries Conservation and 
Management Act.
    Before commenting on the two bills, I would like to provide some 
context for my comments. When the Magnuson Act was passed in 1976, our 
view of ocean fisheries was much different. At that time Congress' main 
concern was ``Americanizing'' our fisheries. That meant creating a law 
that phased out foreign fishing, promoted our domestic fishing 
industry, and gave a large say in management decisions to the fishing 
industry. Given that intent, who better than fishermen to decide how to 
promote fishing? But the decades of intense fishing pressure that 
resulted, have caused the decline and even collapse of many fisheries. 
These declines and other problems with our oceans led Congress to 
establish and President Bush to appoint the U.S. Commission on Ocean 
Policy.U.S. Commission on Ocean Policy Recommendations
    After three years of intense investigation into the health of our 
oceans, the U.S. Commission on Ocean Policy (USCOP) released its final 
report on September 20, 2004. The Commission concluded that ``[o]ur 
failure to properly manage the human activities that affect the 
nation's oceans, coasts, and Great Lakes is compromising their 
ecological integrity, diminishing our ability to fully realize their 
potential, costing us jobs and revenue, threatening human health, and 
putting our future at risk.'' The Commission went on to say, ``[t]he 
message from both experts and the public alike was clear: our oceans, 
coasts, and Great Lakes are in trouble and major changes are urgently 
needed in the way we manage them.''
    Among the recommendations were a series of measures designed to 
enhance fisheries science and management to ensure the long-term 
sustainability of marine fish. Specifically, the USCOP report 
recommended amending the Magnuson-Stevens Act to strengthen the role of 
the councils' Science and Statistical Committees (SSCs) and require the 
councils to conform their management decisions to the scientific 
determinations made by their SSCs. The role of the SSCs, the report 
explained, should be to determine the allowable biological catch (ABC), 
and councils should be bound to those determinations. The report also 
recommended that the Secretary of Commerce provide for an independent 
review of the scientific information relied on by the SSCs. The model 
for these recommendations for science-based fisheries management was 
the North Pacific Fishery Management Council (NPFMC).
The North Pacific Model
    Unlike most other councils, the NPFMC uses a precautionary science-
based, approach to fisheries management.--The NPFMC relies on the 
recommendations of its SSC to set an ABC and then sets the catch limits 
for individual fisheries below the recommended ABC. While there is some 
debate regarding what constitutes a sufficiently conservative ABC, the 
NPFMC includes a precautionary buffer to account for uncertainty. In 
addition, the council has made this model a requirement in all of its 
fisheries management plans. The net effect of this management approach 
is that none of the North Pacific finfish populations are currently 
classified as overfished.
    Therefore, the recommendations of the USCOP to improve fisheries 
management, which are based on the success of the North Pacific model 
of science-based management, should serve as the basis of any 
legislation to reauthorize the Magnuson-Stevens Act. Unfortunately, the 
bills currently before Congress range from fully consistent with the 
Commission recommendations to the opposite. With that in mind, I would 
now like to discuss how H.R. 1431 and H.R. 5018 are and are not 
consistent with the USCOP recommendations.
H.R. 5018
    First and foremost, the USCOP recommendations do not anticipate any 
weakening of existing law. In fact, they are built on, and intended to 
enhance, existing law. Unfortunately, H.R. 5018 proposes several 
rollbacks to current law. I would like to highlight several sections of 
the bill that we find particularly troubling.
    H.R. 5018 replaces the term overfished with diminished, a new term, 
and defines it as a stock that is below the ``natural range of 
fluctuation'' necessary to produce a healthy stock. While we understand 
that all fish stock declines are not the result of fishing and a new 
term may more appropriately describe the stock status, we have serious 
concerns about the new definition. The phrase natural fluctuation is 
not defined, and the addition of this phrase into the definition opens 
a giant loophole for inaction. Based on past experience, we are 
concerned that natural range of fluctuation will be used as an excuse 
to never identify a stock as diminished because fishermen will argue, 
as they frequently do now, that low stock size is the result of nature 
not man. Moreover, regardless of the cause of the decline, remedial 
action is necessary to rebuild the stock. This newly defined term will 
likely lead to fewer stocks being defined as diminished, which means 
needed actions to rebuild these stocks will be delayed or avoided. We 
suggest that overfished or diminished be defined as ``a stock with a 
size below the long-term average abundance associated with the 
production of maximum sustainable yield (MSY) or a size, age, or gender 
structure that hinders the production of MSY.'' This is a variation of 
the definition recommended by the National Marine Fisheries Service in 
its proposed MSA reauthorization bill.
    To further compound the problems associated with the new definition 
for diminished, H.R. 5018 establishes three new exemptions to the 
requirement to rebuild overfished stocks within 10 years if 
biologically possible. The bill allows for extensions in cases where 
the Secretary determines that the cause of the fishery decline is 
outside of the council jurisdiction or that limiting fishing alone will 
not effectively rebuild the stock, the Secretary determines that the 
10-year period should be extended, or if the Secretary makes 
substantial changes to the rebuilding targets after a rebuilding plan 
has been implemented. This is an extremely dangerous precedent to set, 
because extending rebuilding deadlines will only serve to increase 
fishing pressure on vulnerable stocks, threatening their ability to 
rebuild and delaying the benefits of rebuilt stocks to fishing 
communities.
    The bill also authorizes the Secretary to determine that any 
management plan that complies with the MSA is deemed to be in 
compliance with the National Environmental Policy Act (NEPA). This 
amounts to a waiver of NEPA, because the MSA does not contain 
comparable requirements. For example, NEPA has very different 
requirements for evaluating the cumulative environmental impacts of 
proposed actions, considering a range of management alternatives, and 
allowing public participation in the decision making process. 
Therefore, these important measures for insuring sound governmental 
decision making will be lost. While we understand the concerns 
expressed by some that the timelines of NEPA and MSA do not fit well 
together, this legislation is not necessary because NEPA's implementing 
regulations already provide the flexibility necessary to mesh the NEPA 
process with other laws. We urge you to drop this section, or if that 
is not possible, to replace this language with the NMFS proposal for 
meshing these two procedures because it retains the substantive 
requirements of NEPA and its implementing regulations.
    H.R. 5018 exempts fisheries observer data from disclosure under the 
Freedom of Information Act (FOIA). This provision would severely limit 
public access to fisheries observer data. We understand that certain 
fisheries information should be shielded from the public in order to 
protect proprietary business interests, but aggregate fisheries 
observer data should be available to the public. Observer information 
is critical for the public to evaluate how managers are implementing 
legal requirements to minimize bycatch. If this section were enacted, 
only information provided by managers would be available to evaluate 
their performance. Obviously, this will not facilitate independent 
oversight. We also find it ironic that data which is collected using 
taxpayer's dollars would be unavailable for public review.
    The bill also authorizes the use of alternative procedures which 
will allow mangers to develop fishery management plans and amendments 
quickly but will restrict the public's ability to comment on fishery 
management measures developed through this process. Public input is a 
crucial component of developing management plans and amendments, and 
the public deserves to have a say in the management decisions regarding 
public fishery resources. However, we recognize that expedited 
procedures may be necessary in certain situations and suggest that you 
add restrictions so that these procedures may only be used in 
situations where management measures must be implemented quickly. We 
fear that the current proposal will allow their use to become the 
practice not the exception.
    The final weakening of existing legal or regulatory requirements 
contained in H.R. 5018 involves the new statutory definition of 
``habitat area of particular concern,'' which is a subset of essential 
fish habitat (EFH) that is eligible for focused protections under the 
NMFS EFH regulations. The new statutory definition is inconsistent with 
the NMFS regulatory definition because it does not include habitats 
that are threatened with development. NMFS and the councils have been 
implementing the EFH requirements for nearly eight years and creating a 
new, inconsistent, definition will create confusion and undercut 
previous efforts to protect EFH. We recommend that you amend this 
definition to make it consistent with the NMFS regulatory definition.
    I'd now like to discuss how H.R. 5018 does and does not implement 
the fisheries management recommendations of the USCOP regarding the 
composition, operation, and role of the regional fishery management 
councils.
Councils and the use of science
    The most important recommendations of the USCOP are intended to 
improve the use of science in fisheries management decision-making and 
nationalize the Alaska model of science-based management. One needed 
reform involves ensuring the use of independent scientific advice. 
Currently, each council is required to establish a Science and 
Statistical Committee (SSC) to assist in the development, collection, 
and evaluation of the statistical, biological, economic, social, and 
other scientific information necessary for development of fisheries 
management plans and amendments. The USCOP recommended a number of 
changes in SSC member qualifications, compensation, and appointment, 
which are intended to improve their independence.
    H.R. 5018 contains language that partially implements many of the 
USCOP recommendations, but does not go far enough. By adding the 
following changes, which can be found in H.R. 1431, the bill will fully 
implement the USCOP recommendations. Specifically, scientists with 
financial ties to the fishing industry should not be allowed to serve 
on SSCs. SSC members should be appointed by the Secretary of Commerce 
to further ensure their independence. The councils should also be 
required to pay SSC members a stipend to ensure the participation of 
independent scientists. The peer review section must contain more 
detailed standards and criteria for the peer review process, and allow 
for comment from the public, not just the ``regulated community.'' 
These changes will not only ensure that the bill conforms with the 
USCOP recommendations, but help ensure that the councils base 
management decisions on best independent scientific information 
available.
    While it is very important to ensure that the scientific advice 
provided councils is independent, it is of little value unless the 
councils are required to use it. Here H.R. 5018 does a much better job 
of following the USCOP recommendations. Consistent with the USCOP, the 
SSCs are required to provide scientific advice for setting catch levels 
and the councils are required to follow it. In addition, the councils 
are also required to set annual catch limits based on this scientific 
advice. The main deficiency in this section is that the councils are 
not required to deduct amounts that an annual catch limit is exceeded 
from the following year's limit. Such an accountability measure is 
necessary to ensure that overfishing is controlled. The bill also does 
not adequately define the basis for annual catch limits. The councils 
can also use ``other annual harvest effort control limits,'' which are 
not as effective as catch limits. H.R. 5018 also only applies the 
requirement to set annual catch limits to the councils, not secretarial 
plans, and fails to provide a definition for the scientific 
recommendation designed to be the benchmark for these limits, i.e., the 
acceptable biological catch.
    The USCOP also made a number of recommendations to improve the 
councils themselves which are also included in H.R. 1431. Current law 
requires the Secretary of Commerce to ensure a fair and balanced 
appointment of the representatives of the commercial and recreational 
fisheries under the jurisdiction of the council. Since 1985, this 
requirement has resulted in 80--90 percent of appointed council members 
representing fishing interests. The USCOP recommended that the 
governors be required to nominate slates of council candidates that 
include two representatives each of commercial fishing, recreational 
fishing, and the general public. The Network believes that the 
Secretary should also be required to ensure equal representation 
between commercial fishermen, recreational fishermen, and the public 
when making council appointments. H.R. 5018 does not contain language 
to implement this recommendation. The USCOP also recommended that the 
Secretary establish a council training program, which should be 
required for new members, and members who do not take the training 
should be prohibited from voting until they do. H.R. 5018 does require 
the Secretary to develop the training program and requires new members 
to take the training program, but does not restrict voting until the 
training takes place.
Limited Access Programs
    The Limited Access Privilege Programs (LAPPs) section of H.R. 5018 
contains language that addresses many of the recommendations of the 
USCOP, most importantly that there be a set of national guidelines to 
govern program design and conduct. However, there is one very 
significant deficiency in the bill's LAPP standards: no time limit on 
these programs. The USCOP and the State of Alaska have called for these 
programs to have time limits. Time limits are necessary to reinforce 
the fact that LAPPs are a privilege, not a property right, and add 
force to program reviews. A time limit allows managers a greater 
opportunity to make program modifications because LAPP participants 
know that continued participation in the program is contingent on good 
performance.
    In addition, H.R. 5018 requires a council to develop a LAPP if the 
Secretary certifies a petition endorsed by 50 percent of the allocation 
holders in the fishery. This would allow the largest operators in a 
fishery to force the development of a LAPP despite opposition from the 
council and a majority of the permit holders in that fishery. Since a 
LAPP is a fundamental change in the fishery, all fishermen should have 
an equal voice in deciding to develop a program, not just the largest 
fishing businesses. Finally, H.R. 5018 exempts programs under 
development from the LAPP standards. Since there is no definition of 
under development, this crates a huge loophole which will allow many 
programs, even those in the discussion stage, to be exempted from the 
standards. This exception should be dropped from the bill.
Ecosystem-based Management
    Finally, the major recommendation of the USCOP was to move 
fisheries management toward ecosystem-based management. While H.R. 5018 
does include a section on ecosystem management, it merely calls for 
more ecosystem research. Twenty years ago the idea of ecosystem 
management was a novel idea and the research surrounding it was just 
beginning. Today, we have a better understanding of the importance of 
ecosystem interactions and the shortcomings associated with single 
species management. The research in this field has expanded rapidly, 
and it is time that legislation reflect what scientists have learned 
and begin the process of ecosystem-based management. This bill should 
go beyond developing regional research plans and include guidelines and 
requirements for developing and implementing Fishery Ecosystem Plans. 
The inclusion of an ecosystem approach into fishery management plans is 
a critical component to successfully managing our oceans and fisheries.
H.R. 1431
    While H.R. 1431 is not a comprehensive MSA reauthorization bill, it 
proposes to fully implement some of the most pivotal recommendations 
made by the USCOP and would result in a thorough reform of the council 
system, especially how science is used for making decisions. Because of 
this, the Network strongly supports H.R. 1431. Building on the 
strengths of the existing management process, the bill amends the 
Magnuson-Stevens Fishery Conservation and Management Act to: (1) 
broaden stakeholder representation on fishery management councils; (2) 
significantly reduce financial conflicts of interest among council 
members; (3) provide training for new council members; (4) develop 
cooperative research, data collection and gear modification programs; 
and (5) enhance the use of science in fishery management decisions.
    The bill strengthens the role of science in the fishery management 
process by insulating scientific determinations from political and 
economic pressures. The bill requires the Secretary to appoint and 
compensate members of each council's SSC. It requires that SSC members 
must be qualified federal, state, academic, or independent scientists 
who have no financial interest in any fishery. SSC members must have 
demonstrated scientific expertise in fisheries science or marine 
ecology; or economics or social science as it relates to fisheries 
management. It requires that each council's SSC include a fishery and 
marine science subcommittee. The subcommittee, drawn from those members 
of the SSC who have scientific expertise in fishery biological science 
or marine ecology, is responsible for making scientific determinations 
that include biological catch and bycatch limits, habitats in need of 
protection, and additional species protections. Consistent with USCOP 
recommendations, the bill stipulates that the councils must develop 
management measures that are consistent with the determinations made by 
the fisheries and marine science subcommittee, but may provide for 
greater conservation in order to meet management objectives. 
Furthermore, the bill specifies that determinations made by each 
council's fishery and marine science subcommittee of the SSC must be 
periodically subject to peer review by qualified independent scientists 
appointed by the Secretary of Commerce.
    In an effort to broaden representation on the councils, this bill 
requires each governor to nominate a slate of candidates for appointed 
council seats that include at least two representatives of commercial 
fishing interests, recreational fishing interests, and representatives 
of the public. In order to achieve actual balance on the councils, the 
bill directs the Secretary to ensure balance between commercial, 
recreational, and public interests when making council appointments. 
This bill would also prohibit council members from voting on any matter 
that would affect a financial interest the council member has 
disclosed, and it allows members of the public to request that the 
Secretary review a determination to decide whether a council member 
voted on a matter that would have an effect on the council member's 
financial interest. If a council member voted on a matter from which he 
or she should have recused him/herself, and his/her vote decided the 
council action, it shall be treated as a cause for invalidating or 
reconsidering the council action. The bill does not, as some have 
claimed, prohibit fishermen from sitting on the councils if they have 
financial conflicts. It also does not prevent fishermen with conflicts 
from engaging in the debate on matter they have a financial interest 
it. But, as I said above, they would be prevented from voting on 
matters they have a financial interest in.
    Current law exempts council members from the conflict of interest 
standards that apply to all other regulatory bodies of the federal 
government. Instead, regulations implementing the Magnuson-Stevens Act 
require council members to recuse themselves from a council action if 
they own or represent more than 10% of a fishing gear type or sector. 
Even if a council member is found to have voted on a matter in 
violation of this standard, the vote cannot be reconsidered. A study by 
the Stanford University Fisheries Policy Project, entitled Taking Stock 
of the Regional Fishery Management Councils, found that 60 percent of 
the appointed council members had a direct financial interest in the 
fisheries they managed and that only two council members had recused 
themselves during years of the study. The conflict of interest 
standards in H.R. 1431 are necessary to bring fisheries management up 
to the same standards as apply to the rest of government.
    H.R. 1431 also requires the Secretary to provide newly appointed 
council members with training, within six months of their appointment, 
in the following areas: (1) fisheries science and stock assessments; 
(2) basic ecology; (3) social science and fishery economics; (4) the 
requirements of the Magnuson-Stevens Act, the National Environmental 
Policy Act, the Administrative Procedures Act, and other relevant 
statutes or regulations; (5) conflict of interest policies that apply 
to council members; and (6) the public process for developing fishery 
management plans. Additionally, newly appointed members are restricted 
from voting on any council decision until they have completed the 
required training.
H.R. 5051
    Finally, I'd like to say a few words about H.R. 5051, the MSA 
reauthorization bill introduced by Congressman Gilchrest. Of all the 
comprehensive reauthorization bills introduced in the House and the 
Senate, this bill is the one that most closely follows the 
recommendations of the USCOP and enjoys the greatest degree of support 
within the Network because it does not contain many provisions that 
weaken existing law found in H.R. 5018. However, that is not to say 
that we do not see areas that need improvement. H.R. 5051 has some of 
the same problems as H.R. 5018 in that it: 1) does not fully implement 
the USCOP recommendations for council member training and adding 
independent public interest seats to the councils, 2) would restrict 
the public's access to fisheries observer information, 3) allows the 
use of expedited management procedures that restrict public 
participation, 4) fails to include a time limit for LAPPs, 5) allows 
large scale fishermen to force councils to develop LAPPs, and 6) 
exempts LAPPs under development from the standards.
Conclusion
    For almost two decades, independent reviews of our fisheries 
management system have yielded similar conclusions; science-based 
fisheries management is too often compromised by political and economic 
pressures, thus our progress towards ending overfishing and rebuilding 
depleted fish populations has been limited. Indeed, the governance 
structure of federal fisheries management needs to strengthen the role 
of science in management by separating scientific determinations from 
allocation decisions. Failure to follow scientific recommendations has 
resulted in ecological deterioration and economic losses. The NPFMC 
provides an example of a system that follows scientific advice in 
setting catch levels and maintains healthy fish populations. 
Recognizing the success of the North Pacific management regime, the 
USCOP outlined a model to apply that success nationally. Now it is time 
for Congress to heed the call for reform.
    I urge this Committee to make the changes I have recommended to 
H.R. 5018 so that it will advance the use of science in the management 
process, and most importantly not rollback critical conservation 
measures in current law. The future of marine fish, commercial fishing, 
and fishing communities is hanging in the balance and the time to act 
is now.
    Thank you and I would be happy to answer any questions that you may 
have.
                                 ______
                                 
    The Chairman. Thank you.
    Ms. Raymond.

                 STATEMENT OF MAGGIE RAYMOND, 
                 ASSOCIATED FISHERIES OF MAINE

    Ms. Raymond. Mr. Chairman, Members of the Committee, 
Congressman Frank, good morning and thank you for the 
opportunity to be here.
    My name is Maggie Raymond, and I am here on behalf of 
Associated Fisheries of Maine. Associated Fisheries is a trade 
organization of fishing and fishing-dependent businesses. I am 
also the co-owner of the fishing vessel Olympia, a New England 
groundfish trawler that provides the primary economic support 
for my family.
    We appreciate the work that you and your staff have done to 
develop a reauthorization bill that recognizes the delicate and 
difficult balance managers must strike in order to conserve our 
resources while preserving our fishing families and 
communities.
    My written testimony addresses several aspects of H.R. 5018 
but my comments today will focus on the provision of the law 
that gets the most attention; that is, the requirement for 
managers to identify all the fish stocks and to set about 
rebuilding them.
    Associated Fisheries fully supports this mandate. However, 
we believe that the reauthorization process ought to undertake 
lessons learned approached when refining this mandate. The New 
England Groundfish Fishery is comprised of 19 separate stocks 
of fish. The majority of these are well on their way to being 
fully rebuilt. During the past couple of years the fishing 
mortality rate for a few of the 19 has been higher than 
managers would have liked. As a result, much criticism has been 
heaped on New England as we struggle with the challenge of 
managing a multi-species fishery.
    What is often left out of the story, however, is the fact 
that during these last few years the majority of stocks within 
the New England groundfish complex have been underharvested.
    The criticism of New England management has been so severe 
of late that many have called upon Congress, and especially 
you, Mr. Chairman, to make the overfishing provisions of the 
Act more stringent, to the point of demanding that all 
fisheries adhere to strict levels known as fixed total 
allowable catch of quotas even if that means closing fisheries 
and imposing economic hardship on fishing families.
    Mr. Chairman, I am now unfortunately compelled to divulge 
the secret of my age by informing you that I have firsthand 
knowledge of the quota system for New England groundfish that 
was used in the late 1970s, and early 1980s. And since I know 
you will find that hard to believe, I am footnoting my 
testimony with references that will support my assertion that 
the use of fixed quotas at that time was a catastrophic 
failure, an administrative and enforcement nightmare which 
caused a race to fish, human safety ramifications, and an 
unconscionable waste of the resource through premature closures 
of the fishery.
    While many demand that Congress mandate fixed quotas, they 
fail to point out that fixed quota management is indeed 
currently in place for three species within the New England 
complex. As perhaps the most telling example of the so-called 
success of fixed quotas, one only has to look at the current 
condition of Georges Bank yellowtail flounder.
    In 2003, scientists considered the Georges Bank yellowtail 
fishery to be rebuilt and a fixed quota was once again imposed 
on the fishery. In 2004, and for the first time in many years, 
New England fishermen actually caught the entire quota for 
yellowtail flounder. I want to stress that the quota was not 
exceeded. Yet in 2005, an updated assessment asserted that 
Georges Bank yellowtail was overfished, and overfishing was 
occurring, begging the question if fixed quotas are indeed the 
cure for groundfish management in New England, how can Georges 
Bank yellowtail flounder now be overfished?
    The short answer is that fixed quota management in the face 
of ever-changing conditions that may have nothing to do with 
fishing is not infallible. Therefore, Mr. Chairman, we ask that 
you resist the pressure to require that all fisheries be 
managed using quota systems because we are acutely aware of the 
failure of this type of system in New England.
    We believe it is also important to bring to your attention 
the fact that some European countries are moving away from 
fixed quota management toward a days-at-sea system similar to 
that used in New England groundfish. The Faroe Islands moved to 
such a system in the 1990s and in 2003 and 2004, respectively, 
the Royal Societies of England and Scotland strongly 
recommended moving away from quota management toward a days-at-
sea system in closed areas.
    Finally, we are pleased to note that H.R. 5018 does not 
include a mandate to end overfishing within a specific 
timeframe as has been suggested by the Administration. Last 
week in New Bedford, Massachusetts, you heard testimony from 
Miller Fisheries' chief science advisor who described the law's 
current 10-year rebuilding timeline for overfished stocks as 
arbitrary.
    However, the Administration is now advocating an equally 
arbitrary timeline for ending overfishing, and we ask that you 
not include that in H.R. 5018. Again, fisheries managers must 
be encouraged to consider the impacts of regulations on fishing 
communities, and to do so they must maintain the flexibility to 
phase in reductions so long as the rebuilding requirements are 
ultimately achieved.
    Again, Mr. Chairman, please accept the sincere gratitude of 
Associated Fisheries for your willingness to become well versed 
in the complexities of fishery management, and your obvious 
sensitivity to the needs of resource-based communities.
    I would be happy to answer any questions you may have, and 
I do hope that everyone on the Committee will find the 
opportunity to read my complete testimony. Thank you.
    [The prepared statement of Ms. Raymond follows:]

       Statement of Maggie Raymond, Associated Fisheries of Maine

    Mr. Chairman, and members of the Committee on Resources thank you 
for the opportunity to testify on H.R. 5018, the American Fisheries 
Management and Marine Life Improvement Act. I am here today on behalf 
of Associated Fisheries of Maine.
    Associated Fisheries of Maine, established in 1956, is a trade 
association of fishing and fishing dependent businesses. Our membership 
includes harvesters, processors, dealers of fuel, ice and fishing gear, 
marine insurers and lenders, and other public and private businesses 
and individuals with an interest in commercial fishing. Members of 
Associated Fisheries of Maine are dependent on the sound management of 
the New England groundfish fishery. I am also the co-owner of the F/V 
Olympia, a New England groundfish trawler that provides the primary 
economic support for my family.
    Associated Fisheries of Maine appreciates the work that you and 
your staff have done to develop a Magnuson-Stevens Fishery Conservation 
and Management Act re- authorization bill that recognizes the delicate 
and difficult balance fisheries managers must strike in order to 
conserve our fishery resources while preserving our fishing families 
and communities.
    Associated Fisheries of Maine has a long history of supporting 
rational management measures for the New England groundfish fishery. I 
personally have served on several of the New England Fishery Management 
Council's advisory panels, including many years as Chair of the 
groundfish advisory panel.
    The provision of the Magnuson-Stevens Act that gets most attention 
is that which requires fisheries managers to identify overfished stocks 
and set about rebuilding them. Associated Fisheries of Maine fully 
supports this mandate. However, we believe that the re-authorization 
process ought to undertake a careful ``lessons learned'' approach in 
deciding how to refine this obligation.
    The New England groundfish fishery is comprised of 19 separate 
stocks of fish, most of which are co-mingled. After years of strict 
conservation measures, the majority of these stocks are well on their 
way to being fully rebuilt, and there is every indication that these 
stocks will continue to rebuild over the long-term. What is not so 
certain is whether in the short term, New England fishing communities 
will be able to maintain the infrastructure needed to harvest the 
resource and bring this highly valued seafood to the public.
    During the past couple of years, the fishing mortality rate for a 
few of the 19 groundfish stocks has been higher than managers would 
have liked. As a result, much criticism has been heaped on New England 
fishery managers and fishing communities as we struggle with the 
difficult challenge of managing a multispecies complex. What is often 
left out of the story, however, is the fact that during these last few 
years, the majority of stocks within the New England groundfish complex 
have been under- harvested due to increasing restrictions on a few 
stocks.
    The criticism of New England groundfish management has been so 
severe of late that many have called upon Congress to make the 
overfishing provisions of the Magnuson-Stevens Act more stringent and 
less flexible, to the point of demanding that all fisheries adhere to 
strict catch levels known as fixed total allowable catch (TAC) or 
quotas, even within a multispecies complex, and even if adherence to 
strict catch levels means closing down fisheries and imposing severe 
economic hardship on fishing communities. You may be surprised to know 
that most of the harshest critics of New England fishery management are 
not aware that nearly thirty years ago, prior to and immediately 
following the enactment of the Magnuson Act, New England groundfish was 
indeed managed by a quota system under the International Commission for 
the Northwest Atlantic Fisheries as well as by the New England Council 
and the National Marine Fisheries Service.
    I am footnoting my written testimony with references <SUP>1</SUP> 
that will support my assertion that the use of fixed quotas at that 
time to manage New England groundfish was a catastrophic failure, an 
administrative and enforcement nightmare, which caused a race to fish, 
human safety ramifications, and an unconscionable waste of the resource 
through premature closures of the fishery.
---------------------------------------------------------------------------
    \1\ 1982, Pierce, David E., Development and Evolution of Fishery 
Management Plans for Cod, Haddock and Yellowtail Flounder, 
Massachusetts Division of Marine Fisheries. 1985, New England Fishery 
Management Council, Fishery Management Plan, Environmental Impact 
Statement, Regulatory Impact Review and Initial Regulatory Flexibility 
Analysis for the Northeast Multi- species Fishery.
---------------------------------------------------------------------------
    While many critics of New England's fishery management call upon 
Congress to mandate fixed quotas as the solution, they fail to point 
out that fixed quota management is indeed currently in operation for 
three stocks within the New England groundfish complex. As perhaps the 
most telling example of the so-called success of fixed quotas, one only 
has to look at the current condition of Georges Bank yellowtail 
flounder.
    For years, New England fishermen under-harvested the target total 
allowable catch due to large area closures and restrictions on days at 
sea. In 2003, scientists considered the once heavily depleted Georges 
Bank yellowtail flounder fishery to be ``rebuilt'' <SUP>2</SUP>, and in 
the same year the US/Canada Resource Sharing Agreement (adopted in 
Amendment 13 to the groundfish plan) imposed a fixed quota once again 
for cod, haddock, and yellowtail flounder.
---------------------------------------------------------------------------
    \2\ 2003, Stone, H., Gavaris, S., Legault, C., Neilson, J., Cadrin, 
S., Collapse and recovery of the yellowtail flounder fishery on Georges 
Bank, Journal of Sea Research.
---------------------------------------------------------------------------
    In 2004, and for the first time in many years, New England 
fishermen actually caught and landed the entire quota for Georges Bank 
yellowtail. I want to stress that the quota was not exceeded, yet in 
2005, a ``retrospective'' assessment of Georges Bank yellowtail 
asserted that the stock was ``overfished'' and ``overfishing was 
occurring'', begging the question:
        ``If fixed quotas are indeed the cure for groundfish management 
        in New England, how can Georges Bank yellowtail flounder now be 
        overfished? How can overfishing be occurring? The short answer 
        is that fixed quota management, in the face of ever changing 
        conditions that may have nothing to do with fishing, is not 
        infallible.
    Associated Fisheries of Maine would also like to make the Committee 
aware that other countries are moving away from quota based systems 
towards fishing effort controls similar to those used in New England 
groundfish.
    For example, in the 1990's the Faroe Islands moved from a quota 
based system to a fishing days system. ``The system has been credited 
not only for wholly preventing the problem of fish dumping, but also 
for striking a sound balance among ecological, social and economical 
interests in the Faroe Islands''. <SUP>3</SUP> Likewise a 2003 report 
of the Royal Society of England on fisheries management states: ``One 
achievable action would be to replace the traditional emphasis on 
methods of controlling catches with controls on fishing effort, a 
strategy that would also address the cumbersome and costly nature of 
enforcing current management strategies.'' <SUP>4</SUP> In 2003, the 
Royal Society of Edinburgh Scotland made the following recommendations 
regarding management of cod in the North Sea: ``While we recognize that 
the exceptionally serious condition of cod stocks requires regulation 
targeted at cod, we consider that, in a multispecies fishery, there are 
difficulties in trying to manage a single stock. If the principal aim 
is to have a sustainable whitefish sector, the better option in the 
longer term may be to focus on maximizing the harvesting potential from 
the full range of demersal fisheries in Scottish waters. We consider 
that illegal landings and discards are always likely to be problems so 
long as regulation of the demersal sector is based on catch quotas and 
single species TACs. We therefore recommend that the EU Commission 
should replace the present system of catch quotas for the demersal 
sector and Nephrops trawl fisheries with effort control (days at sea) 
and closed areas.'' <SUP>5</SUP>
---------------------------------------------------------------------------
    \3\ 2005, Annual Business Report of the Faroe Islands.
    \4\ 2003, The Royal Society of England, Environmental Effects of 
Marine Fisheries.
    \5\ 2004, The Royal Society of Edinburgh, Inquiry into the Future 
of the Scottish Fishing Industry.
---------------------------------------------------------------------------
    Therefore, Associated Fisheries of Maine asks that you resist 
pressure to require that all U.S. fisheries be managed using quota 
systems, because we are acutely aware of the failure of this type of 
system in New England; and so that New England can continue to use a 
variety of tools that are more appropriate to multispecies management.
    Associated Fisheries of Maine is pleased to note that H.R. 5018 
does not include a mandate to end overfishing within a specific 
timeline. Last week in New Bedford, MA you heard testimony from NOAA 
Fisheries Chief Science Advisor who described the law's current 10-year 
rebuilding timeline for overfished stocks as ``arbitrary''. However, 
the Administration is now advocating an equally arbitrary timeframe for 
ending overfishing, and we ask that you not include that recommendation 
in H.R. 5018. Again, fisheries managers must be encouraged to consider 
the impacts of regulations on fishing communities and to do so they 
must maintain the flexibility to phase-in reductions, so long as the 
rebuilding requirements are ultimately achieved. It is precisely these 
types of indefensible deadlines that provide ample fodder for 
litigation.
    Associated Fisheries of Maine supports the vision of H.R. 5018 to 
move towards ecosystem-based approaches to fisheries management, and we 
commend Chairman Pombo for including a non-mandatory provision to move 
fisheries management in that direction. We believe that before 
ecosystem principles can be incorporated into all fishery management 
plans, a great deal of research must continue and be augmented to 
understand the complex interrelationships within marine ecosystems, and 
therefore non- mandatory encouragement is the best approach at this 
time.
    Regarding marine protected areas, we do recognize and appreciate 
the fact that the authority specified for this provision is 
discretionary. However, we are concerned that the requirements with 
respect to the closure of a given area to fishing (i.e., requirements 
for use of best available science, assessment of conservation benefits, 
timely review of need for a closure, determination of benefits and 
impacts of closure, etc.'') are triggered only if an area is closed to 
all fisheries. This is problematic in that certain fisheries or gear 
types or fishing sectors could easily be removed from an area while the 
requirements normally used to justify the closure would not be 
triggered since other fisheries might still be allowed to operate in 
the area. This provision would be acceptable with a small change--that 
all the requirements currently specified under subsection (h)(16) be 
triggered if just one fishery is removed from an area pursuant to this 
provision rather than waiting until all fisheries are prohibited.
    Again, Mr. Chairman, please accept the sincere appreciation of 
Associated Fisheries of Maine for your willingness to become well 
versed in the complexities of fisheries management, for the common 
senses approach that is the basis of H.R. 5018, and for your obvious 
sensitivity to the needs of resource based communities. I would be 
happy to answer any questions about my written or oral testimony that 
the Committee may have.
                                 ______
                                 
    The Chairman. Thank you.
    Mr. Oliver.

 STATEMENT OF CHRIS OLIVER, EXECUTIVE DIRECTOR, NORTH PACIFIC 
                   FISHERY MANAGEMENT COUNCIL

    Mr. Oliver. Good morning. Thank you, Mr. Chairman, for the 
opportunity to once again testify before this Committee on 
critically important changes to the Magnuson-Stevens Act.
    Overall, I believe the current version of H.R. 5018 is a 
very positive, well constructed piece of legislation which 
appropriately addresses most, if not all, of the most important 
issues being considered. I have offered specific written 
comments relative to H.R. 5018 for further consideration, and 
as requested, also comments relative to H.R. 1431. I am going 
to move straight in my oral testimony because of time 
constraints to three of the most critical issues.
    In terms of science-based improvements, I believe that H.R. 
5018 contains clear direct language regarding the establishment 
of annual catch limits, including provisions regarding 
acceptable biological catch levels as recommended by the SSC. 
This reflects a model that has been used in the North Pacific 
for three decades, and I believe represents a significant 
strengthening of the conservation aspects of the Act.
    Next, Mr. Chairman, I would move to limited access 
programs, a very important set of provisions. Overall, overall, 
the provisions in the bill represent an ambitious and 
comprehensive framework for future development of LAP programs. 
Generally, these provisions represent a positive approach to 
program design, but it does need to be recognized that due to 
the number of requirements and provisions the development of 
LAP programs will be a complex, time-consuming, and costly 
process.
    A couple of key points to stress is maximum flexibility for 
program design, and I think this draft does grant consideration 
discretion in that regard. Second is the issue of programs 
under development, and in the North Pacific we have two large 
programs and extensive phases of development, and unless these 
programs are grandfathered, significant revisions would be 
required, resulting in delays and approval and implementation. 
I think the phrase ``underdevelopment'' does that, but I think 
clarification of that would be good, Mr. Chairman.
    Next, I want to move to the issue of competing statutes and 
specifically speak the rest of my length to the NEPA issue, and 
note that the comments in this regard are shared by all the 
regional fishery management councils. I believe this is among 
the most important issues and it represents the single best 
opportunity to reduce superfluous litigation and streamline the 
regulatory process.
    I have heard these efforts referred to as red herrings or 
attempts to evade environmental protections, that the problems 
are perceived rather than real, and it is simply a matter of 
different schedules and timelines, and I want to try to clarify 
some of those misconceptions, Mr. Chairman.
    The NEPA process does not and never will fit the dynamic 
nature of fisheries management, and I would like to pose the 
essence of this problem with one of the most illuminating 
examples from the North Pacific, and that is our 7,000-page 
supplemental environmental impact statement that was prepared 
to support our groundfish fishery management plans wherein one 
of the alternatives that had to be fully analyzed under NEPA 
compliance was a no fishing alternative.
    This is a fishery where acceptable biological catch levels 
total 4 million metric tons where the tot allowable catch is 
only half that amount. A fishery that supplies half the 
nation's annual seafood production, and we were required to 
analyze the no fishing alternative, and subsequently, despite 
the 7,000-page SEIS, they have been required to prepare an 
annual NEPA document to support this TAC setting process, 
including the no fishing alternative.
    Finally, we have recently been informed that a full-blown 
EIS will now be necessary each year with continued inclusion of 
the no fishing alternative to comply with NEPA.
    The letter I have attached from NOAA explaining their 
rationale for that decision focuses on NEPA litigation 
avoidance as a driving factor. My point is not to default them 
for that decision, but to exemplify how NEPA is inappropriately 
driving the fishery management process.
    Mr. Chairman, we made thousands of copies of the 7,000-page 
document, and I would submit in all seriousness that a more 
appropriate application in NEPA would have required us to 
conduct an EIS on the preparation of that EIS with regard to 
the impacts on all growth forest.
    Mr. Chairman, I believe this example is an artifact that 
the greater underlying issue with NEPA, and that has to do with 
the timeline and review. We could easily match the timelines of 
council decisions post-implementation. It is the up-front work 
on NEPA that requires the time and compliance with that, and I 
hope you will read my comments on that.
    I want to close by saying, since I am running out of time, 
that while the current language in H.R. 5018 grants 
discretionary authority for the Secretary to review compliance 
with NEPA, that we need a clear and more direct mandate with 
regard to NEPA application, and confirm that the Magnuson-
Stevens Act is the appropriate act guiding fisheries 
management, and that if done properly, it contains all the 
measures necessary for environmental protection, and that we 
should essentially be given a NEPA exemption with regard to 
Magnuson-Stevens Act.
    Finally, Mr. Chairman, in conclusion, I agree with Dr. 
McIsaac's comments on marine sanctuaries, and I urge you to 
read my comments with regard to H.R. 1431. We do have serious 
concerns with some of those provisions, and I would 
particularly note the proposal to establish an SSC 
subcommittee, invest that committee with authority that 
essentially subsumes the council decisionmaking authority.
    I will close with that, and be happy to answer any 
questions. Thank you.
    [The prepared statement of Mr. Oliver follows:]

            Statement of Chris Oliver, Executive Director, 
                North Pacific Fishery Management Council

    Good morning and thank you for the opportunity to once again 
testify before the Committee on critically important changes to the 
Magnuson-Stevens Fishery Conservation and Management Act (MSA). In 
previous testimony to this Committee we have provided details on the 
successful fisheries management program in the North Pacific, as well 
as comments on several principle issues. Many of my comments today will 
mirror the written and oral testimony previously submitted by the North 
Pacific Council, though today I will focus on a few of the most 
critical MSA reauthorization issues. Overall, I believe the current 
version of H.R. 5018 is a very positive, well constructed piece of 
legislation which appropriately addresses most, if not all, of the most 
important issues currently being considered. I respectfully offer the 
following specific comments relative to H.R. 5018 for further 
consideration. As requested, specific comments relative to H.R. 1431 
are also offered.
Section 3--Science-based Improvements
    H.R. 5018 contains clear, direct language regarding the 
establishment of annual catch limits, including provisions to not 
exceed acceptable biological catch levels as recommended by the SSC. 
This reflects the model used in the North Pacific for three decades, 
and I believe this language represents a significant strengthening of 
the conservation aspects of the MSA. Adding a specific definition for 
ABC could provide additional clarity, and such definition could read as 
follows: ``ABC is defined as an annual specification of fishing 
mortality established for individual fish stocks or assemblages that 
prevents overfishing and promotes maximum sustainable yield.''
    Language regarding the membership and function of the SSC is also 
clear and direct, and provides the necessary clarification to 
strengthen the role of science in the management process. Regarding the 
requirement to establish a peer review process for regional stock 
assessment information (or other information), we hope that such 
requirement is accommodated by the current process in use in the North 
Pacific, whereby annual stock assessments are reviewed by scientific 
Plan Teams, as well as the Center for Independent Experts on a case-by-
case basis, followed by additional review and approval by the SSC, 
prior to use by the Council. We believe that our SSC is the appropriate 
peer review process for all scientific information used by the Council, 
and additional peer reviews can be used on a case-by-case basis.
Section 4--Data Collection
    We support the changes proposed relative to data collection, 
particularly the clarifications relative to collection of information 
by observers, or other technologies, and protecting the confidentiality 
of that information. I also wish to bring to your attention another 
issue relative to data collection by observers, and recommend language 
which would address this issue relative to the North Pacific Groundfish 
Observer Program. Currently, observer sampling and monitoring duties 
are described in the North Pacific Groundfish Observer Program Sampling 
Manual (manual). The 400 page manual details how observers collect 
information on various vessels and processors, life at sea, safety 
information, data handling, and annual special projects.
    Each year, the manual is revised to meet changing scientific 
information needs, describe sampling changes incorporated to support 
North Pacific Fishery Management Council management programs, and 
address technological and administrative changes. Because North Pacific 
groundfish observers are not Federal employees and may not be 
considered agents of the government, observer collected information may 
be subject to the Paperwork Reduction Act (PRA). In addition, all data 
forms and observer logbooks could be subject to the PRA.
    Under the PRA, the manual, data forms, and logbooks could be 
required to be published in regulation. If this were to occur, annual 
changes to the manual or these forms would need to go through proposed 
and final rulemaking, as well as obtain annual OMB approval of 
information collection requirements. Engaging in this process on an 
annual basis would reduce NMFS's flexibility to incorporate changes to 
sampling protocols designed to meet scientific and management 
information needs, and could seriously limit NMFS' ability to manage 
groundfish fisheries of Alaska. In order to address this potential 
problem, the Committee might wish to consider the following language:
        (b) CONFIDENTIALITY OF INFORMATION
           (4) Any observer collecting information for the Secretary 
        under this subsection shall be deemed to be a federal employee 
        for the purposes of Chapter 35 of title 44, U.S.C. [Paperwork 
        Reduction Act]
Section 5--Council Operations and Authorities
    We strongly support training programs for Council members, but 
request clarification of the timing of training relative to ability to 
participate and vote in the Council process. Given that the timing of 
the training will not be within the control of the Council member, we 
recommend that completion of training not be a condition for voting.
    This section contains a provision relative to observer program 
funding, which states that ``costs for observer coverage that is 
primarily for enforcement''...or for data collection necessary for the 
monitoring of a fishery...shall be paid for by the Secretary, and, 
under a limited access program, may be considered as a cost to be 
recovered...''. My comment in this regard is that it may be very 
difficult to separate observer duties among sampling for biological 
purposes, data collection for monitoring, and enforcement related 
duties. For example, a significant amount of observer duties in North 
Pacific fisheries could be construed to be related to data collection 
necessary for monitoring. This may pose a significant, and potentially 
unrealistic, burden on the agency that is currently being shouldered by 
the North Pacific fishing industry, recognizing that federal funding of 
at least some part of increasing observer costs may be necessary in the 
North Pacific, consistent with federal policy in other observer 
programs around the country. Further, it will in many cases be 
difficult to determine what portion of an observer's duties are related 
to a limited access program vs. duties that would otherwise be 
performed, coupled with the fact that a 3% fee may not be adequate to 
cover typical management and enforcement costs for a limited access 
program and observer costs as well. I do not have a handy solution to 
these interrelated issues, but wanted to note the critical importance 
of the observer program to managing our fisheries in the North Pacific, 
and to urge that whatever legislation is approved ensure continuation 
of this program through some combination of cost recovery and federal 
funding.
    One other important provision in this section clarifies the 
Councils' and Secretary's framework authority for certain plan and 
regulatory amendments. We want to strongly support this clarification 
of framework authority as it will provide us the ability to craft plan 
and regulatory amendments necessary for timing implementation of 
management actions (such as annual specifications for catch limits, or 
trigger-based management actions that begin at the start of one year, 
based on previous years' conditions or performance).
Section 6--Ecosystem-based Fishery Management
    Based on recent discussions within our Council and among all the 
regional Councils, I believe that the approach taken within H.R. 5018 
is the correct approach to ecosystem-based fishery management, it 
recognizes the ecosystem-based fisheries management already being done, 
and it is consistent with efforts already underway to better define and 
understand ecosystems and then identify further, appropriate management 
measures. It defines an iterative process based on sequential 
improvements in our understanding of ecosystem factors, and does not 
impose unrealistic requirements or timelines which would only serve as 
litigation fodder. H.R. 5018 represents a logical, realistic approach 
to further implementation of ecosystem-based fisheries management.
Section 7--Limited Access Programs
    We have commented previously on many of the specific provisions 
related to this critical MSA reauthorization issue, and many of our 
comments appear to have been considered in this proposed legislation. 
Overall, the limited access program (LAP) provisions represent an 
ambitious and comprehensive framework for future development of LAP 
programs. Generally these provisions represent a positive approach to 
LAP program design, but it needs to be recognized, due to the number of 
requirements and provisions (including, for example, development of 
criteria for, and evaluation of, community plans and regional 
associations), that development of LAP programs under these provisions 
will be a complex, time-consuming, and costly process. Some specific 
comments are listed below:
    <bullet>  Maximum flexibility for program design is key, and 
provisions need to be discretionary, rather than mandatory, wherever 
possible. This draft appears to grant considerable discretion to the 
Councils in many aspects of program design.
    <bullet>  Regional fishery associations represent an alternative 
way to recognize and protect a variety of interests when designing an 
LAP program. We recommend clarification that regional fishery 
associations may, depending on criteria developed by the Council, be 
manifested in the form of fishery cooperatives (such as those 
implemented for pollock under the American Fisheries Act, and 
potentially include processor and/or regional linkages).
    <bullet>  The North Pacific Council has two LAP programs in 
extensive phases of development, including Amendment 80 which would 
establish fishery cooperatives for the non-AFA catcher processor sector 
and which is pending a final decision by the Council in June, but which 
will not be formally transmitted to the Secretary until later in the 
year. We have also initiated an EIS and attendant analyses for the 
comprehensive Gulf of Alaska rationalization program, though final 
Council action would not occur until sometime in 2007. Many of the 
provisions in that program are consistent with the concepts in the 
current legislation, but likely do not specifically conform with all of 
the provisions. Unless these programs are ``grandfathered,'' 
significant revisions would be necessary resulting in delays to 
approval and implementation. The current language appears to provide 
for this but I would recommend clarification of the meaning of the 
phrase ``under development'' in that section of the bill.
Section 9--Observer program funding
    The North Pacific Council is in the process of developing 
alternative funding mechanisms for the (mostly) industry-funded program 
off Alaska. Some type of across the board fee program is the most 
likely mechanism, and we need broad legislative authority to provide 
the necessary flexibility to accomplish this program revision. H.R. 
5018 appears to provide this flexibility, though there are some 
concerns with the current language. Rather than vest sole authority for 
establishing the funding mechanism with the Secretary, the legislation 
should specifically include the Councils as part of this process. Also, 
the language should be clear as to whether and at what level a maximum 
fee is allowed, and how such a fee program would interact with an LAP 
fee program and the observer coverage language in Section 5.
Section 10--Competing Statutes (MSA vs NEPA)
    Mr. Chairman and Committee members, while other provisions of the 
draft legislation address important science and conservation issues, I 
believe the NEPA issue to be among the most important issues in the 
current reauthorization discussion, and it represents the single best 
opportunity to reduce superfluous litigation and streamline the 
regulatory process. I have heard our efforts to reconcile this 
statutory redundancy referred to as a ``red herring'', as an attempt to 
evade environmental protections in our fisheries management actions, 
that the problems are perceived rather than real, that it is simply a 
matter of different schedules and timelines for review and approval. 
Nothing could be further from the truth. The NEPA process does not, and 
never will, fit the unique and dynamic nature of fisheries management, 
and despite our best efforts to date to comply with that process we 
will always be vulnerable to process-oriented litigation. And we will 
continue to expend vast, unnecessary resources in our attempts to 
bullet-proof everything we do against NEPA litigation, rather than 
focus our energies on Job 1--which should be effective, timely 
management of our fisheries resources.
    I would like to once again pose the essence of the NEPA problem 
with two of the most illuminating examples from the North Pacific. The 
first is the 7,000 page SEIS that was prepared to support our Bering 
Sea/Aleutian Islands and Gulf of Alaska groundfish FMPs, wherein one of 
the alternatives that had to be fully analyzed under NOAA GC's 
instructions for NEPA compliance was a ``No Fishing Alternative''. In a 
fishery where the Acceptable Biological Catch (ABC) levels total 4 
million metric tons (and have for three decades), a fishery where Total 
Allowable Catch (TAC) levels are only half that amount (or 2 million 
metric tons), a fishery which supplies half the Nation's annual seafood 
production...we were required to analyze a ``No Fishing Alternative''. 
This part of the analysis took nearly 300 pages, more than the total 
noted in CEQ guidance as the standard for an overall EIS. In addition, 
we have still been required to prepare an annual Environmental 
Assessment (NEPA document) to support the annual TAC setting process, 
which continues to include a ``No Fishing Alternative''. And finally, 
the agency has recently determined that a full-blown EIS is now 
necessary for the annual TAC setting process, with continued inclusion 
of the ``No Fishing Alternative'', or ``no action alternative'' as 
required by NEPA. The recent letter from NOAA Fisheries to the Council 
(dated April 21, 2006 and attached), explaining the rationale for the 
decision to do an EIS, focuses on NEPA litigation avoidance as a 
driving factor in that decision. My point is not to fault NOAA for this 
decision, but to exemplify how NEPA is inappropriately driving the 
fisheries management process.
    The second example is the Essential Fish Habitat protection 
measures that were recently approved for the Gulf of Alaska and the 
Aleutian Islands. The Council action, taken in 2005, would close about 
95% of the Aleutian Islands area to bottom trawling or in some cases to 
all fishing (nearly 300,000 square nautical miles) to protect deep 
water corals and other fish habitat. Because the specific alternatives 
analyzed in the EIS for the Bering Sea did not match with the 
alternative finally developed through the Council process with input 
from all sides of the issue, we were advised by NOAA GC that we could 
not pick that alternative without reinitiating the entire EIS process 
(under NEPA). Therefore, the Council proceeded with action relative to 
the Aleutian Islands and the Gulf of Alaska, but not the Bering Sea. We 
are now addressing the Bering Sea EFH measures through an additional, 
separate process which will involve preparation of similar NEPA 
analytical documents, additional staff and Council time, and delays 
(likely years) in implementation of EFH measures for the Bering Sea. If 
promulgated under MSA alone, the Council could have picked the 
alternative that made sense, conducted the further, necessary analyses 
specific to that alternative, and submitted the proposed measure for 
Secretarial review and approval along with the other EFH protection 
measures a year ago.
    While I believe that these examples are compelling, they are only 
an artifact of the greater underlying problem associated with NEPA 
application to fisheries management processes. NEPA has subsumed the 
MSA as the guiding Act for fisheries management in the U.S., and 
attempts to apply the letter of NEPA, and to bulletproof all fisheries 
management actions against litigation under NEPA, have resulted in an 
extremely cumbersome, overly complicated, bureaucratic process of never 
ending legal review and regulatory revisions that ill serves the 
public's understanding of proposed management actions. While the 
timelines for review and approval of Council recommendations under NEPA 
could easily be matched with MSA requirements, the real problem lies 
within the up front development of management measures, and associated 
analytical documents such as EAs and EISs, prior to getting to a 
Council decision. Requirements for contrived, often unreasonable 
alternatives, for the sake of having multiple alternatives to comply 
with NEPA, coupled with seemingly unending lines of regulatory and 
legal reviews, often cause even the most simple, straightforward 
management actions to take years from conception to Council action, and 
additional years for rulemaking, approval, and finally implementation.
    We fully support the development of more complete analyses to 
support proposed management actions and have been working diligently 
with our NOAA counterparts in this regard (in fact, in 2003 the North 
Pacific Council and NOAA Fisheries Alaska Region were jointly awarded 
the National Environmental Excellence Award for NEPA excellence, from 
the National Association of Environmental Professionals, for our 
Steller Sea Lion EIS). However, if we could do so under the authority 
of the MSA, rather than NEPA, we could develop and implement necessary 
conservation and management measures more quickly and at far less cost 
to the public, while still maintaining a focus on environmental 
protection and public process. Public process would be better served by 
providing meaningful, understandable analyses of management actions, as 
prescribed by the MSA, and we could once again devote the majority of 
our resources to practical fisheries management, rather than devoting 
those resources to the self-fulfilling prophecy of litigation avoidance 
in which we are currently engaged.
    The current language in H.R. 5018 grants discretionary authority to 
the Secretary to deem management actions to be NEPA compliant if 
prepared in accordance with MSA provisions. This appears on the surface 
to have the potential for vast improvements, but there are three 
reasons it will be unlikely to accomplish the intent: (1) based on 
current Department of Commerce (NOAA) policy and NEPA focus, it seems 
unlikely that the Secretary would in fact exercise the discretion to 
deem analyses NEPA compliant; (2) analyses would have to be completed 
under current MSA provisions prior to a discretionary finding by the 
Secretary, which means that if an analyses were deemed to not be in 
compliance with NEPA, we would have to start over, resulting in 
inefficient uses of staff and other resources, and delays in program 
implementation; and, (3) any actions, even if deemed NEPA compliant, 
would still seem to be subject to litigation and judicial review 
relative to NEPA compliance.
    We need a clear and direct mandate with regard to NEPA application, 
and we need that mandate to confirm that the MSA is the appropriate Act 
governing fisheries management programs, and that compliance with MSA 
provisions exempts the action from NEPA. Replacement of the word 
``may'' with the word ``shall'' in Section 315, Line 18 would 
accomplish this sorely needed statutory reconciliation, or alternative 
language that clearly exempts such actions from NEPA. With new 
provisions in the MSA for cumulative impact analysis and consideration 
of an appropriate range of alternatives, the MSA contains all the 
necessary provisions to ensure that environmental impacts are clearly 
assessed, that conservative management measures can be promulgated in a 
timely fashion, and that the public has ample opportunity, at several 
stages in the process, to comment on and influence those management 
decisions. The Councils and NOAA Fisheries could once again focus their 
limited resources on the real job of managing fisheries, and could do 
so without sacrificing any conservation and environmental protections 
or public process.
Marine Sanctuaries
    H.R. 5018 provides language that strengthens the role of the MSA 
relative to the National Marine Sanctuaries Act; however, the Councils 
believe that additional language could clarify that jurisdiction over 
fishing activities within such sanctuaries is correctly under the 
purview of the regional Councils vis-a-vis the MSA.
Diminished Fisheries
    H.R. 5018 proposes to replace the term ``overfished'' with the term 
``diminished'', in order to correctly recognize the difference fish 
stocks that are truly overfished and those which are diminished, or 
depleted, due to other factors. Given that the bill also requires the 
annual status of stocks report to make such distinctions, we support 
the proposed change as an appropriate way to address this issue.
H.R. 1431
    As the Committee requested, I will now address some comments 
specific to H.R. 1431. This bill proposes significant changes to the 
Council appointment and voting process, and significant changes to the 
Councils' authority vis-a-vis changes to the structure, operations, and 
authorities of the Council's Scientific and Statistical Committee (SSC) 
and proposed subcommittee. Generally, our Council believes that the 
current process works very well, and that significant changes in this 
regard are unwarranted. While our Council has not reviewed and 
discussed the specific changes contained in this bill, we have 
discussed the concepts embodied therein, and I am comfortable stating 
that some of the proposed changes are unnecessary, and would negatively 
affect, rather than improve, the currently successful process.
Voting members, term limits, and training (per H.R. 1431)
    Our Council does not believe that major changes are necessary to 
the Council appointment process. The current Act provides the 
Governors' authority to make recommendations from a wide range of 
constituencies which can appropriately reflect the correct balance of 
representation depending on the region and issues, and mandating 
additional names from specific groups is unnecessary. It may also be 
difficult to define what constitutes the ``marine fish conservation 
public interest sector'', as individuals from commercial or 
recreational fishing sectors could easily be construed to also 
represent the public interest in terms of conservation.
    The new legislation appears to restrict Council membership to not 
only three consecutive terms, but to three terms overall. There does 
not appear to be a justification for this restriction. There may be 
cases where the benefits of long-term experience justify re-appointment 
of a previously seated Council member. Regarding training for Council 
members, we strongly support the provisions for training, but do not 
believe that a Council member should be restricted from voting for up 
to six months pending such training, particularly where the timing of 
such training may not be within the control of the affected Council 
member.
    The legislation also appears to prohibit voting by a Council member 
on any issue which would have an effect on a financial interest that is 
required to be disclosed. This would appear to greatly alter the 
existing rules, such that any effect on any financial interest would 
result in the prohibition on voting. This seems overly restrictive and 
could hinder Council members' ability to participate and contribute 
their expertise to the process.
SSC membership and proposed subcommittee authorities (per H.R. 1431)
    We continue to strongly support the SSC as the bastion of 
scientific information guiding Council decisions. We support the use of 
the SSC in establishing the upper bounds for annual catch limits. We 
support clarification of SSC membership which limits such membership to 
those without potential conflict or political agendas--we must ensure 
that the SSC process cannot be politicized. We suggest that the 
definition of ``independent scientist'' be clarified to exclude not 
only those with any financial or employment link to fisheries, but also 
those with any financial or employment link to organizations engaged in 
political lobbying related to fisheries. We agree with granting 
authority for the Councils to pay a stipend to SSC members, but not 
with a mandate to do so. Budget considerations are a factor in this 
regard, and we have been able to assemble and maintain a world class 
SSC without a stipend requirement.
    There is no need for a ``fisheries and marine science'' 
subcommittee to the SSC to establish catch limits or other biologically 
related management measures--these fundamental recommendations should 
be compiled by the entire SSC which represents a diverse range of 
expertise (economists, sociologists, marine mammal and seabird 
scientists, oceanographers, ecologists, biologists and stock assessment 
experts, etc) and is therefore appropriate to make such recommendations 
taking into account all relevant factors. This model has worked 
extremely well in the North Pacific.
    Neither the SSC nor any subcommittee should be given the authority 
to usurp the role of the Council. H.R. 1431 appears to replace a 
Council's authority for major management decisions by granting somewhat 
open-ended authority to the fisheries and marine science subcommittee 
of the SSC. If Councils are restricted to establishing annual catch 
limits within the upper limits recommended by the SSC, as is provided 
in H.R. 5018, that is the appropriate solution, and is the appropriate 
application of SSC and Council authorities.
Required Provisions (per H.R. 1431)
    This section proposes to compel a Council to adopt measures at 
least as stringent as those developed by the fishery and marine science 
subcommittee. It is unclear how broad this authority of the SSC 
subcommittee extends and therefore how broadly this provision could be 
interpreted, though it appears to be somewhat open-ended. This 
provision seems unnecessary, particularly given the problems identified 
with establishment of, and authorities granted to, such an SSC 
subcommittee in the first place.
Peer Review (per H.R. 1431)
    Periodic reviews are already conducted by the Secretary (through 
the Center for Independent Experts for example) and/or by the Councils 
through independently commissioned panels on a case-by-case basis. We 
believe a properly constituted and properly utilized SSC represents an 
appropriate group of qualified independent scientists to review stock 
assessment information and other scientific information brought to bear 
on Council decisions. Minor revisions in the Act, such as those 
contained in H.R. 5018, can ensure that SSCs are properly constituted 
and properly utilized to perform this and other necessary functions.
    Thank you once again for the opportunity to appear before you and 
offer these comments on these critically important issues.
                                 ______
                                 
    The Chairman. Thank you. Thank all the panel for your 
testimony.
    I think, to begin with, Mr. Oliver, it appears from your 
testimony that you believe that the NEPA provisions in H.R. 
5018 don't go far enough. Is that accurate?
    Mr. Oliver. Yes, Mr. Chairman, I believe it is accurate. I 
list a couple of reasons why I don't believe they go far 
enough. I think the intent is obviously there, but as Dr. 
Hogarth indicated, I am not sure it is likely that the 
Secretary would exercise that discretion.
    Further, that he wouldn't be able to do it until we had 
actually done the analysis, and we would have to back and start 
over; and finally, I think it would still be litigatable under 
NEPA under that direction. I think we need a much more clear 
and direct remedy, and that is that if the Magnuson-Stevens Act 
provisions are done properly, with a few additions, would cover 
all the intent of NEPA, but that is the correct approach.
    The Chairman. Now, in the bill we do expand the 
environmental provisions so that they do match up with NEPA. Is 
that what you are talking about?
    Mr. Oliver. Yes, sir, Mr. Chairman.
    The Chairman. I know that we have received testimony saying 
that this somehow waives NEPA in the past, and I think it is 
more of a misunderstanding or not understanding exactly what is 
in the bill in terms of trying to expand the requirements under 
Magnuson so that it does cover all of the different areas that 
are in NEPA.
    If that were adopted as it is written, you still believe 
that lawsuits could be filed under NEPA?
    Mr. Oliver. Mr. Chairman, if I understand your question, I 
think the word ``may'' still allows for litigation under NEPA. 
I think you are correct that--my position on this would be 
different if we didn't have the Magnuson-Stevens Act, but that 
Act, with the provisions that are also included in your bill, 
in my mind completely negates the need for NEPA compliance. I 
think everything is covered under the Magnuson Act, or would be 
under your bill, sir.
    The Chairman. I want to ask, one of the other issues that 
we have gone back and forth on is dealing with sanctuaries, and 
management within those areas. What do you believe is the right 
way to manage the fisheries within those sanctuaries?
    Mr. Oliver. Mr. Chairman, I agree with the comments of Dr. 
McIsaac. I think all the regional councils are in agreement, 
recognizing the authorities of the National Marine Sanctuary 
Act, that regulation of fishing activities within those 
sanctuaries should be under the purview of the council process 
vis-a-vis the Magnuson-Stevens Act.
    The Chairman. Dr. McIsaac, I would like to ask you to 
follow up on that, because the public comment requirements 
under the Sanctuary Act are different than under Magnuson-
Stevens. Can you comment on that?
    Dr. McIsaac. Yes, thank you, Mr. Chairman.
    It is my understanding that they are different and that 
they are not as encompassing under the Sanctuaries Act as they 
are under the Magnuson Act. For example, it is my understanding 
in the sanctuary process that when goals and objectives are 
finally determined for fishing, that that is not done, that 
determination is not done in a public forum.
    The public process that we are used to has a lot of 
thorough grinding that gets done by the scientific bodies and 
the advisory bodies that representing the fishing communities, 
the conservation groups, and the rest, and those are written 
statements that are brought before the council. They are 
distributed in a multi-meeting process where all the affected 
public who may not be at the council meetings get a chance to 
weigh in on the issues.
    So it is my understanding that the process under the 
sanctuaries is not as expansive.
    In terms of your former question of how this might be able 
to work out, I would like to stress that we are intending to be 
respectful of any of the sanctuary ideas that come forward for 
their areas, and we have done so on the West Coast in a couple 
of examples.
    Recently a ban on krill fishing off the coast, the 
sanctuaries came up with an idea to ban krill fishing in the 
sanctuary waters. They brought it to the council process. We 
exposed it widely. The council ended up adopting a ban on krill 
fishing coastwide inside the sanctuaries and outside. This was 
all done under the Magnuson Act, and it worked quite well.
    So I think there are some examples and some evidence that 
the sanctuaries won't be just left out in the cold, and that we 
can and do advocate--we can accomplish and we advocate that the 
sanctuary folks should be allowed to come in and present their 
options, have them analyzed, but when it gets down to the 
actual authority of fishing regulations, we feel like the best 
alternative is that that be focused in one area so the public 
knows where to go, where the expertise is, and that the proper 
outcome can always be subject to a secretarial approval, so if 
the sanctuary folks don't feel like they are getting a fair 
shake in the council system, the Secretary approval mechanism 
is there for that correction.
    The Chairman. Thank you. Mr. Rahall.
    Mr. Rahall. Thank you, Mr. Chairman. Mr. Chairman, I would 
first like to ask unanimous consent to the number of groups' 
testimony will be made a part of today's hearings, including 
the Ocean Conservancy, another testimony by a number of 
organizations, further testimony from the Northwest Atlantic 
Marine Alliance, and then testimony from the Northwest Indian 
Fisheries Commission.
    The Chairman. Without objection.
    [NOTE: The information submitted for the record by Mr. 
Rahall can be found at the end of the hearing.]
    Mr. Rahall. Mr. Crockett, let me ask you a question in 
regard to financial disclosure. Is the financial disclosure 
requirement in H.R. 1431 an impediment to attracting people 
from the public interest to serve on the councils, and the 
scientific and statistical committees? What are you thoughts on 
that?
    Mr. Crockett. We don't think so. The language in the law 
says that it is people who don't derive any of their annual 
income from fishing or employed by somebody who drives annual 
income from fishing, and there are obviously millions of people 
in the United States who fit that category.
    It is our view that the council system would benefit 
greatly by having some additional voices at the table who don't 
have a financial stake in the decisions that are made.
    Mr. Rahall. Let me ask you further, H.R. 1431 and the U.S. 
Commission on Ocean Policy would have the Secretary of Commerce 
instead of the councils appoint members to the scientific and 
statistical committees. How would this change, improve the 
function of the SSCs?
    Mr. Crockett. Currently the science and statistical 
committee members, SSC members are appointed by the council, so 
the objective of that provision is to further insulate them 
from the councils to improve their independence by having the 
Secretary of Commerce do that.
    Mr. Rahall. OK. Thank you, Mr. Chairman. I have no further 
questions.
    The Chairman. Mr. Gilchrest.
    Mr. Gilchrest. Thank you, Mr. Chairman.
    Mr. Oliver, it is my understanding that the North Pacific 
Council currently has no overfished finish. Can you give us 
some idea as to how you are able to accomplish that on a 
longstanding basis, and what provisions do you use that you 
might see that we can understand to be applicable to other 
councils?
    Mr. Oliver. Mr. Chairman, that is correct, and I think to 
try to give you a brief answer to your question, one is, the 
North Pacific system is blessed with abundant stocks. I think, 
second, for three decades the North Pacific Council has relied 
on a couple of things. One is relying exclusively on our 
scientific and statistical committee to make recommendations 
for acceptable biological catch levels, and to set allowable 
catch levels at or below those levels.
    Third, we have layered on top of that a 2 million metric 
ton cap, for example, in our Bering Sea fisheries such that 
regardless of the total of the allowable catches the total 
allowable catch can never exceed 2 million metric tons, so it 
is a further reduction below that.
    I would note that, again, the primary mechanism I believe 
is having very good stock assessment. We have some of the best 
stock assessment in the country coming out of the Alaskan 
Fishery Science Center, and relying heavily on that.
    Mr. Gilchrest. Do you see a counterpart to the science 
center in Alaska? Is there another science center that other 
councils have available to them that is similar to what you 
have up in Alaska?
    Mr. Oliver. I think there are science centers in each of 
the corners of the country. I can't speak in any detail to the 
extent to which their stock assessments are conducted on a 
regular schedule such as ours, or that their stock assessments 
go through the same rigorous review, multi-level review process 
that ours do.
    Mr. Gilchrest. Given the process that you use, the total 
allowable catch cannot exceed ABC, and apparently usually it is 
will under ABC in many circumstances, and this takes into 
consideration, I guess, your full understanding of the 
ecological process that is ongoing in the North Pacific.
    Mr. Oliver. Yes, sir.
    Mr. Gilchrest. And all the variables, and the natural range 
of fluctuation from fishing, from other environmental 
conditions.
    My next question is going to deal with NEPA, which other 
people can ask as well. I share your understanding of the 
redundancy and the duplication and the bureaucratic and the 
litigation nightmare that sometimes NEPA imposes on different 
councils, and we are doing our best to try to understanding 
that and fix that.
    I guess my disagreement with the present bill that we are 
reviewing here today is that, as you have spoken, the Secretary 
may or may not waive NEPA. Would you consider, and I know you 
want to do this as soon as possible, but would you consider a 
year review as to how--because it is not just your council we 
are dealing with, we are dealing with eight councils, we are 
dealing with national policy--would you consider a year review 
of the NEPA process as related to the fishery management plan 
process and see how they can be integrated so that there is 
less unnecessary redundancy, duplication, litigation, 7,000-
page NEPA's documents?
    So would a year review, as Mr. Stevens has in his bill, be 
a consideration?
    Mr. Oliver. Mr. Chairman, I believe that that approach has 
a tremendous amount of potential to improve the process. 
However, based on my experience I don't have a tremendous 
amount of confidence that it will result in an improvement, and 
I think there is a much more direct solution.
    Mr. Gilchrest. Does anybody else want to comment on NEPA? 
Mr. Crockett?
    Mr. Crockett. Mr. Gilchrest, yes, I would like to comment 
on it.
    We will have to take a look at the Chairman's bill again, 
but in our view the Magnuson Act doesn't have comparable 
requirements. And as I articulated in my testimony, and by 
making it the sole decisionmaking tool, there are things you 
are going to lose in the process from cumulative impacts 
analysis through public participation and that sort of thing.
    The other thing that you should think about in this process 
is there is a whole body of case law that has been developed 
over many decades on how to do these sort of things. So all of 
that would be lost, and our view is that you could potentially 
be increasing litigation, at least in the near term, because 
some of this stuff is going to be relitigated.
    The other thing is we hear the horror stories of 7,000-page 
EISes. This Committee had a hearing or maybe it was your 
Subcommittee had a hearing on NEPA, and that is not compliance 
with the NEPA regulations. That is, frankly, bureaucrats that 
are overreacting in doing a data dump and just throwing 
information. They are not doing the analysis that is required 
to do a proper EIS.
    Our view is that there are adequate procedures in the 
regulations right now. We have accepted the legislation that 
the Senate has put forward on this as basically a directive to 
use those existing procedures to harmonize and I think that is 
a good way to go of the Committee decides it has to do 
something on this, but making the Magnuson Act the only review 
procedure is not in our view the way to go.
    The Chairman. I guess I would just, in following up, Mr. 
Crockett, the two specific areas that you outlined that you are 
concerned would be lost are included in the underlying bill, 
and I would encourage you to look at that because they are 
included in the underlying bill.
    Mr. Inslee.
    Mr. Inslee. Thank you.
    I wanted to ask about this issue of conflict of interest on 
the council that has been raised in a variety of the bills, and 
my sort of take on this is that the North Pacific has been 
pretty successful, and my take on this is that this sounds a 
little parochial because I end up hanging around the North 
Pacific, but that some of the things that they had success with 
would be nice if we could replicate it in other places, and on 
the North Pacific, we have people who served who do have a 
financial stake in the industry.
    I just wondered if any of you can comment on that. Mr. 
Crockett, you might be a good person to take a shot at that. We 
seem to have a model in the North Pacific that apparently has 
success, has people who are involved in the industry. Is that 
an anomaly, or can that be replicated if we do other things to 
make sure the science committee is listened to? What are your 
thoughts on that?
    Mr. Crockett. As I testified, our view is that how the 
North Pacific Council handles science, they pay attention to 
their science and statistical committees. They have actually 
adopted procedures in their management plans that require the 
council to follow those recommendations, so from how they 
handle science standpoint we think that is the model and 
certainly the U.S. Commission thought that was the model to 
transfer to the rest of the country.
    As far as the conflict of interest standards go, I would 
say that depending on the issue there is a problem there even 
in the North Pacific, and I will use the crab rationalization 
plan that just got implemented this past year.
    There are many, many fishermen in Alaska who object to that 
plan. There are hundreds, seven or eight hundred people I 
believe who have lost their jobs because of that plan, and 
somehow that was able to pass the council unanimously, and 
Senator Stevens was able to get it adopted through a rider a 
couple of years ago.
    So you know, that raises questions to us, you know, how 
something as unpopular as that was within the crab fishery, I 
would say close to half the crab fisheries didn't like that 
plan, but somehow it was able to pass unanimously.
    So even in a council that is operating as well as the North 
Pacific Council, I think there are still problems with conflict 
of interest.
    Mr. Inslee. Mr. Oliver--go ahead, Dr. McIsaac.
    Dr. McIsaac. Thank you, Mr. Chairman.
    In the Pacific Council, we don't believe that we have a 
problem with conflict of interest. There are 14 votes, six of 
them are government seats, eight of them are appointed seats. 
So if you hear about things like there are decisions being made 
by the council that is overriding the science, or decisions 
that are to the detriment of conservation, or phrases like 
``foxes in the hen house'', that should be able to be proved up 
by going back to council votes and taking a look at it, and see 
if that has ever happened, and in what situations it has 
happened.
    We have had recusals, but in our council we do not see the 
eight industry-appointed votes ganging up on one side and the 
government seats on the other side being stampeded by them. We 
frequently have the unanimous votes. We think it is due to a 
very thorough process, and we do not have any track record of 
decisions being made to the detriment of conservation by 
overriding science or any of these other conflict of interest 
potential concerns. The record just doesn't prove out.
    Mr. Inslee. Ms. Raymond, did you want to say something?
    Ms. Raymond. Yes, thank you, Congressman.
    I think it is imperative that fishing people serve on our 
councils. The fisheries managers are obliged by the law to 
balance all of the national standards which is a very difficult 
thing to do. Those standards include assessing the economic 
impact on fishing communities and fishing families as well as 
the safety implications of any regulations. There is nobody who 
understands those particular standards better than fishing 
families.
    Mr. Inslee. Mr. Oliver, why in the North Pacific has the 
scientific process worked for commissions to, by and large, 
follow the science on this, and from my observation has not 
worked in other places with the same set of laws? Why has there 
been such a different result?
    Mr. Oliver. Mr. Chairman, I guess it is difficult for me to 
speak to why the process hasn't seemed to work as well in other 
areas. I think the Act currently contains the tools to make it 
work. I think with some of the provisions that are included in 
the proposed bill, I think it becomes more compelling upon 
other regions to basically use that approach.
    I guess the council in the North Pacific has for decades 
taken that approach, that approach as a matter of standard 
operating procedure.
    Mr. Inslee. Thank you.
    The Chairman. Mr. Frank.
    Mr. Frank. Thank you, Mr. Chairman. Thank you and the 
Ranking Member for extending me the courtesy of sitting in on 
this. The gentleman from Washington said that he had a 
parochial approach here. I equal him in parochialism to some 
extent. The City of New Bedford, the Town of Fairhaven are very 
important fishing port, but there are obviously broader 
implications.
    I just want to start with that, and on the conflict of 
interest rule, I would say this. I do not think there is an 
occupation in America where the participants in that occupation 
so completely accept the need for very strict regulation. I 
have tried to think and fishing is about as regulated an 
occupation as I can think of. The fishermen in my district are 
more regulated than taxi cabs. I mean, the cab drivers have to 
get a medallion, but once they get a medallion they can work as 
long as they want to.
    The fishermen not only get permission, I mean, and I guess 
there is also--I have been concerned with the notion that 
fishermen aren't that bright, and that they don't understand 
that if they are not severely restrained, they will put 
themselves out of business in about a year and a half.
    I don't know many of the fishermen in my district and the 
fishing families who plan to have this business end in 10 years 
or 15 or 20, and fishing is in the area that I represent, not 
simply an economic activity, although it is an important one, 
and not simply a very important source of protein, and I would 
remind some of our friends here that we are telling people not 
to be so fat. Raising the price of fish is somewhat 
counterproductive to telling people to eat cheap and healthy.
    But this is part of a culture that people want to continue, 
and I do want to stress again, the people who I deal with 
accept and vote for, as was noted on the crab fishery, these 
people regularly vote for restrictions on what they can do.
    Now, there becomes differences about it, no question. Your 
position may affect your differences, but those go both ways.
    I wonder, Mr. Crockett, are you familiar with the 
controversy over scallops and the opening of Georges Bank to 
scallops a few years ago?
    Mr. Crockett. I have some knowledge of that, yes.
    Mr. Frank. Do you remember this was during the 
secretaryship of Secretary Daley, which I remember because he 
had to make a decision. The science seemed to indicate that it 
was possible--this is in the late nineties, I guess--to reopen 
Georges Bank to scallops, and there was very heavy opposition 
from most of the environmental community that deals with 
fishing.
    Do you recall that set of arguments?
    Mr. Crockett. My understanding of the situation was that 
there were large closure areas off of New England for 
groundfish rebuilding, and as a result they banned bottom 
trawling and scallop dredging, and the scallop resource came 
back pretty heavily, and some of your constituents, Dr. 
Rothschild, I believe, went out and did some studies and found 
that.
    Then the council proposed opening it up, and I think the 
conservation community was concerned not so much about the 
harvesting----
    Mr. Frank. Concerned or opposed? Let us use real words 
here. Forget we are in Washington.
    Mr. Crockett. Their problem was----
    Mr. Frank. Were they opposed or concerned? I mean, I am 
concerned about a lot of things, but I am opposed to some.
    Mr. Crockett. All right, they were opposed.
    [Laughter.]
    Mr. Frank. Thank you.
    Mr. Crockett. They were opposed, and the reason they were 
opposed was that these areas were closed to rebuild groundfish, 
and scallop dredges catch groundfish as bycatch, and so that 
was the primary----
    Mr. Frank. But they were reopened. Do you think it was a 
mistake to have reopened them?
    Mr. Crockett. Well, as I understand it, the scallops are 
now NMFS is considering them to overfishing, so----
    Mr. Frank. But do you think it was--yes, but there was a 
long period of, and they might put some restrictions back on, 
but there was a long period where they were catching more 
scallops than they thought there would be. Do you think it was 
a mistake?
    The environmental community said don't do it. Some seemed 
to argue that you could open it to scallops. You had to deal 
with bycatch, and we have had a very successful, several years 
of scallop fishing. Do you think it was a mistake to have 
reopened the Georges Bank to scallops?
    Mr. Crockett. I think some of the promises that were made 
as far as observer coverage to figure out the bycatch of 
groundfish, the bycatch of sea turtles, the habitat damage of 
scalloping and that sort of thing, while they stated off at 
fairly decent levels, the observer coverage is very low now.
    So what has happened is you are looking at this just from a 
scallop standpoint, and scallop dredging has a larger 
environmental impact on other fisheries. Where the scallops are 
found is in an area that is very important to juvenile cod for, 
you know, rearing and growing.
    Mr. Frank. I don't mean to--I thank you for suggesting a 
question I didn't ask.
    Mr. Crockett. OK.
    Mr. Frank. And I am glad to be enlightened about that, but 
do you think it was a mistake now to have reopened Georges Bank 
for scalloping? That is not a tricky question, Mr. Crockett. I 
am a simple man.
    Mr. Crockett. I mean, I guess the issue is that the cod 
stocks haven't rebounded, and those areas were closed to assist 
in the rebounding of cod.
    Mr. Frank. So you think it was a mistake?
    Mr. Crockett. Well, I think the council has not 
effectively----
    Mr. Frank. I am sorry.
    Mr. Crockett.--mortality.
    Mr. Frank. I only have five minutes and I can't wait for 
the answer.
    Mr. Crockett. OK.
    Mr. Frank. I will say this. It does seem to me that 
fielding to science is not always as--a lot of people seem to 
pick the answer and their fielding to science depends on 
whether they got--I think that the overwhelming governance is 
that reopening the scallop fishery makes sense. Not everything 
was done, you say, completely with it, but I thought basically 
a good idea.
    Let me ask you one other question about NEPA because I 
agreed with what the Chairman said. Certainly the intention in 
the bill to cover everything, if you could in fact include all 
of the elements in NEPA in a process in Magnuson, would you be 
in favor of that consolidation or do you philosophically 
believe there has to be a separate NEPA process even if we 
could pick up the elements that you say were left out and make 
sure they were in Magnuson?
    Mr. Crockett. I believe we would be opposed to that 
because----
    Mr. Frank. Thank you.
    Mr. Crockett.--of what I said earlier about the case law 
that would be lost.
    Mr. Frank. I understand. I will be honest with you, I don't 
really believe that your love of case law, I mean, you don't 
look like--you don't look like Oliver Wendell Holmes.
    Mr. Crockett. No, I am a biologist, not a lawyer.
    Mr. Frank. I understand that, and you know, you love case 
law the way maybe the way someone--I mean, nobody really 
thinks, oh, we must preserve this old case when in fact the 
case law is a good reason for rationalizing the process, not 
for perpetuating the cobwebs. And I think this is a very 
important issue here. I think there is kind of a distrust of 
the industry, and frankly, it seems to me, yes, it is important 
to make sure that the Magnuson process that covers everything 
in NEPA, and there is a reason for it.
    We all agree on science. We also know that the science 
moves rapidly here. One of the big problems with the science is 
not that it is inadequate when first done, but that it becomes 
outdated. And to the extent that you put more time into this, 
and you duplicate processes, then the science will inevitably 
be less good.
    I would add to this, and I would close with this, Mr. 
Chairman, and that is this: I repeat, the fishermen I work with 
and represent understand the need for restriction, and 
voluntarily implement more restriction on themselves than most 
people, but in a free society like America no law will be 
widely enforced if it is vehemently opposed by the people on 
whom it is being enforced. You cannot do that in a free 
society, whether it is the tax code or traffic laws.
    If there is not some belief in the legitimacy of the laws, 
there are just not enough resources in a free society to 
enforce it, and some of the things we are talking about in this 
law are in fact to encourage a better degree of compliance 
among the fishing industry because they understand the need for 
regulation and restriction, and they don't understand the need 
for a separate NEPA from Magnuson Act just because there is 
case law if we can in fact repeat it, and they don't understand 
why when opening the scallop thing worked out we should 
interfere with that in the future.
    So that is why I think this is useful, and Mr. Chairman, I 
would again thank you for letting me participate and ask to 
submit testimony from the strategic advisor to the Port of New 
Bedford Business Alliance on this subject.
    The Chairman. Without objection.
    [The information follows:]

         Statement of Gene Soccolich, Strategic Advisor to the 
                 Port of New Bedford Business Alliance

    Having presented testimony to Congressional Committees on issues 
including commercial fisheries on behalf of the Commonwealth's 
political leadership some thirty years ago, it is a privilege to 
present testimony in direct behalf of the commercial fisheries 
interests of Massachusetts.
    Reauthorization of the MSA has been delayed some six years 
seemingly due to very divergent viewpoints of involved parties. 
Although I have found those viewpoints most often quite skewed on the 
issue of appropriate management of the country's marine fisheries, they 
are at least in the right direction, which requires more cohesive 
perspective. Of primary note, only one of the major interested parties 
to the bill has a direct personal stake in its outcome--the commercial 
fishermen. Everyone else gets to go home to an unaffected family.
    The major thrust from NOAA is that the fishing industry needs to 
become more of a business, a correct perspective especially in a global 
economy. The management actions of NOAA, with the authority hence 
responsibility for implementation of the Magnuson-Stevens Act since its 
enactment in 1977, have proven deficient, culminating first in 
promoting overcapitalization, and then constant regulatory changes and 
present day emergency measures in the other direction. No business 
could reasonably operate under such a barrage on constant regulatory 
change. NOAA, however, is comprised of government personnel with little 
direct business experience. Their intentions are good, but perhaps 
require more in-depth knowledge for more proper perspective
    The conservation community of mostly attorneys has fought to 
preserve our fishery resource, yet has failed to equally fight for the 
conservation of the fishing community whose complete offshore 
dependency makes it an integral part of the marine environment. The 
conservationist major thrust has been to expedite resource conservation 
by faster curtailment of the fishing industry, yet without portraying 
any comprehension that the fishermen and their families do not have the 
financial capability to sustain such imposed hardship. Perhaps the 
conservationists believe that admitting to such perspective might 
weaken their case. Such elitist perspective, however, manifests almost 
no appreciation for the dire business consequences of such abrupt 
changes. Their ten-year goal to reach maximum sustainable yield is a 
completely arbitrary number. A truly justifiable timeframe would be one 
generation of fishermen, thirty-five years, or twenty-five since 
passage of the Sustainable Fisheries Act in 1996. The conservationist 
intentions are good, but perhaps also require more comprehensive 
perspective.
    The scientific community has provided the best available baseline 
data which it possesses, and upon which NOAA bases the bulk of its 
regulations. Although much historical data indeed has been amassed, the 
scientists themselves also understand that the world's oceans are an 
extremely complex, dynamic environment. Historical data, in statistical 
format, mostly lends itself only to theoretical scientific conclusions. 
Credible predictions are impossible to make without replete, constantly 
updated, empirical data. Based on best available, albeit old and 
incomplete data, NOAA is charged with making interpolations and 
extrapolations down to the specific minute that a fishing vessel can 
fish. They don't have the tools to make those decisions. One is left 
with the old saying, ``you have lies, damn lies, and statistics.'' They 
have done the industry one favor in recognition of their informational 
shortfall--they have not acted with dispatch for a long time in 
implementing the regulations. However, environmental lobbying pressure 
successfully has pushed them to the wall, and they are forced to play 
hardball, which the House and Senate hopefully will mitigate. Their 
intentions are good, yet again require more in-depth information for 
credible perspective.
    Both House bills under consideration, and the Senate bill, which 
recently passed, strive to at least head in the right direction to 
address some of the shortcomings of these parties to the debate. My 
specific comments are as follows:
     1.  The semantic issue of using the words ``depleted, diminished, 
or overfished'' should take note that the United Nations FAO uses the 
word ``depleted'' based on the knowledge that there are additional 
possible reasons for the shortfall in commercial fisheries. These 
reasons include non-point source pollution, coastal commercial 
development, and even global warming. To negate these other factors 
presumptively would be an environmental injustice and a gross 
deficiency in the formulation of an adaptive ecosystem-based 
management. '
     2.  Mandating ``best available science'' should include ``and 
technology'', authorizing collaboration with the U.S. Depart of Naval 
Research, where most undersea technology development is budgeted, could 
greatly accelerate the process of developing an ecosystem based 
management program.
     3.  1Ecosystem based managers develop very complex models upon 
which to base the effects of perturbations. The process necessitates an 
authoritative working consistency with the Marine Sanctuaries Act to 
complete the models and provide ``best available science information''. 
Consistency with NEPA, however, would not be necessary on a scientific 
basis, and also would only serve to bog down the decision- making 
process not conducive to such a dynamic environment and its demands for 
faster resource management adaptation. The same reasoning should apply 
to the Endangered Species Act.
     4.  The need for an increase in observers to provide updates to 
ecosystem based management should be obvious. Today, federal budgetary 
cuts have caused a shortfall in the number of observers, presently at 
some 5% of fishing vessels. The Ecosystem based Management Working 
Group convened by NOAA in 2004 stipulated that number should be at 
least 20% to make ecosystem based management credible from which to 
make projections for regulatory purposes. The present low percentage of 
observers also strongly indicates the tenuous nature of the baseline 
data from which projections are made today, especially NOAA's emergency 
actions.
     5.  Bycatch-in addition to fishing and gear restrictions, a 
questionable amount of bycatch is still an issue. A pilot program 
should be considered to resolve a few concurrent issues, and whereby 
20% of the vessels would have observers onboard. The vessel owners 
would pay NOAA to employ the observers, yet instead of discarding 
saleable bycatch, would be allowed to sell it in port.. Another method 
for consideration would be for any owner to obtain only a sales receipt 
instead of payment, which could be used as a tax deduction, and the 
bycatch donated to a processing plant at another tax deduction, and tor 
final distribution to the needy. Such process would greatly augment 
baseline data on bycatch, while concurrently serving a more humane 
purpose instead of wasting the resource.
     6.  Given the grossly insufficient, hence equally questionable 
nature of updated scientific data as noted, hard TACs are difficult to 
justify with any large degree of credibility. However, also given the 
world wide nature of the problem of fish depletion, and the generally 
accepted scientific belief that overfishing is at least a major cause, 
should hard TACS be mandated, it should be on a pilot project or trial 
basis first. The Ad Hoc premise would allow for a test market process, 
which by its nature allows for further change. Such process also would 
allow for testing the establishment of IFQs. Permanent ITQs could also 
be instituted during the test period, but only under the auspices of a 
Regional Fishing Association or Cooperative whereby only owners of 
perhaps up to four or five vessels or licenses would be allowed 
membership to preserve the integrity of the industry's character.
     7.  NOAA should conduct training programs within each region on 
forming Cooperatives for fishermen. Today's global economy, especially 
with government subsidized foreign fishing programs today reaching some 
$12.6-15 billion, has proven most difficult for a small boat owner to 
survive without being under the economically protective umbrella of a 
Fishing Cooperative. Such voluntary Coops would administer IFQs from 
within their own bylaws, including provisions for Coop repayment of 
federal loans for vessel buybacks to sustain individual vessel owners 
who decide to leave the industry. Vessel reduction would be promoted, 
and the percentage of available resource would gradually increase for 
those who remain. As the New England Region has a very large latent 
vessel capacity, only active vessels should be allowed join a 
Cooperative. Norway's vessel buyback program reduced its fleet by 25%, 
which reversed depletion of its fish stock.
     8.  A New England aquaculture training program should be 
considered in the House bill, similar to the Specific Western Community 
Development Pilot Program proposed in section 109 of the Senate bill, 
and with a charge toward deep ocean farms as opposed to a state coastal 
orientation. Today, the United States imports some 70% of its seafood, 
half of which is from aquaculture farms, which additionally provides 
some 40% of the world's supply. Of note is that the Senate Commerce 
Committee presently is working on a bill toward a fivefold increase in 
domestic aquaculture farms.
     9.  The U.S. Capital Construction Fund, which was meant to be used 
decades ago to offset Jones Act requirements, today is being used to 
expand fishing capacity by providing huge misallocated tax breaks 
mostly to large vessel owners and which promotes consolidation in an 
unfair manner Such funds should be directed toward vessel buyouts, 
quota purchases or anything that does not increase fishing capacity. 
Analyses requiring further review and possible action should be 
conducted within similar provisions under the Small Business 
Association, Farm Credit System, Economic Development Administration 
and the Fisheries Finance Program.
    10.  Fishermen's Impact assistance within the Magnuson-Stevens Act 
pertained only to natural or uncontrollable human causes. The new bills 
finally include regulatory changes as a possible cause. However, it 
should be noted that Canada's Atlantic Groundfish Strategy (TAGS) 
provided $1.9 billion for east coast Canadian fishermen and processing 
personnel who lost their jobs as a result of the downturn in 
groundfisheries from 1994-98, and it did not work. An additional $750 
million was provided afterward, yet the overall groundfish harvesting 
capacity was not reduced. Although over fourteen thousand people left 
the industry, there still remained a huge latent capacity. Impact 
Assistance needs much further analysis so as to be effective to provide 
for the financial assistance needed while better targeting a balance in 
legal industrial personnel. It also should provide for different yet 
related economic avenues to pursue, including future aquaculture and 
other progressive marine ventures.
    11.  Providing training for new Council members reminds me of the 
saying, ``A little bit of knowledge is a dangerous thing''. I never 
have heard of a newly appointed person to any governing board requiring 
training first. There should otherwise be a screening process that 
mandates that only candidates with broad in-depth knowledge could be 
elected equal to any decision-making capacity.
    12.  Pubic participation needs to be made more efficient when 
making decisions within the fishing industry The industry and resource 
management require more decisive professionalism to work the problems, 
not unsupported guesses or emotional opinions, which only serve to 
convolute both efficiency and effectiveness.
    I wish to thank the Committee for its consideration of these 
comments. Respectfully submitted. Gene Soccolich. New Bedford, 
Massachusetts
                                 ______
                                 
    Mr. Rahall. Mr. Chairman, may I just tell the gentleman 
from Massachusetts that the Massachusetts scallops at the 
Democratic Club are delicious.
    [Laughter.]
    Mr. Frank. I beg your pardon?
    Mr. Rahall. The scallops from Massachusetts at the 
Democratic Club are delicious.
    Mr. Frank. I thank the gentleman very much. Eat more.
    [Laughter.]
    The Chairman. Mr. Gilchrest.
    Mr. Gilchrest. Thank you, Mr. Chairman.
    Oysters at the Republican Club, not that I go that often, 
are pretty good.
    [Laughter.]
    The Chairman. I have actually had the scallops at the 
Democrat Club. They are good.
    [Laugher.]
    Mr. Gilchrest. Just a quick comment, Mr. Frank. Back in the 
middle eighties, we put a five-year moratorium on what we 
called in the Chesapeake Bay and other areas, but I know about 
in the Chesapeake Bay, a five-year moratorium on rockfish, 
striped bass, and as a result of fisheries management plans 
subsequent to that the rockfish are still plentiful in the 
Chesapeake Bay, and I think we would all agree that there are 
ways to reasonably bring people together to understand a public 
resource that is a benefit to the nation, and while there are a 
myriad of differences of opinions on how to achieve that end, I 
don't think there is anyone in this room that would disagree 
with the fact that this is a resource that needs to be 
sustained, it needs to be preserved.
    I want to compliment each of the witnesses at the table 
because I know each of you as individuals works very, very 
hard. No one twisted your arm and said you had to be in your 
particular position. And so you give your ingenuity and your 
intellect and your passion to what you believe is right, and 
you should expect no less than those of us who sit up here on 
the dais to try to create the regulations that you not only 
have to follow but you in fact have to implement.
    So I think all of us want to do our best to sustain this 
resource, and Mrs. Anderson, I just want to tell you that the 
Committee will follow up on the dumping issue, not only with 
who is dumping it, but who is buying it, and we assure you that 
that issue will receive great attention.
    Ms. Anderson. Thank you, Mr. Gilchrest. We appreciate it. 
We need all the help we can find on the Hill here.
    Mr. Gilchrest. Yes, ma'am.
    Ms. Anderson. Thank you.
    Mr. Gilchrest. The question I have for each of you, it 
seems to me if we look at all of these issues, whether it is 
rebuilding, whether it is NEPA, whether it is conflict of 
interest, whether it is using ABC over OY, or whatever the 
issues are, if we can find a way to end overfishing so the 
stock can naturally rebuild itself through the various cycles, 
just about everyone of those other issues, especially the 
rebuilding issue, will go away. Some of the councils have 
achieved to a large extent that threshold.
    So what I would simply ask you is do you think through 
existing regulation within a year or two or three working with 
the scientific community, is it possible for the councils to be 
able to work through a regulation that says we end overfishing 
on a particular stock, we come up with a plan within two years? 
Is that a feasible thing?
    And I do have a daughter that lives in Maine. God bless 
her. It is a beautiful state. So maybe Mrs. Raymond can go 
first.
    Mr. Frank. Excuse me. Would the gentleman yield? What about 
your brother in Massachusetts? Let us not have any partiality 
here.
    Mr. Gilchrest. I have a daughter in Maine, a brother in 
Massachusetts.
    Mr. Frank. I just want equal time.
    Mr. Gilchrest. A brother in New Jersey, a brother in North 
Carolina, a brother in Virginia, and another brother in New 
Jersey. Now, my two children live in Maryland, so if there is 
any--am I losing time on this?
    Mr. Frank. I am glad the gentleman kept some voters at home 
in case he has another primary.
    Mr. Gilchrest. Right.
    [Laughter.]
    Mr. Gilchrest. Ms. Raymond.
    Ms. Raymond. Thank you. It is my understanding that the law 
currently requires a plan to be developed within one year. If 
that is what you are asking, then I think that is not a problem 
for a plan to be developed within a year.
    To actually end overfishing within one year or two years 
could be problematic. That could cause severe economic hardship 
to fishing communities. In New England, in 2004, Amendment 13 
to the groundfish plan established a phased-in reduction in 
fishing morbidity. The longest timeframe for any one of the 
stocks was five years. Other overfishing ended--was scheduled 
to be ended earlier, and still the stocks met the timeline.
    This was a scientifically justifiable plan. It was held up 
in a court or law as meeting the law, and we are hoping that 
plan will actually prove out in the end.
    Mr. Gilchrest. Thank you. Yes, Chris.
    Mr. Oliver. Mr. Chairman, I think the short answer, Mr. 
Gilchrest, to your question is yes; that can happen. But, and I 
would use the example from the North Pacific. As you pointed 
out, we have no overfished stocks. That would not necessarily 
do away with all the other problems, and of course you can 
probably guess, I am alluding to the regulatory streamlining 
problem, and I believe that that would still remain.
    I believe, frankly, that dealing with the unnecessary 
regulatory morass is impeding progress in areas like you 
suggest where we should be spending our efforts.
    Mr. Gilchrest. And when you say the regulatory morass, are 
you talking about NEPA?
    Mr. Oliver. Yes, among others, but particularly that one, 
sir.
    Dr. McIsaac. Thank you, Mr. Chairman, Mr. Gilchrest.
    In the Pacific Council, we have stated many times we do not 
have a problem with ending overfishing in one year or two. That 
has been our practice, and it does come with some pain, but it 
is not a situation that we object to or think there are 
insurmountable problems to, and it does have a lot of benefits. 
so we are just fine with that.
    Mr. Gilchrest. Thank you very much.
    Mr. Crockett.
    Mr. Crockett. Our view is that ending overfishing as soon 
as possible should be the goal. Your bill has a one-year limit 
to end overfishing. That is fine with us, but I think that is 
not the only thing we need to be doing, and the law envisions a 
rebuilding plan to rebuilt stocks as quickly as possible. So 
just ending overfishing is not enough. You are basically 
talking about stopping the decline, and we think that the 
existing law about rebuilding as quickly as possible but not 
more than 10 years, if that is biologically possible, needs to 
remain in the mix.
    Mr. Gilchrest. Yes, ma'am.
    Ms. Anderson. Mr. Gilchrest, what we have that we have to 
deal with down there is that annual specie of shrimp. And they 
try to manage that at the council level as long-life specie 
product. It is not, and we are in a totally different frame to 
have to work, and it has got to be looked at that it is a 
yearly specie, it doesn't apply to a TAC, doesn't go to, you 
know, ITQs, because it is always six months after the closing 
of our season before we are even told what is our production 
that came from the year.
    We could have a bumper crop, we could have a low crop, but 
you are not going to know with that kind of a specie where you 
are going to be, so I really think we should look at shrimp as 
an annual specie really closely, and there has to be some 
guidelines put around it.
    I would like to make one statement that I didn't get the 
chance when they were asking about councils. In the Gulf of 
Mexico, we would like to see some changes there, but it is 
where its appointments come down, out of 17 members all we have 
is three actively commercial fishermen that sits on that 
council, so naturally we get outvoted quite often. But I think 
the Secretary will look real close when he makes those 
appointments that he is balancing, it would help us out 
tremendously. Thank you.
    Mr. Gilchrest. Thank you.
    Mr. Brown. [Presiding.] Thank you, Mr. Gilchrest, and let 
me say thank you to the panel for your time and for your 
information that you furnished to us, and we will now call for 
the next panel.
    I would like to welcome the last panel for the day, and as 
procedure would have it, we would like for you to stand and to 
raise your right hand and repeat after me.
    [Witnesses sworn.]
    Mr. Brown. Thank you very much.
    Joining us on the third panel today is Mr. Rod Moore, 
Executive Director of the West Coast Seafood Processors 
Association; Mr. James A. Donofrio, Executive Director, 
Recreational Fishing Alliance; Mr. Ray Pringle, Florida 
Fishermen's Federation; and Mr. Dave Benton, Executive 
Director, Marine Conservation Alliance.
    Thank you, gentlemen, for coming and being with us today, 
and we will start the testimony from Mr. Moore.

          STATEMENT OF ROD MOORE, EXECUTIVE DIRECTOR, 
           WEST COAST SEAFOOD PROCESSORS ASSOCIATION

    Mr. Moore. Thank you, Mr. Chairman. For the record, my name 
is Rod Moore. I am Executive Director of the West Coast Seafood 
Processors Association. I am also a member of the Pacific 
Fishery Management Council, but none of my testimony today is 
on behalf of the council. This is solely on behalf of our 
membership.
    Mr. Chairman, our members generally support H.R. 5018. We 
note that there are some provisions in Mr. Rahall's bill that 
are similar to provisions in H.R. 5018 in regard to peer 
review, council training, and so forth, although we prefer the 
way H.R. 5018 addresses those.
    We also suggest that there are some minor changes and 
additions to H.R. 5018 which we think would improve the bill, 
which are included in my written statement.
    I want to concentrate mostly on the rebuilding provisions 
in Section 11 of H.R. 5081 because opponents of the bill seem 
to have used these to generate a lot of heat but not very much 
light.
    First of all, in terms of terminology, you know, much has 
been made in the media of changing the term ``overfish'' to 
``diminish''. In one respect, it doesn't matter what you call 
it because the effect is the same. You have a reduced 
population, and you need to take steps to correct the problem. 
Where it does matter is public perception.
    The average member of the public, or the media for that 
matter, hears overfished and assumes that the fishing industry, 
government, managers, scientists are terrible villains in 
allowing fish stocks to decrease. In fact, under current law 
and regulation a fishery can be declared overfished when no 
fishing is occurring. Give you a couple of examples.
    The West Coast fishery failure that was declared in the 
year 2000, to quote the NMFS's press release that declared it, 
``Our scientists determined that the cause of fishery failure 
was undetermined but probably natural cases. We most recently 
had to deal with the Klamath River salmon fishery. The salmon 
returns this year are not going to meet the floor that we have 
established for a healthy salmon population. In fact, we 
couldn't even meet that floor if there was zero fishing.''
    Now, I don't know how you fix the problem when you have had 
five years of drought, a parasite and a river system that had 
so many users subscribe to it that nobody can figure out who is 
going to get how much water. That is not overfishing. But in 
fact the way the regulations read, you know, that stock is 
overfished even if no fishing is occurring.
    So I really think that we ought to call things what they 
are, and concentrate on fixing the problem, not on using 
misleading terminology.
    As far as rebuilding is concerned, the law already provides 
exceptions to the 10-year baseline, and the changes that are 
proposed merely codify existing national standard guidelines. 
For the West Coast, the change is essentially meaningless 
because none of the seven diminished species we have can be 
rebuilt in 10 years. Some don't even start spawning until they 
are eight to 10 years of age. In fact, we did one rebuilding 
analysis on the codshield rockfish that showed that the 
rebuilding time was infinity. You couldn't rebuild it.
    As was noted by another witness, and by Dr. Murawski from 
NMFS last week in New Bedford, the 10-year figure was 
arbitrary. It has nothing to do with what is going on. And let 
us make clear that rebuilding requirements have substantial 
effects. On the West Coast, dealing with the seven diminished 
species out of 82 has resulted in a 53 percent decline in 
commercial landings in the last eight years, and a 40 percent 
decline in X-vessel revenue. That is a lot of money and a lot 
of fish that aren't being caught. That difference in value, by 
the way, is about twice what we spend on groundfish research on 
the West Coast.
    The need for the West Coast is really to change that 
portion of the rebuilding requirements that says you have to 
rebuild in a shorter time as possible. We recently went through 
a court case--went through the Ninth Circuit Court where the 
court was trying to figure out how you balance a shorter time 
as possible with the needs of the communities, and the best the 
court could come up with was, well, OK, we don't mean zero 
fishing, but we still mean it has got to be a short time, but 
we can't tell you how short a time that is going to be.
    So what we are now in the process of doing is looking at 
what the rebuilding timeframe is with zero fishing. Then adding 
on a couple of years and seeing what the impact is going to be 
on all the communities on the West Coast, adding on another 
couple of years, so forth and so on, all the way through. If we 
had some sort of standard that said let us rebuild in as short 
a time as practicable, and balance that with the needs of the 
communities, we would be able to develop a suite of regulations 
that we could regulate ourselves, make sure those stocks are 
rebuilt, and not destroy the West Coast communities.
    We all want to see healthy fish stocks, but they really 
don't mean much if there are no communities left to enjoy them, 
and that is what we need to be concerned about.
    Finally, I want to cover very briefly a couple of other 
West Coast issues that are specific to the West Coast. Mr. 
Gilchrest's bill includes an extension of the current ability 
of the three West Coast states to manage the Dungeness crab 
resources. We would suggest that that same extension be added 
into H.R. 5018, but not the additional reporting requirements 
that are included in that.
    Unfortunately, those reporting requirements cannot be met. 
They call for data that doesn't exist, so you wouldn't have an 
extension and you wouldn't have a management system if we had 
to meet those.
    We also would hope that the Committee would consider 
removing the arbitrary term limit on the tribal seat on the 
West Coast. The tribal seat represents tribal governments. They 
are co-managers with us on fisheries. Other government seats 
are not term limited so the tribal seats shouldn't be either.
    I will now wrap up, Mr. Chairman. Appreciate the time to 
testify, and again, commend Mr. Pombo, Mr. Young, Mr. Frank, 
and others for introducing H.R. 5018. Thank you.
    [The prepared statement of Mr. Moore follows:]

              Statement of Rod Moore, Executive Director, 
               West Coast Seafood Processors Association

    Mr. Chairman, members of the Committee, for the record my name is 
Rod Moore and I serve as Executive Director of the West Coast Seafood 
Processors Association, a non-profit trade association representing 
shore-based seafood processors and associated businesses in California, 
Oregon, and Washington. Our members range in size from two of the 
largest seafood processing companies in the United States to three of 
the smallest, including one owned and operated by two generations of 
women. Collectively, our members process the majority of Pacific 
groundfish, pink shrimp, Dungeness crab, and Pacific whiting landed in 
the three West Coast states, along with substantial amounts of salmon, 
Pacific sardines, albacore tuna, and other species. All of our members 
are privately owned, U.S. citizen companies that in many cases go back 
for several generations. Our members are integral parts of their 
communities and actively participate in the fisheries management 
process at the state and federal level.
    I am also a member of the Pacific Fishery Management Council but my 
testimony reflects solely the views of my members, although we agree 
with many of the comments that will be presented by the Council's 
Executive Director who is also testifying today.
    Before talking about specifics in the bills before the Committee, I 
would like to offer some general comments on the Act and how it has 
evolved. When the Fishery Conservation and Management Act was passed in 
1976, it established a unique cooperative partnership among scientists, 
managers, resource users, and the public through the regional Council 
system. Users gained the benefit of having a voice in decisions that 
affected their lives and livelihoods. At the same time, they assumed 
the responsibility of conserving and managing the fisheries under 
science-based guidelines. Equally important, the Congress recognized 
that there were significant differences in the ecological, economic, 
and social factors that affected fisheries around the country. What 
works in the Gulf of Mexico may not work on the Pacific coast. Thus the 
Act provided for over-arching science-based principles and standards, 
while allowing room for flexibility so that each region could make the 
most practical choices in ensuring that management of our fisheries 
provides a net benefit to the nation. As we consider changes to the 
law, we should make certain that these basic principles--science, 
cooperative partnership, and regional flexibility--are not lost.
    On the whole, we support H.R. 5018 although we suggest some minor 
modifications and additions be made. We also note that some of the same 
general themes in H.R. 1431, such as Council member training, peer 
review, cooperative research, and fishing gear development are 
contained in both bills, though we prefer the way these issues are 
handled in H.R. 5018 because they provide the flexibility that the 
Councils need. Following are our comments on some of the major issues.
NATIONAL ENVIRONMENTAL POLICY ACT (NEPA)
    We have seen numerous comments in the press claiming that section 
10 of H.R. 5018 somehow denies public participation by melding NEPA 
with the Magnuson Stevens Fishery Conservation and Management Act 
(MSFCMA). Nothing could be further from the truth. The MSFCMA provides 
one of the most transparent, exhaustive public participation processes 
that we have ever seen. There are numerous opportunities for public 
comment at all stages of regulatory development. In fact, at our April 
Council meeting, we had nearly 300 witnesses testify before the Council 
on a single agenda item. We also reviewed hundreds of written comments 
on the same issue, along with the reports from local meetings held for 
the benefit of the public that could not afford to travel to the 
Council, and three separate Council committee reports. I fail to see 
how the public was not heard.
    In fact, what NEPA adds to the Council process is more work for 
Council staff and fisheries managers, more paper, more cost, and more 
confusion to the public. The sheer volume of paper that a member of the 
public has to be familiar with has become so large with the addition of 
NEPA documents that we regularly need to bring a second suitcase to 
meetings to avoid overweight luggage charges on airplanes. Advisory 
panel members spend hours of preparatory time trying to wade through 
the documentation; it gets even worse for a fisherman who has to get 
off his boat to go to a Council meeting. Management actions are delayed 
because of time needed by NMFS staff to ensure we are complying with 
NEPA. And if we goof, we are slapped with a lawsuit alleging inadequacy 
of an environmental impact statement. In the past 4 years, our members 
have spent over $100,000 to intervene in such lawsuits, just to protect 
the interests of our industry. Think how much better our fisheries 
would be if all that time, money, and effort were spent on resource 
surveys, stock assessments, and gaining better understanding of our 
fish stocks.
    We believe that the blending of requirements of NEPA and the MSFCMA 
as will be accomplished when H.R. 5018 is enacted represents an 
excellent method of resolving these issues.
NATIONAL MARINE SANCTUARY ACT vs. MSFCMA
    We are unique in the Pacific region in having a significant portion 
of our coastline--and fishing grounds--included in National Marine 
Sanctuaries. Unfortunately, this unique state of affairs has led to 
significant problems with efficient fisheries management.
    The difficulty lies in the fact that the National Marine Sanctuary 
program has its own ideas of how resources should be managed and in 
some instances have been pretty blunt about insisting that we do things 
their way or else things will be done to us. Unlike the very public 
process inherent in the MSFCMA, as noted above, the Sanctuaries have a 
very tightly controlled, bureaucratically top-heavy decision system. 
They also have little to no expertise in fisheries management and the 
effects of regulations on resource users. While the Pacific Council has 
tried to accommodate resource concerns in Sanctuaries--and has done so 
quite well in several instances--there is continued insistence by the 
Sanctuary program that they intend to take charge of everything, even 
though this will require a complete rewrite of the regulations 
establishing the Sanctuaries.
    While section 10(d) of H.R. 5018, in combination with section 
5(h)(1), is a good step in the right direction towards resolving the 
conflicts, we would prefer a more straight-forward approach that makes 
clear that the Councils, not the Sanctuaries, have jurisdiction under 
the MSFCMA process over activities that affect fisheries. Again, the 
MSFCMA provides transparency and easy public input; the National Marine 
Sanctuary Act does not. At the very least, we urge inclusion in section 
5(h)(1) of the phrase ``(including the water column)'' after the word 
``habitat''. One of our most vexing issues at the moment is an effort 
to provide protection for certain areas in the Channel Islands National 
Marine Sanctuary, only to be told by the Administrator of NOAA that we 
cannot because we don't have authority over the water column, just the 
ocean floor. While that change would help us resolve a current issue, 
we still would like a more clear resolution to the larger problem.
REBUILDING AND OVERFISHING
    Without doubt, the issue of how to address rebuilding of a small 
number of species in the context of a multi-species fishery is the 
biggest problem faced by the West Coast in the last 10 years. Our 
Pacific Groundfish Fishery Management Plan covers 82 species, none of 
which are harvested individually. Of those, 7 have been classified as 
``overfished'', primarily due to low productivity as a result of ocean 
conditions. We have reduced catches, terminated at least one fishery, 
instituted total catch limits, required carriage of electronic 
monitoring systems, instituted a trawl vessel buyback program, and 
closed off tens of thousands of square miles of productive fishing 
grounds from Canada to Mexico. We have also dealt with a continuing 
series of lawsuits claiming that we aren't doing enough.
    The results are sobering: in 1997, our non-whiting groundfish 
landed catch totaled 56,209 metric tons with an estimated ex-vessel 
value of $72.7 million; in 2005, those same species' landings totaled 
26,586 metric tons with an estimated ex-vessel value of $43.4 million. 
That is a roughly 53% reduction in landings and a 40% reduction in ex-
vessel revenue in 8 years. That difference in value is also equal to 
about twice what we spend on groundfish research and observer coverage 
on the West Coast every year.
    Let me emphasize that these reductions don't come about because of 
massive declines in stocks. In fact, most of our stocks are healthy and 
all are managed conservatively. Rather, what we are facing is the 
inability to access the 75 species that are in good shape because we 
are trying to prevent harvest of the 7 species that are being rebuilt 
under the provisions of existing law.
    Further, keep in mind that species can't simply be brought above 
the ``overfished'' level; we are required to maintain restrictions 
until species are brought all the way to our maximum sustainable yield 
proxy, which is 40% of calculated virgin spawning biomass. So a species 
like Pacific ocean perch, which most likely was a fringe population off 
the northwest coast and which was severely fished down by foreign 
fleets prior to 1977, may never rebuild and harvest restrictions may be 
in place for generations to come.
    To make matters worse, stock assessments are done using computer 
models that require huge amounts of largely unavailable data. It is no 
coincidence that the 7 species are all in the group known generally as 
``rockfish'', because they live in rocky habitat that is inaccessible 
to standard trawl surveys. In fact, we have not been able to use trawl 
survey data for widow rockfish for years because it is essentially 
meaningless. The result is that these species will in all likelihood 
not be considered rebuilt until their populations have grown so large 
that they are forced out of their natural habitat and can be captured 
by a trawl survey. In the meantime, we will continue to forgo harvest 
of other healthy stocks and increase bycatch and discards.
    Please understand that we are not interested in fishing any species 
to commercial--or real--extinction. But with a multi-species fishery 
such as we have on the West Coast, we need to find some way to balance 
rebuilding with access to healthy stocks that can sustain our coastal 
communities.
    With this in mind, we believe that section 11 of H.R. 5018 goes a 
considerable way towards addressing the problem. We would ask that you 
consider one important addition in light of a recent 9th Circuit Court 
ruling: modify section 304(e)(4)(A)(i) by replacing ``as short a time 
as possible'' with ``as short a time as practicable''.
    Under the ruling in the case of NRDC v. NMFS, the court tried to 
figure out the balance between rebuilding in as short a time as 
possible with meeting the needs of communities. The resulting guidance 
that we have received from NMFS--and for the record, WCSPA was a 
defendant intervener in the case and does not necessarily interpret the 
court direction the same way as NMFS--is that we have to start with 
rebuilding plans that assume zero harvest, calculate the date by which 
a stock will be rebuilt, then gradually allow some harvest in 
consideration of community needs but not stray too far from the zero- 
harvest rebuilding date. Thus in 2007, we again anticipate harvests 
being reduced as we comply with this latest direction, on top of 
everything else that we have done. With a late start to the crab season 
due to weather and restrictions on salmon fishing (also to meet 
rebuilding requirements), fishermen are not going to have much to fall 
back on when the new restrictions come into play in 2007. We need the 
relief that section 11 and the additional change we are suggesting will 
provide.
CATCH LIMITS
    On the West Coast, we have operated under catch limits for many 
years. In the groundfish fishery, we have annual limits that are 
established on the basis of recommendations from our Scientific and 
Statistical Committee and the technical experts of our Groundfish 
Management Team. We also have bi- monthly cumulative limits designed to 
ensure a year-round fishery and avoid early closures. Unless a stock 
has been assessed and known to be healthy, the annual catch limits are 
set below the ABC level. And, they are total catch limits so any 
discards are accounted for in determining total mortality.
    We would, however, oppose rolling over catch limits to the 
following year as has been called for in other bills. For the most 
part, our annual catches from all fisheries are below what is provided 
for. However, because we have extensive recreational fisheries for some 
species, we do not have landing reports to rely on for all harvest. 
Recreational catches are modeled at the beginning of the year and then 
models are reconciled through post-season surveys. The survey 
methodology, while improving, is still not exact and we had a case 
several years ago where recreational effort was far greater than 
anticipated and the resulting post-season survey indicated total 
recreational catch for two species was higher than we thought. Had 
there been a requirement to roll over this assumed catch overage, we 
would have had no commercial or recreational fishery the next year.
    We spend a great deal of time at each Council meeting dealing with 
in-season management adjustments to keep our catch levels within the 
annual framework. In fact, it is often the commercial and recreational 
fishermen who suggest harvest constraints to the Council in order to 
stay within limits. Because we are cautious in setting annual limits we 
are able to accommodate these infrequent miscalculations without doing 
damage to fish stocks.
DATA COLLECTION
    We strongly support the definition of ``confidential information'' 
in H.R. 5018 as we believe it strikes a good balance between the need 
to acquire economic data in support of fisheries management and the 
need to protect proprietary business data which, if revealed, could 
cause problems for small businesses operating in a highly competitive 
industry. We would suggest that you make a conforming amendment in 
section 303(b)(7) of the MSFCMA by replacing ``(other than economic 
data)'' with ``(other than confidential information)''. This would 
ensure that there is no legal conflict in data collection.
    We also agree with provisions ensuring that the Scientific and 
Statistical Committee (SSC) provides on-going scientific advice, with 
cooperative research provisions, with developing guidelines for best 
scientific information, with recreational data collection, and with 
requirements for peer review. Sound science and reliable data are the 
underpinnings of good fisheries management and should be supported.
    We do not agree with paying an additional stipend to SSC members. 
In order to provide the best science, the SSC needs to be somewhat 
independent of the Council. Paying a stipend to SSC members simply 
makes them beholden to the process rather than to the science. The 
Pacific Council has had no problems attracting well-qualified 
individuals to serve on its SSC, even without a stipend.
    We also support the observer funding program in section 9 of H.R. 
5018 but suggest that you include potential funding mechanisms for 
electronic monitoring as well as observers. Canada has been using a 
camera-based monitoring program with a high degree of success. On the 
West Coast, we have introduced a camera observation system on the 
shore-based Pacific whiting fleet, also with success. Camera programs, 
while expensive, can allow enhanced observation of fishing activity and 
discards on a larger percentage of a fishing fleet without having to 
find trained observers to cover the same percentage of activity. 
However, camera systems are not cheap and we hope that electronic 
monitoring devices can be covered under the funding program.
    We also hope that you can resolve the multiple requirements for 
electronic monitoring using vessel monitoring system (VMS) units and 
the Coast Guard's latest requirement for vessels to carry automatic 
identification system (AIS) units. All of the vessels in our groundfish 
fleet on the West Coast now carry, or shortly will carry, VMS units. 
These are required by regulation and paid for by the vessel owner. They 
provide a generally reliable way to determine whether a vessel is 
fishing in areas that have been closed. AIS units have no fishery 
management use and are designed to prevent collisions. However, the 
Coast Guard's own data on fishing vessel casualties shows that the 
number of collisions that would be prevented by AIS is so small as to 
be statistically zero. Further, the anti-terrorism value of AIS units 
is questionable given the way the system operates. We are already 
carrying the financial burden of conservation; anything the committee 
can do to keep from adding to that burden would be appreciated.
COUNCIL OPERATION AND AUTHORITY
    We support the idea of Council member training as envisioned in 
H.R. 5018 and generally in H.R. 1431. We oppose forbidding a Council 
member to vote until he or she has completed training. At the training 
session I attended last year after my appointment to the Pacific 
Council, there were two of us who began dealing with the Council 
process when the instructor was still in elementary school. Councils 
are diverse enough and have enough staggered terms of appointments that 
a voting prohibition is unnecessary.
    We would also suggest that the bill clarify that training is 
required after a member is ``first'' appointed. Since members can serve 
up to three terms, there is not much to be gained by sending them to 
Council training at every re-appointment.
    We support clarifying that the Council has authority to establish 
closed areas and establishing standards to do so, but note that the 
standards only apply if an area is to be closed to ``all fisheries 
managed under this Act.'' There may be times when a Council wants to 
close areas to just certain fisheries, as for example both the Pacific 
Council and North Pacific Council have done with bottom tending gear to 
protect habitat, and it would seem to make sense to apply the same 
scientific rigor to such partial closures.
LIMITED ACCESS PRIVILEGE PROGRAMS
    We support establishing general standards for limited access 
privilege programs (LAPPs) but want to note some particular problems 
with the provisions of section 7 of H.R. 5018.
    First, we suggest a general editing process to ensure that 
references to LAPPs are clear. In several areas, different terms are 
used and it is difficult to determine what exactly is meant.
    Second, we note that communities and regional associations can only 
develop proposed LAPPs if the Council establishes criteria to do so. 
Unfortunately, the workload facing Councils can be so exhaustive that 
no time is allotted for issues that aren't urgent. If communities or 
regional associations have to wait for Council criteria to be 
established, they may be effectively prevented from developing 
reasonable and useful LAPPs.
    Third, one of the prerequisites for establishing LAPPs is that they 
contribute to rebuilding overfished (which should probably read 
``diminished'') fisheries. Since LAPPs have as their basis economic 
efficiency and don't necessarily affect rebuilding times, this 
requirement seems almost impossible to meet; we suggest it be removed.
    Finally, the bill authorizes LAPPs to be held, acquired, or used by 
a limited category of entities. Under current law, if a Council can 
justify allocating harvest privileges only to right-handed fishermen of 
Irish descent under 6 feet in height (an example chosen so I can 
qualify), then it can do so. As written, the bill seems to 
unintentionally remove some of the flexibility that a Council has in 
designing a program appropriate for its fisheries.
SPECIFIC WEST COAST ISSUES
    We would like to call your attention to certain issues specific to 
the West Coast that are not fully addressed in either H.R. 1431 or H.R. 
5018, in the hope that you would add appropriate provisions when the 
Committee takes action.
    First, while we fully support H.R. 5018's provisions on joint 
enforcement agreements, we hope the final bill will make clear that 
state enforcement agents operating under a joint agreement have full 
access to VMS data for use in state court cases. On the West Coast, 
states generally adopt federal regulations for fisheries management, so 
when an enforcement action occurs involving a state officer, the case 
is often prosecuted in state court. Unfortunately, without access to 
VMS data, some of these cases cannot be made. We want to make sure that 
enforcement can be carried out.
    Second, we ask that the Committee extend the existing provision for 
limited state management of Dungeness crab within the exclusive 
economic zone. Such authority has been in place since 1996 and has been 
previously extended. The nature of the crab resource and the crab 
fishery lend themselves to state, rather than federal, management and 
the existing system has been both successful and cost-effective. We 
would not support the additional data reporting requirements 
accompanying extension of state authority as provided for in H.R. 5051 
because the data required simply does not exist, making the entire 
management program moot and forcing a successful multi-state management 
program to be pushed into the federal process.
    Finally, we request that the Committee exempt the designated tribal 
seat on the Pacific Council from the term limit requirements imposed on 
public--but not governmental--Council seats. Tribal governments are 
essentially co-managers of certain fisheries with the states and the 
federal government. The tribal seat was established to ensure a 
cooperative working relationship between treaty tribes with rights to 
fish in their usual and accustomed areas and the Council. The 
arrangement has worked well since its establishment over 10 years ago. 
However, because treaty tribes are essentially government entities, 
they should be treated equitably with other non-federal government 
entities on the Council. We believe that inclusion of the tribal seat 
was inadvertent when Council member term limits were adopted during the 
course of several different re-authorizations of the MSFCMA and urge 
the Committee to correct this mistake.
    Mr. Chairman, that concludes my testimony. I appreciate the 
opportunity to present WCSPA's views and comments on the legislation 
you have introduced. I look forward to continuing working with you and 
your staff as the bill progresses and would be happy to answer 
questions or provide additional information as needed.
                                 ______
                                 
    Mr. Brown. Thank you, Mr. Moore. Thank you for your 
testimony.
    Before we go to the next witness, Mr. Gilchrest would ask 
that we insert in the record his statement, and he had to leave 
and he apologizes for not being able to continue with the 
hearing.
    [The prepared statement of Mr. Gilchrest follows:]

Statement submitted for the record by The Honorable Wayne T. Gilchrest, 
             Chairman, Subcommittee on Fisheries and Oceans

    Thank you, Mr. Chairman, for your leadership and interest in our 
nation's ocean fisheries and the reauthorization of the Magnuson-
Stevens Fishery Conservation and Management Act. As you know, this has 
been a long, thoughtful, and sometimes contentious process, which began 
during the 107th Congress, when it culminated in a bill being reported 
out of this Committee. There were many diverging views on the proposed 
reauthorization legislation at that time, and then, as now, we were 
fortunate to have a chairman who was capable of successfully leading 
and managing those views so the committee could report out a viable and 
progressive product for House Floor consideration. I want commend both 
you and Ranking Member Nick Rahall for putting forward proposals to 
reauthorize or amend the Magnuson-Stevens Fishery Conservation and 
Management Act, and both bills contribute a great deal to this 
discussion. It is my hope that all proposed Magnuson-Stevens 
legislation before the Resources Committee in the 109th would also 
receive a fair hearing.
    Senators Stevens and Inouye have crafted an elegant compromise on 
many of the most contentious Magnuson-Stevens issues. I believe we all 
recognize that and want to preserve the momentum this bill has earned 
through its thoughtful and collegiate drafting, so that a great 
fisheries management bill can be signed into law by the President this 
year. As the Committee has worked to produce a House reauthorization 
bill, you and I have met on a number of occasions over the past few 
months to discuss our views on Magnuson-Stevens reauthorization, and we 
know that we agree on many issues and that we differ on a few. Your 
consideration of these differences is certainly the kind of 
inclusiveness I would expect from our Committee chairman. From the 
august list of witnesses before us today, I can see that we are here 
today to continue that inclusive process.
    Because H.R. 5051 has not been included in Committee hearings on 
Magnuson-Stevens reauthorization to date, I would like to briefly 
describe it to the Committee and to you. I introduced H.R. 5051 on 
March 30, 2006, and am pleased to report that it now has a strong, 
bipartisan group of cosponsors. It takes much of its text from Senator 
Stevens' and Inouye's bill, but is focused on fisheries conservation, 
including ecosystem-based management, catch limits, and regional 
management of fisheries. There are many other facets to fisheries 
management--and I know you have worked extensively with many 
stakeholders to explore them in order to capture their perspectives in 
H.R. 5018. The changes made to the Senate bill in H.R. 5051 have a more 
narrow focus, but I believe it contributes vitally important fisheries 
conservation concepts for this debate.
    First, I want to commend the Regional Fishery Management Councils 
for the excellent work they do. It is difficult and complex, 
controversial and really consequential--the health of one of nation's 
greatest natural resources lies in their hands, and they are 
responsible for crafting policy that directly affects our fishermen. As 
the public has become more interested in and informed about fisheries, 
the Councils have begun to broaden their membership and have expanded 
their efforts, with limited resources, to encompass an expanding range 
of issues. The truth is, we are managing fisheries for fishermen and 
for the public, and fisheries have both direct and indirect, or 
``existence'' economic value to our constituents. Different 
constituencies have sometimes conflicting expectations for fishery 
resources and their use. Rep. Rahall, in crafting H.R. 1431, has 
pioneered a policy discussion about our Councils and how they could 
evolve to meet this challenge. I am carefully studying this issue, 
including perceived and actual conflict of interest, Council 
configuration, and Council member training, and look forward to hearing 
testimony and dialogue about these issues today. This policy is 
evolving, and I would be pleased to work with Rep. Rahall on it as we 
move toward the House Floor with Magnuson reauthorization.
    H.R. 5051 currently would require the Governors of each state to 
put forth a slate of candidates for each appointed vacancy on a 
Regional Fishery Management Council that includes two candidates from 
the commercial fishing sector, two from the recreational fishing 
sector, and two from the general public larger public. Because our 
fisheries are a public trust, it is essential that all points of view 
are voiced and considered when deciding how the capital in such a trust 
is utilized. It also requires NOAA to develop a training program for 
newly appointed Council members, which may be available to existing 
Council members and the public. It requires Councils to develop Science 
and Statistical Committees (SSCs), requires NOAA and the Councils to 
develop a peer review process for science used to make fishery 
management decisions, and requires NOAA to pay Science and Statistical 
Committee members a stipend. It also requires representatives of the 
SSCs to be present at all Council meetings.
    Second, H.R. 5051 includes language, similar to that proposed by 
the Administration and supported by the Joint Ocean Commission 
Initiative, requiring NOAA to draft guidelines to integrate ecosystem 
principles into fisheries management and to authorize the Regional 
Fishery Management Councils to draft Fishery Ecosystem Plans. While 
many uncertainties remain about how to manage fisheries or other living 
resources on the ecosystem scale, our scientific understanding about 
the inter-relationships among fish species has greatly increased over 
the past decade. In fact, the Communication Partnership for Science and 
the Sea sponsored a scientific consensus statement on ocean ecosystem-
based management signed by over 200 scientists, and emphasizing that 
this approach is necessary to ensure the continued flow of natural 
resources from the sea. This information can be applied, and must be 
applied, to fisheries management.
    Third, H.R. 5051 also would require overfishing to end by a date 
certain--within one year of the completion of a Council plan to rebuild 
an overfished stock. Our oceans are resilient, but not infinitely so. 
Currently, 20 percent of our nation's fish stocks are considered 
overfished or depleted. And these are the fisheries that we know 
about--there are an additional 55 fish stocks with unknown status. By 
quickly ending overfishing, stocks will rebuild, and the rebuilding 
time frame becomes less important. By quickly ending overfishing, we 
will reverse the loss of large, predatory fish in our oceans and the 
trend of fisheries toward harvesting species further and further down 
in food chain because these more valuable, large, predatory fish are 
disappearing. We can then be sure that there will be fish to support 
both coastal and fishing communities and the growing worldwide demand 
for seafood.
    To prevent overfishing, we must set the annual catch limits that 
are grounded in science. I commend the Chairman for including in his 
bill such provisions that require catch limits to be set and adhered to 
by each Regional Fishery Management Council's Science and Statistical 
Committee. However, we must devise a system where there is 
accountability if such limits are surpassed. H.R. 5051 requires that if 
catch limits are exceeded in one year, that overage must be deducted 
from the next year's allotment of fish. This language is from the 
introduced version of S. 2012, which I understand is being adjusted to 
accommodate certain regional concerns expressed in the Senate. I look 
forward to reviewing the final product of negotiations in the Senate, 
and to discussion about it at today's hearing.
    Finally, I believe challenges faced by the Councils in reconciling 
the Fishery Management Plan process in Magnuson to the National 
Environmental Policy Act (NEPA) are immense. NEPA is the means by which 
the public can monitor federal activities that have an impact on the 
environment, and as such, it is a critical conservation policy tool. It 
is far from perfect, as the Chairman knows, and he has made a 
particular study of its imperfections. Until we work out a more perfect 
instrument to serve its purposes, I believe it must not be abandoned. 
H.R. 5051 adopts Senate language requires the White House Council on 
Environmental Quality and NOAA to generate an alternative process for 
Fishery Management Plans.
    Again, I would like to thank the Chairman for holding this hearing. 
Our oceans have much to lose if we do not ensure that they are 
adequately protected, and I am confident that testimony we are about to 
hear will help us shape strong legislation to conserve our living ocean 
resources.
                                 ______
                                 
    Mr. Brown. Mr. Donofrio.

      STATEMENT OF JAMES A. DONOFRIO, EXECUTIVE DIRECTOR, 
                 RECREATIONAL FISHING ALLIANCE

    Mr. Donofrio. Thank you, Mr. Chairman, and Members of the 
Committee.
    My name is Jim Donofrio. I am Executive Director of the 
Recreational Fishing Alliance. The RFA is a national 501(c)(4) 
nonprofit grassroots political organization whose mission is to 
safeguard the rights of saltwater anglers, protect marine, boat 
and tackle industry jobs, and ensure the long-term 
sustainability of our nation's marine fisheries.
    I appreciate this opportunity to appear before you today to 
comment one on H.R. 5018, and H.R. 1431. Mr. Chairman, the RFA 
supports your bill and looks forward to continuing to work with 
you, members of the Committee and your staff to make 
improvements to it. The RFA is also pleased with the process 
your staff has used to receive input from affected stakeholders 
such as our organization.
    H.R. 5018 proposes a new recreational data collection 
system. The RFA appreciates the Chairman's acknowledgment that 
the current system is broken, a view that is also held by the 
National Research Council. However, we are concerned that H.R. 
5018 will push states that do not currently have recreational 
saltwater fishing licenses and may not want them to implement 
new license programs.
    In states where there is currently a license, the results 
of the associated data collection system had been buried at 
best. We suggest that the Committee consider language included 
in the Senate bill as introduced. It would create a registry 
program for recreational fishermen and would require the 
Secretary to make improvements to the marine recreational 
fishery statistical survey.
    The April 2006 NRC report found that the design, sampling 
strategies, and collection methods for recreational fishing do 
not provide adequate data for management and policy decisions. 
Furthermore, the NRC findings indicate that reliance on fishing 
licenses is not a means of improving the current flawed system.
    Data collection improvements outlined in Section 201 of the 
Senate bill as introduced are consistent with recommendations 
presented in the NRC report, and we respectfully request that 
they be included in the House version.
    Improving the Federal government's ability to collect data 
is an important goal and one that we support enthusiastically. 
However, we do not believe that individual anglers and boat 
owners should bear the cost of correcting a fatally flawed 
system created by NOAA. Consequently, we urge this Committee to 
include language as the Senate did when it introduced its bill. 
That would prohibit any new fees on anglers and boat owners 
associated with the recreational registry.
    If Congress were to remain silent on this angler fee, it is 
clear the Administration would implement one similar to the 
proposed in the Administration bill. If Congress were to allow 
this to happen, it would amount to nothing less than an unfair, 
unnecessary, and new tax on anglers and boat owners.
    H.R. 5018 provides in limited cases needed flexibility in 
the existing timeframes to rebuild fisheries. RFA supports this 
proposal and believes that its use would be the exception and 
not the norm. These provisions will provide fisheries managers 
with an additional capability to tailor specific solutions to 
complex challenges related to particular fish stocks.
    Other legislative proposals require the establishment of a 
hard TAC and immediate payback for any overage. There may be a 
perception among some that the recreational fishing sector is 
not currently required to pay back overages. This is 
inaccurate. If the recreational sector exceeds a specified 
annual catch limits, councils and/or the Secretary already 
require a pay back by reducing the future catch limits, 
shortening the length of seasons, increasing minimum size, and 
reducing bag limits or all the above.
    In the instance of summer flounder, the stock has been 
successfully rebuilt to levels of abundance not recorded since 
the 1960s. However, if the hard TAC and payback provisions were 
imposed on top of the current law requirements, it would likely 
result in an immediate and long-term closure of summer 
flounder, one of the largest recreational fisheries on the east 
coast.
    I will briefly say that the RFA supports the provisions on 
science-based catch limits, streamlining NEPA, and managing 
fisheries in the national sanctuaries. The RFA is concerned 
with the application of the Limited Access Privilege Program 
and IFQs to the recreational fishing sector. The RFA also 
believes that Congress should recognize the nine million 
anglers, the 350,000 jobs and the $30 billion we generate as 
part of the fishing community as defined in this Act. The RFA 
encourages the Committee to consider our views on all these 
important issues.
    Regarding H.R. 1431, Mr. Rahall's bill, there are several 
proposals included in H.R. 1431 that would move the 
decisionmaking process in the right direction. RFA is 
supportive of the training requirements for new council members 
contained in the bill. However, RFA believes that the criteria 
for the nomination of council members should not be changed.
    This bill attempts to provide additional opportunity for 
members of the conservation community to be appointed to 
regional councils. There is nothing in the current law which 
prevents members of the conservation community from being 
nominated by Governors or appointed by the Secretary.
    Finally, the RFA believes that the provisions related to 
the cooperative research and peer review are proposals with 
merit and should be considered thoroughly by the Committee as 
the legislation move forward.
    Mr. Chairman, thanks again. I would be happy to answer any 
questions.
    [The prepared statement of Mr. Donofrio follows:]

          Statement of James A. Donofrio, Executive Director, 
                     Recreational Fishing Alliance

    Mr. Chairman and Members of the Committee, I am Jim Donofrio, the 
Executive Director of the Recreational Fishing Alliance (RFA). The RFA 
is a national 501(c)(4) non-profit grassroots political action 
organization whose mission is to safeguard the rights of salt water 
anglers, protect marine, boat, and tackle industry jobs, and ensure the 
long-term sustainability of our nation's marine fisheries.
    I appreciate the opportunity to appear before you today to discuss 
the reauthorization of the Magnuson-Stevens Fishery Conservation and 
Management Act. In particular, I will discuss two bills: H.R. 5018, the 
American Fisheries Management and Marine-Life Enhancement Act and H.R. 
1431, the Fisheries Science and Management Enhancement Act of 2005.
    The RFA commends you, Mr. Chairman, and the other members of this 
Committee who have been actively involved in this debate. The changes 
that the Committee and the Congress will make to the Magnuson-Stevens 
Act will have a profound impact on angler access and the jobs and 
economic future of our industry. From the individual saltwater angler 
to the many small businesses that comprise the marine, boat, and tackle 
industry, our members are optimistic that Congress will take the right 
steps to improve the way our fisheries are managed.
H.R. 5018
    Mr. Chairman, the RFA supports your bill and looks forward to 
continuing to work with you, Members of the Committee, and your staff 
to make improvements to it. The RFA is also pleased with the process 
your staff has used to receive input from affected stakeholders, such 
as our organization.
Recreational Data Collection
    H.R. 5018 proposes a new recreational data collection system. The 
RFA appreciates the Chairman's acknowledgment that the current 
recreational data collection system is broken--a view that is also held 
by the National Research Council. However, we are concerned that H.R. 
5018 will push states that do not currently have saltwater licenses--
and may not want them--to implement new license programs. In states 
where there is currently a saltwater license the results of the 
associated data collection system have been varied at best. We suggest 
that the Committee consider language that was included in sec. 201 of 
the Senate bill, as introduced. It would create a registry program for 
recreational fishermen in each of the eight fishery management regions. 
It would also require the Secretary to improve the quality and accuracy 
of information generated by the Marine Recreational Fishery Statistics 
Survey by including: (a) an adequate number of dockside interviews to 
accurately estimate recreational catch and effort; (b) use of surveys 
that target anglers registered or licensed at the State or Federal 
level to collect participation and effort data; (c) collection and 
analysis of vessel trip report data from charter fishing vessels; and 
(d) development of a weather corrective factor that can be applied to 
recreational catch and effort estimates. The April 2006 National 
Research Council report (Review of Recreational Fisheries Survey 
Methods) found that the design, sampling strategies, and collection 
methods for recreational fishing do not provide adequate data for 
management and policy decisions. Furthermore, their findings indicate 
that reliance on fishing licenses is not a means of improving the 
currently flawed system. Data collection improvements outlined in sec 
201 of the Senate bill, as introduced, are consistent with 
recommendations presented in the NRC report to improve recreational 
data accuracy and should likewise be included in the House version.
    Improving the Federal government's ability to collect data is an 
important goal and one that we support enthusiastically. However, we do 
not believe that individual anglers and boat owners should bear the 
cost of correcting a system the Federal government broke. Consequently, 
we urge this Committee to include language--as the Senate did when it 
introduced its bill--that would prohibit any new fees on anglers and 
boat owners associated with the recreational registry. If Congress were 
to remain silent on an angler fee, it is clear that the Administration 
would implement one similar to what is proposed in the Administration's 
own bill. If Congress were to allow this to happen, it would amount to 
nothing less than an unfair, unnecessary, and new tax on anglers and 
boat owners.
Rebuilding Fisheries
    H.R. 5018 provides, in limited cases, needed flexibility in the 
existing timeframes to rebuild fisheries. RFA supports this proposal 
and believes that its use would be the exception and not the norm for 
the Secretary. The rebuilding requirements in current law were written 
over 10 years ago. As with other provisions, RFA believes that minor 
adjustments are necessary and appropriate. In this case, injecting a 
modest amount of flexibility into the rebuilding requirements will 
provide fisheries managers with an additional capability to tailor 
specific solutions to complex and different challenges related to the 
nature and circumstances of particular fish stocks.
    Other legislative proposals have included language to require the 
establishment of a ``hard'' total allowable catch (TAC) and an 
immediate ``pay-back'' for any overage. There may be a perception among 
some that the recreational fishing sector is not currently required to 
``pay-back'' overages. This is inaccurate. If the recreational sector 
exceeds a specified annual catch limit, Councils and/or the Secretary 
already require ``pay-back'' by reducing the future catch limits, 
shortening the length of seasons, increasing minimum size limits, and 
reducing bag limits. Under current law, fishery managers have a minimal 
ability to prevent this ``pay-back'' from resulting in a total and 
immediate shut-down of entire fisheries. The proposed language in the 
Senate bill and others eliminates such capability and would result in 
immediate and long-term fisheries closures.
    In the instance of summer flounder, the stock has been successfully 
rebuilt to levels of abundance not recorded since the 1960's. However, 
managers are forced to implement more restrictive measures upon the 
recreational sector due to the inflexibility in current law. If the 
hard TAC and ``pay-back'' provisions were imposed on top of the current 
requirements, it would likely result in an immediate and long-term 
closure of summer flounder--one of the largest recreational fisheries 
on the East Coast. We believe that Congress can and needs to inject 
flexibility into the current law in a manner which will prevent 
immediate closures of fisheries without compromising conservation 
results.
Science-Based Catch Limits
    H.R. 5018 requires each regional Fishery Management Council to set 
annual catch limits at or below the acceptable biological catch level 
as recommended by the Council's Science and Statistical Committee 
(SSC). It also requires the SSC to make such recommendations based on 
sound science. The RFA believes that this is an appropriate framework 
for councils to set annual catch limits.
Streamlining NEPA
    H.R. 5018 also proposes important changes to streamline a 
burdensome regulatory process. Currently, regional councils, the 
National Marine Fisheries Service, NOAA, the Department of Commerce, 
the Office and Management and Budget and other Federal agencies are 
required to wade through a morass of time-consuming regulatory 
requirements to amend an existing or adopt a new fishery management 
plan. H.R. 5018 requires regional councils to meet two new requirements 
under the Magnuson-Stevens Act similar to requirements under the 
National Environmental Policy Act (NEPA). It also provides 
discretionary authority to the Secretary of Commerce to consider such 
requirements as meeting the NEPA requirements. RFA believes these 
provisions will reduce current time-consuming and overlapping 
regulatory steps while at the same time ensuring that conservation 
requirements under NEPA and the Magnuson-Stevens Act are properly 
considered.
Managing Fisheries in a National Marine Sanctuary
    H.R. 5018 restores the balance between two conservation laws--the 
Magnuson-Stevens Act and the National Marine Sanctuaries Act. H.R. 5018 
requires the Secretary to review any regulation proposed under the 
National Marine Sanctuaries Act which would regulate fishing in a 
sanctuary. Such a regulation could not take effect unless the Secretary 
certifies that the proposed regulation meets the criteria of and is 
consistent with the Magnuson-Stevens Act. RFA believes this proposal 
will reduce historical tension between fisheries managers and sanctuary 
managers and promote better decisions with regard to fishing 
regulations in national marine sanctuaries.
Limited Access Privilege Programs
    Like other legislative proposals to reauthorize the Magnuson-
Stevens Act, H.R. 5018 proposes a limited access privilege program. It 
is clear from H.R. 5018, the Senate bill, the Administration bill, and 
prior Administration testimony, that these proposals are designed 
primarily to address challenges in managing certain commercial 
fisheries. For instance, past Administration testimony in support of 
limited access privilege programs focuses on ending the ``race-to-
fish'', decreased harvesting costs, increased product quality, and 
increased profits. RFA believes that all of these are laudable goals 
and limited access privilege programs should be available tools to 
manage commercial fisheries. However, the recreational industry does 
not suffer from ``races-to-fish'' and has never needed to contemplate 
reducing harvest costs nor increased product quality because these 
issues do not exist in the management of recreational fisheries. 
Therefore, RFA recommends that the limited access privilege programs be 
confined to the management of commercial fisheries and that any 
allocation associated with such a program be made only after the 
initial commercial/recreational allocation is established.
    Before I turn to H.R. 1431, I would like to address one issue which 
is not included in H.R. 5018. The RFA believes that the definition of 
``fishing community'' should be revised to include the recreational 
fishing industry. Nine million anglers generate a recreational fishing 
industry which supports 350,000 jobs and drives a $30 billion industry. 
The RFA believes that Congress should recognize our industry as part of 
the ``fishing community'' for the purposes of this Act and that it 
should be properly considered as such in the federal regulatory 
decision-making process.
H.R. 1431
    RFA appreciates the goals of improving the fishery management 
decision-making process embodied in H.R. 1431. There are several 
proposals included in H.R. 1431 that would move the decision-making 
process in the right direction. For instance, RFA is supportive of the 
training requirements for new council members contained in the bill. 
However, the RFA believes that the criteria for the nomination of 
council members should not be changed. H.R. 1431 attempts to provide 
additional opportunity for members of the conservation community to be 
appointed to regional councils. There is nothing in the current law 
which prevents members of the conservation community from being 
nominated by governors or appointed by the Secretary. Finally, the RFA 
believes that the provisions related to cooperative research and peer 
review are proposals with merit and should be considered thoroughly by 
the Committee as the legislation moves forward.
                                 ______
                                 
    Mr. Brown. OK, thank you very much.
    Mr. Pringle.

                   STATEMENT OF RAY PRINGLE, 
                 FLORIDA FISHERMEN'S FEDERATION

    Mr. Pringle. Good morning, Mr. Chair, and Members of the 
Committee.
    My name is Ray Pringle, and I am President of the Florida 
Fishermen's Federation. Thank you for providing me with an 
opportunity to present testimony on H.R. 5018 and H.R. 1431 and 
other issues related to the reauthorization of the Magnuson-
Stevens Act.
    I am from the historic fishing village of Cortez located at 
the north end of Sarasota Bay in Florida. I have been a 
fisherman for over 40 years. My granddaddy and my dad were 
fishermen. As you can see, fishing is not just an occupation 
for me, it is a family tradition.
    For over 150 years, mom and pop fishermen were the backbone 
of Cortez, but times have changed, and commercial fishing is no 
longer characterized by historical villages like the one I grew 
up in. Our culture of small boat fishing communities and way of 
life is dying off while fisheries council ignore good science, 
then instead go with history of short-term fishermen and 
catching most of the fish in these gigantic corporate boats.
    For fishermen like me, fishing is generational, and there 
is a huge vested interest in protecting fish populations for 
generations to come. Basing management decision on good science 
is the key to achieving successful management of our fisheries. 
Mom and pop fishermen know and understand that following good 
science is the best way, the only way to protect fish stocks.
    But I have seen time and time again politics and anecdotal 
science weighing heavily on management decisions, and they 
usually win. I am not here to point fingers or lay blame, but 
it is time that we made a serious move toward reforming our 
management system, not business as usual or what my granddaddy 
used to call ``just going through the commotions.''
    Congress has a real chance this year to reauthorize the 
MSA, and it is imperative that they get it right. 
Unfortunately, H.R. 5018 contains some provisions which really 
concern me and I fear that if this bill without some tweaking 
will not fairly protect the fish, the mom and pop fisheries, or 
historic fishing villages.
    It is crucial that the council set annual catch limits at 
the levels based on the science, and this bill does include a 
provision to ensure this, and I thank you for it. I firmly 
believe that setting a limit and providing an accountability 
measure for defining the limit are an essential part of ending 
overfishing.
    I am concerned with the IFQ programs that could be 
established under this bill. Without consolidation limits, 
these IFQ programs could lead to big corporate interest putting 
the mom and pop businesses like me out of business. I would 
entreat Congress to make sure that standards are in place that 
will result in fair allocation of a quota, prevent too much 
consolidation, and protect the voice of crew and small mom and 
pop boat fishermen. To exclude small boat fishermen from a 
fishery would not only cause the further collapse of historic 
fishing communities, but would also be a loss for conservation 
efforts.
    As I have said before, mom and pop fishermen truly believe 
in the long-term sustainability of fish stocks, and therefore 
have been and will continue to be stewards, good stewards of 
the resource. The reauthorization of the Magnuson-Stevens 
should strengthen current law and make progress toward fixing 
our on-the-fritz management system.
    H.R. 1431 is not a comprehensive MSA reauthorization bill, 
but it does address the important issue of reforming the 
councils. The councils play a central role in the management of 
our nation's fisheries, and it is time to spruce them up. This 
bill strengthens the role of science in the fishery management 
process and requires the councils to base their catch limits on 
good science.
    The oceans are vast and the more we know about them the 
better we will be at managing fisheries. Cooperative research 
is a great way to involve the fishermen in research and 
maintain a viable fishing fleet. I highly recommend this.
    In conclusion, I am here today to ask Congress to take 
action and I urge this Committee to make the necessary changes 
to strengthen H.R. 5018. Making the needed changes will result 
in a bill that advances the use of science in the management 
process. The MSA reauthorization bill that incorporates these 
provisions would make significant progress toward protecting 
the mom and pop fishermen, revitalizing our disseminated 
historic fishing villages, and improve our ability to 
effectively manage our nation's fisheries.
    As a lifelong fisherman, with a family history of fishing, 
and hopefully a future, I have a deeply vested interest in the 
sustainable management of our fisheries. Thank you for inviting 
me to testify before this Committee, and I would be happy to 
answer any questions that you may have.
    [The prepared statement of Mr. Pringle follows:]

                 Statement of Ray Pringle, President, 
                     Florida Fisherman's Federation

    Good morning, Mr. Chair and Members of the Committee. My name is 
Ray Pringle and I am a lifelong fisherman and President of the Florida 
Fisherman's Federation. My love of fishing inspired me to found the 
Florida Fishermen's Federation, an organization that represent mom and 
pop fishers and serves not only as a lobbying and support group for 
fishermen, but also as a community service organization. We have 
provided fish and grits meals to the victims of several different 
disasters along with tractor trailers full of ice. We have also been 
instrumental in helping the Boy Scouts fund fish fries, church building 
fund fish fries, and helping elect many of our political leaders, 
including our President and his brother with fish fries. Thank you for 
providing me with an opportunity to present testimony on the ``American 
Fisheries Management and Marine Life Enhancement Act,'' H.R. 5018, the 
``Fisheries Science and Management Enhancement Act of 2005,'' H.R. 
1431, and other issues related to the reauthorization of the Magnuson-
Stevens Fisheries Conservation and Management Act. Reauthorization of 
this Act comes at a critical time.
    I am from the National historic fishing village of Cortez, located 
at the north end of Sarasota Bay in Florida. I have been a fisherman 
for over 45 years, and my Grandad, Dad were fishermen and my brother is 
a fisherman; as you can see fishing is not just an occupation for me, 
it's a family tradition. Since the late 1700's small boat family 
fishermen were the backbone of Cortez, but times have changed, and 
commercial fishing is no longer characterized by villages like the one 
I grew up in. Our culture of small boat fishing communities is 
dwindling as we see our oceans' resources decline, and the current 
management system continually ignore the science in favor of protecting 
the financial interest of faceless big boat fishermen who for the most 
part have no long history of fishing and who don't care much about a 
future. The most important concern of big boat fishermen lies in the 
immediate economic gain, and far too often economic concerns outweigh 
the conservation of fish. For fishermen like me, fishing is 
generational and there is a huge vested interest in protecting fish 
populations for generations to come, but this is not possible if we 
continue to poorly manage our fisheries.
    The regional councils were established when the Magnuson Act was 
originally enacted in 1976. The challenges facing our fisheries were 
much different then. The government was concerned with phasing out 
foreign fishing and promoting the U.S. industry. But the decades of 
intense fishing pressures in our Federal waters, have resulted in the 
decline and even collapse of many fisheries because of the Gold Rush 
mind set of the big boats. The big boat attitude is like the saying I 
saw on a bumper sticker, ``Kill'm all and let God sort them out.'' 
Basing management decision on science, good science, is the key to 
achieving successful management of our fisheries. Mom and pop fishermen 
know and understand that following good science is the best way, the 
only way, to protect fish stocks, but I have seen it time and time 
again; politics and anecdotal science weighing heavily on management 
decisions and usually winning. You would think we would have learned 
our lesson by now, yet we continue to make poor decisions and disregard 
the science, and therefore we continue to have declining and overfished 
fisheries. I am not here to point fingers or lay blame, but it is time 
that we made a serious move towards reforming our management system so 
that we can once again have healthy fisheries and viable fishing 
fleets.
H.R. 5018
    Congress has a real chance this year to reauthorize the Magnuson-
Stevens Act for the first time in 10 years, and it is imperative that 
they get it right. Unfortunately, H.R. 5018 contains some provisions 
which really concern me, and I concerned that if this bill was to pass 
we could find ourselves in a bigger predicament.
    One of the most important issues any reauthorization bill must 
address is putting an end to overfishing. If we don't stop overfishing 
how are we ever going to rebuild fish stocks? It seems pretty common 
sense. This bill, though, would make it easier to extend the rebuilding 
time frames. This is a risky scenario, because extending rebuilding 
deadlines will only serve to increase fishing pressure on vulnerable 
stocks threatening their ability to rebuild and delaying the benefits 
of rebuilt stocks to fishing communities, like Cortez. This bill also 
changes the definition of overfished, and the new definition would 
allow managers to continue to allow overfishing if fishing is not found 
to be the primary cause of the stock depletion. It shouldn't matter how 
an overfished status was achieved, to continue overfishing on 
dangerously low stocks is too risky and will most likely result in 
irreversible damage and the continued decline of fish stocks. This is 
exactly what we should be putting an end to.
    As far as catch limits are concerned, it is crucial that the 
councils set annual catch limits at the levels based on the science, 
and this bill does include a provision to ensure this. However, the 
bill does not include an accountability measure to force the councils 
to abide by the limits they set. If there is no consequence for 
overfishing, what is the incentive to obey the catch limits? I firmly 
believe that setting a limit and providing an accountability measure 
for defying the limit are an essential part of ending overfishing.
    I am concerned with the IFQ programs that could be established 
under this bill. The way IFQ programs are set up in this bill could 
result in a further demise to small boat fishing communities. Without 
consolidation limits, these IFQ programs could lead to big corporate 
interests putting the mom and pop fisherman like me out of business. 
Congress needs to make sure that standards are in place that will 
result in fair allocation of the quota, prevent too much consolidation, 
and protect the voice of crew members and small boat fishermen. To 
exclude small boat fishermen from a fishery would not only cause the 
further collapse of historic fishing communities, but would also be a 
loss for conservation efforts. As I have said before, mom and pop 
fishermen truly believe in the long-term sustainability of fish stocks 
and therefore have been and will continue to be good stewards of the 
resource. Any IFQ program must also contain a review, and if necessary 
modifications resulting from the review are not incorporated into the 
program then the quota needs to be revoked from the fisherman. This 
will reinforce the notion that the quotas are a privilege, and add 
force to program reviews, and encourage all fishermen, big and small, 
to be good stewards.
    The reauthorization of Magnuson-Stevens should strengthen current 
law and make progress towards fixing our fragmentary management system. 
This bill contains too many provisions that would be setbacks to 
current law, and my experience tells me this is not a good direction to 
move.
H.R. 1431
    H.R. 1431 is not a comprehensive MSA reauthorization bill, but it 
does address the important issue of reforming the councils. The 
councils play a central role in the management of our Nation's 
fisheries, and as decades of experience have shown us they are in 
disrepair and it is time to spruce them up. This bill strengthens the 
role of science in the fishery management process, and requires the 
councils to base their catch limits on good science. It also includes 
provisions that will help diversify representation on the councils, and 
address the problems regarding council members and their financial ties 
to the fishing industry. The councils are currently heavily weighted 
with big industry folks. How can we expect people with a direct 
financial tie to the industry to make decisions that favor conservation 
over immediate economic gain? The conflict of interest situations that 
exist in the current councils impedes their ability to effectively 
manage the resource, and has resulted, more often than not, in council 
members voting for economic gain over conservation. I strongly support 
these long overdue reforms to the council system. We need to keep the 
fox out of the hen house.
    This bill also requires the establishment of a cooperative research 
program. The oceans are vast, and the more we know about them, the 
better we will be at managing fisheries. There is a lack of data on 
most fish stocks and an abundance of fishermen that are in need of more 
work, and a cooperative research program is an innovative way to 
address both of these issues. It would go a long way to increase our 
data and knowledge of fish stocks, while helping out the fishermen. 
Cooperative research is a great way to involve the fisherman in 
research and maintain a viable fishing fleet. It seems like a common 
sense solution that would benefit everyone involved.
Conclusion
    All too often science-based fisheries management is compromised by 
political and economic pressures, thus our progress towards ending 
overfishing and rebuilding depleted fish populations has been limited. 
Failure to follow the science has resulted in the decline of numerous 
fisheries resulting in the collapse of fishing economies all over the 
country. It is time for Congress to take action, and for the first time 
in 10 years there is a real chance to get it done. I urge this 
Committee to make the necessary changes to strengthen H.R. 5018, 
because as it is right now the bill would be like my granddaddy used to 
say, ``Just going through the commotions.'' Making the needed changes 
will result in a bill that advances the use of science in the 
management process, and most importantly a bill that will not result in 
business as usual. The future of marine fish, commercial fishing and 
fishing communities is hanging in the balance and the time to act is 
now. We can no longer afford to make lukewarm attempts to reform our 
policies regarding the management of our Nation's fisheries. An MSA 
reauthorization bill that incorporates some of the provisions from H.R. 
1431 would make significant progress towards protecting the mom and pop 
fishermen like me, and improving our ability to effectively manage our 
Nation's fisheries. As a lifelong fisherman, with a family history of 
fishing and hopefully a future, I have a deeply vested interest in the 
sustainable management of our fisheries, and as you can see the current 
system is gone haywire and in need of a serious facelift. For many 
years we have erred on the side of short-term economic gain over the 
long-term health of the oceans fish, now its time to try something new 
and err on the side of good science.
    Thank you for inviting me to testify before the Committee and I 
would be happy to answer any questions you may have.
                                 ______
                                 
    Mr. Brown. Thank you, Mr. Pringle.
    Mr. Benton.

     STATEMENT OF DAVID BENTON, EXECUTIVE DIRECTOR, MARINE 
                     CONSERVATION ALLIANCE

    Mr. Benton. Thank you, Mr. Chairman.
    For the record, my name is David Benton. I am the Executive 
Director of the Marine Conservation Alliance in Juneau, Alaska. 
Our organization represents about 80 percent of the seafood 
production off of Alaska.
    Mr. Chairman, I have sat through this hearing today and I 
am very impressed with the breadth of testimony and the kinds 
of questions we have gotten. I want to point out a couple of 
things that I heard in response to some of the issues that have 
surfaced, and I think it is important to start with putting it 
in perspective.
    We have heard a lot about the Alaska model and how Alaska 
has been successful in the management of its fisheries. I think 
we are reasonably proud of that record. Other councils have had 
successes, and I think Dr. Hogarth pointed out that there has 
been real progress made in recent years all around the coast, 
and I think that is an important perspective to keep in mind.
    The Sustainable Fisheries Act did not fail. That doesn't 
mean it is perfect and it doesn't mean there are ways to 
improve it, and I want to tell you that H.R. 5018, in my view, 
incorporates all the key elements that make the Alaska model a 
success, and I think H.R. 5018 is a good place to start and 
improving upon what the Sustainable Fishing Act started back in 
1996.
    Alaska produces roughly half the nation's seafood. We do 
that with no overfished groundfish stocks. We have a couple of 
stocks of crab that are listed as overfished, and this gets to 
the problem that Mr. Moore was raising earlier, and others have 
raised about the definition of overfished and overfishing.
    Those crab stocks declined in the late 1970s and early 
1980s due to oceanographic conditions, changes in oceanographic 
conditions. There have been no fishing on most of those stocks 
for the past eight, nine, ten years. We have strict rebuilding 
programs. We have program to restrict bycatch on those stocks. 
We have done everything we can to eliminate fishing mortality. 
Those stocks are not rebuilding, and they are not going to 
rebuild until the conditions that lead to reproduction of those 
species improves.
    Nonetheless, they are classified as overfished and 
overfishing. Potentially it is a violation of the Magnuson Act 
because of having an arbitrary 10 year deadline to have these 
stocks rebuilt. To look at ways of providing some flexibility, 
I think is reasonable, and that is just one example of imposing 
an artificial standard on a situation where it will do no good.
    Mr. Chairman, H.R. 5018 adopts the kinds of principles for 
incorporating science into the management process that we have 
used in the North Pacific for almost 30 years. The way that it 
is put together in the bill we believe is the correct way to 
set up the relationship between the scientists and the 
councils. We do not support provisions to split the science 
process further or divorce it further from the council process. 
We think building stronger institutional arrangements require 
cooperation between managers and scientists is the way to go. 
H.R. 5018 does that.
    Some of the provisions in Mr. Rahall's bill, we believe, 
could actually put roadblocks in that process, and so we do not 
support those provisions.
    One improvement that could go into H.R. 5018 would be a 
definition for acceptable biological catch. It would make it 
clearer. I think the North Pacific Council has recommended 
language in that regard. Certainly it would be willing to work 
with the Committee on what that definition might look like, but 
we think that would be a place to strengthen the bill.
    I want to talk just very briefly about NEPA and the 
conflict with Magnuson. Obviously, there has been a lot of back 
and forth here today. It is a real problem. NEPA was never 
meant to deal with dynamic fishery management kinds of 
situations. It needs to be solved.
    The question that was asked by a number of members of the 
Committee about looking at maybe a one-year review and a 
process to resolve that conflict I don't believe will solve the 
problem. It has been around a long time. We brought it to the 
attention of multiple administrations. It has not gotten 
resolved. I think it is time for us to take some action and get 
this put in perspective.
    That doesn't mean undercutting the public process and it 
doesn't mean undercutting the analytical process. It means 
doing what H.R. 5018 is doing now, and that is, incorporating 
key NEPA provisions into the bill and making one process that 
is consistent so that the public knows where to go, what the 
information is, and how to participate. We think that is a fair 
and good way to go.
    Our organization also supports the provisions about 
resolving the conflicts within national sanctuaries, and the 
councils, and I would like to associate our remarks and support 
with those of Dr. McIsaac earlier.
    I want to close, Mr. Chairman, since the clock has run out, 
by acknowledging our gratitude for the way that the bill deals 
with cooperative research and bycatch research, and its 
description of seabird avoidance measures. Our membership has 
worked in the North Pacific to reduce seabird interactions, and 
mortalities by 80 percent in the last few years. It has been 
voluntary measures, and we appreciate the way that this bill 
deals with that issue.
    I conclude my remarks.
    [The prepared statement of Mr. Benton follows:]

            Statement of David Benton, Executive Director, 
                      Marine Conservation Alliance

Introduction.
    Thank you, Mr. Chairman, for this opportunity to testify before you 
today on H.R. 5018, the American Fisheries Management and Marine Life 
Enhancement Act.
    My name is David Benton. I am the Executive Director for the Marine 
Conservation Alliance. The MCA is a coalition consisting of seafood 
harvesters, processors, coastal communities, Community Development 
Quota organizations, and others interested in and dependent upon the 
groundfish and shellfish fisheries off Alaska. Taken together, the 
membership of the MCA represents about 80% of the harvesting and 
processing of groundfish and shellfish off Alaska.
    I want to take this opportunity to provide you with information 
regarding Alaska's fisheries, and to touch on some of the key aspects 
of H.R. 5018 that I believe will further the role of science and 
conservation in the management of the nation's marine resources.
    First, let me provide you with some information regarding Alaska's 
fisheries.
    Alaska produces roughly half of the nation's commercial fisheries 
landings by volume. Fisheries account for about 35,000 jobs in Alaska, 
and are valued at over $1 billion dollars in ex-vessel value. In 2004, 
the ex-vessel value of groundfish alone was $593M with $123.6M from the 
Gulf of Alaska and $469.0M from the Bering Sea and Aleutian Islands.--
The gross value of the 2004 groundfish catch, after primary processing, 
was approximately $1.7B (F.O.B. Alaska).--In addition to groundfish, 
halibut and shellfish generated $176.5M and $208.5M ex-vessel values 
respectively.--In 2004, roughly 1000 vessels caught Alaska groundfish.
    Most importantly, the majority of Alaska's coastal communities are 
built around a fisheries based economy, and without a stable fishery 
resource base many of these communities would not exist. It is because 
of this dependence upon the sea and its resources that Alaskans work 
hard to ensure that conservation comes first, and that fishery 
resources are managed for their long term sustainability.
    The record speaks for itself. There are no overfished stocks of 
groundfish in Alaska. Fisheries are managed under hard caps and close 
when harvest limits are reached. Federal observers, electronic Vessel 
Monitoring Systems (VMS), and U.S. Coast Guard patrols monitor the 
fisheries to ensure compliance with closures and bycatch limitations. 
Over 380,000 square nautical miles are closed to bottom trawling to 
protect marine habitat. Ecosystem considerations are taken into account 
in fishery management plans. For example, fishing on forage fish 
species is prohibited. And, for the two Bering Sea crab stocks rated as 
``overfished'' aggressive rebuilding plans have been in place for many 
years. Most scientists believe that these stocks are depressed because 
of oceanographic changes that happened in the late 1970's, and that 
these stocks will not rebound until oceanographic conditions become 
more favorable for these species.
    It is this record that led the U.S. Commission on Ocean Policy to 
cite Alaska as a potential model for the rest of the nation. MCA 
concurs with that view.
MCA Supports Provisions in H.R. 5018 to Strengthen the Regional Fishery 
        Management Council Process.
    Alaska is remarkably fortunate, in that we have robust fish stocks 
and a long and successful record of producing healthy seafood on a 
long-term sustainable basis. For fisheries conducted in federal waters, 
this success story hinges on the regional fishery management council 
system embodied in the Magnuson Stevens Act (MSA). We believe that this 
system has all the characteristics that are required for developing and 
implementing science driven, conservation oriented management regimes 
while at the same time providing the public, affected user groups, 
communities, academics, scientists, and other interested parties with 
unprecedented access to the decision-making process.
    The MCA strongly supports the regional council system because it 
recognizes the remarkable diversity of issues facing the different 
regions of the country, and because it provides the public access to a 
transparent and science-driven fishery management process. We support 
the broad inclusion of state and federal fishery managers as well as 
expert stakeholders as council members. The MCA supports the current 
MSA appointments process whereby each Governor consults with the 
public, ensures that each nominee is experienced and knowledgeable on 
the region's fisheries, and nominates at least three individuals. In 
order to ensure that top quality individuals continue to serve on the 
councils, the appointments should continue to be made by the Secretary 
of Commerce, with input from other Commerce officials as necessary.
    The transparency of the MSA fisheries management process is unique 
in the federal government. It is a rare instance where the public has 
the level of access to the decision making process that is present in 
the regional fishery management council system. Council members sit 
through hundreds of hours of public testimony, receive voluminous 
reports and analyses, have the opportunity to receive scientific advice 
from experts through presentations, and in the end have to state their 
rationale for a decision on the record and vote. All of this takes 
place in the public eye. The complexity of fisheries management 
requires Council members with deep knowledge and experience in a 
region's federal fisheries. Training can build a common knowledge base 
among Council members to encourage understanding of the issues and 
efficient communication with each other and with the public.
    MCA is pleased to note that H.R. 5018 recognizes the basic 
principles underlying the Regional Council process, and includes 
measures to build on the strengths of the existing MSA system.
    The MCA supports provisions in H.R. 5018 requiring that each new 
Council member receive training before taking a seat on the Council. 
Such training should include the list of topics identified in H.R. 
5018, with an emphasis on meeting the requirements of the Magnuson 
Stevens Act, the regulatory process (e.g., NEPA, Regulatory Impact 
Review, etc), and the rules for recusal and financial disclosure. The 
MCA supports continuation of the current requirements to disclose all 
financial interests relating to fishing and for recusal from voting in 
instances as defined in regulations.
    Some argue that Council members with any financial interests in a 
fishery be barred from sitting on a Council or from voting on 
management decisions related to that fishery. Congress decided in 1976 
to take a new approach to a regulatory system--establishing a Regional 
Council system that meets close to where the fisheries occur, opening 
all meetings to public scrutiny, and inviting those with hands-on 
experience to be part of the process that seeks to protect the 
sustainability of the resources they depend on. In 1996, as part of the 
Sustainable Fisheries Act, Congress reaffirmed this approach while at 
the same time strengthening the MSA recusal provisions to be 
functionally equivalent to those applied in other federal advisory 
boards. These provisions, coupled with the advisory role of the 
councils whereby the Secretary makes the final decision is a robust 
system of checks and balances that prevents misuse of authority by 
Council members.
    Arguments have been made to require appointment of Council members 
from particular interest groups, rather than building Councils with 
important fisheries expertise. Designating specific seats for 
particular interest groups will lead to continuing battles for 
representation of specific interest groups such as recreational 
fishers, a longline seat, a trawl seat, a tangle net seat, etc. This 
would seriously undermine one of the strengths of the council system, 
inclusion of knowledgeable persons from a broad spectrum of interests. 
Although many current Council members have interests in either 
commercial or recreational fisheries, the largest group of seats goes 
to professional fisheries managers from NMFS and the states. 
Supplementing their broad expertise with private citizens with specific 
expertise in the fisheries being managed is the best method for 
promoting rational fisheries management. In the North Pacific, this 
discretionary process has led to the appointment in recent years of a 
wide variety of members from diverse backgrounds.
H.R. 5018 Takes Important Steps to Strengthen the Role of Science in 
        Management.
    The MCA strongly supports strengthening the institutional role of 
science in the Regional Council decision-making process. MCA believes 
that the policy of the North Pacific Fishery Management Council to set 
harvest levels at or below those recommended by their science advisors 
should be applied nationally. In the case of the North Pacific, the 
Council does not set Total Allowable Catch for any species or stock of 
fish higher than the Acceptable Biological Catch recommended by the 
Council's Science and Statistical Committee (SSC). The result is that 
no stocks of groundfish are overfished in the Bering Sea, Aleutian 
Islands, or Gulf of Alaska. That high degree of success is achieved 
within the existing Magnuson Stevens Act (MSA) structure and 
procedures.
    A similar position was endorsed by the Chairs of the eight regional 
fishery management councils last year in comments on MSA 
reauthorization. The Chairs position states: ``Councils shall adopt 
acceptable biological catches (ABCs) within limits determined by their 
Scientific and Statistical Committees (SSCs) (or appropriate scientific 
body) and shall set total allowable catches (TACs) and or management 
measures, such that catch would be at or below ABC.''
    The MCA supports amending the MSA along the lines recommended by 
the Chairs, and incorporated into H.R. 5018 in Section 3. H.R. 5018 
establishes the correct relationship between the SSC and the Council 
for developing catch specifications by including the new paragraph (7) 
to Section 302 (h) of the MSA (p. 5 lines 3-11). This provision closely 
follows current practices in Alaska.
    However, we also recommend that H.R. 5018 be amended to include a 
definition of Acceptable Biological Catch. This definition should 
identify ABC as an annual specification of fishing mortality for 
individual fish stocks or multi-species stocks of fish. It should be 
based on the best scientific information available, and be designed to 
prevent overfishing and promote maximum sustained yield. Including such 
a definition will strengthen this section of H.R. 5018, and most 
closely track successful practices employed by the North Pacific.
    We are also pleased to see that H.R. 5018 has several provisions to 
improve the SSC process, including paying stipends to non-government 
SSC members and requirements for the SSCs to meet in conjunction with 
the respective Council. Some groups have called for a more formal split 
between the scientists and the councils. MCA does not support proposals 
to split the science process and the SSCs from the Regional Fishery 
Management Councils. Such an arrangement would serve to politicize the 
scientific process, and further remove the science from the overall 
decisionmaking. MCA believes that it will be more effective to forge 
stronger ties through closer working relationships between the science 
advisors and the councils, instead of creating additional institutional 
barriers.
    The excellent conservation record in the North Pacific demonstrates 
the benefits of maintaining and strengthening this important 
partnership. The MSA currently provides that each Council appoints the 
members of its SSC, a process which should continue. The regional 
nature of the Council's work is key to a regulatory process that is 
transparent, available to all stakeholders, and that provides 
opportunities to participate and understand the scientific basis for 
decisions. A strong Council-SSC relationship is central to that 
process.
H.R. 5018 Strengthens Science Through Peer Review of Stock Assessments.
    H.R. 5018 would improve the scientific process by requiring the 
Secretary and each Council to establish a peer review process. MCA 
supports this provision. The stock assessment process is the foundation 
of a successful science-based fishery management system. In the North 
Pacific, NMFS assembles top scientists for each Plan Team, with input 
and appointment by the SSC. The Plan Team assessment process is tied 
closely to the SSC-Council schedule for setting TACs, ensuring that the 
most recent scientific data is available and used. Plan Team meetings 
are open to the public and occur in the region.
    Increased peer review would ensure that the methods used for stock 
assessment in each region are up-to-date and can withstand tough 
scrutiny, providing confidence in the stakeholder community. Each 
Council and its SSC should cooperate in selecting methods, models, etc. 
for outside peer review and, in consultation with NMFS, select the 
reviewers. The MCA recommends that time-sensitive work, such as annual 
stock assessments, be reviewed either on a periodic basis or after 
implementation with the objective of improved methods for future work.
    One issue that is not addressed, however, are the requirements of 
the ``Data Quality Act'' and OMB guidelines for implementing that Act. 
MCA recommends adding a provision under this section of H.R. 5018 to 
clarify that each Council, in conjunction with the Secretary, may 
establish a scientific peer review process to meet OMB requirements. It 
should specifically identify each Council's SSC as qualifying as the 
peer review body for that Council and that review by the SSC is deemed 
to satisfy Data Quality Act requirements.
H.R. 5018 Takes Appropriate Steps Towards Building an Ecosystem-based 
        Approach to Fisheries Management.
    Ecosystem-based management is an approach that seeks to balance the 
uncertainties of our knowledge regarding the workings of the marine 
environment with the better known science of single-species management. 
The goal of an ecosystem-based approach to management is to protect the 
long term sustainability of marine resources while providing a source 
of healthy food, jobs, economically viable communities, and recreation. 
The MCA supports ecosystem-based management as an important goal for 
the nation's federal fisheries management system. We agree with others, 
including the Chairs of the regional fisheries management councils, 
that the MSA currently allows for an ecosystem-based approach to 
fisheries management and that incorporating ecosystem considerations 
into management can be strengthened with increased research funding and 
enhanced collaborative efforts among fishing and non-fishing regulatory 
bodies.
    However, we are not in favor of establishing statutory requirements 
for ecosystem-based management in the Magnuson Stevens Act or other 
law. Our knowledge base regarding the structure and functions of marine 
ecosystems is in its infancy. Marine ecosystems are dynamic and driven 
by climate, biological abundance and human-induced factors. Climate and 
ocean currents and biological conditions such as plankton production 
and predator/ prey dynamics change from year to year. Human-induced 
factors such as pollution, coastal development, shipping traffic, 
recreational uses and fishing do also influence marine ecosystems. 
While the United States Commission on Ocean Policy (USCOP) recommended 
moving towards an ecosystem-based approach to management, the 
Commission also recognized that our knowledge of these forces and their 
interrelationships is limited. The Commission recommended moving 
towards an ecosystem-based approach to management in a careful and 
deliberate manner, using voluntary programs, and taking into account 
these uncertainties. The Commission did not support mandating an 
ecosystem-based management regime.
    The Ecosystem Principles Advisory Panel (EPAP) identified in H.R. 
5018 also recognized these limits. The challenge, according to the 
EPAP, is to ``rebuild and sustain populations, species, and biological 
diversity, so as not to jeopardize a wide range of goods and services 
from marine ecosystems, while providing food, revenue and recreation 
for humans.'' The EPAP proposed eight specific criteria to be used in 
development of an ecosystem-based approach to management.
    In the North Pacific, the Council's precautionary approach to 
fisheries management incorporates measures consistent with these eight 
recommended guidelines. Extensive habitat protection, prohibition of 
fishing on forage fish, controls on bycatch, protections for seabirds 
and marine mammals, strict catch accounting and hard caps on harvest 
levels are all part of the program. This strategy has sustained the 
nation's richest marine resources, producing more than half of all 
seafood harvested in U.S. waters. The record is 25 plus years without a 
single groundfish species classified as overfished. This success has 
come about within the existing framework of the MSA.
    More recently, the Pacific States Marine Fisheries Commission 
(PSMFC) convened a panel of internationally recognized experts to look 
at current practices of the North Pacific and Pacific Councils, and to 
evaluate steps to improve the role of science and ecosystem-based 
approaches to fishery management. The report, entitled ``Strengthening 
Scientific Input and Ecosystem-Based Fishery Management for the Pacific 
and North Pacific Fishery Management Councils' identified practical 
steps that fishery councils can take to move towards ecosystem-based 
fishery management in a deliberate and responsible manner. The report 
is available from the PSMFC at h and is currently in press for 
publication in the Canadian Journal of Fisheries and Aquatic Science.
    Most importantly, this panel of experts rightly concluded that no 
new statutory authorizations are necessary. They pointed out that the 
major limiting factor is adequate scientific information on the 
interactions of numerous ecosystem functions, and that funding for 
research programs to address these data needs is the most important 
action that could be taken today to meet these challenges in the 
future.
    All of these considerations lead MCA to conclude that the Councils 
already have the authority they need to incorporate ecosystem 
considerations into fishery management, and no new statutory language 
is required. However MCA generally supports the language in H.R. 5018 
at p. 21 lines 6-14 providing discretionary authority for ecosystem-
based management plans as it is consistent with existing authorities. 
MCA would not support similar provisions as mandatory requirements for 
fishery management for the reasons stated above.
    In addition, MCA recommends modifying the provisions of H.R. 5018 
to explicitly acknowledge that human beings are an integral component 
of the marine ecosystem. As such, we recommend amending the policy 
statement on ecosystem-based fishery management (page 28 lines 18-19) 
to read ``understand the interactions of species in the marine 
environment, the role of humans as part of the ecosystem, and the 
development of''.'' And, while H.R. 5018 charges the Secretary with 
developing a definition of ``ecosystem'' and ``marine ecosystem'', we 
believe that H.R. 5018 could provide important guidance by 
incorporating a simple definition of ecosystem-based fishery management 
that recognizes all of the components of the marine ecosystem including 
people.
    We would suggest a simple definition that explicitly states that 
ecosystem-based fishery management will be based on the best available 
science, and considers the physical, biological, economic, and social 
interactions among the affected components of the marine ecosystem when 
developing fishery conservation and management measures. Such a 
definition is consistent with the work of the EPAP and the results of 
the panel convened by the PSMFC. It recognizes the use of best 
available science, and explicitly acknowledges that social and economic 
considerations are factors to be considered along with the physical and 
biological characteristics of the marine environment. It does not give 
preference to any one factor, thereby preserving the role of the 
Councils and Secretary of setting management goals and priorities 
through the public process.
    Some have proposed to empower the Secretary of Commerce, in 
consultation with the Councils, to develop national guidelines to 
``standardize'' the criteria used to develop an ecosystem-based 
approach to fisheries management. MCA does not support statutory 
language charging the Secretary with development of national criteria 
for ecosystem-based management. In the past, such mandates, though 
appealing on the surface, have led to lengthy administrative processes 
and unnecessary litigation to interpret the intent of Congress with 
regards to such language. Instead, MCA believes that we must recognize 
that one-size may not fit all, and that national criteria are not 
appropriate. The other regions of the country, as part of the 
established council-driven process under MSA, should consider and adopt 
their own sets of management policies to balance the uncertainties of 
marine ecology with the better known science of single species 
management as they incorporate ecosystem considerations into regional 
fishery management plans.
Flexibility is Needed When Using Limited Access Privileges to Support 
        Conservation.
    The MCA is supportive of quota-based and/or cooperative rights-
based management systems, now being referred to as Limited Access 
Privilege Programs (LAPP). We support the availability of this 
important management tool to all regional management councils. Any such 
systems should be developed consistent with the National Standards and 
other provisions of the Magnuson Stevens Act.
    H.R. 5018 establishes criteria and procedures for LAPPs. MCA 
supports the use of LAPPs, but believes that Councils need to have the 
tools to develop such programs and the flexibility to address regional 
concerns. We believe that a minimalist approach is best, and that there 
is no need for elaborate criteria or standards in the MSA. If the 
language from H.R. 5018 is used, then MCA believes that the criteria 
and provisions need to be discretionary throughout.
    H.R. 5018 also modifies the existing fee structure of the present 
MSA. MCA supports retaining the 3% annual cap on cost recovery fees. 
MCA strongly supports the language on page 51 lines 19-23 directing 
that fees shall be devoted to the fishery from which they are 
collected.
    MCA is concerned that the 1% initial allocation fee may cause undue 
hardships for small vessel operators who may not have anticipated this 
surcharge and may not have the funds saved to meet this obligation. A 
provision could be added under the Limited Access Privilege Assisted 
Purchase Program section of H.R. 5018 to address this matter.
The Observer Program Requirements of H.R. 5018 May Undermine Existing 
        Programs.
    MCA is a strong supporter of observer programs to improve fishery 
monitoring and management. We are concerned about the effects of some 
of the provisions of H.R. 5018 on existing programs as well as costs to 
industry participants. For example, the observer cost provisions under 
Section 5 of H.R. 5018 require the Secretary to pay for observers that 
are necessary for ``the enforcement of a fishery management plan or for 
data collection necessary for the monitoring of a fishery''. MCA is 
concerned that this may have the unintended consequence of 
significantly undermining the existing observer program in Alaska.
    The observer program in Alaska is paid for by industry, with the 
observers reporting only to NMFS. It is the largest program in the 
country, and perhaps the world. NOAA does not have the funding to 
support this program. Even if all of the agency's observer funds were 
pooled and devoted to this one program, it would not be sufficient. 
And, obviously, if this were to occur then there would be insufficient 
funds for observers elsewhere in the country.
    Under Section 9, H.R. 5018 sets out a fee-based funding mechanism 
for observer programs. MCA is concerned that this section of H.R. 5018 
is overly broad, and provides the Secretary with too much latitude to 
develop funding mechanisms for observer programs. In this section, 
there appears to be an open-ended authority to set fees at whatever 
level the Secretary determines is appropriate. While it is important to 
be able to pay for necessary fishery monitoring, MCA believes it is 
also important that there be reasonable limits on the Secretary's 
authority to raise fees.
    We suggest that H.R. 5018 require that observer costs be set out 
under a plan adopted by a Council and approved by the Secretary. The 
intent of our suggestion is to leave it up to each individual Council 
to determine how best to meet observer requirements for fisheries in 
their region, including the question of who pays. Providing a role for 
the Councils to develop a plan for observer coverage and cost recovery 
ensures that the public and the industry have the opportunity to review 
and comment on any such program. This should include the definition of 
``fishery'' that is used to develop the fee structure.
    In addition, we suggest that H.R. 5018 should clarify that fees to 
the observer fund are under the 3% cap, or some other upper limit be 
placed on observer fees. The original North Pacific Research Plan 
section of the MSA had a 2% cap for observer fees.
H.R. 5018 Resolves Conflicts Between MSA and NEPA While Protecting the 
        Public Process.
    H.R. 5018 correctly attempts to resolve the conflicts between the 
NEPA process and the MSA process. Anyone with practical, hands on 
experience in fisheries management knows that this problem is real, and 
that it is causing unnecessary bureaucratic delays in implementing 
effective conservation measures for our nation's fisheries. Having two 
competing processes has not resulted in better analysis or more 
effective conservation measures. Instead, it has led to confusion by 
the public, and numerous procedural lawsuits that only waste time and 
staff resources. The paramount example of efforts to address this 
unnecessary problem is the 7000 plus page Programmatic EIS developed by 
the North Pacific Council. A related example of how these competing 
statutes distort the management process is the perverse result that, 
because of the differing timelines, the North Pacific Council may be 
required to use outdated stock assessment data in setting catch levels, 
instead of the most up-to-date and best available science.
    MCA therefore supports the provisions in Section 10 of H.R. 5018 to 
resolve the issue. However, MCA believes that H.R. 5018 can be 
strengthened by amending the language on page 60 line 18 from ``may'' 
to ``shall''. This would clarify the procedures to be used and 
eliminate any future uncertainty.
    For example, MCA is concerned that the ``deeming'' by the Secretary 
set out in this section could be after the fact. This could lead to the 
situation where a Council has acted in good faith, employed the process 
set out in H.R. 5018, but finds itself in the position of the Secretary 
making a determination that the Council action was not in compliance 
with NEPA after months or years of work. MCA strongly supports 
reconciling the differences between NEPA and MSA. Such reconciliation 
should be clear, and remove the potential for unnecessary procedural 
confusion or litigation.
    An alternative would be to require the Secretary to specify in 
regulation the substantive requirements for compliance and the process 
used to make these determinations before they are applied by the 
Councils in their procedures.
MCA Supports Language in H.R. 5018 To Clarify the Relationship Between 
        MSA and National Marine Sanctuaries.
    MCA strongly supports the provisions set out in H.R. 5018 to 
require the Secretary to review sanctuary regulations to ensure 
compliance with MSA national standards. We believe that this is 
consistent with the intent of the National Marine Sanctuaries Act. 
Unfortunately, application of the NMSA has been inconsistent around the 
country, but this provision would ensure that the original intent is 
followed. MCA also believes that this review should include the 
relevant Council as well. Although the NMSA sets forth a role for the 
Councils in Sanctuary management, the practical effect has been for the 
Sanctuary Program to downplay the MSA national standards in making NMSA 
management decisions. This provision would ensure that Sanctuary 
resources are protected, but also that MSA provisions are given 
appropriate consideration.
MCA Supports the Grant Program Established Under Section 15 Bycatch and 
        Seabird Interactions.
    MCA strongly supports the cooperative research provisions of H.R. 
5018, including those under Section 3 as well as Section 15. MCA 
believes that cooperative research between agency scientists, 
academics, and industry can be a cost effective tool to achieve 
practical results in fishery conservation.
    With regard to seabirds, MCA believes that, like marine mammals, 
seabirds are best dealt with under existing law and should not be 
included in the MSA. However, MCA can support the language in this 
section to establish a grant program for gear research and 
modification. We are particularly pleased that H.R. 5018 correctly 
refers to ``seabird interactions'' as a separate issue from fisheries 
bycatch. MCA has long been concerned that seabird interactions might be 
labeled as bycatch, when in fact this is a different type of management 
concern, with solutions unique to the problem. Our members have long 
been involved in research and gear modification to address seabird 
interaction issues. In the North Pacific avoidance measures developed 
by industry working in cooperation with the Council, academic 
researchers, and federal agencies have resulted in an 80% reduction in 
incidental mortalities. Because of these successes, MCA supports the 
language calling for cooperative work between the Councils, the 
agencies and the industry to further seabird conservation.
Conclusion.
    MCA wishes to conclude by emphasizing that the regional council 
process currently established under the Magnuson Stevens Act plays a 
vital role in the health of our communities, our fisheries, and in the 
conservation of the rich marine resources off Alaska's shores. We urge 
you to carefully consider the successes we have had in Alaska when 
others ask you to change this system. Adding new statutory requirements 
or new layers of bureaucracy to this system would, in our view, 
undermine what is widely regarded as one of the worlds more successful 
management systems.
    Mr. Chairman, that concludes my testimony. I am prepared to answer 
any questions the Committee may have.
                                 ______
                                 
    Mr. Brown. Thank you very much, Mr. Benton.
    Can you fish in the waters around Alaska, how many months 
of the year?
    Mr. Benton. How many months of the year?
    Mr. Brown. Yes.
    Mr. Benton. If you have the guts, anytime you want.
    Mr. Brown. OK, thank you very much. Thank you very much for 
being here today.
    Mr. Benton. You are welcome.
    Mr. Brown. We have been joined by Ms. Napolitano from 
California. Do you have a question for the panel?
    Ms. Napolitano. I have several questions, Mr. Chair.
    Mr. Brown. Sure.
    Ms. Napolitano. I am sorry I was at another hearing which I 
was sitting on with Subcommittee on Water and Power, so I was 
delayed and could not be here for most of the testimony, but I 
do have some questions to Mr. Pringle and mr. Benton.
    Mr. Pringle, on page 3 of your testimony you state that 
H.R. 5018 does not include an accountability measure to force 
the councils to abide by the limits they set. What is your 
recommendation and what should be the consequences for 
overfishing?
    I have a little bit of background on it, very minimal, 
through some of my contacts in California, and I am hearing 
that we are depleting our ability for our small mom and pop, as 
you say, fishermen to succeed because the conglomerates are 
coming in and tapping out, and we are not going after enforcing 
the laws that would prohibit those individuals from coming in.
    But here we talk about the accountability measure. What do 
you recommend?
    Mr. Pringle. I highly recommend the involvement of all 
fishermen. The problem is as I have faced in Florida where some 
of the fishermen that I represent, there has been votes made. 
They say, well, there are 50 percent of these people, 51 
percent have said that they catch this many of the fish, so 
they exclude a lot of the others, and they don't send in the 
small mom and pop, don't give them a chance to even have a 
voice in anything because the people that catch the most fish 
are the ones that are heard the most, and any of the things 
that are going on in the fisheries, they will go and say, well, 
we have 51 percent of the votes of the people that catch the 
fish.
    Well, the mon and pops are left out of that. If they have a 
5,000 pound limit, they are not even asked about when these 
people that have a 50,000 pound limit have already said this is 
what we want.
    To have it fair and equitable, and I face this in a lot of 
the issues personally myself in things that they say, well, we 
don't want you catching anymore of this, or we are going to put 
you in this stone crab industry or the blue crab industry or 
some of the others, and say you can go here. And then when we 
move to that, they say, oh, there are too many people here. We 
are going to take your license, and they have.
    So these people caught more crab so they have the right to 
be here and you don't because you are a Johnny come lately. 
Well, we were forced out of this fishery into this one, and so 
then I have nothing.
    There are several instances that I have personally 
experienced this, and it is something--and raised up in the 
historic commercial fishing village of Cortez. I have a home 
still there and it is dying, and there is no real reason for 
it. It is because the small mom and pops have been left out of 
the mix, and we need to be back into that and see something in 
Congress to revitalize these communities that have been 
disseminated, not just in Cortez. I am talking little Cortez 
and every place in the United States
    Ms. Napolitano. Any other comments from any of the panel?
    Mr. Moore. Congresswoman, I apologize. I don't know exactly 
where in California your district is.
    Ms. Napolitano. Southern California.
    Mr. Moore. OK. You tend to have a smaller boat fishery down 
there. On the Pacific Coast, we have a whole mix of things, 
from large boat fishermen to small boat fishermen. I have 
processors in my membership. One of my favorite members is 
three generations of women who have been running a small 
processing plant in San Francisco for all that time.
    On the council on the West Coast, we have representation in 
the advisory bodies of fishermen of all sizes, recreational and 
commercial, and we are very careful about when catch limits are 
it that we do something about it in the succeeding year, and 
actually I know you missed Mr. Donofrio's testimony, but he 
kind of alluded to it, the situation on the east coast.
    We had a similar situation on the West Coast where actually 
the recreational fishery in California, I am sorry to say, went 
higher than expected on a couple of very sensitive species by a 
considerable amount, and if we had followed the strict 
guidelines that are being called for of you have to pay it back 
fish for fish the next year, you would have had no recreational 
fish or commercial fishery on the entire West Coast the next 
year.
    What instead we did is we adjusted the seasons, the bag 
limits, and so forth for the California recreational fishery to 
make sure we got it back in balance. And what we try to do on 
the West Coast is set our catch limits below the biologically 
acceptable levels so we have some room for fudge, if you will, 
if this sort of things happens. You know, we try to be cautious 
about what we are doing.
    Ms. Napolitano. How many shore-based processors exist on 
that West Coast and the percentage of the market share do they 
process?
    Mr. Moore. On the West Coast, I can't tell you how many 
total processors exist on the West Coast because the way the 
state license processors, for example, if you have been to San 
Francisco and been to Scoma's on Fisherman's Wharf, they 
actually are licensed as a processor under California law 
because they buy some fish occasionally.
    But in our association right now we have 13 members, there 
is soon going to be 12 because one member bought out another. 
But they are both large and small, and our members, as far as 
groundfish, pink shrimp, and Dungeness crab process over 50 
percent of it in varying amounts.
    Ms. Napolitano. How many of those are shore-based?
    Mr. Moore. All of them. Every single one of my members, 
ma'am, is a----
    Ms. Napolitano. Would you provide a list of those to this 
Committee, please?
    Mr. Moore. I would be happy to. I want to point out they 
are all citizen and family owned, and have been for many 
generations.
    Ms. Napolitano. Thank you, Mr. Chairman. I will wait for 
another round.
    Mr. Brown. Thank you.
    Mr. Pallone.
    Mr. Pallone. Thank you. I want to apologize to the panel. I 
did the same thing with Dr. Hogarth, just coming in after the 
testimony. But there is another hearing that I have to go to so 
I am going back and forth.
    My questions are of my friend, Jim Donofrio, and my 
constituent, our New Jersey guy. In your testimony, which 
again, Jim, I didn't hear but I know what was said in writing, 
you express your opposition to a saltwater recreational 
license. You were here when I questioned Dr. Hogarth, I had the 
same questions essentially.
    In your testimony, you expressed your opposition to a 
saltwater recreational license, and a fee associated with any 
recreational angler registry. It is obviously a sentiment that 
is widely shared amongst my constituents and by me. So I just 
wanted you to--a couple of questions, we will lump them 
together.
    Could you explain what you believe to be the difference 
between a license, which you mentioned frequently, and a 
registry as proposed by the Administration? Why would a 
saltwater recreational license with a fee be unfair to 
recreational anglers? And how could NMFS implement a saltwater 
recreational registry without charging anglers a fee?
    Then I am going to get into the hard TAC after you get 
through this.
    Mr. Donofrio. Thank you. Thank you, Mr. Chairman, Mr. 
Pallone, thank you for the question here.
    First of all, let us note that the National Research 
Council dug into the whole MRFSS system, which is a whole data 
collection system for the recreational industry, and those that 
are proposing are proponents of a saltwater license, even from 
our own sector here, are claiming in press releases that we are 
going to get better data from a license. Yet the National 
Research Council findings indicate that that is not true.
    So, we are not going to get better data that amounts to a 
tax. There is a system already, the MRFSS system has a budget 
within NOAA. We say, NOAA, you created the problem. You have 
the budget. Fiscal responsibility tells us that you take that 
existing budget and create a registry which can be free. We 
have computers. We have people that will comply, and use the 
improvements that are incorporated into the Senate language, 
which are recommendations that the National Research Council 
has put forward, and that would be a simple system that can be 
done without additional fee.
    Dr. Hogarth today testified somewhere around 20 to 25 
dollars, but we have heard as much as 30, and you know what 
that would mean to a lot of recreational fishermen. It would be 
similar to the HMS permit, Mr. Pallone.
    As you know, the HMS permit goes into a general fund and we 
see no benefit from that at all. We don't get better science on 
bluefin tuna or other tuna-like species. We get nothing from 
NOAA fisheries with that fee. It is another tax. Thank you.
    Mr. Pallone. I appreciate it, and let me just get into the 
second one, and it is again the same thing I asked Dr. Hogarth.
    As you mentioned again in your testimony, there has been 
considerable discussion of legislating a hard TAC with a 
payback provision, and the series of questions, I will lump 
them all together.
    Is the recreational sector currently subject to hard TAC 
with payback management? What would a legislative requirement 
do to recreational fisheries such as summer flounder? How would 
recreational fishermen react to such a requirement while the 
MRFSS system is still in use? And how could managers and NMFS 
better communicate with recreational anglers without management 
practices? And last, are recreational anglers willing to 
participate in a new recreational data system designed along 
the lines of the NRC's recent recommendations? Take a crack at 
it.
    Mr. Donofrio. OK, I will give a general--thank you, Mr. 
Pallone, Mr. Chairman. Thank you.
    Currently the recreational sector does have a payback 
system, and that payback system works when the council decide 
what is going to happen with the fishery. When they do their 
plans, they will set their seasons, size limits, bag limits. 
They will give us either a shorter season or a bigger fish or 
less catch, sometimes all, they implement all. So that is a 
payback.
    Hard TAC would just mean an absolute end of some of our 
fisheries. They would just shut our fisheries down, shut our 
coastal communities down that depend on these fisheries. More 
importantly, you have to look at this whole thing under the 
flexibility that we need because those in the environmental 
community want to hold us to this gold standard of exact 
science and fishery science, and it is not. This is not medical 
science. We need flexibility. There are so many nuances and 
environmental concerns and other factors in marine fisheries, 
like a virtual population analysis.
    Mr. Pallone, you remember this one. You remember the 
council said there was no bluefish off the New Jersey coast, 
and the Mid-Atlantic Council wanted to restrict us. And what 
did they find? Because of environmental factors, the bluefish 
were 40 miles offshore where we were not fishing. So we need 
the flexibility. We can't have hard TACs because of the 
ambiguities in science. We really need to stay away from that. 
Thank you.
    Mr. Pallone. OK. All right, thank you very much, and thank 
you, Mr. Chairman.
    Mr. Brown. And I thank you, and I thank the panel for their 
valuable testimony this morning. And if the members have 
further questions, they may submit them in writing, and I hope 
you would respond to them as early as possible. The hearing 
record will be held open for those responses until May 17, 
2006.
    If there is no further business, the Chairman again thanks 
the members of the Committee and our witnesses, and without 
objection the Committee stands adjourned.
    [Whereupon, at 12:50 p.m., the Committee was adjourned.]

    [Additional material submitted for the record follows:]

    [The prepared statement of Mr. Pallone follows:]

Statement of The Honorable Frank Pallone, a Representative in Congress 
                      from the State of New Jersey

    Mr. Chairman, thank you for holding this hearing to begin the 
important process of reauthorizing the Magnuson-Stevens Act.--I think 
almost everyone here agrees that it has been far too long since we've 
seriously tackled this issue.
    Thirty years ago, when Congress first passed the Magnuson-Stevens 
Fishery Conservation and Management Act, the major problem we faced was 
foreign fishing fleets operating off our shores.
    That's why we passed the initial Magnuson bill--to make sure that 
fish in American waters were available only to American fishermen.
    Ten years ago, Congress revisited this issue by passing the 
Sustainable Fisheries Act during an era of serious concern about 
overfishing and collapsing stocks as commercial fishing operations got 
bigger and bigger.
    Now, as we consider what to do next with respect to the nation's 
core fisheries management law, Congress needs to strike a balance 
between keeping individual stocks and overall marine ecosystems healthy 
on the one hand and ensuring that we protect anglers' rights on the 
other hand.
    The collapse of the North Atlantic cod is just one of many 
cautionary tales that we should heed as we move forward here. There is 
still much we do not know about the science of fisheries management, 
but we do know that without adequate caution we can easily slip into 
overfishing--which is bad both for the environment and for fishermen.
    The U.S. Commission on Ocean Policy issued several more warnings 
when it released its report in September of 2004. The report stated 
that, ``the last thirty years have witnessed overexploitation of many 
fish stocks, degradation of habitats, and negative consequences for too 
many ecosystems and fishing communities.'' Commissioners went on to 
state firmly that ``fishery management must be improved.''
    As we do our best to resolve the problems laid out by the 
Commission and to achieve the goal of improved fisheries management, 
however, we must remember the human component of what we are doing.
    It's well-known that commercial fishermen make a living off the 
sea, and stock allocations have a direct impact on their ability to 
earn money.
    I'll be honest, Mr. Chairman, most of the fishermen in my district 
are recreational anglers. But while they may be referred to as 
``recreational'' or ``sport'' fishermen, what they do is much more than 
a hobby. Recreational fishermen are a significant part of my state's 
$16 billion tourism industry. Their activities mean jobs and revenue 
for tackle and bait stores, marinas, boat shops, and a host of related 
businesses.
    Unfortunately, it seems that fisheries managers don't seem to 
understand this concept. We see repeated stock allocation decisions 
that come down hard on the recreational sector, as if new restrictions 
would simply be an inconvenience to anglers. These decisions are often 
based on a recreational data system that everyone agrees is flawed and 
inappropriate for stock allocations.
    So I look forward to hearing from the witnesses what they think we 
can do to improve recreational data collection systems, especially in 
light of the recent report on this topic from the National Research 
Council.
    I also look forward to hearing from the Administration about 
possible plans to require recreational fishermen to pay for the right 
to fish. I am opposed to a recreational saltwater license that would 
require anglers to pay for the right to fish.
    I'm also curious to hear the witnesses' opinions about the idea 
that we would legislate a hard TAC on the recreational sector before we 
come up with an accurate data collection system that would give us a 
realistic idea of how large the recreational catch actually is.
    Finally, I hope we can explore, even at a very general level, the 
notion that we might need broader ocean and coastal governance regimes 
to address some additional issues that affect the health of fisheries 
stocks, such as human impacts on marine ecosystems, including pollution 
from off and onshore sources and global warming.
    Again, Mr. Chairman, thank you for holding this hearing. I look 
forward to hearing the witnesses' testimonies and to working with you 
as the reauthorization process goes forward.
                                 ______
                                 
    [A statement submitted for the record by the American 
Cetacean Society, Natural Resources Defense Council, The Ocean 
Conservancy, Sierra Club, World Wildlife Foundation, et al., 
follows:]

   American Cetacean Society * The Baum Foundation * Cabrillo Marine 
Aquarium * California Coastal Protection Network * Clean Water Network 
      of Florida * Coral Reef Alliance * Defenders of Wildlife * 
   Environmental Defense * Farallones Marine Sanctuary Association * 
 Florida Federation of Garden Clubs, Inc. * Friends of the Sea Otter * 
Hawaii Audubon * KAHEA: The Hawaiian-Environmental Alliance * Lumigenic 
Media * Marine Conservation Biology Institute * ManaSota-88 * Monterey 
  Bay Sanctuary Foundation * National Marine Sanctuaries Foundation * 
 National Garden Clubs Inc. * Natural Resources Defense Council * The 
Ocean Conservancy * The Otter Project * Russian Riverkeeper * Save Our 
  Shores * Sierra Club * Seaflow * Stewards of St. Johns * Surfrider 
           Foundation * U.S. PIRG * World Wildlife Foundation

                             April 25, 2006

    Dear Member of Congress:
    On behalf of our 3.8 million members and volunteers, we are writing 
to express our concerns about one provision in the American Fisheries 
Management and Marine-Life Enhancement Act (H.R. 5018) introduced by 
Representatives Pombo, Frank and Young to amend the Magnuson-Stevens 
Fishery Conservation and Management Act. Subsection 10(d) of the bill 
would require all management of fisheries within sanctuary waters to be 
subject to the Magnuson-Stevens Act. This would provide an unnecessary 
change to a system that is currently working, adversely affect the 
protection of special ocean areas afforded by the National Marine 
Sanctuary Act (NMSA, or Sanctuary Act), and undermine the current 
sanctuary system. Any potential changes to NMSA should be considered 
and made in the context of Sanctuary Act reauthorization, not through 
reauthorization of the Magnuson-Stevens Act.
The Sanctuary Program
    The National Marine Sanctuary Program serves as a trustee for a 
system of 13 marine sanctuaries and a coral reef reserve. These include 
New England's Stellwagen Bank, the U.S.S. Monitor off North Carolina, 
Gray's Reef off Georgia, the Florida Keys, Flower Garden Banks off 
Texas and Louisiana, Michigan's Thunder Bay, California's Channel 
Islands, Monterey Bay, Gulf of the Farallones, and Cordell Bank, 
Washington's Olympic Coast, Hawaii's Humpback Whale, American Samoa's 
Fagatele Bay National Marine Sanctuaries, and the Northwestern Hawaiian 
Islands Coral Reef Ecosystem Reserve. In order to be designated as a 
National Marine Sanctuary, NMSA requires that the Secretary of Commerce 
first determine that the area is of special national significance due 
to, among other things, its conservation, ecological, scientific, and 
educational qualities. Although the system currently encompasses less 
than 20,000 square miles, it contains some of our most unique and 
precious marine habitats.
The Legislation Would Undermine the Sanctuary Program
    H.R. 5018 states that no regulation concerning fish and fish 
habitat proposed under the Sanctuaries Act will take effect unless the 
Secretary certifies that the proposed regulations are consistent with 
the Magnuson Act's goals and requirements. This introduces a 
significant procedural roadblock to adoption of sanctuary-related 
regulations and puts the goals of the Magnuson-Stevens Act (fishery 
yield) above the goals of National Marine Sanctuaries (protection of 
special marine areas). This would effectively remove or greatly reduce 
the special protection mandate for national marine sanctuaries. 
Protection of the unique and valuable resources covered by the National 
Marine Sanctuaries system should not be impeded or compromised by 
making them subject to the requirements of the Magnuson-Stevens Act, 
which has another purpose entirely.
    By significantly impairing the ability of the Sanctuary Program to 
restrict or prohibit fishing within individual sanctuaries, Subsection 
10(d) would undermine this important, 34-year-old program.
Practical Experience Demonstrates the Current Approach Works
    Since its initial enactment, NMSA has provided the Fishery 
Management Councils (Councils) with adequate opportunities to 
participate in sanctuary designation processes, but their role was 
strengthened and made more explicit after much debate in the early 
1980s. The approach established under NMSA at that time to develop 
sanctuary-specific fishing regulations when and where necessary remains 
in place and reflects a carefully-crafted compromise. This compromise 
has been in place for more than two decades, is not broken, and does 
not need fixing at this time. As discussed below, it affords the 
Councils a full and fair opportunity to participate in the sanctuary 
designation process. At the same time, it ensures that the standards 
used to judge the adequacy of any draft regulations, including those 
impacting fishing, achieve the purposes of the Sanctuary Act and each 
sanctuary's goals and objectives.
    Under current law, the Councils can and often do play an active 
role in the initial designation and management of our national marine 
sanctuaries. NMSA specifically directs the Secretary to consult with 
Councils that may be affected by a proposed sanctuary designation. In 
addition, section 304(a)(5) of the Sanctuary Act requires that the 
Councils be given an opportunity to draft fishing regulations. 
Ultimately, however, the Secretary must decide whether or not those 
draft regulations fulfill the purposes and policies of the Sanctuary 
Act and of the particular sanctuary designation.
    For the 13 existing sanctuaries, the Secretary of Commerce has 
nearly always accepted draft sanctuary fishing regulations proposed by 
the Councils or, more frequently, their decision that sanctuary-
specific fishing regulations were not necessary. Consequently, 
sanctuary-specific fishing regulations remain rare. However, in some 
cases they are necessary in order to protect sanctuary resources. In 
the Florida Keys, NOAA worked collaboratively with two Councils, the 
State of Florida, and the National Park Service to develop sanctuary-
specific fishing regulations that all supported. Similarly, in 
California, NOAA has worked collaboratively with the State of 
California and the regional Council to develop a network of marine 
reserves for the Channel Islands and other California sanctuary-
specific fishing regulations. In California, it appears that much of 
what the Council has proposed will be approved, though the 
implementation mechanism for some of the regulations may be changed. 
The only instance in which the Secretary rejected a Council's 
recommendations occurred very recently with respect to the Northwestern 
Hawaiian Islands. In that case, the Secretary found that the draft 
fishing regulations prepared by the Western Pacific Fishery Management 
Council did not meet the Sanctuary Act's requirements.
    Once a sanctuary is established, the current approach ensures that 
the Councils play a vital role in determining how fisheries should be 
managed. If and when a disagreement arises, the Sanctuary Act gives the 
Secretary of Commerce ultimate decision-making authority. In cases when 
there has been a dispute, the NOAA Administrator has wisely exercised 
his discretion and judgment to make case-by-case determinations as to 
how fisheries should be managed within individual sanctuaries.
    Even if changes to the current approach were needed--which we 
dispute--we do not believe that this issue should be addressed in a 
bill to reauthorize the Magnuson-Stevens Act. Instead, the appropriate 
context to address this issue is reauthorization of NMSA, after 
Congress has had an opportunity to fully consider the unique role of 
sanctuaries in managing and conserving our nation's ocean ecosystems 
and resources.
    In conclusion, we urge you to reject this provision of H.R. 5018 
when it comes before the House Resources Committee. Thank you, in 
advance, for considering our views.
    Should you have questions or need further information, please 
contact Julia Hathaway of The Ocean Conservancy at 202-351-0456.

 
                          ,--                                                       ,
 
Carol Maehr, Conservation Chair
Monterey Bay Chapter
American Cetacean Society
 
April Bucksbaum
Executive Director
The Baum Foundation
 
Susanne Lawrenz-Miller, Ph.D.
Director
Cabrillo Marine Aquarium
 
Susan Jordan
Executive Director
California Coastal Protection Network
 
Linda L. Young
Director
Clean Water Network of Florida
 
Brian Huse
Executive Director
Coral Reef Alliance
 
Wm. Robert Irvin, Senior Vice President, Conservation
 Programs
Defenders of Wildlife
 
Stephanie Fried
Environmental Defense
 
Linda Hunter
Executive Director
Farallones Marine Sanctuary Association
 
Marion Hilliard
Government/Agency Liaison
Florida Federation of Garden Clubs, Inc.
 
D'Anne Albers
Executive Director
Friends of the Sea Otter
 
Linda Paul
Executive Director
Hawaii Audubon
 
Cha Smith
Executive Director, KAHEA:
The Hawaiian-Environmental Alliance
                                                         Bill Chandler
Marc Shargel                                             Vice President
Sealife Photographer                                     Marine Conservation Biology Institute
Lumigenic Media
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 

                                 ______
                                 
    [A statement submitted for the record by the Northwest 
Indian Fisheries Commission, follows:]

                Statement of Billy Frank Jr., Chairman, 
                 Northwest Indian Fisheries Commission

    Mr. Chairman, honorable members of the Committee, I appreciate the 
opportunity to provide written comment on this proposed legislation on 
behalf of the twenty treaty tribes in Western Washington that comprise 
the Northwest Indian Fisheries Commission.
    Our comments are focused on seven issues that bear on the 
reauthorization of the Magnuson-Stevens Act.
Tribal Seat
    We request that the sponsors of these bills consider including a 
modification to address an issue regarding the designated tribal seat 
on the Pacific Fishery Management Council. The tribal seat should be 
allowed designees, as are the other designated governmental seats. 
Currently, other government agencies represented on the Pacific Council 
do have designees for their seats. This is effective and useful because 
it allows individuals with specific expertise on regional or stock-
specific issues to be part of the Council deliberations. It also allows 
a representative to have a stand-in when workload demands the 
representative to attend ancillary meetings while the Council is in 
session.
Fishery Regulations in National Marine Sanctuaries
    We support the proposed modifications to require the Secretary of 
Commerce to review any regulation proposed under the National Marine 
Sanctuaries Act under the criteria and national standards within the 
Magnuson-Stevens Act. The Northwest tribes are concerned about the lack 
of specificity governing fishery regulation development under the 
National Marine Sanctuaries Act. We encourage additional language to 
ensure coordination with the affected regional councils as fishery or 
essential fish habitat regulations are being developed under National 
Marine Sanctuaries Act.
Harvest Levels
    We support the intent to require the development of a mechanism for 
specifying annual catch limits in fishery management plans. The annual 
federal fishery regulatory cycle would benefit from having a more open 
and transparent decision making process. However, the current language 
relies upon undefined terms (e.g., acceptable biological catch) and is 
vague on how this new requirement relates to a stock's maximum 
sustainable or optimum yield levels. Our suggestion is that the 
language be modified to provide a mechanism for specifying annual catch 
limits in fishery management plans based on the best scientific 
information available, and at a level that does not exceed the optimum 
or maximum sustainable yield identified for the stock.
Scientific and Statistical Committees
    We support strengthening the role of the Scientific and Statistical 
Committees (SSC) within the regional council process, but not to the 
extent that they become the final arbiter of ``acceptable biological 
catch.'' The setting of annual harvest limits is a policy decision, 
where social, economic and biological factors all must be considered. 
The regional fishery management councils already are required by law to 
use the best available science, but are also charged with making 
decisions regarding optimum yield. These decisions are bound by 
existing federal guidelines and constraints. The proposed modification 
would make the regional fishery management council's and tribal/state 
co-managers' decision making authority subservient to the SSC's 
decision processes, without guidance as to how allowable biological 
catches are to be determined. The perceived deficiencies in the current 
process could be remedied by the uniform application and enforcement of 
existing rules and procedures prescribed by the current language within 
the Magnuson-Stevens Act (e.g., the upper bound for the Total Allowable 
Catch or Optimal Yield cannot exceed Maximum Sustainable Yield, 
estimates which already are provided by the technical committees).
    The proposed specification of SSC membership needs to be expanded 
to include tribal employees. Fishery scientists under the employ of 
Northwest tribes have long served on the Pacific Fishery Management 
Council's SSC, as well as the Salmon Technical Team, Groundfish 
Management Team and the Habitat Committee. Tribal staff currently 
chairs the SSC and Habitat Committees of the Pacific Council. A strict 
interpretation of the proposed language in H.R. 5018 and H.R. 1431 
would prohibit future tribal staff participation and this should be 
avoided by modification of the proposed language.
    The Northwest tribes support the modification to establish stipend 
payments to members of the SSC who are not employed by the federal 
government or a state government agency. Consideration should be given 
to expanding stipend payments to cover all technical committees of the 
regional councils. Currently, only the state and federal agencies 
receive compensation for providing technical support. The Northwest 
tribes provide staff for all the Pacific Council's technical committees 
and only receive compensation for travel expenses. We would welcome 
this change.
Compliance with National Environmental Policy Act (NEPA)
    We support the determination that any fishery management plan, 
amendment to such a plan, or regulation to implement such a plan that 
is prepared in accordance with applicable provisions deemed to be in 
compliance with the NEPA. The streamlining of the current plan 
development and plan amendment process of the regional councils is long 
overdue. This determination must come with the establishment of a 
standard plan development and amendment process which incorporates the 
appropriate timelines for review and approval, as well as the necessary 
social, economic and environmental impact analysis.
Diminished Fisheries
    We support the proposal to replace the term ``overfished'' with one 
that better depicts a stock condition or abundance level that warrants 
further management consideration and action. The term overfished more 
often imparts the wrong connotation. Fishing is not always the sole 
cause of low or depleted stock abundance.
    The Northwest tribes also support the clarification that the term 
``overfishing'' refers to the rate or level of fishing mortality. 
However, it is a rate or level of fishing mortality that jeopardizes 
the capacity of a ``stock,'' not a ``fishery,'' to produce the maximum 
sustainable yield on a continuing basis. This clarification should be 
noted in the proposed language and we believe is more in keeping with 
the conservation intent of the Magnuson-Stevens Act.
Rebuilding Guideline
    We support the retention of the 10-year rebuilding guideline for 
stock recovery efforts. Deviations from the 10-year rebuilding time 
frame requirement are appropriate if the deviations are tied to the 
biological characteristics of the species. The proposed modifications 
are necessary as there should be an accounting for natural variability 
and the acknowledgment of the role that non-fishing factors have in the 
declines of stock abundance.
                                 ______
                                 
    [A statement submitted for the record by Sally McGee, 
Oceans Advocate, Environmental Defense, follows:]

              Statement of Sally McGee, Oceans Advocate, 
                         Environmental Defense

INTRODUCTION
    Thank you for inviting me to provide testimony on behalf of 
Environmental Defense's Oceans Program.
    Environmental Defense is a leading national nonprofit organization 
representing more than 400,000 members. Since 1967, we have linked 
science, economics and law to create innovative, equitable and cost-
effective solutions to society's most urgent environmental problems. 
Working in a concerted effort with business, government, and the 
public, we have set the following goals for our Oceans Program:
    <bullet>  Plentiful seafood from vibrant U.S. fisheries: Within 
five years, a minimum of three major domestic fisheries with a combined 
wholesale value of $300 to $400 million will be firmly on the road to 
recovery. Equally important, each fishery will function with strong 
economic incentives for conservation.
    <bullet>  Recovering coastal ecosystems: Restoration efforts in 
four river and reef systems, including the Louisiana delta, North 
Carolina's estuaries and Florida's reefs to enhance fishery production, 
bring life back to the ``dead zones,'' and serve as models for science-
based management innovations with local partners.
    <bullet>  Energized voices for ocean conservation: Powerful 
constituencies in business, ocean industries, and the public will 
engage with us in modernizing laws, policies and business practices to 
save our oceans.
    I am based in Mystic, Connecticut and work throughout New England, 
in support of sustainable marine fisheries. I am also a member of the 
New England Fishery Management Council (NEFMC), serving on the 
groundfish and sea scallop committees, as well as a joint bycatch 
committee with the Mid Atlantic Fishery Management Council. I chair the 
NEFMC's habitat committee which is currently developing an omnibus 
habitat amendment to update all fishery management plans in the region. 
I also hold a 100-ton U.S. Coast Guard merchant mariner's license, 
which I have put to use in New England, the Mid-Atlantic, Caribbean and 
north and south Pacific waters.
OPPORTUNITY
    There have been major advances under the 1996 amendments to the 
Magnuson-Stevens Fishery Conservation and Management Act (MSA) for 
conservation and management of fish stocks. The 1996 amendments helped 
New England begin down the path to recovery from decades of 
overfishing, leading to numerous severely depleted stocks. As a whole, 
the groundfish complex has significantly increased in biomass in recent 
years. However, individual species within that complex, like Gulf of 
Maine Cod still suffer from severe overfishing.
    The scallop resource has finally shown signs of stability after 
years of severe overfishing. By chance, groundfish closed areas had the 
unintended consequence of benefiting the scallop fishery as well. 
Scallop beds within the groundfish closed areas have had years to 
rebuild and are now managed under a rotational management scheme that 
allows higher yield per unit of effort as a result of closing areas 
long enough to allow the scallops to grow in highly productive areas to 
market size. However, a portion of the fishery remains open access, 
allowing significant increase in capitalization in the ``general 
category'' portion of the fishery. While the NEFMC has begun to address 
this added pressure to an important resource in the region, the 
Magnuson-Stevens Act does not require the council to do so. Hopefully, 
the region will see the benefits of conservative management, limit 
access to this open fishery and apply a fixed quota across the board in 
the scallop fishery. Because the Magnuson-Stevens Act currently does 
not require these actions, there is a continued threat to the 
sustainability of the most valuable fishery in the region. Relying on 
chance, unintended results of tangential management actions and input 
controls can no longer be the primary means of managing these public 
resources.
    Reauthorization of the Magnuson-Stevens Act provides a much needed 
opportunity to build on tenuous advances to end overfishing and rebuild 
stocks. Generally, Environmental Defense supports Congress's efforts to 
fully reauthorize and update the MSA. We have worked closely with the 
Senate to help improve S. 2012. We support S. 2012 because it maintains 
current protections and provides new tools to improve conservation and 
management of fisheries.
    I have been asked to comment on H.R. 5018 and H.R. 1431, bills that 
would amend the Magnuson-Stevens Act. I focus my detailed comments to 
areas within these bills that are especially important to Environmental 
Defense. On the whole, we support H.R. 1431 because it enhances the 
role of science in fisheries management and improves the regional 
fishery management councils. While there are several good provisions in 
H.R. 5018 that would help align economics and conservation, we cannot 
support this bill until rollbacks to key conservation and management 
measures are improved. As currently drafted, the benefits do not 
outweigh the costs.
ALIGNING ECONOMIC INCENTIVES WITH CONSERVATION
    <bullet>  Capacity Reduction
    Another important tool for aligning economics and conservation is 
providing incentives for reducing fishing capacity. H.R. 5018 includes 
provisions that authorize the Secretary of Commerce to conduct a 
fishing capacity reduction program that ensures a sustained reduction 
in capacity by requiring the vessels to be scrapped and the permits 
associated with vessels to be relinquished. Environmental Defense also 
supports the requirement in H.R. 5018 for a Secretarial report on the 
most severely overcapitalized fisheries in the U.S. with 
recommendations on ways to reduce capacity in these fisheries.
    <bullet>  Limited Access Privilege Programs (LAPPs)
    LAPPs--catch shares - have proven to be environmentally and 
economically effective in Alaska, British Columbia, and other regions 
of the world. Under this system, fishermen are allocated shares of the 
annual catch, which they can buy and sell with other fishermen.--Unlike 
government mandates limiting fishermen's flexibility, catch shares 
allow fishermen to work year-round when market and weather conditions 
are most advantageous. LAPPs help fishermen cut costs, improve the 
quality of their fish, maximize dockside prices and prevent the waste 
of millions of fish each year that must be discarded. Just as shares of 
a company become more valuable if the company is well-managed, 
fishermen's shares gain value when fish populations increase through a 
well managed fishery.--The fishermen now have a financial interest in 
conservation measures that protect the ocean.----
    The recent U.S. Commission on Ocean Policy recommended LAPPs as a 
key management tool. In September, the Administration explicitly called 
for doubling the existing number of these programs and establishing 
standards to govern their implementation.
    In order for these market-based tools to work and benefit both 
fishermen and the environment, they must be set up properly. Legal 
standards should provide the guidance to ensure that programs are fair 
and equitable, and consider important societal goals for the 
communities in which they operate, but also be flexible enough to allow 
regional, fishery, and other differences to be addressed. Environmental 
Defense has been working with other stakeholder groups and the fishery 
management councils in several regions around the country to help 
design appropriate LAPPs for many fisheries, including red snapper in 
the Gulf of Mexico and Pacific groundfish. A major lesson we have 
learned through this work is that there is no one size fits all 
approach for LAPPs.
    The New England Council has approved two harvesting cooperatives in 
the past three years--one for demersal longline gear and one for 
gillnetters. These groundfish ``coops'' include fishermen who 
voluntarily joined together and demanded a fixed quota for their 
portion of the groundfish fishery. Fixed quotas are an anomaly in the 
New England groundfish fishery. However, the fishermen who spearheaded 
these coops recognize that a fixed quota is a sure way to guarantee 
that overfishing does not occur, at least in their portion of the 
fishery. In exchange for adopting conservation based quotas, the coops 
were granted freedom from many of the regulations governing the rest of 
the groundfish fleet. Now, the coop fishermen are able to determine 
amongst themselves when they fish, how much they catch as a fleet and 
individuals (within the limits of the coop's quota) and how best to 
respond to market forces.
    The major limiting factor preventing these coops from being more 
effective is the fact that the rest of the groundfish fishery is still 
operating using input management measures including restricting the 
number of days fishermen can fish, trip limits on certain species, area 
restrictions, gear restrictions, and myriad other ways the Council has 
devised to hinder their efficiencies. Under these antiquated, overly 
complex and largely ineffective rules, fishermen outside the coops find 
ways to continue circumventing the intent of the rules, and thereby 
continue to overfish.
    Defining limited access privilege programs in legislation is a 
difficult--but important--balancing act, as the need for sufficient 
guidelines in program development to ensure proper design and execution 
should be balanced with the need for flexibility to encourage 
innovation and address diverse goals (e.g., regions, fisheries, 
sectors). H.R. 5018 includes dozens of national standards requiring 
that LAPPs meet conservation and safety goals, and includes some 
important design features that affect whether a system will be fair, 
equitable and promote good stewardship of our nation's fisheries. These 
features include methods for determining who gets initial allocations 
of catch shares, how shares can be traded and the nature of 
conservation and other safeguards.
    Environmental Defense is pleased that H.R. 5018 does not include a 
``sunset'' on LAPPs, which would require that all quota shares expire 
on a date certain. We fully recognize and agree that LAPPs should have 
accountability to ensure that they meet program goals and objectives of 
the MSA. However, a sunset would likely do more harm than good since it 
could have the perverse effect of undermining conservation and 
management objectives, by decreasing the willingness of privilege 
holders to make short to medium term sacrifices to restore stocks to 
healthy levels. Regional fishery management councils should have 
flexibility in determining an appropriate accountability mechanism of 
LAPPs that suits the biological and economic characteristics of the 
particular fishery.
    In order to ensure a competitive market and compliance with U.S. 
anti-trust laws, Environmental Defense suggests including a provision 
in H.R. 5018 that would establish a process overseen by the Department 
of Commerce, the Federal Trade Commission, and the Department of 
Justice for collecting information regarding activities of anti-
competition, anti-trust, price collusion or price fixing. Such a 
provision is currently included in the Senate Commerce Committee's 
bill, S. 2012.
    H.R. 5051 requires that before an individual fishing quota (IFQ) 
plan in the New England Council can be sent to the Secretary for 
approval, 2/3 of eligible participants voting in a referendum must have 
approved the plan. Environmental Defense is concerned that requiring a 
supermajority vote provides a disproportional voice to the minority and 
recommends changing the requirement to approval by a simple majority 
(50%) of eligible participants. While intended to protect small boat 
fishermen, this requirement would cut both ways and hurt them. For 
example, small boat fishermen may want to pass an IFQ program that 
addresses their concerns and suits their needs, but the large boat 
operators--even if in the minority--could stop the plan from being 
implemented.
    In addition, this could prevent the scallop fishery from pursuing a 
LAPP, even though it is in dire need of a more rational approach to 
management. Many limited access scallopers currently own more than one 
scalloper and permit, in part due to the input management measures 
designed to make the fleet inefficient enough to achieve the target 
Total Allowable Catch (TAC). Because their ``days-at-sea'' have been 
limited to less than 60 days in recent years, one boat remains tied to 
the dock while the other is at sea. Once one vessel expends all of its 
days the captain and crew move to the next boat. This waste of capital 
investment in multiple vessels, maintenance, insurance and other 
related expenses would be eliminated with an IFQ program.
    Environmental Defense commends the Committee for not authorizing 
processor quotas that set up a ``two pie'' system in which, much like a 
sharecropping system, a harvester's quota shares are tied directly to a 
processor's quota shares. Opposed by the States of Alaska and 
Washington, as well as the U.S. Department of Justice, such a system 
undermines important environmental, equity and economic objectives of a 
properly designed LAPP. Unfortunately, a proposal in the Senate--S. 
1549--would trump 3 years of work by the Pacific Fisheries Management 
Council to develop an appropriate catch share system for the groundfish 
fishery and would mandate a two-pie system for the Pacific hake or 
``whiting'' fishery on the West Coast. This could result in severe 
anticompetitive practices, limiting the markets for whiting fishermen 
and increasing current consolidation trends, possibly resulting in more 
hardships for fishermen in California, Oregon and Washington, as well 
as reducing opportunities for seafood processing companies currently 
not dominant in the whiting fishery. Implementing a ``two pie'' system 
on the west coast would set a very bad precedent for other fisheries 
across the country.
THE ROLE OF SCIENCE IN MANAGEMENT
    A key recommendation of the U.S. Commission on Ocean Policy in its 
report, entitled ``An Ocean Blueprint for the 21st Century,'' is to 
strengthen the role of science in fishery management. Specifically, the 
report recommended amending the Magnuson-Stevens Act to strengthen the 
role of the councils' Science and Statistical Committees (SSCs) and 
require the councils to conform their management decisions to the 
scientific determinations made by their SSCs. In addition, the report 
recommended that the Secretary of Commerce provide for an independent 
review of the scientific information relied on by the SSCs.
    Environmental Defense supports provisions in H.R. 1431 that 
strengthen the role of science in fishery management. These include: a) 
requiring the Secretary to appoint and compensate members of each 
council's SSC; b) requiring that SSC members must be qualified federal, 
state, academic, or independent scientists who have no financial 
interest in any fishery; c) requiring SSC members to have demonstrated 
scientific expertise in fisheries science or marine ecology; or 
economics or social science as it relates to fisheries management; d) 
requiring that each council's SSC include a fishery and marine science 
subcommittee that makes scientific determinations, including biological 
catch and bycatch limits; and e) requiring that these scientific 
determinations be subject to peer review periodically by qualified 
independent scientists. Drawing from the U.S. Commission's 
recommendations, the bill also requires councils to develop management 
measures that are consistent with the determinations made by the 
fisheries and marine science subcommittee, but may provide for greater 
conservation in order to meet management objectives.
    H.R. 5018 partially addresses some of the U.S. Commission's 
recommendations regarding strengthening the role of science in fishery 
management, but the bill could be strengthened. Environmental Defense 
supports including a provision that requires the councils to pay SSC 
members a stipend to ensure the participation of independent 
scientists. In addition, we support including detailed criteria for 
peer review, and allowing for comment from the public, not just the 
``regulated community'' in the peer review process.
    The U.S. Commission also recommended that fisheries be managed 
under science-based catch limits. Establishing catch limits with a 
meaningful system of accountability if those limits are exceeded is a 
key element to maintaining healthy fish populations and allowing 
depleted populations to rebuild. A catch limit is a maximum number of 
fish that are allowed to be caught within a certain timeframe. This 
type of system has proven successful in multispecies fisheries in other 
regions, such as Alaska and the West Coast, and can help protect 
species that are generally caught as bycatch in multispecies fisheries. 
Many of New England's chronically overfished fisheries currently lack 
this mechanism, and could substantially benefit if such changes were 
made.
    Environmental Defense is pleased that H.R. 5018 requires setting 
science-based catch limits that do not exceed acceptable biological 
yield. However, we are concerned that without an accountability 
mechanism for ensuring that the limits are adhered to, that many 
fisheries will continue to be business as usual: continued overfishing. 
We suggest including a provision that requires that any amount 
exceeding the catch limits be deducted from the next year's limit. Such 
an approach has been proposed in S. 2012 and H.R. 5051. In addition, 
without a definition in H.R. 5018 of acceptable biological yield, we 
are concerned that limits could bet set at levels exceeding maximum 
sustainable yield, and could jeopardize stocks.
WEAKENING CURRENT CONSERVATION AND MANAGEMENT MEASURES
    <bullet>  Delayed Rebuilding of Fisheries
    H.R. 5018 would significantly slow the restoration of our fisheries 
by undercutting a key conservation requirement in the Magnuson-Stevens 
Act--to rebuild overfished stocks. The bill would provide three new 
broad exceptions to the current requirements, which would lead to 
significant delays in rebuilding. Environmental Defense suggests 
removing this provision in order to maintain the conservation and 
management requirements gained in the 1996 Magnuson-Stevens Act 
amendments.
    <bullet>  Reduced Environmental Review
    The bill would also limit environmental review and public 
participation by circumventing the National Environmental Policy Act 
(NEPA) in fisheries management. NEPA is critical to ensuring the 
consideration of reasonable alternatives, direct, indirect and 
cumulative impacts of the proposed action and providing for public 
input and review of the environmental impacts of the decision. Other 
Magnuson-Stevens Act proposals, including one offered by the Bush 
Administration, address concerns that NEPA and Magnuson-Stevens Act 
processes be better integrated without fully exempting fisheries from 
the environmental review under NEPA.
    <bullet>  Fewer Protections for Special Ocean Areas
    H.R. 5018 also rolls back protections for special ocean areas. The 
bill would put the goals of Magnuson Stevens Act--fishery yield--above 
the goals set out for our national marine sanctuaries--our nation's 
marine parks. National marine sanctuaries are an important tool in 
protecting unique marine areas and recreational opportunities. Changes 
to the program would better be addressed through reauthorization of the 
National Marine Sanctuaries Act.
    <bullet>  Weakened Habitat Protections
    The essential value of rigorous coastal habitat protection to the 
future production of America's fisheries was clearly emphasized in the 
1996 amendments to the Magnuson-Stevens Act. This has been affirmed by 
hundreds of scientific research articles, before and since the almost 
unanimous consensus of both the commercial and recreational fishing 
communities, and throughout the final report of the U.S. Commission on 
Ocean Policy. For example, ``habitat areas of particular concern'' 
(HAPCs) are critical to our nation's economy: in South Florida alone, 
HAPCs such as coral reefs are alone documented to generate over US$ 2 
billion total sales and to support over 19,000 jobs annually (Hazen and 
Sawyer 2001). In addition, these areas are important for a wide variety 
of recreational activities. Sportsmen and conservationists have 
volunteered time and provided resources to assist in their restoration.
    H.R. 5018 contradicts this user-group, scientific, and policy 
consensus by statutorily redefining HAPCs--a subset of essential fish 
habitat (EFH) that is eligible for protections under the National 
Marine Fisheries Service EFH regulations. The new statutory definition 
is inconsistent with the regulatory definition because it does not 
include habitats that are threatened with development--a major 
criterion within the original HAPC definition and a long-term threat to 
many coastal fishery-based economies. Based on the overwhelming public 
and governmental interest in not degrading coastal habitats or 
fisheries, Environmental Defense recommends that the initial definition 
not be modified, or if so, amended definitions should be entirely 
consistent with the NMFS regulatory definition.
CONCLUSION
    The 1996 amendments to the Magnuson-Stevens Act made important 
advances for recovering healthy fish stocks. Environmental Defense 
looks to Members of the Committee to maintain these protections while 
providing updated tools for conservation and management, including 
catch shares and catch limits. H.R. 5018 includes some new tools, but 
also rolls back key conservation and management measures that could 
reduce the economic and social benefits that healthy fish stocks 
provide. We look forward to working with the Committee and others in 
the House of Representatives to achieve these goals.
                                 ______
                                 
    [A letter submitted for the record by Craig A. Pendleton, 
Coordinating Director, Northwest Atlantic Marine Alliance, 
follows:]
[GRAPHIC] [TIFF OMITTED] 27314.004

[GRAPHIC] [TIFF OMITTED] 27314.005

[GRAPHIC] [TIFF OMITTED] 27314.006

[GRAPHIC] [TIFF OMITTED] 27314.007

    [A letter submitted for the record by Roger T. Rufe, 
President, The Ocean Conservancy, and Elliott A. Norse, 
President, Marine Conservation Biology Institute, follows:]
[GRAPHIC] [TIFF OMITTED] 27314.008

[GRAPHIC] [TIFF OMITTED] 27314.009

                                 <all>

</pre></body></html>
